                                                                                                                sigar
   SIGAR




                                    SIGAR | Quarterly Report to the United States Congress | OCTOBER 30, 2012
   Special Inspector General
   for Afghanistan Reconstruction
                                                                                                                                 Special Inspector General for    OCT 30
                                                                                                                                 Afghanistan Reconstruction        2012
   2530 Crystal Drive
   Arlington, VA 22202

   www.sigar.mil




                                                                                                                 Quarterly Report to the United States Congress




                                    4

FINAL_Cover_October12.indd 1                                                                                                                                         10/16/2012 11:51:57 AM
                               The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                               established the Special Inspector General for Afghanistan
                               Reconstruction (SIGAR).
                               SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                               independent and objective
                               •	 conduct and supervision of audits and investigations relating to the programs
                                  and operations funded with amounts appropriated or otherwise made available
                                  for the reconstruction of Afghanistan.
                               •	 leadership and coordination of, and recommendations on, policies designed
                                  to promote economy, efficiency, and effectiveness in the administration of the
                                  programs and operations, and to prevent and detect waste, fraud, and abuse
                                  in such programs and operations.
                               •	 means of keeping the Secretary of State and the Secretary of Defense fully
                                  and currently informed about problems and deficiencies relating to the
                                  administration of such programs and operation and the necessity for and
                                  progress on corrective action.
                               Afghanistan reconstruction includes any major contract, grant, agreement,
                               or other funding mechanism entered into by any department or agency of the
                               U.S. government that involves the use of amounts appropriated or otherwise made
                               available for the reconstruction of Afghanistan.

                               Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                               (For a list of the congressionally mandated contents of this report, see Section 3.)




                               Cover photo:
                               A U.S.soldier with the Nagarhar Agribusiness Development Team walks to his truck to prepare for a   An Afghan girl in the Nawa-I-Barakzayi District of Afghanistan’s Helmand River Valley watches U.S Marines
                               mission in support of Afghan agricultural productivity. (U.S. Army photo)                           conducting a route assessment. (U.S. Marine Corps photo)




FINAL_Cover_October12.indd 2                                                                                                                                                                                                                   10/16/2012 11:51:59 AM
                            SPECIAL INSPECTOR GENERAL             FOR

                            AFGHANISTAN RECONSTRUCTION



I am pleased to submit SIGAR’s quarterly report to Congress on the status of the U.S.
reconstruction effort in Afghanistan. When I took on the duties of Special Inspector
General for Afghanistan Reconstruction in July, I promised faster, smarter, and more
aggressive oversight of the nearly $90 billion that Congress has provided since 2002 to
rebuild Afghanistan.
   This quarterly report to Congress demonstrates how SIGAR is delivering on that promise.
   SIGAR took steps this quarter to boost our work tempo and sharpen our focus on the
most important programs and problems. We issued 11 written products—the most ever in a
quarter since SIGAR’s formation. These products include audits, inspections, Congressional
testimony, alert letters, and an investigative report to implementing agencies. Our goal:
to inform U.S. government agencies and Congress in real time about problems that either
threaten reconstruction progress or that endanger American lives and expose taxpayer dol-
lars to waste, fraud, and abuse.
   Our audit, inspection, and investigative work this quarter was concentrated in three
critical areas: the logistics capability of the Afghan National Army (ANA); the construction
quality and sustainability of Afghan security force facilities; and the use of suspensions and
debarments to prevent poorly performing and corrupt contractors, including those tied to
insurgent and terrorist networks, from winning U.S.-funded reconstruction contracts.

SIGAR Highlighted Problems with DoD’s System for
Accounting for Fuel Provided to the ANA
In September, SIGAR alerted the Department of Defense (DoD) and Congress that it had
identified a serious lack of accountability in the U.S. program to provide fuel to the ANA.
We also issued an audit report that found DoD:
 •	 could not accurately account for $1.1 billion in fuel provided for the ANA;
 •	 lacked complete records for fuel ordered, purchased, delivered, and consumed; and
 •	 had no reasonable basis for estimating ANA fuel needs.
During two appearances before the House Committee on Oversight and Government Reform’s
Subcommittee on National Security, Homeland Defense, and Foreign Operations, I testified
that these findings were particularly disturbing because in January 2013, the United States and
NATO plan to increase spending on fuel for the Afghan army and to transfer U.S. funds directly
to the Afghans to purchase fuel themselves—a program that would cost more than $2.8 billion
over the next six years. As a result of SIGAR’s audit work, the chairman and ranking member
of the subcommittee have cosponsored legislation that would prohibit DoD from providing
funds directly or indirectly to the Afghan government to purchase petroleum products unless
SIGAR and the Secretary of Defense certify to Congress that the government of Afghanistan
has strict accounting and oversight measures in place.

SIGAR Investigated IED Threat to U.S. Forces
on a Major Afghanistan Highway
In October, SIGAR issued an alert letter to the Commander, U.S. Central Command and
the Commander, International Security Assistance Force/U.S. Forces-Afghanistan regard-
ing potentially significant contract fraud in the installation and inspection of culvert denial



                           2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
systems designed to prevent access to roadway culverts by insurgents. Based on concerns
shared with SIGAR by military personnel, we estimated that a large number of culvert denial
systems might have been falsely reported by Afghan contractors as complete when, in fact,
the denial systems were not installed or were installed in a defective manner, rendering them
ineffective and susceptible to compromise by insurgents seeking to emplace improvised
explosive devices (IED). We issued the letter to ensure that all relevant personnel would be
notified and so that immediate action could be taken to protect U.S. forces in Afghanistan.
This case exemplifies the benefits of cooperation between the military and SIGAR.

SIGAR’s Audits and Inspections Identified Infrastructure Problems
SIGAR’s audit of an $800 million contract for operations-and-maintenance support for
Afghan security force facilities raised grave questions about Afghanistan’s ability to sustain
these facilities after 2014. Our inspections of ANA garrisons and a police training center
identified numerous deficiencies, including structural failures, improper grading, sinkholes,
inadequate drainage, improper electrical grounding, and lack of maintenance.
   We recommended that the U.S. Army Corps of Engineers (USACE), which managed
these contracts, hold the contractors responsible for correcting these serious problems.

SIGAR Continued Efforts to Prevent Bad Contractors from
Winning Government Contracts
SIGAR’s work this quarter has had impact in other areas. We referred 60 individuals and
companies to implementing agencies for suspension or debarment, bringing the total num-
ber of referrals since we began this program two years ago to 206. These referrals included
43 individuals and companies identified as having actively supported insurgent groups,
such as the Haqqani Network opposing U.S. and Coalition forces in Afghanistan. SIGAR’s
referrals have resulted in 41 suspensions, 85 proposals for debarment, and 46 finalized
debarments of individuals and companies involved in waste, fraud, and abuse related to
U.S.-funded reconstruction projects.
   SIGAR is currently seeking the independent authority to suspend and debar contrac-
tors for misconduct. Nearly a year ago, SIGAR submitted a draft regulation to the Office of
Management and Budget (OMB) that would permit SIGAR to implement its own suspension
and debarment program. Obtaining this authority is imperative. As I have testified, referring
cases to other federal agencies often delays action. It has taken an average of 323 days for
implementing agencies to act on our referrals. These delays are unacceptable, especially in
a conflict zone. Bad contractors can imperil lives, as well as waste money. For example, we
discovered this quarter that Afghan contractors failed to install and inspect metal grates they
had been paid to install to keep insurgents from planting IEDs inside culverts along a major
highway in Afghanistan. I have written to OMB and lawmakers to reinforce SIGAR’s request
for the needed authority to quickly exclude suspect contractors from participating in U.S.-
funded reconstruction work.

SIGAR Instituted New Initiatives To Provide More Timely Reports
SIGAR is not only acting, but listening. During the summer, I visited Afghanistan and met
with senior civilian and military leaders in Kabul and in the provinces. There, and in my
numerous meetings with government officials and members of Congress in Washington,
D.C., I heard their concerns about security, corruption, and sustaining reconstruction gains
after the transition. U.S. officials in Afghanistan and Washington asked us to help them
identify problems and propose solutions before the money is spent. We have taken that
request to heart and will continue to expand our use of alert letters, testimony, and special



                          2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
reports to provide timely and actionable information even as the painstaking work of for-
mal audits and investigations proceeds.
   In addition, SIGAR is forming a rapid-response team of auditors, investigators, analysts,
attorneys, and other specialists to examine issues brought to our attention and to provide
prompt, actionable reports to federal agencies and Congress. This initiative will be led by
an experienced auditor who oversaw SIGAR’s forward operations for the last three years in
Afghanistan.

Looking Forward
SIGAR auditors and investigators are working jointly to respond to critical issues
quickly. For example, in early October, a military assessment team recommended
that General John Allen, Commander of the International Security Assistance Force-
Afghanistan, ask SIGAR to investigate what has happened to about $230 million
in missing repair parts ordered for the Afghan army. We immediately launched an
investigation and announced we will audit DoD’s procurement and management of
equipment-repair parts for the ANA. With 474 of 500 shipping containers unaccounted
for, the military assessment team said that management failure also led to reorders of
another $136 million of repair parts.
   The equipment-parts audit is one of seven new audits and three new inspections begun
this quarter. They will examine a broad mix of contracts and programs intended to build a
sustainable Afghan government capable of providing for its own security. In addition, SIGAR
formally launched its financial audit program. The program will begin with 11 incurred-cost
audits of contracts and grants totaling $913 million in auditable costs. Financial audits are
an important tool we can use to ensure taxpayer dollars are spent wisely and recoup those
dollars that are not.
   During this reporting period, SIGAR grew its staff to 175 full-time employees and
expanded its presence in Afghanistan. We opened an office in Mazar-e-Sharif, extending
SIGAR’s reach in Afghanistan to seven locations—an important advantage for oversight,
given the shrinking availability of military transportation in country.
   As I have said before, the stakes are high, and time is of the essence. A successful
transition to Afghan control in two years depends heavily on successfully executing recon-
struction programs to strengthen Afghan security forces, build governing capacity, and
spur economic development. Failure would be not only another calamity for the war-weary
people of Afghanistan, but an opportunity for terrorist groups to rebuild strongholds and
once again use Afghanistan to plot attacks against the United States.
   We are leveraging our analytical and investigative resources to provide the timely oversight
needed to protect the U.S. investment in the largest reconstruction program the United States
has ever undertaken in a single country. I and all of the SIGAR staff look forward to continuing
to work with Congress and the various agencies operating in Afghanistan to safeguard public
funds and help the United States achieve its reconstruction objectives in Afghanistan.

  Respectfully,




  John F. Sopko
  Special Inspector General for Afghanistan Reconstruction



                           2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
TABLE OF CONTENTS




     SECTION 1
     	 3	 AFGHANISTAN OVERVIEW
     	 5	   U.S. Surge Troops Withdrawn as Transition Proceeds
     	6	    NATO/ISAF Developing Strategy to Maintain Support
            for the ANSF
     	9	    Supply Shipments Through Pakistan Resume
     	9	    Peace Talks Stalled
     	10	   Karzai Issues Anti-Corruption Decree
     	11	   U.S.-Afghan Bilateral Commission Begins Work
     	11	   Asian Development Bank Updates Afghan
            Economic Outlook
     	12	   United States, NATO Announce New Officials
            in Afghanistan




     SECTION 2
     	15	 SIGAR OVERSIGHT ACTIVITIES
     	18	 SIGAR Testifies on the Lack of Accountability
          for Fuel Purchases
     	21	 SIGAR’s Work Prompts Proposed Legislation
     	22	 Sopko Meets with Top Officials, Staff in Afghanistan
     	22	 SIGAR Receives Two Awards for Excellence
     	23	 Special Initiatives
     	25	 Alert Letters
     	26	Audits
     	37	Inspections
     	42	Investigations
     	52	 SIGAR Budget
     	53	 SIGAR Staff



     SECTION 3
     	55	 RECONSTRUCTION UPDATE
     	60	 Status of Funds
     	74	 Quarterly Highlight
     	76	Security
     	100	Governance
      	126	 Economic and Social Development
TABLE OF CONTENTS




      SECTION 4
      	153	 OTHER AGENCY OVERSIGHT
      	 55	 Completed Oversight Activities
      1
      	164	 Ongoing Oversight Activities




      APPENDICES & ENDNOTES
      	174	 Appendix A:	 Cross-Reference of Report
                		 to Statutory Requirements
       	182	 Appendix B:	 U.S. Funds for Afghanistan
                		Reconstruction
        	184	 Appendix C:	 SIGAR Audits
         	187	 Appendix D:	 SIGAR Investigations and Hotline
          	190	 Appendix E:	 Abbreviations and Acronyms
           	194	Endnotes
“We’ve come too far, we’ve fought too
many battles, we’ve spilled too much
    blood, not to finish the job.”
        —Secretary of Defense Leon Panetta




         Source: DoD, Secretary of Defense Leon Panetta, Statement to NATO Defense Ministers, October 10, 2012.
1   AFGHANISTAN
    OVERVIEW




        3
                                                 CONTENTS

                                                 U.S. Surge Troops Withdrawn
                                                 as Transition Proceeds	                  5
                                                 NATO/ISAF Developing Strategy to
                                                 Maintain Support for the ANSF	           6
                                                 Supply Shipments Through
                                                 Pakistan Resume	                         9
                                                 Peace Talks Stalled	                     9
                                                 Karzai Issues Anti-Corruption Decree 	   10
                                                 U.S.-Afghan Bilateral Commission
                                                 Begins Work	                             11
                                                 Asian Development Bank Updates
                                                 Afghan Economic Outlook	                 11
                                                 United States, NATO Announce
                                                 New Officials in Afghanistan	            12




Photo on previous page
Soldiers from the U.S. 82nd Airborne Division, the Afghan
National Police, and the Afghan National Army assemble
for a recognition ceremony for their security, military, and
humanitarian operations in Ghazni Province, Afghanistan.
(U.S. Navy photo)




                                                     4
                     AFGHANISTAN OVERVIEW




AFGHANISTAN OVERVIEW
Military and political developments have dominated news from Afghanistan
since SIGAR’s last report to Congress, with broad implications for the future
of the U.S.-led reconstruction effort. The reporting quarter saw the end of
the 30,000-strong American troop surge ordered in 2009, a rise in “insider” or
“green-on-blue” attacks resulting in a temporary suspension of coalition train-
ing of Afghan security units, and the resumption of overland supply routes
from Pakistan. The U.S. senior civilian and military leadership continued to
develop plans to transfer reconstruction projects to the Afghan government.
Meanwhile, the United States and North Atlantic Treaty Organization (NATO)
posted new senior personnel to Afghanistan to represent their interests as the
international community transitions responsibility to the Afghan government
to secure the country and sustain economic development.
   As discussed below, several developments in the quarter underscore
the difficulties of achieving U.S. and coalition reconstruction objectives
in Afghanistan.


U.S. SURGE TROOPS WITHDRAWN
AS TRANSITION PROCEEDS
In September 2012, the United States completed its withdrawal of the
30,000-troop increase ordered by President Obama in 2009. The draw-
down reduced the U.S. military presence in Afghanistan to approximately
76,000 personnel. That number will continue to decline as the year-end 2014
target for full withdrawal of U.S. combat forces approaches.
   As the surge came to an end, General Martin E. Dempsey, Chairman of
the Joint Chiefs of Staff, said it had bought the coalition “time to push back
on some Taliban initiatives” and “some space to grow the Afghan secu-
rity forces.”1 The U.S. reconstruction effort has concentrated heavily on
building the Afghan National Army (ANA) and the Afghan National Police
(ANP). Since 2002, Congress has provided more than $51 billion—more
than half of the approximately $89 billion appropriated for the reconstruc-
tion of Afghanistan—to build the Afghan National Security Forces (ANSF).
Nearly $37 billion, or about 72% of total funding for the ANSF, was appropri-
ated from FY 2009, when President Obama announced the surge, through




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012               5
                                             AFGHANISTAN OVERVIEW




                                             FY 2012. The President has asked for an additional $5.7 billion to support
                                             the ANSF for FY 2013.
                                                During this reporting period, the Combined Security Transition
                                             Command-Afghanistan (CSTC-A), which is responsible for training, equip-
                                             ping, basing, and sustaining the ANSF, reported that the combined end
                                             strength of the ANA and the ANP is approaching the ANSF’s goal of 352,000.
                                             The United States strategy in Afghanistan depends on these forces being
                                             able to provide their country’s security after 2014.
                                                Because of the large amounts of money that the United States has appro-
                                             priated to build the ANSF, and because of the critical importance of the army
                                             and police to the future of Afghanistan, SIGAR is conducting a number of
                                             audits and inspections to assess the extent to which U.S.-funded programs
                                             have built a sustainable ANA and ANP. This quarter, SIGAR published two
                                             audits and three inspection reports that found 1) CSTC-A could not fully
                                             account for $1.1 billion used to purchase fuel for the ANA, and 2) the ANA
                                             and the ANP do not have the capacity to operate and maintain garrisons and
                                             training centers built for them. SIGAR is conducting five other audits related
                                             to the ANSF. The audits are examining construction projects, evaluating
                                             CSTC-A’s oversight of contracts for vehicle maintenance and repair parts,
                                             and examining the ANP’s capacity to purchase, deliver, and account for
Special Inspector General John F. Sopko
examines heavy military vehicles at Bagram
                                             petroleum products. SIGAR initiated the ANP audit after identifying a num-
Airfield during his August 2012 trip to      ber of problems with the ANA’s ability to manage, track, and account for fuel
Afghanistan. (SIGAR photo)                   purchases (see Section 2 of this report for details of these audits and inspec-
                                             tions and Section 3 for more details on the U.S. effort to develop the ANSF).


                                             NATO/ISAF DEVELOPING STRATEGY TO MAINTAIN
                                             SUPPORT FOR THE ANSF
                                             The transition of security responsibility to the ANSF continued during this
                                             reporting period. The NATO-led International Security Assistance Force
                                             (ISAF) began the process of shifting territory in tranches to ANSF control
                                             more than a year ago. By the end of September 2012, 75% of the Afghan
                                             population lived in the cities, provinces, and districts in transition. While
                                             U.S. officials say security has not declined appreciably in these areas, they
                                             also note that the transition began in the safest parts of the country. The
                                             United States and its coalition partners recognize that deteriorating security
                                             would jeopardize the entire reconstruction effort.
                                                During this reporting period, Secretary of Defense Leon Panetta told
                                             NATO Defense Ministers that the alliance must do everything it can to
                                             ensure the long-term success of the ANSF. He urged a three-pronged
                                             strategy to:
                                             •	 maintain a strong coalition partnership with Afghan forces,
                                             •	 mount an effective response to insider attacks, and
                                             •	 manage a careful evolution of the campaign through 2014.




                                                6                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                       AFGHANISTAN OVERVIEW




Secretary of Defense Leon Panetta, center, speaks at a Brussels press conference in
October 2012 to announce the appointment of General Joseph Dunford (far right) as
Commander, International Security Assistance Force-Afghanistan, succeeding General
John Allen (far left). Both are U.S. Marines. Allen was nominated as Supreme Allied
Commander, Europe, to succeed U.S. Navy Admiral James Stavridis, at Panetta’s left.
NATO Secretary General Anders Fogh Rasmussen stands at Panetta’s right. (DoD photo)



Strengthening the Partnership with the ANSF
On October 10, 2012, Secretary of Defense Leon Panetta addressed a meet-
ing of defense ministers from NATO countries, urging them to support a
new Security Force Assistance Team model to continue building ANSF
capabilities. NATO/ISAF is embedding trainers and mentors with the ANA
and ANP for longer rotations to “assist them as they take the security lead.”
Secretary Panetta said NATO should lengthen the amount of time train-
ers spent with ANA and ANP units to develop “longer-term relationships
between ISAF members and Afghan training institutions.”2
   According to NATO, 465 teams of embedded mentors and trainers are
working with Afghan military and police units; Panetta called on NATO
partners to supply personnel to fill more than 50 additional teams.3

Responding to Insider Attacks
During this reporting period, “insider” or “green-on-blue” attacks by ANSF
personnel against U.S. and other coalition forces increased, raising fears
about the training and mentoring of Afghan soldiers and police. Since the
beginning of 2012, 37 insider attacks have claimed the lives of 51 coalition
personnel, including 32 Americans. Other lethal attacks have occurred within
the ranks of the ANA and ANP, sometimes reflecting ethnic animosities.
   The attacks generated widespread media coverage and public comment,
causing concern about the pace of progress toward the scheduled hand-off




REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2012                  7
AFGHANISTAN OVERVIEW




of full security responsibilities to the Afghan government. The NATO/ISAF
command initially responded to the threat of insider attacks by requiring
coalition personnel to carry loaded weapons at all times and temporarily
suspending U.S. Special Forces Command’s training of Afghan Local Police.
For its part, the Afghan government launched investigations and began re-
vetting personnel. General Zahir Amini, spokesman for the Afghan Ministry
of Defense, said that the new measures led to the arrest or the expulsion of
hundreds of people from the ANA.4
   By October 2012, NATO/ISAF had developed a plan to diminish the threat
of insider attacks. It included the following elements:5
•	 enhanced training that emphasizes cultural awareness, counter-
    intelligence techniques, vigilance, and real-time information sharing
•	 implementation of a “guardian angel” program, in which one or more
    coalition force members remain armed and ready when working with
    ANSF counterparts
•	 expansion of vetting and counter-intelligence operations
•	 continuous efforts to analyze attack patterns

Careful Planning Needed as the Transition Evolves
Secretary Panetta said the key challenge confronting the coalition is to
plan a smooth transition that leaves the ANSF capable of providing for
Afghanistan’s security. He said the post-2014 size and composition of ISAF
forces in Afghanistan is not yet settled, but that 2013 will see the coalition
operating from fewer bases, a net outflow of materiel from Afghanistan,
reduced U.S. scale of enabler support, and continued “stepping back” of
international forces as Afghans take on more responsibility.6
   As discussed in the Security section of this report, transition plan-
ning also includes an evolution and eventual phase-out of the coalition’s
Provincial Reconstruction Teams (PRTs) and District Support Teams
(DSTs), which have been backing reconstruction efforts at the provincial
and district levels. Twenty-five countries provide direct or indirect sup-
port to PRT and DST operations, including the United States, the United
Kingdom, Germany, Poland, Italy, and Japan. By the end of the transition
process, all PRTs will have handed over their functions to the Afghan gov-
ernment, development agencies and non-governmental organizations, or to
the private sector.7 NATO/ISAF have already begun closing PRTs and DSTs
in the more secure provinces.
   The diminishing coalition presence presents two challenges for the
reconstruction effort. Without the PRTs, it will become more difficult for
U.S. agencies to implement and monitor projects at the provincial and
local levels. The NATO/ISAF troops have provided security for both the
PRTs and officials traveling outside of Kabul. With dwindling forces it is
likely to become harder for SIGAR and other oversight agencies to visit
and assess projects.




   8                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                     AFGHANISTAN OVERVIEW




   As they did in Iraq, the U.S. civilian and military planning teams are
reviewing hundreds of military functions and tasks and reconstruction
projects to determine which should be handed over to the Afghan govern-
ment, transferred to the U.S. Embassy, or terminated. SIGAR will closely
monitor the transfer of reconstruction projects. The agency is already
conducting one audit that is assessing whether base construction require-
ments and transition procedures for the ANSF are following acceptable
contract procedures, and whether facilities are designed to minimize
future sustainment costs.


SUPPLY SHIPMENTS THROUGH PAKISTAN RESUME
Pakistan’s November 2011 suspension of transit rights for NATO supply
convoys bound for Afghanistan ended in July 2012, after the United States
apologized for air strikes that unintentionally killed 24 Pakistani soldiers.
The resumption of convoy traffic reduced the cost and complications of
moving supplies into Afghanistan by air or by roads from its northern neigh-
bors, Kazakhstan, Kyrgyzstan, and Uzbekistan. At $1,250 per vehicle, those
countries were reportedly charging at least five times the Pakistanis’ fee
before the suspension.8
   While the re-opening of the border between Afghanistan and Pakistan
was a welcome development, insurgents have been known to charge pro-
tection money to guarantee safe passage of goods traveling from Pakistan
through insecure areas. A Taliban commander told the media that with the
supply routes re-opened, the insurgents will be able “to make money in bun-
dles” by extorting protection payments from trucking companies carrying
the supplies. The Congress has long been concerned that insurgents have
been collecting fees for protecting supply convoys. In the FY 2012 National
Defense Authorization Act, the Congress prohibits contracting with the
enemy. This quarter, SIGAR began an audit to determine whether the United
States Central Command and its contractors are fully complying with estab-
lished contracting policies and procedures. This audit will also assess the
extent to which the Department of State and USAID have established poli-
cies and procedures to prevent contract awards from funding persons or
entities identified as actively supporting the insurgency or opposing U.S. or
coalition forces.


PEACE TALKS STALLED
The Afghan government has made reaching a peace agreement with the
Taliban a top national priority because it does not believe that it can defeat
the insurgents through military action alone. In his speech to the UN
General Assembly on September 25, President Karzai asked the UN Security
Council to remove more members of the Taliban from its sanctions list to




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012             9
AFGHANISTAN OVERVIEW




facilitate direct negotiations. He reiterated his offer to extend a hand of
peace, not only to the Taliban but also to all other armed opposition groups
“who wish to return to dignified, peaceful, and independent lives in their
own homeland” as long as the militants ended violence, cut ties with ter-
rorist networks, preserved the gains of the last decade, and respected the
Afghan constitution.9
   President Karzai’s request to delist additional members of the Taliban
comes at a time when the peace negotiations have stalled. Talks in Qatar
between the U.S. and Afghan governments and Taliban broke off in
March 2012 when the United States would not agree to free five Taliban
prisoners held at the U.S. naval base in Guantanamo Bay, Cuba, in exchange
for release of an American sergeant held by the Taliban. The U.S. govern-
ment has issued no official public statement on the status of the negotiations
effort, but a State Department spokesman said on October 3, “The Taliban
have not been interested in coming to the table for some time.”10


KARZAI ISSUES ANTI-CORRUPTION DECREE
Pervasive corruption in Afghan public life is widely seen as a major obstacle
to reform, development, stability, and growth for the country. The 70-nation
international donors’ conference held in Tokyo in July 2012 explicitly linked
Afghan progress against corruption to the continuation of foreign aid.
Saying “governance has a direct bearing on development performance,” the
Mutual Accountability Framework adopted at the conference called on the
Afghan government to improve governance, rule of law, and human rights.
It urged the Afghan government to “enact and enforce the legal framework
for fighting corruption.” Such a framework would include “annual asset dec-
larations of senior public officials including the executive, legislative and
judiciary,” and “strengthening counter-narcotics efforts.”11 Commitments to
the Framework require that both the Afghan government and the interna-
tional donor community monitor Afghanistan’s performance.
    President Karzai responded at the end of July with a presidential decree
intended to improve governance and reduce corruption. The 23-page
decree, subject to parliamentary review, calls for, among other things:
 •	 government officials to refrain from naming relatives or friends to
    government positions or trying to influence appointing officials,
 •	 the Afghan Supreme Court to finalize its corruption cases,
 •	 all inactive courts to be fully operational within nine months, and
 •	 the army and police to report appointments and promotions to the
    president’s office.

  State Department officials told SIGAR the decree’s linkage to the
Tokyo framework gave focus and sense of urgency to a reform agenda.
Recognizing that the reconstruction effort cannot succeed unless the




  10                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                     AFGHANISTAN OVERVIEW




Afghan government takes serious steps to deter corruption, SIGAR will be
paying close attention to the implementation of President Karzai’s decree.
   The United States and other international donors have pledged to pro-
vide 50% of their future assistance directly through the Afghan budget, but
providing this aid will depend on the Afghan government’s ability to assure
donors that it can fully account for the funds. Failure to tackle corruption
puts at risk foreign aid upon which Afghanistan depends.
   SIGAR began two audits this quarter that will assess two issues related
to corruption: currency flows at the Kabul International Airport, and
direct assistance that the United States is giving Afghanistan’s Ministry of
Public Health.


U.S.-AFGHAN BILATERAL COMMISSION BEGINS WORK
The U.S.-Afghanistan Bilateral Commission held its first meeting in
Washington, D.C., on October 3, 2012. The Commission was established
after Presidents Barack Obama and Hamid Karzai signed the Enduring
Strategic Partnership Agreement in May 2012. This agreement laid the
foundation for a relationship between the United States and Afghanistan
following the withdrawal of most of the U.S. troops, but did not specifically
address the post-2014 U.S. military presence in Afghanistan.
   Secretary of State Hillary Rodham Clinton told the Commission its
work would produce “specific steps that we can take together” to achieve
the aims of the Agreement.12 These include sustaining the Afghan secu-
rity forces, funding economic development programs, promoting good
governance, supporting regional security and cooperation, and help-
ing Afghanistan deal with its budget shortfall. The discussions are also
expected to produce a new bilateral agreement to define security arrange-
ments after the U.S. combat presence ends in 2014. It would replace the
current Status of Forces Agreement.
   Delegations to the Commission meetings will be led by Ambassador
James Warlick, the U.S. Deputy Special Representative for Afghanistan
and Pakistan, and Ambassador Eklil Ahmad Hakimi, Afghanistan’s envoy
to the United States.


ASIAN DEVELOPMENT BANK UPDATES
AFGHAN ECONOMIC OUTLOOK
In an October 2012 update on Afghanistan, the Asian Development Bank
(ADB) underscored the economic challenges facing Afghanistan. The ADB
said economic growth slowed to 5.7% in the Afghan fiscal year ending in
March 2012. It attributed the slowdown to the impact of drought on agri-
cultural exports. Although the ADB projects higher growth in the current
fiscal year and in FY 2013, it predicted future growth will still occur at a




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012             11
AFGHANISTAN OVERVIEW




lower rate than in recent years because of weaker exports and the draw-
down in foreign military forces. In a separate commentary, ADB President
Haruhiku Kuroda said that because of its strategic location “a stable
Afghanistan could potentially attract billions of dollars worth of trade.”
However, he noted that continued foreign-donor support “will be pivotal
in Afghanistan’s efforts to build sustainable commercial infrastructure and
grapple with weak governance, rampant gender inequality, few jobs, and
endemic poverty.”13 The ADB report reflects broad international concern
that Afghanistan cannot generate the economic growth required to sustain
the reconstruction effort in the near term.


UNITED STATES, NATO ANNOUNCE NEW OFFICIALS
IN AFGHANISTAN
Veteran diplomat James B. Cunningham was sworn in as U.S. Ambassador
to Afghanistan on August 12, 2012, after nomination by President Obama
and confirmation by the Senate. Formerly Deputy Ambassador in Kabul, he
succeeds Ambassador Ryan Crocker. Cunningham’s previous posts have
included Israel, Hong Kong, Italy, the United Nations (UN), and NATO.14 The
new Ambassador met with Special Inspector General John F. Sopko and
SIGAR staff at the Kabul Embassy in late August to discuss issues and chal-
lenges in Afghanistan.
   At an embassy event commemorating the terror attacks of September 11,
2001, Cunningham said, “We have made significant progress toward




James Cunningham, left, is sworn in as U.S. Ambassador to Afghanistan on
August 12, 2012. Formerly Deputy Ambassador, he succeeded Ambassador Ryan
Crocker. (Department of State photo)




  12                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                     AFGHANISTAN OVERVIEW




defeating al-Qaida, transitioning security responsibility to Afghan forces,
and denying extremists a safe-haven from which to threaten the United
States… And we are building a partnership with Afghanistan that will
endure far into the future.”15
   Also in August, NATO Secretary General Anders Rasmussen appointed
Dutch diplomat Ambassador Maurits R. Jochems as NATO’s Senior
Civilian Representative in Afghanistan. He succeeds the United Kingdom’s
Ambassador Simon Gass. A NATO statement said Jochems’s duties
will include working with Afghans on transition issues and a post-2014
partnership to support its goal of “a sovereign, secure, and democratic
Afghanistan.”16
   On October 10, President Obama announced his nomination of
U.S. Marine Corps General Joseph F. Dunford as new commander of the
ISAF in Afghanistan. The general is currently Assistant Commandant of
the Marine Corps.17 He will replace the current NATO/ISAF commander,
Marine Corps General John Allen. The President has nominated General
Allen to serve as Supreme Allied Commander-Europe and Commander,
U.S. European Command, effective in spring 2013. The President said,
“Under General Allen’s command, we have made important progress
towards our core goal of defeating Al-Qaeda and ensuring they can never
return to a sovereign Afghanistan.” He said that if the Senate confirms the
nomination, General Dunford will lead U.S. forces through key transition
milestones on the path to bringing the war in Afghanistan to a close “as
Afghanistan takes full responsibility for its security.” The President also
cautioned, “Very difficult work remains ahead in Afghanistan.”




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012          13
 “These reconstruction dollars are
 a good investment in our national
  security and will allow us to end
  our involvement in Afghanistan
responsibly. But they are also being
 spent at a rapid pace and far from
   public scrutiny, so we must be
 especially vigilant in ensuring that
       they are spent wisely.”
     —U.S. Senator Jeanne Shaheen (D-NH)




         Source: Office of U.S. Senator Jeanne Shaheen (D-NH), news release, August 2, 2012.
2   SIGAR OVERSIGHT
    ACTIVITIES




        15
                                                 CONTENTS

                                                 SIGAR Testifies on the Lack
                                                 of Accountability for Fuel Purchases 	   18
                                                 SIGAR’s Work Prompts
                                                 Proposed Legislation	                    21
                                                 Sopko Meets with Top Officials,
                                                 Staff in Afghanistan	                    22
                                                 SIGAR Receives Two Awards for Excellence	 22
                                                 Special Initiatives	                     23
                                                 Alert Letters	                           25
                                                 Audits	26
                                                 Inspections	37
                                                 Investigations	42
                                                 SIGAR Budget	                            52
                                                 SIGAR Staff	                             53




Photo on previous page
A SIGAR oversight team visits the Central Maintenance
Supply Facility for Afghan National Police vehicles in Kabul.
(SIGAR photo)




                                                    16
            SIGAR OVERSIGHT ACTIVITIES




SIGAR OVERSIGHT ACTIVITIES
This quarter, SIGAR issued 11 written products, including two audit reports,
three inspections, two statements for Congress, three alert letters, and one   COMPLETED AUDITS
investigative report. SIGAR also recovered funds, saved contract monies,
                                                                               •	 Audit 12-14: ANA Petroleum, Oil,
and supported legal actions that resulted in the conviction, indictment, and    and Lubricants
debarment of individuals and companies found to have engaged in criminal       •	 Audit 13-1: ANSF Facilities Operations
                                                                                and Maintenance
activity. SIGAR announced seven new audits and three new inspections,
and advocated for the authority to suspend and debar corrupt contractors.      COMPLETED INSPECTIONS
And it initiated plans to create a rapid-response team and launched a new      •	 Inspection 13-1: Kunduz ANA Garrison
financial audit program. With only two years to go before the scheduled        •	 Inspection 13-2: Gamberi ANA Garrison
end of the U.S. combat presence in 2014, all of these initiatives reflected    •	 Inspection 13-3: Wardak National Police
                                                                                Training Center
SIGAR’s determination to leverage the agency’s resources and provide
quicker, smarter, and more aggressive oversight in Afghanistan.
                                                                               TESTIMONY BEFORE CONGRESS
    SIGAR activities this quarter include:                                     •	 Testimony 12-15T: DoD Oversight of
                                                                                $1.1 Billion in Fuel for the ANA
 •	 The Special Inspector General’s testimonies before two Congressional       •	 Testimony 12-16T: DoD Ability to Transfer
    hearings on an audit report highlighting DoD’s inability to account for     Fuel Management to ANA
    $1.1 billion in fuel assets given to the Afghan National Army (ANA)        ALERT LETTERS
    and a recommendation that would reduce future ANA fuel budgets by          •	 Destruction of Financial Documents
    $1.2 billion                                                               •	 Lack of Culvert Denial Systems on a
                                                                                  Major Highway in Afghanistan
 •	 an audit report on facility operations-and-maintenance contracts that
    identified inconsistent contract oversight and questioned the Afghan       •	 Fraud Investigation of Road Contractor
    government’s capacity to sustain facilities after the contracts expire     INVESTIGATIVE REPORT
 •	 three inspection reports, including one that found the U.S. Army           •	 Contracting with the Enemy
    had released a contractor from all obligations despite unsatisfactory
    performance and continuing structural problems at the garrison it built
 •	 one conviction, one grand jury indictment, four federal charging
    documents, and four arrests
 •	 215 open investigations, including 24 involving the theft and diversion
    of fuel
 •	 46 finalized debarments and 41 finalized suspensions of corrupt
    contractors
 •	 60 referrals of contractors for suspensions and debarments




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012           17
                                               SIGAR OVERSIGHT ACTIVITIES




                                               SIGAR TESTIFIES ON THE LACK OF ACCOUNTABILITY
                                               FOR FUEL PURCHASES
                                               This quarter, Special Inspector General John F. Sopko testified twice before
                                               Congress on findings from an ongoing SIGAR audit that found DoD could
                                               not accurately account for over $1.1 billion in fuel it provided to the ANA.
                                               The discovery is particularly disturbing, coming at a time when the United
                                               States and NATO are planning to increase spending on fuel for the ANA and
                                               transfer authority for the fuel to the Afghan government. Both testimonies
                                               were before the House Committee on Oversight and Government Reform’s
                                               Subcommittee on National Security, Homeland Defense, and Foreign
                                               Operations. Sopko was the sole witness at the first hearing on September
                                               13, 2012; the second hearing on September 20, 2012 also included
                                               Department of Defense and USAID witnesses.
                                                  At the September 13 hearing, Sopko noted that the Combined
                                               Security Transition Command-Afghanistan (CSTC-A), which is respon-
                                               sible for equipping and training the ANA, had spent almost $1.1 billion
                                               over the last five years to provide petroleum, oil, and lubricants (POL)
                                               to the ANA. “Fuel for the ANA is a valuable commodity that is vulner-
                                               able to theft,” he said, and “helping the ANA develop a supportable
                                               and sustainable logistics capability—including the ability to purchase,
                                               track, and account for POL—is an essential part of transferring security
Special Inspector General John F. Sopko,       responsibilities to the ANA.”
left, testifies to Congress along with other      Sopko said SIGAR’s audit, initiated in February 2012, indicated that
witnesses on September 20, 2012.
                                               CSTC-A had incomplete records on the amount of ANA fuel purchased,
(SIGAR photo)
                                               delivered, and consumed, and had no valid method for estimating fuel
                                               needs on which to base funding requests. At the time, CSTC-A could
                                               not provide SIGAR with records on nearly $475 million in fuel payments
                                               because, according to CSTC-A officials, these records had been shredded.
                                                  SIGAR’s auditors found that CSTC-A’s current method for estimating
                                               ANA fuel needs did not include basic information such as the number and
                                               holding capacity of ANA storage locations; inventories of vehicles and gen-
                                               erators in use; and fuel consumption at each ANA location. In June 2012,
                                               CSTC-A changed its method for determining annual fuel funding levels by
                                               using historical data from only one month, March 2012, to estimate ANA
                                               fuel requirements for fiscal years 2014-2018. Sopko said SIGAR’s confidence
                                               in CSTC-A’s ability to make reasonable estimates of future Afghan fuel
                                               needs was further eroded by the discovery that CSTC-A planners had allo-
                                               cated fuel for trailers and other equipment without engines.
                                                  SIGAR learned that no single office within the U.S. or Afghan govern-
                                               ments had complete records of ANA fuel ordered, purchased, delivered, and
                                               consumed. CSTC-A lacked records of fuel purchases and payments prior to
                                               March 2011, and could not provide more than half of the documents SIGAR
                                               requested for its audit period of March 2011 to March 2012. CSTC-A paid
                                               vendors without independent verification of the quantity and quality of fuel




                                                 18                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




delivered. It did not track or reconcile the amount of fuel delivered with the
amount of fuel the ANA issued, stored, and consumed. (See Figure 2.1 on
the following page) “As a result,” Sopko said, “CSTC-A cannot identify vari-
ances to determine potential theft.”
   Sopko said the problems SIGAR identified need to be resolved quickly.
CSTC-A planned to begin transferring responsibility for procuring, track-
ing, delivering, and accounting for fuel and other petroleum products to the
Afghan government in January 2013—less than four months from the date
of the hearing. CSTC-A intended to begin making direct contributions to
the Afghan government from the Afghan Security Forces Fund (ASFF) of
an estimated $343 million in FY 2013 to pay for the ANA’s fuel. In addition,
CSTC-A proposed to increase annual funding for ANA fuel to $555 million
per year for fiscal years 2014–2018—a total of nearly $2.8 billion. Sopko
observed that if funding levels are not based on accurately estimated needs,
and if the ANA does not have effective accounting controls in place, this
fuel would be at an increased risk of theft and waste.
   Sopko told the committee SIGAR had alerted CSTC-A officials to its
concerns through a formal briefing in May 2012. CSTC-A took some steps
to respond to the agency’s findings, but not enough to ensure that accu-
rate ANA fuel requirements were developed and that effective controls
were instituted to maintain proper accountability. As a result, SIGAR
issued a report to the Secretary of Defense and other officials informing
them of its concerns. SIGAR also issued a letter alerting these officials to
CSTC-A’s destruction of the fuel records. Additionally, SIGAR ordered its
Investigations Directorate to look into the matter.
   The SIGAR report made two recommendations. The first was that NATO
Training Mission-Afghanistan (NTM-A)/CSTC-A reduce FY 2013 and planned
2014-2018 budget requests for fuel for the ANA to the FY 2012 amount of
$306 million and maintain this level until CSTC-A and the ANA developed
a more systematic process for determining requirements. The second was
that the command develop, approve, and implement a comprehensive
action plan, focusing on internal control processes to verify fuel purchases
and deliveries.
   CSTC-A concurred with SIGAR’s proposed recommendation for a com-
prehensive action plan, but disagreed with the recommendation to limit
budget requests for fuel pending development of a more systematic process
for determining requirements. CSTC-A said the proposed funding levels
were needed to sustain current military operations. Sopko reiterated that
SIGAR strongly urged CSTC-A not to increase its funding for POL to the
ANA. The Special Inspector General cautioned against writing a “blank
check” to the Afghan government for fuel. “To do so would mean doubling
down on a very risky bet,” he said.
   Sopko advised lawmakers that in addition to its ongoing audit work,
SIGAR was conducting more than 20 criminal investigations involving the




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012             19
SIGAR OVERSIGHT ACTIVITIES




FIGURE 2.1


ORDERING AND SHIPPING FUEL OUTSIDE PROPER PROCEDURES
LED TO A LACK OF ACCOUNTABILITY




            Fuel Contractor
                                                  CSTC-A                                                  Fuel Contractor




                                                  AFGHAN LOGISTICS
                                                  COMMAND




                          AFGHAN NATIONAL DEPOTS                           AFGHAN REGIONAL LOGISTICS
                                                                           SUPPORT CENTERS




               AFGHAN REGIONAL POWER PLANTS                               AFGHAN KABUL POWER PLANTS
               & AFGHAN REGIONAL MILITARY UNITS                           & AFGHAN KABUL MILITARY UNITS




                                                                    KEY
             Proper Request Procedure             Proper Delivery           Improper Request Procedure          Improper Delivery




Source: SIGAR Audit 12-14, Report on Afghan National Army Petroleum, Oil, and Lubricants, September 10, 2012.



theft and diversion of fuel intended for military and civilian use. The inves-
tigations addressed bribery, corruption, and bid-rigging related to contracts
to transport more than $100 million worth of fuel. Investigators were check-
ing on Afghan citizens and companies, Defense Department civilians, and
U.S. military personnel involved in transporting, storing, and distributing
fuel. “No single commodity is as important to the reconstruction effort in
Afghanistan as fuel, and no commodity is at such risk of being stolen or




    20                             SPECIAL INSPECTOR GENERAL                      I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




wasted,” he said. “As the U.S. and its coalition allies withdraw and transfer
security responsibility to Afghan forces, U.S.-funded fuel will become even
more vulnerable to waste through corruption and theft.”
   At the September 20 hearing, the subcommittee heard testimony from
Sopko as well as Alan F. Estevez, DoD’s Assistant Secretary of Defense for
Logistics and Material Readiness, Air Force Lieutenant General Brooks L.
Bash, Director for Logistics at the Joint Staff, and Donald Sampler, USAID
Deputy Director of Afghanistan and Pakistan Affairs. Estevez said SIGAR
had identified many areas for improvement in administering the POL pro-
gram, but added that he knew of no shredding of POL financial records. He
said NTM-A/CSTC-A would continue to provide SIGAR with all documents
relevant to its audit. Estevez also announced that NTM-A had decided to
transfer only one-third of the 2013 fuel budget to the ANA. The rest would
remain under NTM-A control for transfer in 2014 if the 2013 budget was
properly handled.
   Sopko welcomed NTM-A/CSTC-A’s decision to reduce the amount of
fuel funding it planned to transfer to Afghan government authority in
2013. However, he said there was no doubt financial records had been
shredded: two U.S. Air Force captains told SIGAR investigators they
had destroyed documents because they lacked adequate storage space.
Sopko said SIGAR was working to locate electronic copies the captains
said they had made to see if they included the records SIGAR sought.
He called CSTC-A’s handling of the records “deeply troubling” and
repeated the recommendation to reduce both its FY 2013 and its planned
2014–2018 budget requests until program problems are corrected. As the
quarter came to an end, CSTC-A still had not provided SIGAR with all the
requested records.


SIGAR’S WORK PROMPTS PROPOSED LEGISLATION
In response to Special Inspector General Sopko’s testimony, Rep. Jason
Chaffetz (R-UT), Chairman of the House Subcommitee on National Security,
Homeland Defense, and Foreign Operations and Subcommitee Ranking
Member John Tierney (D-MA) introduced legislation to provide strict over-
sight to DoD’s POL delivery program for the ANA. “Until we know how much
we actually need to spend on POL and firewood, where and how fuel is actu-
ally used and whether or not fuel has been lost or stolen, I will not stand by
and watch as we throw U.S. taxpayer dollars down the drain,” said Chaffetz.
House Resolution 6485, introduced on September 21, 2012, prohibits DoD
from providing funds directly or indirectly to the government of Afghanistan
to purchase POL and firewood unless SIGAR and the Secretary of Defense
certify to Congress that the government of Afghanistan has strict accounting
and oversight measures in place. It also requires the Secretary of Defense
to certify that POL and firewood provided to the Afghan government are




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012             21
SIGAR OVERSIGHT ACTIVITIES




fully justified and accounted for. The bill was referred to the House Armed
Services and Foreign Affairs Committees.
   In this reporting period, U.S. Senators Jeanne Shaheen (D-NH) and Jim
Risch (R-ID) also introduced legislation that would require federal agen-
cies to notify Congress and publicly justify their actions when they ignore
or defy recommendations from SIGAR. “We have an important watchdog in
place in Afghanistan, and we must ensure that agencies and contractors are
paying appropriate attention,” Shaheen said. Senate Bill 3505, introduced
on August 2, 2012, requires agencies to explain to Congress any instance in
which they do not reply to or disagree with a finding from SIGAR worth at
least $500,000 in potential damages from a contractor. The legislation fol-
lows the U.S. Air Force’s reversal of such a decision following an inquiry
by Shaheen. The Air Force Center for Engineering and the Environment
(AFCEE) had initially rejected the recommendation SIGAR made in an
October 2011 audit that it seek reimbursement for $4.3 million in tax-
payer funds used to repair a poorly constructed military training facility in
Kabul. But after Shaheen wrote a letter to the Air Force, AFCEE submitted
demand letters to the contractor.


SOPKO MEETS WITH TOP OFFICIALS,
STAFF IN AFGHANISTAN
During this reporting period, Special Inspector General Sopko made his first
trip to Afghanistan, where he consulted with the senior U.S. civilian and
military leadership as well as SIGAR’s audit and investigative staff about the
numerous challenges—including security, corruption, lack of Afghan capac-
ity, and sustainability—confronting the U.S. reconstruction effort. He also
met with DoD, DoS, and USAID officials in Washington, D.C. to discuss their
reconstruction programs. He listened to officials’ concerns in Afghanistan
and Washington, and has incorporated this information into SIGAR’s audit
and investigations planning processes. Implementing agencies repeatedly
asked SIGAR to conduct more real-time audits of ongoing programs so that
they have time to address problems before contracts, grants, or coopera-
tive agreements have expired. Sopko emphasized SIGAR’s determination to
provide broad and aggressive oversight of U.S.-funded programs during this
critical transition period.


SIGAR RECEIVES TWO AWARDS FOR EXCELLENCE
The Council of Inspectors General on Integrity and Efficiency (CIGIE)
honored SIGAR and other oversight agencies at its annual awards cer-
emony on October 16, 2012. SIGAR won an audit award for excellence for
an audit published earlier this year identifying actions to improve DoD’s
accountability for more than 52,000 vehicles valued at $4 billion and




  22                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




provided to the Afghanistan National Security Forces (ANSF). The team
members who conducted the audit included Dan Chen, Tara Chapman,
Angela Yarian, and Albert Huntington III. Special Agents Philip Cousin
and Wai Man Leung won an investigations award for excellence for their
leading role in the successful investigation of one of the largest bribery
cases to come out of Afghanistan since the U.S. reconstruction effort
began in 2002. The CIGIE awards recognize those in the IG community
who have distinguished themselves and contributed to the well-being of
the nation at home and abroad.


SPECIAL INITIATIVES
SIGAR Pushes for Authority to Suspend and Debar                                Sharon Woods, Acting Inspector General
Special Inspector General Sopko testified at the House Subcommittee on         for Investigations, accepts CIGIE award
National Security, Homeland Defense, and Foreign Operations hearing on         for excellence on behalf of SIGAR
September 13, 2012, that SIGAR needs the independent authority to sus-         investigations team. (SIGAR photo)
pend and debar contractors, rather than having to wait for other agencies
to act on its recommendations. “They don’t appreciate that time is of the
essence,” Sopko told the committee members. “If we’re going to make a
difference and stop bad people from contracting with the government, in
stopping terrorists from contracting with the government, now is the time,
not two or three years from now.”
   A suspension temporarily excludes a contractor from being able to bid
on government contracts pending completion of a legal proceeding or inves-
tigation. A debarment makes a contractor ineligible for government awards
for a fixed time, usually three years or less.
   In a follow-up letter to the chairman and the ranking member of the
subcommittee, Sopko said SIGAR has referred more than 200 cases to the
Department of the Army, the State Department, or USAID for suspension
or debarment. Of these, 106 still await action, including 43 cases in which
contractors were linked to insurgents in Afghanistan. (See pages 49–51 for a
full discussion of SIGAR’s suspension and debarment program)
   Sopko noted that almost a year ago, on November 3, 2011, SIGAR had
submitted a draft regulation to the Office of Management and Budget’s
(OMB’s) Office of Information and Regulatory Affairs that would permit
SIGAR to implement its own suspension and debarment program. OMB
has yet to take action on the request, despite the fact that as the organi-
zation with the largest investigations and audit contingent currently in
Afghanistan, SIGAR has the most extensive, cross-agency subject matter
expertise available to investigate and address poor performance by contrac-
tors. “Frankly, we do not understand why OMB has not permitted SIGAR
to implement its own suspension and debarment program, even though
SIGAR’s main mission includes rooting out contracting fraud, waste, and




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012           23
SIGAR OVERSIGHT ACTIVITIES




abuse,” Sopko wrote. “Suspension and debarment is a powerful tool for
combating fraud, waste, and abuse, especially in a contingency operating
environment such as Afghanistan, where billions of dollars of taxpayer
money are at risk.”

Rapid-Response Team
As part of his strategy to revamp SIGAR to respond better to the needs
of Congress and the U.S. implementing agencies involved in Afghanistan
reconstruction, Special Inspector General Sopko announced the creation of
SIGAR’s Office of Special Projects. The Office will deploy a rapid-response
team of highly skilled investigators, auditors, analysts, and attorneys led
by an experienced auditor who has spent three years overseeing SIGAR’s
Forward Operations in Afghanistan. The rapid-response team will focus
on critical issues and provide reports to alert Congress and implementing
agencies to potential problems with reconstruction programs more swiftly
than a full-scale audit or inspection report, which can take as long as nine
months to complete. With the transition clock ticking, SIGAR intends to
provide vigorous oversight to ensure that U.S. taxpayer dollars are spent
appropriately and effectively to achieve U.S. reconstruction objectives.
The rapid-response team will provide timely, actionable information for
Congress and all agency officials.

Financial Audits
SIGAR’s financial audit program uses a risk-based approach to identify
and carry out audits of costs incurred under U.S.-funded contracts, grants,
and cooperative agreements for Afghanistan reconstruction. The program
was established after Congress and the oversight community expressed
concerns about the growing backlog of incurred cost audits for Overseas
Contingency Operations contracts and grants. Through this initiative,
SIGAR will:
•	 confirm that costs incurred by the recipients of U.S. contracts and grants
   for Afghanistan reconstruction are reasonable, allocable, and supportable;
•	 evaluate the internal control environment related to the contract or
   grant; and
•	 in instances of noncompliance or weak internal controls, identify
   potential fraud or abuse.

   During this reporting period, SIGAR met with financial audit stakehold-
ers including the Defense Contract Audit Agency (DCAA), DoD, DoS,
USAID, and U.S. Department of Agriculture (USDA) to articulate the pro-
gram’s goals and establish a collaborative relationship. On July 31, 2012,
SIGAR announced 11 audits of contracts and grants, with a combined
estimated total of $913 million in auditable costs. The audits will be con-
ducted by competitively selected audit firms contracted and overseen by




  24                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




SIGAR. SIGAR plans to award the specific audit contracts over the next
reporting period.

Capstone Reports—Sustainability
SIGAR is nearing completion of its first capstone report, which assesses
the challenge of sustaining the U.S. investment in Afghanistan after
reconstruction becomes an Afghan-led effort in 2014. If the Afghan
government cannot provide the people, funds, and material to main-
tain programs and facilities, billions of dollars in U.S. taxpayer funds
will be at risk of going to waste. Yet for years to come, the government
of Afghanistan has no means of generating sufficient revenue to cover
operating expenditures, including increased spending on security and
development. SIGAR is examining the issues and difficult choices facing
the U.S. and Afghan governments as they seek to sustain reconstruction
while aid to Afghanistan decreases.


ALERT LETTERS
Destruction of Financial Documents
On September 10, 2012, SIGAR sent an alert letter informing Secretary
of Defense Leon Panetta and others that during the conduct of its audit
                                                                                 NEW ALERT LETTERS
of the ANA’s logistics capability for POL, NTM-A/CSTC-A officials said           •	 Destruction of Financial Documents
they had shredded all ANA financial records relating to payments for fuel        •	 Lack of Culvert Denial Systems on a
totaling nearly $475 million from October 2006 to February 2011. In addi-         Major Highway in Afghanistan
tion, CSTC-A could not provide more than half of the documents SIGAR             •	 Fraud Investigation of Road Contractor
requested for its audit period from March 2011 to March 2012. As a result,
SIGAR could not audit the documentation for more than $4.5 million of
selected ANA fuel orders paid during its audit period.
   The destruction of records and the unexplained failure to provide other
records violated DoD and Department of Army policies. Specifically, on
February 28, 2010, U.S. Army Central Command issued a memorandum
instructing its financial managers not to destroy or dispose of financial
documents related to Operation Enduring Freedom. The memorandum,
which referenced defense finance-system accounting regulations, noted
that “proper visibility, accountability, transparency, oversight, and controls
of these financial documents is essential to maintaining our credibility and
the trust and confidence of the Congress and taxpayers.”
   SIGAR strongly recommended that the Secretary of Defense and
others look into the causes and circumstances of the reported shred-
ding, as well as any actions taken based on DoD’s own standards. The
agency informed the Secretary that the matter had been referred to
SIGAR Investigations.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012              25
                                                SIGAR OVERSIGHT ACTIVITIES




                                                Lack of Culvert Denial Systems on a
                                                Major Highway in Afghanistan
                                                On October 10, 2012, SIGAR issued a letter to General James Mattis,
                                                Commander of CENTCOM, and General John Allen, Commander of the
                                                International Security Assistance Force (ISAF) warning that Afghan con-
                                                tractors had failed to install and inspect metal grates designed to prevent
                                                insurgents from planting improvised explosive devices (IEDs) inside cul-
                                                verts along a major highway in Afghanistan. SIGAR said preliminary work
                                                on a criminal investigation had identified potentially significant contract
                                                fraud in the installation and inspection of culvert denial systems. These
                                                systems consist of iron bars placed over the entrance to roadway culverts
                                                or storm drains to prevent insurgents from gaining access and planting
A U.S. Marine installs a culvert denial
                                                IEDs. “Afghan contractors may have falsely reported a large number of
system in Afghanistan. (DoD photo)
                                                culvert denial systems as complete, when, in fact, the denial systems were
                                                not installed or were installed in a defective manner, rendering them inef-
                                                fective and susceptible to insurgents,” Special Inspector General John
                                                F. Sopko wrote. The letter identified one area that might be particularly
                                                threatened, but added that the problem also could be widespread through-
                                                out Afghanistan. SIGAR said it had been working jointly with staff at Task
                                                Force 2010 and CENTCOM Joint Theater Support Contracting Command
                                                (C-JTSCC) to address this issue.SIGAR provided the information for imme-
                                                diate action and dissemination to all relevant personnel so as to protect
                                                U.S. forces in Afghanistan.

                                                Fraud Investigation of Road Contractor
                                                Special Inspector General Sopko advised Rajiv Shah, Administrator of
                                                USAID, and S. Ken Yamashita, Mission Director of USAID-Afghanistan, in a
                                                letter dated October 17, 2012, to hold off payment of a contractor who has a
                                                $498 million cooperative agreement with USAID to build strategic provincial
                                                roads in southern and eastern Afghanistan. Sopko wrote that SIGAR was
                                                conducting an investigation into allegations of significant waste and misman-
                                                agement by International Relief and Development (IRD) in the road projects
                                                covered by this agreement. He said SIGAR also was looking into related alle-
                                                gations concerning kickbacks and bribery by IRD senior employees.


  COMPLETED AUDITS                              AUDITS
                                                Since its last report to Congress, SIGAR has completed two audit reports.
  •	 Audit 12-14: Report on Afghan National
    Army Petroleum, Oil, and Lubricants         This quarter SIGAR also began seven new audits. The published reports
  •	 Audit 13-1: Afghan National Security       identified several concerns related to funding, oversight, and sustainability
    Forces Facilities: Concerns with Funding,   for operations and maintenance of the Afghan National Security Forces
    Oversight, and Sustainability for Opera-    (ANSF) facilities. These audits made five recommendations to improve
    tions and Maintenance                       accountability in the U.S. provision of fuel for the ANA, and to ensure that
                                                ANSF facilities are properly maintained.




                                                  26                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




Status of SIGAR Recommendations
This quarter, SIGAR closed 28 audit recommendations contained in nine
audit reports. Since 2009, SIGAR has published 62 audits and inspec-
tions and made 209 recommendations to recover funds, improve agency
oversight, and increase program effectiveness. To date, SIGAR has closed
over half of these recommendations. Closing a recommendation indicates
SIGAR’s assessment that the audited agency has either implemented the
recommendation or otherwise appropriately addressed the issue.
    Among the corrective actions taken this reporting period, the Air Force        AFCEE submitted the demand letters after
Center for Engineering and the Environment (AFCEE) submitted demand                U.S. Senator Jeanne Shaheen (D-NH) wrote
letters to a contractor seeking reimbursement for about $4.3 million paid          the Air Force to complain about AFCEE’s
to correct shoddy work at the Kabul Military Training Center, including            decision to ignore SIGAR’s recommendation.
costs associated with electrical fires (SIGAR Audit 12-2). The Department          For more information, see page 22.
of Transportation also returned $3.5 million in unused State Department
transfers to the U.S. Treasury, as SIGAR recommended in its audit of the
U.S. civilian uplift in Afghanistan (SIGAR Audit 11-17).
    In accordance with the Inspector General Act of 1978, as amended,
SIGAR is required to report on any significant recommendation from prior
reports on which corrective action has not been completed. In this quarter,
SIGAR monitored agency actions on recommendations contained in 20
audit reports and one inspection report. Two of the reports, which are over
12 months old, contain 13 recommendations that are pending resolution.
These two reports addressed challenges over U.S. salary support to the
Afghan government and technical advisors, and U.S. financial support to
develop aspects of the Afghan financial sector.
 •	 Audit report 11-5, Actions Needed to Mitigate Inconsistencies in and
    Lack of Safeguards over U.S. Salary Support to Afghan Government
    Employees and Technical Advisors, was published on October 20,
    2010. The nine recommendations pending resolution call for the
    U.S. Ambassador to Afghanistan to coordinate with other international
    donors and the Afghan government to: collectively establish/define
    principles and key terms; develop and use standardized salary scales for
    U.S. salary support; and enhance safeguards and improve accountability
    over U.S. funding for salary support.
 •	 Audit report 11-13, Limited Interagency Coordination and Insufficient
    Controls over U.S. Funds in Afghanistan Hamper U.S. Efforts to
    Develop the Afghan Financial Sector and Safeguard U.S. Cash,
    was published on July 20, 2011. The four recommendations pending
    resolution are directed at the Department of Defense and the State
    Department. The recommendations cover the need for Afghan banks
    to increase their use of electronic funds transfer, along with associated
    accountability capabilities. Additionally, they call for increased oversight
    of the flow of U.S funds through the Afghan economy. This quarter




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012               27
SIGAR OVERSIGHT ACTIVITIES




   SIGAR announced a follow-up review of this audit. (See page 33 about
   this newly announced audit.)

Audit Reports Published
This quarter, SIGAR’s audit reports assessed the ability of the ANA to
manage and account for fuel and other petroleum products and reviewed
the funding, oversight and sustainability for operations and maintenance
(O&M) of Afghan National Security Forces (ANSF) facilities as the NTM-A
prepares to transition these facilities to the Afghan government by 2014.
The first report found that neither CSTC-A nor the ANA could fully manage
and account for ANA fuel. The second report raised concerns about the
Afghan government’s ability to operate and maintain ANSF facilities after
the 2014 transition.

Audit 12-14: Afghan Security Forces
Report on Afghan National Army Petroleum, Oil, and Lubricants
On September 10, 2012, SIGAR presented Secretary of Defense Leon
Panetta and other officials with a report warning that unless CSTC-A devel-
ops a method for estimating fuel needs on which to base funding requests
and institutes effective controls prior to handing authority for fuel over to
the ANA, both ANA fuel and Afghan Security Forces Fund (ASFF) funds
would be vulnerable to theft and waste.
   Over the last five years, U.S. funding for ANA petroleum products
through the ASFF has totaled almost $1.1 billion. CSTC-A, which is respon-
sible for equipping and training the ANA, has provided the petroleum, oil
and lubricants (POL) to the ANA. Upon delivery, the ANA assumes full
responsibility for POL management and further allocation. CSTC-A plans to
begin funding ANA fuel through direct contributions from the ASFF to the
Afghan government in January 2013. CSTC-A estimates that about $466 mil-
lion will be required for ANA POL in FY 2013 and proposes to increase the
annual fuel funding to $555 million for FY 2014 and beyond.

OBJECTIVES
SIGAR initiated this audit to:
•	 assess the status of CSTC-A’s efforts to develop the ANA’s capabilities to
   manage and distribute petroleum products
•	 determine whether the ANA has the internal controls needed to account
   for petroleum products and prevent fraud, waste, and abuse, including
   the unauthorized diversion or theft of fuel.

FINDINGS
1.	 CSTC-A officials told SIGAR they had no records of fuel purchase and
    payment information prior to March 2011 because ANA POL financial
    records totaling nearly $475 million from FY 2007 to February 2011 had




  28                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




    been shredded. In addition, CSTC-A did not have records or practices in
    place to fully account for fuel consumption once vendors delivered the
    fuel directly to ANA locations (See Figure 2.1 on page 20).
2.	 Controls over fuel ordering were not effective to ensure that
    the Afghan Ministry of Defense’s Logistics Command Materials
    Management Center-Army (MMC-A) was aware of all fuel ordered and
    whether any ANA unit received more than its authorized allocation.
3.	 CSTC-A paid vendors without independent verification of the quantity
    and quality of fuel delivered. Fuel-ordering officers ordered fuel,
    prepared receiving reports for payment, and certified the quantity and
    quality received by the units without the required MoD forms, which
    were needed to validate delivery tickets.
4.	 Fuel vendors did not always comply with the requirements set
    forth in the fuel blanket-purchase agreements used by CSTC-A.
    For example, vendors did not always provide required fuel quality
    reports. Moreover, the vendor delivery tickets that accompanied
    invoices for payment did not always include the information needed
    to verify the quantity delivered.

RECOMMENDATIONS
To improve the accountability for ANA POL and mitigate vulnerability
to fraud and waste, SIGAR recomended that the Commanding General,
NTM-A/CSTC-A, take the following actions:
1.	 Reduce current (FY 2013) and future (FYs 2014–2018) ASFF budget
     requests for ANA fuel requirements to the currently budgeted amount
     of $306 million for FY 2012. The FY 2012 ASFF amount budgeted
     should be maintained until a suitable method and systematic process
     for calculating accurate projections of ANA fuel requirements using
     valid and supportable fuel consumption and usage data is developed.
2.	 Develop, approve, and implement a comprehensive action plan
     focused on specific internal control processes to verify fuel purchases
     and deliveries and improve overall fuel accountability.

AGENCY COMMENTS
NTM-A/CSTC-A did not generally concur with the first recommendation. It
said current funding levels had to be maintained to sustain current military
operations. More specifically, it stated that FY 2012 fuel expenditures were
expected to be approximately $480 million, which would result in a reduc-
tion of approximately 37% for all security operations if fuel expenditures
were capped at $306 million as SIGAR recommended. NTM-A/CSTC-A also
said it could not accurately determine fuel consumption estimates for vehi-
cle usage due to fielding of additional vehicles, power generation, and other
combustion-engine power equipment to the ANSF and fluctuations in power
consumption due to seasonal changes. However, CSTC-A provided no




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            29
SIGAR OVERSIGHT ACTIVITIES




specific documentation of how these factors affected its annual estimates
and its assertions that increased funding was necessary. Consequently,
SIGAR reiterated its recommendation to maintain ANA POL funding levels
for ASFF at $306 million until a valid method is established and annual fuel
funding levels are calculated based on actual ANA fuel consumption and
supportable fuel requirements.
   NTM-A/CSTC-A concurred with the entirety of SIGAR’s second recom-
mendation. It described steps it had taken or would take to address specific
internal control processes to verify fuel purchases and deliveries and to
improve overall fuel accountability.
   SIGAR’s work on ANA POL continues; a final report will be issued in the
coming quarter.

Audit 13-1: Operations and Maintenance Contracts
for ANSF Facilities
Afghan National Security Forces Facilities: Concerns with Funding, Oversight and
Sustainability for Operations and Maintenance
This audit found that oversight of U.S. Army Corps of Engineers (USACE)
contracts with ITT Exelis Systems Corporation (Exelis) to provide opera-
tions and maintenance (O&M) for ANSF facilities in northern and southern
Afghanistan varied due to inconsistent implementation of quality assurance
and quality control procedures by USACE and Exelis, respectively. Further,
it questioned the Afghan government’s capacity to sustain ANSF facilities
after the contracts expire.
    NTM-A developed its plan to transition O&M of ANSF facilities to the
Afghan government by the end of 2014 in February 2011. In an effort
to ensure that the facilities are maintained until the ANSF is capable of
doing so, NTM-A obligated $800 million to provide O&M for Afghan army
and police facilities across Afghanistan. In July 2010, USACE awarded
two firm-fixed-price contracts to Exelis for these services to facilities in
northern and southern Afghanistan. The facilities contracts are valued at
$450 million for the northern provinces and $350 million for the southern
provinces. As of early June 2012, the contracts covered 480 facilities—
about 45% army and 55% police—ranging from large corps headquarters to
smaller police-district headquarters.
    The two contracts provide services that include O&M for the build-
ings and structures; utilities; and heating, ventilation, and air conditioning
systems. The contracts also require Exelis to provide ANSF workers with
O&M training in areas such as electrical, plumbing, and sewage treatment
plant operations.

OBJECTIVES
This audit sought to assess the extent to which:
•	 Exelis has implemented the O&M contracts within the contracts’ terms




  30                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




•	 USACE and Exelis have provided oversight of the contracts
•	 NTM-A and USACE are implementing efforts to develop the capacity of
   the ANSF to sustain its facilities after full transition in 2014

FINDINGS
1.	 While Exelis generally provided services in accordance with the terms
    of the contract, the contractor’s difficulty mobilizing during the initial
    phase of the contracts and poor O&M services at some sites impacted
    contract implementation.
2.	 Factors outside the contractor’s control, including the harassment
    of contractor personnel, poor construction quality, and irregular
    fuel deliveries, disrupted O&M services and may lead to increases in
    contract costs. For example, from December 2010 to January 2012,
    Exelis submitted 61 serious-incident reports documenting instances
    in which Afghan army and police personnel threatened, assaulted, or
    denied contractor personnel access to facilities. Almost half of these
    incidents had a negative impact on O&M.
3.	 SIGAR’s analysis of all invoices Exelis submitted to USACE through
    May 2012 found the contractor’s invoiced costs—approximately
    $237 million total—were within the terms of the two contracts. Despite
    this, NTM-A analysis projects that the northern contract will run out
    of funding in March 2014, 16 months before the contract is supposed
    to end. This could seriously disrupt O&M at facilities that will not have
    transitioned to the Afghan government by that time.
4.	 Oversight varied across and within the two O&M contracts, calling into
    question USACE’s ability to ensure that Excelis is providing services in
    accordance with contract requirements.
5.	 USACE officials developed ad hoc oversight and reporting
    requirements rather than implementing standardized agency
    procedures. This has led to variations in the quality of reporting
    and frequency of site inspections across sites and by quality
    assurance officials. Federal regulations require contracting entities
    to conduct quality assurance to determine whether services conform
    to contract requirements. This includes documenting quality
    assurance inspections in accordance with agency procedures. Exelis
    implemented quality control programs as required by the contracts,
    but implementation in the south was incomplete. USACE and
    subcontractor officials reported that Excelis had conducted few site
    visits to facilities in the south, and the contractor had not staffed hub
    locations in two southern provinces.
6.	 The Afghan government’s capacity to sustain ANSF facilities remains
    questionable due to a lack of sufficient numbers and quality of Afghan
    personnel, as well as a lack of fully developed budgeting, procurement,
    and logistics systems. NTM-A and USACE have taken steps to develop




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012             31
                                               SIGAR OVERSIGHT ACTIVITIES




                                                   the Afghan government’s capacity to perform O&M on ANSF facilities
                                                   after the full transition of these facilities to the Afghan government at
                                                   the end of 2014. As of August 1, 2012, 17 sites had started the transition
                                                   process. However, because USACE had not yet developed a plan
                                                   and procedures for removing partial facilities from the contracts and
                                                   reclassifying these facilities to reduce costs, the agency continued to
                                                   pay O&M costs for structures no longer covered under the contracts.

                                               RECOMMENDATIONS
                                               SIGAR made three recommendations to USACE to ensure that funds are
                                               expended in accordance with O&M contract terms and to enhance con-
                                               tract oversight:
                                               1.	 implement standardized agency procedures for overseeing the two
                                                   O&M contracts
                                               2.	 direct Excelis to fully implement its quality control program in
                                                   southern Afghanistan by requiring the contractor to ensure that it has
                                                   sufficient personnel in place to establish a presence at more ANSF
                                                   sites in the south
                                               3.	 complete its plan and procedures for removing partial facilities from
                                                   the contracts and reclassifying these facilities to reduce O&M costs

                                               AGENCY COMMENTS
                                               USACE concurred with all three of SIGAR’s recommendations. USACE
                                               said the USACE-TAD regional contracting chief and primary contracting
                                               officer for USACE-TAN will develop implementing procedures to ensure
                                               there is a standardized approach to contract oversight and that contract
                                               quality assurance plans are consistently followed. Since the SIGAR report
                                               was issued, both Excelis and its primary subcontractor have authorized 19
                                               quality control manager/inspector positions and have filled 15 of them. The
NEW AUDITS                                     TAM primary contacting officer also is working with Excelis to develop the
•	 DoS’s Financial Audit Coverage of Costs     proper procedure for removing partial facilities from the contracts.
   in Afghanistan
	• DoD Compliance with the Prohibition on      New Audits Announced This Quarter
   Contracting with the Enemy                  During this reporting period, SIGAR initiated seven audits, in addition to
•	 Tracking Currency Flows Through the         the 11 financial audits mentioned on pages 24–25. The audits will assess the
   Afghan Economy
                                               extent to which:
•	 USAID’s Direct Assistance to the Ministry   •	 DoS has provided financial audit coverage of contracts, cooperative
   of Public Health
                                                  agreement and grants for reconstruction efforts
•	 Ongoing Construction Projects for the       •	 DoD and its contractors have established procedures to avoid
   ANSF
                                                  contracting with the enemy
•	 Afghan National Police Petroleum, Oils,     •	 Afghan and U.S. officials are monitoring the flow of currency at Kabul
   and Lubricants
                                                  International Airport18
•	 $230 Million in Missing Repair Parts
                                               •	 USAID’s direct assistance to the Ministry of Public Health (MoPH) is
                                                  achieving results




                                                 32                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




•	 NATO NTM-A/ CSTC-A base construction requirements and transition
   procedures for the Afghanistan National Security Forces are following
   acceptable contract procedures
•	 CSTC-A and the Afghan National Police (ANP) can manage and account
   for U.S.-funded petroleum products
•	 DoD can manage and account for U.S.-funded repair parts provided for
   the ANSF

DoS’s Financial Audit Coverage of Costs in Afghanistan
Since 2002, DoS has awarded $6.1 billion in Afghanistan reconstruction
funds to its implementing partners through 244 contracts, coopera-
tive agreements, and grants of over $1 million. Financial audits of funds
expended under such awards provide DoS with independent assessments
of how those funds were used. Earlier this year, SIGAR completed an audit
of USAID’s audit coverage for reconstruction efforts (SIGAR Audit 12-9).
Now it plans to conduct a similar audit of financial audit coverage of costs
incurred under DoS contracts, cooperative agreements, and grants.

DoD Compliance with the Prohibition on
Contracting with the Enemy
The National Defense Authorization Act passed by Congress in 2012
includes Section 841-Prohibition on Contracting with the Enemy in
the CENTCOM Theater of Operations. In this audit, SIGAR plans to
identify the processes established by CENTCOM and its contractors to
comply with the provisions of Section 841. SIGAR will also (1) assess
whether the processes established by CENTCOM and its contractors
fully address the requirements stipulated in Section 841 and (2) assess
whether CENTCOM and its contractors are fully complying with estab-
lished contracting policies and procedures. This audit will also assess
the extent to which the Department of State and USAID have estab-
lished policies and procedures to prevent contract awards from funding
persons or entities identified as actively supporting the insurgency or
opposing U.S. or coalition forces.

Tracking Currency Flows Through the Afghan Economy
SIGAR is reviewing efforts made by the Department of Homeland Security
and Afghan officials to implement controls at Kabul International Airport
to monitor the flow of currency. This limited-scope review will focus on
the status of SIGAR’s recommendation that agencies ensure that bulk
currency counters are used as intended and that their data is provided to
U.S. law enforcement officials as well as to appropriate Afghan officials.
SIGAR has conducted two other audits related to currency flows and cor-
rutpion: Audit 11-3, Limited Interagency Coordination and Insufficient
Controls over U.S. Funds in Afghanistan Hamper U.S. Efforts to Develop




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012           33
SIGAR OVERSIGHT ACTIVITIES




the Afghan Financial Sector and Safeguard U.S. Cash, and Audit 10-15,
U.S. Reconstruction Efforts in Afghanistan Would Benefit from a
Finalized Comprehensive U.S. Anti-Corruption Strategy. Both contained
recommendations to improve accountability over U.S. reconstruction funds
channeled through the Afghan government.

USAID’s Direct Assistance to the
Ministry of Public Health (MoPH)
In July 2008, USAID approved $236 million in direct funding to the MoPH
over five years. USAID provided this direct assistance to fund the Basic
Package of Health Services in 13 provinces, the Essential Package of
Hospital Services in five provinces, and capacity development at the central
ministry. The Essential Package of Hospital Services includes what hospi-
tals in the Afghan health system should provide in terms of general services,
staff, equipment, diagnostic services, and medications. SIGAR’s audit will
look at whether the direct assistance to MoPH is being used for intended
purposes and is achieving expected outcomes. It will also determine
whether USAID and MoPH implemented the financial and other internal
controls required by the bilateral direct assistance agreement.

Ongoing Construction Projects for the ANSF
As of June 30, 2012, the United States had 311 ongoing construction
projects for the ANSF valued at about $3.73 billion and an additional
244 planned projects valued at about $2.4 billion. SIGAR will examine
CSTC-A’s justification and support for project requirements. The audit will
also assess: (1) the extent to which U.S. and coalition basing plans for the
ANSF reflect ANSF force strength projections; (2) whether CSTC-A fully
considered alternatives to new construction; and (3) whether CSTC-A
developed and used appropriate criteria to ensure that current and pro-
posed construction projects for the ANSF are necessary, achievable, and
sustainable by the Afghan government.

Afghan National Police Petroleum, Oils, and Lubricants
SIGAR is currently conducting an audit of the ANA’s logistics capacity
for petroleum products. Ongoing audit work identified several issues that
warranted immediate attention in light of upcoming budget decisions and
the transition of ANA POL responsibilities along with direct transfer of
U.S. funds to the Afghan government, leading SIGAR to isssue an report
and an alert letter. ANP POL is subject to the same short transition time-
lines and challenges as ANA POL, and SIGAR anticipates that similar
issues will surface in the audit of ANP logistics capacity. The new audit
will focus on the two main issues identified with regard to ANA POL:
accuracy of fuel requirements and accountability for fuel purchases.




  34                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




$230 Million in Missing Repair Parts
In September 2012, the COMISAF Advisory and Assistance Team (CAAT)—a
military assessment team—reported that CSTC-A could not account for 474
out of 500 shipping containers with $230 million worth of repair parts for
ANSF equipment. CSTC-A purchased the repair parts for the Afghan forces
between 2007 and 2011. The team that discovered the parts were missing
said this may have triggered a requirement that CSTC-A reorder additional
repair parts at a cost of nearly $137 million. The team issued a report recom-
mending that SIGAR investigate CSTC-A’s process for ordering and managing
these repair parts. The report identified accountability issues throughout the
entire logistics life cycle of the repair parts, including the shipment of parts
into Afghanistan, acceptance of the parts by the U.S. government in Kabul,
storage of the parts by ANSF contractors and subcontractors, and convey-
ance of the parts to the ANSF. The SIGAR audit will (1) assess the process
CSTC-A uses to determine requirements and to acquire, manage, store, and
distribute Class IX repair parts for the ANSF; and (2) evaluate the internal
controls in place to determine if they are sufficient to account for Class IX
repair parts and to prevent fraud, waste, and abuse.

Ongoing Audits
Seven additional ongoing SIGAR audits are reviewing programs and con-
tracts in the three major reconstruction areas—security, governance, and
development.                                                                       ONGOING AUDITS
                                                                                   •	 Oversight and Costs Associated with the
Oversight and Costs Associated with the Afghanistan Technical                         Afghanistan-Technical Equipment Main-
Equipment Maintenance Program (A-TEMP) for the ANP                                    tenance Program (A-TEMP) for the ANP
To support the ANP under the A-TEMP, the CSTC-A is funding contracts               •	 Afghan National Army (ANA) Logistics Ca-
with Automotive Management Services and PAE Government Services Inc.                  pability for Petroleum, Oil, and Lubricants
This audit will focus on government oversight of the prime contractors and         •	 USAID’s Southern Region Agricultural
                                                                                      Development Project’s Partnership with
any subcontractors, the costs associated with the contracts, accountability
                                                                                      International Relief and Development Inc.
for vehicle parts and maintenance supplies, and the status of efforts to tran-
sition vehicle maintenance to the ANP.
                                                                                   •	 USAID Planning for Sustainability of its
                                                                                      Development Programs in Afghanistan
                                                                                   •	 Tariffs, Taxes, or Other Fees Imposed by
Afghan National Army (ANA) Logistics Capability for                                   the Government of the Islamic Repub-
Petroleum, Oil, and Lubricants                                                        lic of Afghanistan on U.S. Contractors
The United States is working through CSTC-A to help the ANA build an                  Conducting Reconstruction Activities in
independent and sustainable logistics capability. This quarter, SIGAR issued          Afghanistan
a report that found that CSTC-A had no valid method for estimating fuel            	• Air Mobility Support for Afghan Drug
                                                                                      Interdiction Operations
needs on which to base funding requests and had incomplete records on the
amount of ANA fuel purchased, delivered, and consumed. In an alert letter          	• U.S. Government Efforts to Assist in
                                                                                      the Commercialization of the Afghani-
to the Secretary of Defense, Special Inspector General John F. Sopko said             stan Electricity Utility—Da Afghanistan
CSTC-A was unable to provide SIGAR with records on nearly $475 million                Breshna Sherkat (DABS)
in fuel payments because, according to CSTC-A officials, these records had
been shredded. The full audit will be completed next quarter.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012              35
SIGAR OVERSIGHT ACTIVITIES




USAID’s Southern Region Agricultural Development Project’s
Partnership with International Relief and Development Inc.
USAID is funding the Southern Region Agricultural Development Project to
combat regional instability, increase agricultural employment and income,
and assist the region’s transition from an insecure area to one with a sus-
tainable and prosperous agricultural economy. In February 2012, SIGAR
received allegations that USAID’s implementing partner—International
Relief and Development Inc. (IRD)—had failed to coordinate sufficiently
with the local government and military officials and was spending funds on
solar panels and farm tractors without justification. SIGAR is conducting
this audit to assess the basis for the acquisition and distribution of solar
panels and farm tractors, and to determine whether IRD’s expenditures
complied with the terms of its strategic partnership agreement and the
intended goals of the program.

USAID Planning for Sustainability of
Its Development Programs in Afghanistan
The United States risks wasting billions of dollars if U.S.-funded
development programs cannot be sustained, either by the Afghan gov-
ernment or by continued donor support. In June 2011, USAID issued
guidance to better integrate sustainability planning into the design of its
assistance programs for Afghanistan. Congress subsequently mandated
that DoS, in consultation with USAID, certify that the funds would be
used in accordance with this guidance. SIGAR is conducting this audit
to assess USAID’s planning for the sustainability of its development
programs in Afghanistan.

Tariffs, Taxes, or Other Fees Imposed by the Government
of the Islamic Republic of Afghanistan on U.S. Contractors
Conducting Reconstruction Activities in Afghanistan
The United States relies primarily on contractors and their subcontrac-
tors to implement U.S. reconstruction programs in Afghanistan. The
Afghan government is reportedly charging tariffs, taxes, and other fees
on materials imported for U.S.-funded reconstruction programs. This
audit will determine what fees are being levied and whether these fees
are in accordance with applicable international agreements. As part of
this audit, SIGAR will also assess the impact that declining coalition
activity after the 2014 transition will have on the Afghan government’s
operating budget.

Air-Mobility Support for Afghan Drug Interdiction Operations
Despite efforts by the international community and the Afghan govern-
ment to reduce poppy cultivation and illicit drug trafficking, Afghanistan
still produces about 90% of the world’s opium. The illicit drug trade also




  36                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




supports the insurgency. The U.S. counter-narcotics strategy strives to
cut off the flow of funds to the insurgency through interdiction opera-
tions. These operations depend on U.S.-funded air-mobility support to
U.S. and Afghan law-enforcement officials. U.S. efforts to enhance the
capabilities of the Afghan Special Missions Wing—also known as the Air
Interdiction Unit—are critical to sustaining counter-narcotics operations.
This audit will determine the extent to which U.S. assistance provides
responsive air-mobility support to law-enforcement officials for drug-
interdiction operations, assess U.S. government agencies’ oversight of
their assistance to the Air Interdiction Unit, and evaluate the extent to
which U.S. assistance has resulted in developing a sustainable capability
to provide air-mobility support for counter-narcotics efforts.

U.S. Government Efforts to Assist in the Commercialization
of the Afghanistan Electricity Utility-Da Afghanistan Breshna
Sherkat (DABS)
The United States has been supporting efforts to commercialize DABS, the
national power utility, as part of an overall effort to expand a self-sustaining
power network. Several USAID-funded projects have come to a close and
USAID plans to award several new contracts to continue its support of the
development of the electricity utility. This audit will identify the extent to
which the United States has funded programs to assist in the commercial-
ization of DABS and assess the outcomes of those efforts. The audit will
also evaluate the degree to which U.S. implementing agencies have coordi-
nated their efforts to develop a self-sustaining DABS.


INSPECTIONS
This quarter, SIGAR completed three inspections and announced
three new inspections. The completed inspections identified a number               COMPLETED INSPECTIONS
of construction problems at ANA garrisons in Kunduz and Gamberi
and at the National Police Training Center (NPTC) in Wardak. These                 •	 Inspection 13-1: Kunduz ANA Garrison:
inspections were the last in a series of four inspections of U.S.-funded              Army Corps of Engineers Released
                                                                                      DynCorp from All Contractual Obligations
infrastructure projects being implemented by the U.S. Army Corps of
                                                                                      Despite Poor Performance and Structural
Engineers-Afghanistan Engineer District-North (USACE-TAN) to sup-                     Failures
port U.S. efforts to build the Afghan security forces. The three new               	• Inspection 13-2: Gamberi ANA Garrison:
inspections include an inspection of solidwaste incinerators at multiple              Site Grading and Infrastructure Mainte-
forward operating bases and the inspection of selected facilities in Kabul            nance Problems Put Facilities at Risk
Province and in the Northern Provinces.                                            	• Inspection 13-3: Wardak Province
   SIGAR initiated its inspections program earlier this year because several          National Police Training Center: Contract
audits had identified construction and sustainability issues that put the             Requirements Generally Met, But Defi-
                                                                                      ciencies and Maintenance Issues Need
U.S. investment in infrastructure at risk. SIGAR is examining the quality of
                                                                                      to be Addressed
construction and assessing whether the facilities are being operated and
maintained for the purposes intended.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012               37
                                               SIGAR OVERSIGHT ACTIVITIES




                                               Completed Inspections
                                               Inspection 13-1: ANSF Facilities
                                               Kunduz ANA Garrison: Army Corps of Engineers Released DynCorp From
                                               All Contractual Obligations Despite Poor Performance and Structural Failures
                                               SIGAR initiated this inspection to follow up on one of the recommenda-
                                               tions in an earlier audit that found serious deficiencies in the construction
                                               of the ANA garrison at Kunduz.19 CSTC-A, through the ASFF, provided
                                               $72.8 million as of June 30, 2012, to USACE-TAN to construct an ANA gar-
                                               rison called Camp Pamir in Kunduz province. USACE-TAN subsequently
                                               awarded two construction contracts to DynCorp International LLC. The
                                               facility was designed to host about 1,800 personnel. However, SIGAR’s audit
                                               reported in April 2010 that poor site grading and serious soil stability issues
                                               had rendered the facilities at Camp Pamir at risk of structural failure. In a
                                               January 2010 visit, SIGAR observed several damaged structures as well as
                                               severe settling and improper grading that had caused sinkholes. Although
Failure to properly stabilize soil before      USACE-TAN and DynCorp had agreed that the soil under the site was col-
constructing the Camp Pamir ANA garrison       lapsible, they had not agreed on corrective action. SIGAR recommended
in Kunduz Province led to serious structural
                                               that USACE address the soil stability issue and determine what mitigation
damage from soil settling, such as to this
building. (SIGAR photo)                        or corrective actions were required for DynCorp to complete construction.

                                               FINDINGS
                                               1.	 SIGAR found additional structural failures, improper grading, and new
                                                   sink holes.
                                               2.	 USACE-TAN had failed to adequately mitigate the collapsible
                                                   soil conditions as recommended by SIGAR in April 2010. Therefore,
                                                   structural failures and improper site grading continue to be
                                                   serious concerns.
                                               Despite the contractor’s unsatisfactory performance, USACE agreed
                                               in December 2011 to a settlement that released DynCorp from all con-
                                               tractual obligations to repair or remediate the structural problems. In
                                               agreeing to the settlement, USACE-TAN did not comply with the provi-
                                               sions of FAR 49.107(a), which require an independent audit and review
                                               of a settlement proposal exceeding $100,000. Subsequent to SIGAR’s 2010
                                               report, USACE-TAN required contractors to use mitigating construction
                                               techniques to address the collapsible soil risk. These techniques require
                                               additional costs to excavate collapsible soil, haul it offsite, and bring
                                               laboratory-verified replacement soil back to the site.

                                               RECOMMENDATIONS
                                               SIGAR recommended that USACE-TAN take the following three actions:
                                               1.	 Justify the cost of further repairs and remediation of structural failures
                                                   at Camp Pamir funded with ASFF appropriations to ensure that further
                                                   construction is warranted, at reasonable cost to the U.S. government




                                                 38                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




2.	 Submit the DynCorp settlement to an appropriate audit agency for
    review, in accordance with FAR 49.107(a). Based on that review, the
    audit agency should submit written comments and recommendations.
    While the audits would normally be communicated to the
    termination contracting officer, due to the questionable nature of the
    settlement, SIGAR further recommended that the audit results and
    recommendations be reviewed by the Commanding General, USACE.
3.	 To fully document the reason USACE released DynCorp from its
    contract, SIGAR recommended that the Commanding General, USACE,
    provide an explanation of why the settlement was determined to be fair
    and reasonable.

AGENCY COMMENTS
USACE-TAN concurred with SIGAR’s recommendation that it justify the
cost of further repairs and remediation of structural failures at Camp
Pamir. USACE-TAN also agreed to request an audit of the settlement with
DynCorp. Although many of the key players in the settlement are no longer
in Afghanistan, USACE-TAN has initiated an in-depth review of the rationale
and will provide results in writing by November 9, 2012.

Inspection 13-2: ANSF Infrastructure
Gamberi ANA Garrison: Site Grading and Infrastructure Maintenance
Problems Put Facilities at Risk
SIGAR conducted this inspection to follow up on actions USACE-TAN
took in response to its recommendation in an earlier SIGAR audit of the
ANA garrison at Gamberi. CSTC-A provided $129.8 million to USACE-TAN
to construct an ANA garrison at Gamberi, located in Nangarhar prov-
ince on Afghanistan’s eastern border. In its April 2010 audit, SIGAR had
found several problems with flood control measures, site grading, and a
deteriorating bridge. For example, SIGAR reported that the poor grad-
ing at the construction site could result in water accumulating around
buildings and, if not addressed, could lead to flooding after a significant
rainfall. This inspection sought to assess the actions taken by USACE-
TAN to correct or mitigate site grading and infrastructure maintenance
problems at the ANA garrison. SIGAR also inspected a new culvert under
construction built to replace a deteriorating bridge near the entrance to
the garrison.

FINDINGS
1.	 SIGAR found that failure to mitigate site grading issues and inadequate
    storm drainage maintenance continued to threaten facilities at the
    garrison. Poor site grading resulted in areas of low elevation where
    storm water collected, causing flooding within the garrison and
    allowing sediment to collect and storm water ditches to erode.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012          39
SIGAR OVERSIGHT ACTIVITIES




2.	 SIGAR observed an eroded channel and standing water by the
    wastewater treatment plant. The amount of erosion, debris, and signs
    of flooding revealed that USACE had done little to prevent or repair
    these problems and that its site grading efforts had been ineffective.
3.	 SIGAR’s review of design documents for the culvert also found
    hydraulic design flaws that could lead to a future structural failure,
    making the culvert unsafe or unusable.

RECOMMENDATIONS
To ensure the structural integrity of the Gamberi garrison, SIGAR recom-
mended that USACE take the following actions:
1.	 Repair damaged storm water facilities to include the repair of eroding
    ditches and removal of sediment and debris on roads, in ditches, and
    in perimeter wall outlets throughout the garrison.
2.	 Implement mitigating flood control measures, such as adding gravel to
    low-lying roads, where flooding regularly occurs, to drain these areas
    more quickly.
3.	 Establish and follow a program to maintain the storm water drainage
    system and ensure that timely repairs are made to correct deficiencies
    that SIGAR identified.
4.	 Conduct a detailed structural analysis and design review of the
    culvert design package and take appropriate actions to correct any
    deficiencies identified.

AGENCY COMMENTS
USACE-TAN concurred with SIGAR’s first three recommendations but it did
not agree that it should conduct a detailed structural analysis and design
review of the culvert design package. USACE-TAN wrote that the project
was completed on June 19, 2012, in accordance with the design, so no addi-
tional addional structural analysis and design review was necessary.

Inspection 13-3: ANSF Infrastructure
Wardak Province National Police Training Center: Contract Requirements Generally Met,
But Deficiencies and Maintenance Issues Need to be Addressed
This quarter, SIGAR conducted a site inspection at the $98.1 million
National Police Training Center (NPTC) in Wardak province to assess
construction quality, facilities usage, and maintenance. SIGAR found some
construction deficiencies at the NPTC and three buildings that were not
being used for their intended purposes.
   USACE-TAN had awarded a firm-fixed-price contract to Technologists Inc.
to design and build a new campus facility for the NPTC in January 2009. Award
value for two construction phases totaled $98.1 million. Phase I included the
design, material, labor, and equipment to construct buildings, ranges, roads,
parking, utilities, and other infrastructure features for 1,000 ANP students and




  40                   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




500 support staff by April 20, 2010. Phase II included construction to accom-
modate an additional 2,000 students by March 31, 2011.

FINDINGS
1.	 Although most buildings and facilities were being used for their
    intended purposes and construction quality generally met contract
    specifications, SIGAR found a number of construction deficiencies.
    These included improper electrical grounding of diesel fuel tanks;
    roof leaks around the vehicle exhaust ventilation pipes in the vehicle
    maintenance building; and a missing storm water outlet grating in the
    perimeter wall.
2.	 Lack of maintenance had allowed silt and construction debris to
    accumulate in the storm drain system, which could result in flooding
    and sediment buildup.
3.	 The building intended for use as a fire station contained no firefighting
    vehicles. Nor had any firefighting personnel been assigned to the
    NPTC. In addition, the building intended as an ammunition supply
    point was being used for vehicle storage and a warehouse was being
    partially used as a dining facility.

RECOMMENDATIONS
SIGAR recommended that USACE-TAN take the following action:
1.	 Replace diesel fuel tank grounding connections with those specified in
    the design documents to avoid a potentially dangerous condition.
2.	 Repair roof leaks around the vehicle-exhaust ventilation pipes in the
    vehicle maintenance building.
3.	 Repair the missing storm-water outlet grating in the perimeter
    wall, which would enable a person to gain unauthorized access to
    the compound.
4.	 Regularly clean silt and construction debris from the storm drain
    system.

AGENCY COMMENTS
USACE-TAN did not concur with SIGAR’s recommendation that it replace
diesel fuel tank grounding connections. It said it had provided SIGAR with
evidence that the fuel tank ground connections were completed in accor-
dance with contract requirements and applicable construction standards. It
did agree to repair roof leaks and the missing storm water outlet grating in    NEW INSPECTIONS
the perimeter wall. It also concurred with the recommendation that it regu-
larly clean silt and construction debris from the storm drain system.           •	 Facilities in Kabul
                                                                                •	 Facilities in Northern Provinces
New Inspections                                                                 •	 Incinerator Requirements and Construc-
                                                                                 tion Quality
SIGAR is conducting inspections of construction projects awarded with
U.S. relief and rehabilitation funds throughout Afghanistan. This quarter




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012              41
SIGAR OVERSIGHT ACTIVITIES




it initiated three new inspections. Two are of selected facilities in Kabul
Province and in the Northern Provinces. The third is of incinerators at mul-
tiple forward operating bases.

Facilities in Kabul and the Northern Provinces
Prior contract audits have identified significant construction deficiencies
where construction contractors were not held accountable in Afghanistan.
To maximize coverage of the billions of dollars the United States has
invested in infrastructure development, SIGAR is conducting inspections
of selected facilities in Kabul and northern provinces. These inspections
will ensure that infrastructure is being built in accordance with appli-
cable construction standards and the facilities are being used as intended
and properly maintained. The inspections started in September and
October 2012.

Incinerator Requirements and Construction Quality
SIGAR is initiating a set of inspections of solid waste incinerators located
at forward operating bases at Salerno, Sharana, Ghazni, and Shank. In
response to air quality and health concerns caused by the use of open burn-
ing pits, Congress appropriated hundreds of millions of dollars to build
incinerators at operating bases in Afghanistan. The agency will determine
whether: a needs assessment for each incinerator was performed prior
to construction to determine base requirements and capacity needs; con-
struction was completed in accordance with contract requirements; and
construction deficiencies have been corrected before acceptance and trans-
fer. Based on its findings, SIGAR may identify other sites to visit.


INVESTIGATIONS
This quarter, SIGAR investigations resulted in one conviction, four
arrests in the United States and Afghanistan, federal charges against a
DoD contractor, and three federal chargings and one indictment against
four current or former U.S. military personnel. SIGAR agents also seized
fuel assets and cash valued at $87,000 and conducted an investigation
that helped the U.S. military to secure the termination of an Afghan com-
pany providing support to the ANA Medical Service, saving $1.5 million
for the U.S. government. SIGAR recommended 60 suspensions and debar-
ments of corrupt contractors.

SIGAR Has a Multi-faceted Investigations Strategy
Since 2009, SIGAR investigations have resulted in 29 arrests, 36 crimi-
nal indictments and federal charges, 22 convictions, $7 million in fines
and restitution, $36 million in recoveries, $59 million in savings, and
$132 million in contract monies protected and returned to the contracting




  42                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




process. The Investigations Directorate is pursuing a proactive investiga-    FIGURE 2.2

tive strategy to build on this record by aggressively detecting fraud and
                                                                              SIGAR INVESTIGATIONS: NUMBER OF OPEN
abuse, developing criminal and civil cases against U.S. individuals and       INVESTIGATIONS, AS OF SEPTEMBER 30, 2012
companies, and by including, to the extent possible, Afghan law enforce-
ment to address Afghan individuals and companies involved in the
                                                                                                     Total: 215
reconstruction effort.
   SIGAR has 215 open investigations. (See Figure 2.2) Investigators evalu-
ate each case first for criminal culpability, second for civil enforcement
                                                                                                            Public
potential, and lastly for administrative remedies such as suspension and                                    Corruption
debarment. SIGAR’s strategic approach takes into account the unique and                     Procurement     and Bribery
                                                                                            Fraud           71
difficult environment in Afghanistan and includes:                                          91
•	 deploying investigators for tours of no less than one year in
    Afghanistan
•	 stationing investigators at major contracting centers throughout the                                                 Miscellaneous
                                                                              Civil                                     22
    country                                                                   Investigations
•	 cementing alliances with other investigative agencies and anti-            7
    corruption groups                                                           Assessments                             Theft of Property
                                                                                9                                       and Services
•	 working together with Afghan law enforcement to hold Afghan                                                          15
    persons and companies responsible for waste, fraud and abuse of
    U.S. monies                                                               Source: SIGAR Investigations Directorate, 10/11/2012.



SIGAR’s Investigative Presence in Afghanistan
SIGAR’s Investigations Directorate employs 57 people, mainly special
agents; 22 were stationed in Afghanistan at the end of the quarter. Unlike
other U.S. law-enforcement agencies, SIGAR deploys its investigators to
Afghanistan for at least one year. Many of SIGAR’s special agents have
been in-country for two years now, and several are into their third year.
By contrast, most other law enforcement agencies in Afghanistan are
staffed by domestic agents temporarily based in Kabul and serving 90- or
120-day assignments. The longer deployments to key locations through-
out the country have enabled SIGAR to better understand the contracting
environment, to recruit sources and informants, and to develop critical
relationships both across U.S. government agencies and with the Afghan
Attorney General’s office.

SIGAR Embraces Integrative Approach to Investigations
SIGAR conducts investigations using the “strike-force” model that
U.S. Attorney General Robert F. Kennedy adopted to combat organized
crime in the 1960s. The strike-force concept brings SIGAR, law enforce-
ment partners, and prosecutors together to focus their highly specialized
investigative and prosecutive skills in a coordinated manner. The system
maximizes the expertise of each participating agency while eliminat-
ing most jurisdictional disputes. The strike-force practice of having a
small group of highly specialized prosecutors working side-by-side with




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012           43
SIGAR OVERSIGHT ACTIVITIES




experienced investigators has proven to be a highly effective investigative
approach to combating reconstruction fraud.
   SIGAR and seven other federal law enforcement agencies coordinate
through the International Contract Corruption Task Force (ICCTF) in
Afghanistan. Other agencies in the ICCTF include the Federal Bureau
of Investigation (FBI); the Inspectors General of USAID, DoS, and
DoD; and the Army Criminal Investigation Command (CID), Naval
Criminal Investigative Service (NCIS), Defense Criminal Investigative
Service (DCIS), and the U.S. Air Force’s Office of Special Investigations
(USAF-OSI). ICCTF members work cases in collaboration to leverage
resources. SIGAR has more investigators stationed in Afghanistan than
all the other agencies combined.
   Building cases in Afghanistan is only the first step to bringing indi-
viduals and companies charged with fraud or corruption to justice. They
also must be successfully prosecuted. SIGAR has hired three Special
Attorneys—SIGAR prosecutors, or SIG-PROs—to work as SIGAR employ-
ees detailed to the Fraud Section of the Justice Department. The SIG-PRO
initiative is a key element of the strike-force concept. It allows SIGAR pros-
ecutors to remain involved in virtually all SIGAR investigations, whether
in the District of Columbia, with Justice Department Headquarters, or in
local jurisdictions across the United States. Through the SIG-PROs, SIGAR
is currently pursuing prosecutions in 10 federal judicial districts and the
District of Columbia.

Working with Afghan Law Enforcement Bodies
to Hold Afghans Accountable
SIGAR investigators in Afghanistan face a conundrum. Under the “Afghan
First” policy, the United States is obliged to use Afghan contractors when-
ever possible. But in cases where these Afghan contractors prove corrupt,
the United States has no legal authority over them. To combat Afghan cor-
ruption, SIGAR has developed a strategy of partnering with Afghan law
enforcement bodies whenever possible. SIGAR recognizes that there is a
risk in working with potentially corrupt Afghan law enforcement bodies,
but believes that such collaboration is the best way to ensure that Afghans
who commit fraud related to U.S.-funded reconstruction contracts are held
accountable, and to gain information regarding bribery and corruption
involving U.S. persons and companies.
   This quarter, SIGAR initiated an investigation into an Afghan company
in Kabul alleged to be offering U.S. military personnel bribes in return for
contract considerations. An undercover ICCTF agent met with two Afghan
businessmen who paid the agent $5,000 cash to steer contracts to their com-
pany. SIGAR and the Afghan Attorney General’s office investigated the case
jointly. The Afghan authorities arrested the two businessmen as they deliv-
ered the cash. SIGAR is pursuing a number of Afghan targets for large-scale




  44                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




bribery, fraud, and corruption involving U.S. personnel and U.S.-funded
contracts. Primarily because of its investigators’ longer-term and more
dispersed presence in Afghanistan, SIGAR has more success than many
U.S. law enforcement agencies in working with the Afghan law enforcement
and the Attorney General’s Office in the area of bribery and corruption.

Preventing Bad Contractors from Being Awarded Contracts
SIGAR has also developed one of the most aggressive and effective suspen-
sion-and-debarment program in the federal government to prevent corrupt
and poorly performing contractors from obtaining reconstruction contracts
in Afghanistan. SIGAR’s program has proposed and referred 206 individuals
and companies for suspension or debarment to date. SIGAR works closely
with the Department of Commerce and the U.S. military’s Task Force 2010
to pursue and support suspension and debarment of individuals and com-
panies alleged to be providing support to insurgents or other illegal groups
in Afghanistan. SIGAR has recommended the suspension or debarment of
43 individuals associated with the Afghan insurgency to prevent them from
benefiting from U.S. reconstruction investments in Southwest Asia. The
agency is seeking the independent authority to suspend and debar contrac-
tors. For more information see pages 23–24.

Outreach Programs
As part of a sustained effort to detect and deter waste, fraud, and abuse,
SIGAR conducts a variety of outreach and educational activities throughout
Afghanistan. Investigators conduct fraud awareness briefings throughout
Afghanistan with U.S. military and civilian officials responsible for awarding
and monitoring U.S.-funded reconstruction contracts. SIGAR advertises its
hotline—featured prominently on the English, Dari, and Pashto versions of
the SIGAR website—to make sure that potential whistleblowers know they
have a place to report allegations of fraud.

Investigative Results
During this reporting period, SIGAR investigations led to four arrests in the
United States and Afghanistan, three federal charges and one indictment
against four current or former U.S. military, a federal charging against a
DoD contractor, and one conviction of a former U.S. Army chief warrant
officer. SIGAR agents seized fuel assets and cash valued at $87,000. They
also helped to terminate the contract of an Afghan company providing
support to the ANA Medical Service, saving the U.S. government $1.5 mil-
lion. SIGAR also issued an investigative report to help DoS and USAID
avoid contracting with individuals and entities supporting the insurgency
in Afghanistan. This quarter SIGAR opened 55 new investigative cases and
closed 28, bringing the total number of open cases to 215. Of these, SIGAR
is the lead investigative agency for 166 cases. In the coming quarter SIGAR




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012             45
SIGAR OVERSIGHT ACTIVITIES




is planning to forward two dozen cases, initiated in Afghanistan, to its U.S.-
based agents to develop for prosecution by SIG-PROs in Washington, D.C.
and other districts throughout the United States .

$1.5 Million in Reconstruction Monies Saved
A $1.75 million contract for a clinical engineering support program to
assist the ANA Medical Service was terminated for non-performance fol-
lowing a SIGAR investigation. The termination resulted in a $1.5 million
cost savings for the U.S. government. Afghan Royal First Logistics (ARFL)
had contracted to install, calibrate, and certify biomedical equipment for
the ANA. The equipment included anesthesia machines, X-ray machines,
ventilators, defibrillators, and EKG/ECG machines. The contractor was
also supposed to perform scheduled maintenance and repair of the equip-
ment. SIGAR’s previous ANA hospital investigations had documented that
medical equipment often was not maintained. Therefore, SIGAR worked
closely with military contracting offices and the military’s Medical Service
Corps to monitor the new contract’s performance from the outset. SIGAR
reviewed the company’s contract proposal and dozens of other documents.
The agency determined that ARFL did not appear to have the requisite
technical expertise to comply with the contract. SIGAR made sure the
contracting officer representatives were aware of the issues with ARFL.
The company was never able to meet all mobilization requirements and
failed to perform the services specified in the contract. On July 19, 2012, a
stop-work order was issued. On August 2, 2012, the contract was modified
to de-obligate 11 months of funding, thereby saving the U.S. government
$1.5 million.

U.S. Army Staff Sergeant Charged with Smuggling $1 Million
On September 21, 2012, a U.S. Army staff sergeant was charged in the
Eastern District of North Carolina with attempting to smuggle about $1 mil-
lion in cash from Afghanistan to the United States. The cash was concealed
in DVD recorders. In 2010, SIGAR initiated the investigation that led to Staff
Sergeant Tonya Long Keebaugh’s arrest after receiving information that the
U.S. government was paying Afghan trucking companies for deliveries that
never took place. Keebaugh had been deployed in January 2008 to Kandahar
Airfield as a transportation management coordinator with the 189th Combat
Sustainment Battalion, XVIII Airborne Corps. Her job was to coordinate
transportation convoy efforts and services for the U.S. military. Keebaugh
conspired to falsify transportation movement requests causing additional
payments to be made to two Afghan trucking companies. In return, the two
trucking companies allegedly provided kickbacks to Keebaugh and others
who worked with her. The staff sergeant, who also performed duties as a
customs inspector, then hid approximately $1 million in cash received from
the kickbacks inside numerous DVD recorders loaded for shipment back to




  46                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
            SIGAR OVERSIGHT ACTIVITIES




the United States. Keebaugh was charged with aiding and abetting others to
illegally ship currency as well as with concealing the money.

U.S. Army Sergeant Pleads Guilty to
Theft and Smuggling of $100,000
On September 11, 2012, a U.S. Army sergeant pled guilty in the Eastern
District of North Carolina to two counts of theft of U.S. government
funds as well as bulk cash smuggling. SIGAR, together with CID, the FBI,
and DCIS, initiated the ICCTF investigation that resulted in the arrest of
Sergeant Nancy Nicole Smith on September 9, 2012. Sergeant Smith had
been a disbursing agent with sole access to funds kept in her office safe
at the 230th Financial Management Company in Bagram, Afghanistan. A
routine military audit in May 2010 revealed that she altered documenta-
tion in an attempt to hide or steal $40,000. Investigators later learned that
Smith had changed another document to facilitate the theft of an additional
$60,000, for a total loss of $100,000 to the U.S. government. She admitted to
SIGAR agents that she withdrew the money from the safe without proper
authorization, placed it in a backpack, and took it to the United States on
February 15, 2010, at the end of her overseas tour.

Former U.S. Army Chief Warrant Officer
Convicted in Bribery Scheme
On September 27, 2012, a former U.S. Army chief warrant officer was
convicted of conspiracy in the Eastern District of Virginia for his role in
a bribery/kickback scheme in Afghanistan. SIGAR conducted the inves-
tigation of Chief Warrant Officer Franz Robinson, who was deployed
to Afghanistan in February 2011 and placed in charge of overseeing the
construction of a facility for the ANA. In June 2011, Robinson solicited a
$60,000 bribe from several Afghan construction companies in exchange for
allowing them to improperly use U.S. government heavy equipment and
materials to build the facility. He negotiated an initial payment of $30,000
for the use of a dump truck, an excavator, a forklift, a grader, and two types
of wire. He directed that the money be paid to his interpreter on his behalf.
Robinson later confirmed that he had received the money from the inter-
preter, but investigators in Afghanistan were never able to recover the cash.
On July 9, 2011, Robinson was arrested by FBI agents as he arrived in the
United States from Afghanistan. He subsequently pled guilty to conspiracy
to knowingly convert the money of another for an unauthorized use while
serving as an officer or employee of the United States. He was sentenced to
three years’ probation and ordered to pay $30,000 in restitution.

U.S. Contractor Charged with Bribery
On September 28, 2012, a U.S. contractor was charged with one count of
bribery in connection with a scheme by Afghan contractors to charge the




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012             47
SIGAR OVERSIGHT ACTIVITIES




U.S. government for phantom trucking services. SIGAR conducted the
investigation of Diyana Montes, who was employed by Kellogg, Brown,
and Root from April to December 2008. The firm had been hired to assist
the U.S. Army’s Movement Control contract with local Afghan trucking
companies to transport U.S. military equipment and supplies throughout
Afghanistan. Under the established system, each time a trucking company
made a trip, it filed a transportation movement request (TMR). Montes’s job
was to collect the TMRs from the contractors and reconcile any discrepan-
cies between the amount of service actually rendered and the amount billed
by the contractor. After she approved the TMRs, they would be passed on to
U.S. contracting personnel for payment. Starting around May 2008, Montes
passed TMRs on for payment that she knew to be false. In return she
received some $50,000 in cash and wire transfers from a trucking company.

U.S. Army Sergeant Arrested on
Conspiracy and Theft Charges
In July 2012, a U.S. Army sergeant first class was arrested after a SIGAR
initiative to review and analyze postal money order purchases by per-
sonnel deployed in Afghanistan identified him and another soldier as
being involved in suspicious monetary transactions. Sergeant First Class
Mauricio Espinoza and Staff Sergeant Philip Stephen Wooten were both
assigned to the 7th Special Forces Group based at Fort Bragg, North
Carolina, when they allegedly stole about $225,000 in U.S. funds earmarked
for the reconstruction effort. According to his indictment, Espinoza was
deployed to Afghanistan as a paying agent, while Wooten was responsible
for contracting with local vendors. Between July 2009 and April 2010, the
two conspired to steal funds meant for Afghan contractors and falsified
payment receipts to cover up the scheme. In some instances, they inflated
bids for civil works projects that were submitted to the finance office for
approval. Once the bids were approved, Espinoza and Wooten paid the
vendor less than the approved amount and pocketed the difference for
themselves. Later they converted the money into U.S. dollars and shipped
some of it back to the United States via postal money orders. Wooten pled
guilty on December 13, 2011, to two counts of conspiracy and theft of gov-
ernment property. Espinoza was arrested on July 20, 2012, and charged
with the same violations.

Two Afghan Contractors Arrested for Bribery
On September 23, 2012, SIGAR agents, together with ICCTF member
agencies and the Afghan Attorney General’s Office, arrested two Afghan
citizens in Kabul as they attempted to bribe a USACE contracting officer.
Wahidullah Matun and Navidullah Matun were arrested as they delivered
$5,000 in cash to an undercover SIGAR special agent posing as the USACE
contracting officer. The suspects had solicited USACE employees by email,




  48                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
             SIGAR OVERSIGHT ACTIVITIES




offering them bribes in exchange for USACE contracts. Eventually they
revealed that they represented the Navid-Basir Construction Company. The
Afghan Attorney General’s office worked jointly with SIGAR investigators
on the case, illustrating the strength of SIGAR’s relationship with local law
enforcement in Kabul.

Novel Smuggling Technique Thwarted
On June 22, 2012 SIGAR agents and other members of the ICCTF inves-
tigating fuel theft seized $23,000 in cash sewn inside a toy teddy bear. A
sergeant with the U.S. Army 7th Special Forces Group in Kandahar had
planned to mail the teddy bear, stuffed with cash, to the United States. The
sergeant claimed to be returning money given to him to purchase carpets in
Afghanistan, but could not explain why he had hidden it inside the toy bear.
The sergeant was transferred to the United States in August 2012; SIGAR is        A U.S. Army sergeant attempted to
investigating the source of the funds.                                            smuggle $23,000 by sewing it inside a toy
                                                                                  teddy bear. (U.S. Army CID, Kabul, photo)
Contracting with the Enemy
On October 17, 2012, SIGAR wrote to senior United States military and
political leaders, including Secretary of State Hillary Clinton and USAID
Administrator Rajiv Shah, to warn them to avoid awarding any contracts,
grants, or cooperative agreements to 20 contractors found to be support-
ing the insurgency in Afghanistan. SIGAR noted that in memoranda dated
July 24, 2012, and September 17, 2012, CENTCOM commander General
James N. Mattis advised DoD heads of contracting to avoid contracting with
20 individuals and entities found to be “actively supporting an insurgency”
under the authority granted in Section 841 of the Fiscal Year 2012 National
Defense Authorization Act. While DoS and USAID use many of the same
contractors as DoD, they did not receive notice of the list. SIGAR had taken
steps to initiate government-wide debarment of the 20 individuals and
entities, but while the agency awaited action, it sought to alert other agen-
cies to the danger. SIGAR recommended that that the U.S. Ambassador to
Afghanistan and the USAID Mission Director/Kabul take immediate steps
to disseminate General Mattis’s memoranda to their agencies’ contracting
officers. It also recommended that CENTCOM develop a process for keep-
ing civilian and military leaders and their contracting officers in Afghansitan
informed of any new identifications under Section 841.

SIGAR Aggressively Refers Corrupt Contractors
for Suspension and Debarment
This quarter, SIGAR’s suspension and debarment program referred
60 individuals and companies for suspension or debarment, bringing the
total number of SIGAR referrals to 206, including 101 individuals and
105 companies. (See Figure 2.3 on the following page) The 60 referrals
include 43 individuals and companies identified as having supported




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012              49
SIGAR OVERSIGHT ACTIVITIES




FIGURE 2.3

SIGAR INVESTIGATIONS: CUMULATIVE REFERRALS FOR SUSPENSION AND DEBARMENT,
Q2 FY 2011–Q4 FY 2012

250

200

150


100

 50

   0
             Q2              Q3             Q4            Q1            Q2        Q3        Q4
          FY 2011         FY 2011        FY 2011       FY 2012       FY 2012   FY 2012   FY 2012

Source: SIGAR Investigations Directorate, 10/8/2012.




terrorist groups. At the end of September 2012, SIGAR referrals had
resulted in a total of 41 suspensions, 85 proposals for debarment, and 46
finalized debarments of individuals and companies engaged in U.S.-funded
reconstruction projects.
   Suspensions and debarments are actions taken by U.S. agencies to
exclude companies or individuals from receiving federal contracts or
assistance because of misconduct. SIGAR makes its referrals to imple-
menting agencies based on completed investigations. SIGAR depends on
these agencies to make the final decisions to suspend or debar an indi-
vidual or a company.
   As Special Inspector General John F. Sopko testified to Congress in
September 2011, SIGAR is seeking independent authority to suspend and
debar contractors because of lengthy delays between referral and offical deci-
sion when cases are referred to other agencies. (See pages 23–24 for more
information.) A SIGAR review found it takes an average of 323 days from the
time SIGAR refers a case to the date an implementing agency makes a final
decision. Just getting cases reviewed takes time: as of October 4, 2012, SIGAR
had 19 referrals for suspension and 55 referrals for debarment awaiting
action by the Department of the Army. All of them had been pending review
for more than 30 days. Three had been awaiting action for over 90 days. An
additional 29 referrals from SIGAR for debarment were awaiting action by
USAID. All of them had been pending review for more than 90 days.




   50                           SPECIAL INSPECTOR GENERAL        I    AFGHANISTAN RECONSTRUCTION
                     SIGAR OVERSIGHT ACTIVITIES




SIGAR Program Addresses Unique Afghan
Contracting Environment
SIGAR’s suspension and debarment program addresses three challenges
posed by U.S. policy and the contingency contracting environment in
Afghanistan: the need to act quickly, the limited U.S. jurisdiction over
Afghan nationals and Afghan companies, and the vetting challenges inher-
ent in the use of multiple tiers of subcontractors. SIGAR continues to look
for ways to enhance the U.S. government’s responses to these challenges
through the innovative use of information resources and investigative
assets in Afghanistan and the United States.
   During the most recent quarter, the agency provided referrals to the
Department of the Army of 43 individuals and companies identified as
having actively supported insurgent groups, including the Taliban, the
Haqqani Network, and affiliates of al-Qaeda. (See Table 2.1) In the past,
suspension and debarment officers were not able to make such referrals
because they would have been forced to rely on classified information. But
TABLE 2.1


43 REFERRED FOR SUPPORTING AFGHAN INSURGENTS*
 Name                                                              Name
 Khalil Zadran                                                     Assadullah Majed
 Afghan-German Construction Company                                Caravan International
 Haji Khalil Construction Company                                  Fazal Rahim Farid
 Heim German Afghan Khalil Company                                 Farzad Fazil Karim
 Heim-German Afghan-Hkcc Joint Venture                             Hanif Computer Zone
 German Afghan & Khalil Construction Joint Venture                 Habib Ur Rahman
 Khalil Zadran Company                                             Iqara Computer Products
 Haji Khalil Zadran Pvt. Ltd.                                      Kusrhid Ghoura
 Green Land Star Construction Co.                                  Lapcom Computer Stores
 Survey And Designing Company                                      Muhammad Halim Ghoura
 Onyx Construction Company                                         Ologh Beg International Forwarders, Ltd.
 Triangle Technologies                                             Qazi Abdullah
 Feroz Khan                                                        Sa’id Jan ‘Abd-Al-Salam”
 Al Maskah Used Car And Spare Parts                                Arvin Kam Group Llc
 Zurmat Construction Company                                       Arvin Kam Construciton Company
 Zurmat Foundation                                                 Arvin Kam Group Security
 Zurmat Group Of Companies                                         Arvin Global Logistics Services Company
 Zurmat Material Testing Laboratory                                Arvin Kam Group Foundation
 Zurmat General Trading                                            Vakil Saadat
 Ibrahim Haqqani                                                   Haji Mohammad Almas Khan
 Jalauddin Haqqani                                                 Haji Khalil Fruzi
 Abdul Satar Ghoura

*Many of the individuals and entities on the list use multiple aliases.




REPORT TO THE UNITED STATES CONGRESS                           I   OCTOBER 30, 2012                           51
SIGAR OVERSIGHT ACTIVITIES




now that U.S. Forces Afghanistan’s Task Force 2010 and the Department
of Commerce’s Bureau of Industry and Security are able to issue SIGAR
unclassified findings of determinations of support to insurgents under
Section 841 of the National Defense Authorization Act of 2012 and the
Department of Commerce’s Entity List, SIGAR is able to use these findings
as the basis for referrals for debarment.
   The task force and the bureau provide the debarring official with the
classified materials that are the underlying evidence for these findings so
that the official can make referrals with confidence that the individuals and
companies being referred have been vetted and are indeed supporters of
insurgent elements.
   These referrals were the subject of congressional testimony by the Special
Inspector General during the past quarter and SIGAR intends to make many
more referrals based on Section 841 and the Entity List in the future.
   This quarter also saw the suspensions of two large, poorly perfoming
contractors, All Points International Distributors Inc. (API), and Hercules
Global Logistics. API’s owners, Robert Schroeder and James Cipolla, were
also suspended.
   API failed to pay approximately $155,000 owed to an Afghan subcon-
tractor despite receiving $617,000 in payments from the U.S. government.
The company also failed to deliver an aircraft-maintenance shelter to the
Combined Joint Special Operations Task Force-Afghanistan (JSOTF-A).
SIGAR made multiple requests for API to meet its obligations to no avail
before referring it to the Department of the Army for suspension. On August
3, 2012, the New Jersey Attorney General’s Office arrested Schroeder and
charged him with writing nearly $400,000 in bad checks from his business
accounts, including those of API, to investors as part of an alleged Ponzi
scheme. Based on SIGAR’s efforts to suspend API, Schroeder, and their
affiliates, SIGAR investigators are actively cooperating with the New Jersey
State Police to provide prosecutors with materials that could be used to
support the criminal case against Schroeder.


SIGAR BUDGET
Since SIGAR’s creation in 2008, Congress has appropriated $116.1 million
to cover the organization’s operating expenses through fiscal year 2012.
(See Table 2.2) Currently, SIGAR is operating under a Continuing
Resolution Authority through March 27, 2013. The Continuing
Appropriations Act for FY 2013 (P.L. 112-175) provides SIGAR with
operational funding at the FY 2012 appropriated level of $44.4 million.
SIGAR has recently submitted its FY 2014 budget request to OMB for the
President’s review and approval.




  52                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                    SIGAR OVERSIGHT ACTIVITIES




TABLE 2.2


SIGAR FUNDING SUMMARY ($ MILLIONS)
 Appropriation                                                                                                    Public Law               Amount
 H.R. 2642, Supplemental Appropriations Act, 2008                                                                 P.L. 110-252         	2.0
 H.R. 2642, Supplemental Appropriations Act, 2008                                                                 P.L. 110-252         	5.0
 H.R. 2638, Consolidated Security, Disaster Assistance, and Continuing Appropriations Act, 2009                   P.L. 110-329         	9.0
 H.R. 2346, Supplemental Appropriations Act, 2009                                                                 P.L. 111-32          	7.2
 H.R. 2346, Supplemental Appropriations Act, 2009                                                                 P.L. 111-32          	(7.2)a
 H.R. 3288, Consolidated Appropriations Act, 2010                                                                 P.L. 111-117         	23.0
 H.R. 4899, Supplemental Appropriations Act, 2010                                                                 P.L. 111-212         	7.2
 H.R. 1473, Department of Defense and Full-Year Continuing Appropriations Act, 2011                               P.L. 112-10          	25.5
 H.R. 2055, Consolidated and Further Continuing Appropriations Act, 2012                                          P.L. 112-74          	44.4
 Total                                                                                                                                 	116.1

Note:
a Congress rescinded $7.2 million of funds made available for SIGAR in 2009 (Title XI in P.L. 111-32) and then made them available again—through
September 30, 2011—in P.L. 111-212 in 2010.



SIGAR STAFF
This quarter, Special Inspector General Sopko announced the arrivals of
Gene Aloise as Deputy Inspector General and John Arlington as SIGAR’s
new General Counsel. Aloise came to SIGAR from the Government
Accountability Office (GAO), where he served 38 years, most recently
as director of the U.S. and International Nuclear Security and Cleanup
Team. Arlington is a lawyer who has represented the United States in
large corporate litigation, served as chief counsel to two Congressional
committees, and spent over 10 years in the property and casualty insur-
ance industry. Altogether, SIGAR increased its staff to 175 federal
employees in FY 2012. SIGAR also extended offers of employment that
would bring the total number of full-time staff to 185 by the end of
October 2012.
   Because of the need for increased oversight, DoS this quarter
approved SIGAR’s request for eight additional positions at U.S. Embassy
Kabul, bringing the total to 41. SIGAR also has 16 staff at locations
outside of U.S. Embassy Kabul. SIGAR has staff members stationed at
locations including Kandahar and Bagram airfields, Camp Leatherneck,
forward operating base Salerno, United States Forces-Afghanistan head-
quarters in Kabul, and the U.S. Consulate in Herat. SIGAR employs four
Afghan nationals in its Kabul office to support investigations and audits.
In addition, SIGAR supports its work with staff assigned to short-term
temporary duty in Afghanistan. This quarter, SIGAR personnel made 28
temporary duty trips to Afghanistan totaling 301 person-days.




REPORT TO THE UNITED STATES CONGRESS                        I   OCTOBER 30, 2012                                      53
 “For more than a decade, Americans
and Afghans have worked side-by-side
to help the Afghan people build a more
 stable and secure future. … This has
 been a tremendous shared effort. It’s
      also been very challenging.”
  —Secretary of State Hillary Rodham Clinton




           Source: DoS, Secretary of State Hillary Rodham Clinton, opening remarks at the first session of the U.S.-Afghanistan Bilateral
           Commission, October 3, 2012.
3   RECONSTRUCTION
    UPDATE




        55
                                               CONTENTS

                                               Reconstruction Update	             57
                                               Status of Funds	                   60
                                               Quarterly Highlight	               74
                                               Security	76
                                               Governance	100
                                               Economic and Social Development	   126




Photo on previous page
Afghan children sing their national anthem in a school
near Bamyan. (U.S. Army photo)
                  RECONSTRUCTION UPDATE




OVERVIEW
Section 3 presents updates on accomplishments, challenges, and initiatives
in Afghanistan reconstruction to provide context for oversight. Sidebars
identify SIGAR audits, completed and ongoing, relating to those efforts.
Cross-references to Section 1 point to more detail.
    SIGAR presents the data in this section in compliance with Public Law
110-181, which mandates that each of SIGAR’s quarterly reports to Congress
on reconstruction activities in Afghanistan include, among other things:
 •	 obligations and expenditures of appropriated funds
 •	 discussions of U.S. government entities’ contracts, grants, agreements,
    or other mechanisms
 •	 funds provided by foreign nations or international organizations to
    programs and projects funded by U.S. government entities


TOPICS
This section has four subsections: Status of Funds, Security, Governance,
and Economic and Social Development.
   The Status of Funds subsection describes monies appropriated, obli-
gated, and disbursed for Afghanistan reconstruction, including U.S. funds
and international contributions.
   The organization of the other three subsections mirrors the three pillars
in the Prioritization and Implementation Plan developed in an international
conference in July 2010 and announced by the Afghan government.
   The Security subsection describes U.S. efforts to bolster the Afghan
National Security Forces (the Army and Police), the transition away from
private security contracting, and the battle against the narcotics trade.
   The Governance subsection provides an overview of the Afghan govern-
ment’s progress toward good governance through capacity-building efforts,
rule of law initiatives, and human rights recognition. This subsection also
describes the status of reconciliation and reintegration, Afghan government
control in various provinces, and initiatives to combat corruption.
   The Economic and Social Development subsection looks at reconstruc-
tion activities by sectors like energy, mining, and health. It provides a snapshot




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012                 57
                                                                                     57
RECONSTRUCTION UPDATE




of the state of the economy and updates on progress in regulating financial
networks, achieving fiscal sustainability, and delivering essential services.


METHODOLOGY
Section 3 was compiled from open-source and U.S. agency data.
Attributions appear in endnotes or notes to tables and figures. Multiple
organizations provide data, so numbers may conflict. SIGAR has not verified
data other than that in its own audits or investigations. Information from
other sources does not necessarily reflect SIGAR’s opinion. For details on
SIGAR audits and investigations this quarter, see Section 2.

Data Call
The data call is a series of questions directed to U.S. agencies about their
contributions and involvement in reconstruction programming, and the
state of affairs in Afghanistan. U.S. agencies responding to the latest
data call include the Departments of State, Defense, Transportation, and
Treasury, and the U.S. Agency for International Development. Responding
agencies received a preliminary draft of this section so they could verify
and comment on specific data they provided for this quarterly report.

Open-Source Research
Open-source research draws on the most current, publicly available data
from reputable sources. Sources used include the U.S. agencies represented
in the data call, the International Security Assistance Force, the United
Nations (and relevant branches), the International Monetary Fund, the
World Bank, and Afghan ministries and other government organizations.




  58                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GRAPHICS KEY




UNDERSTANDING THE GRAPHICS AND DATA TERMS
All figures and tables report data for this quarter, except where identified in titles or notes.
         ASFF      CERP DoD CN   ESF      INCLE



BAR CHARTS
        DoD                      USAID     DoS                        UNITS IN BILLIONS AND MILLIONS
This report discusses many funds and projects with                    Because this report details funding in both billions
dollar values ranging from millions to billions. To                   and millions of dollars, it uses a visual cue to distin-
provide an accurate graphical representation of these                 guish the two measurement units. Dollars reported in
numbers, some bar graphs appear with a break (a                       billions are represented in blue, and dollars reported
wavy line) to indicate a jump between zero and a                      in millions are depicted in green.
larger number.
          ASFF


     $500          DoD                 $200

     $450
                                       $150
     $400
                                       $100
     $350
                   CERP
                                         $50
                                                                             Pie chart in billions        Pie chart in millions

        $0         DoD                    $0

             Bar chart with a                  Bar chart without
                                                                      CALENDAR AND SOLAR YEARS
              break in scale                   a break in scale
                                                                      Afghanistan follows the solar Hejri calendar, which
                                                                      began in 622 A.D. in the Gregorian calendar. SIGAR
                                                                      converts Hejri solar years to Gregorian equivalents.
FUNDING MARKERS
             DoD CN
                                                                      The current Afghan solar year (SY) is 1391. It began
Funding markers identify individual funds dis-                        on March 21, 2012, and ends on March 20, 2013.
cussed in the text. The agency responsible for                        The Afghan government’s fiscal year has been the
managing the fund
                DoD is listed in the tan box below                    solar year, but the current fiscal year will run only
the fund name.                                                        from March 21, 2012, to December 20, 2012. This
                                                                      one-time, nine-month fiscal year accommodates the
                                                                      Afghan government’s upcoming change to a fiscal
                                                                      year that runs from December 21 to December 20.
                                 ESF

                                                                            2012                          2013
                                 USAID                                       • • • • • • • • •
                                                                                    1391                          1392



                                          INCLE



                                           DoS
REPORT TO THE UNITED STATES CONGRESS           I   OCTOBER 30, 2012             59
CONTENTS

U.S. Reconstruction Funding
for Afghanistan	                       62
Afghanistan Security Forces Fund	      64
ASFF Budget Activities	                65
Commander’s Emergency
Response Program	                      66
Afghanistan Infrastructure Fund	       67
Task Force for Business and
Stability Operations	                  68
DoD Drug Interdiction and
Counter-Drug Activities	               69
Economic Support Fund	                 70
International Narcotics Control
and Law Enforcement 	                  71
International Reconstruction Funding
for Afghanistan	                       72




  60
                                                           STATUS OF FUNDS




STATUS OF FUNDS
To fulfill SIGAR’s legislative mandate, this section details the status of
U.S. funds appropriated, obligated, and disbursed for reconstruction
activities in Afghanistan. As of September 30, 2012, the United States had
appropriated approximately $88.56 billion for relief and reconstruction in
Afghanistan since FY 2002. This total has been allocated as follows:
•	 $51.15 billion for security
•	 $22.33 billion for governance and development
•	 $6.01 billion for counter-narcotics efforts
•	 $2.45 billion for humanitarian aid
•	 $6.62 billion for operations and oversight
Figure 3.1 shows the major U.S. funds that contribute to these efforts.


FIGURE 3.1

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                       FUNDING SOURCES (TOTAL: $88.56)
                                                                                                                   ASFF: Afghanistan Security Forces Fund
                                                                                                                   CERP: Commander’s Emergency
       ASFF        CERP          AIF       TFBSO       DoD CN              ESF         INCLE           Other
                                                                                                                   Response Program
                                                                                                                   AIF: Afghanistan Infrastructure Fund
     $49.63        $3.44       $0.80        $0.56       $2.31             $14.95       $3.58         $13.30
                                                                                                                   TFBSO: Task Force for Business and
                                                       AGENCIES                                                    Stability Operations
                                                                                                                   DoD CN: DoD Drug Interdiction and
                                                                                    Department of   Distributed    Counter-Drug Activities
                  Department of Defense (DoD)                             USAID                     to Multiple
                                                                                     State (DoS)
                           $56.73                                         $14.95        $3.58        Agenciesa     ESF: Economic Support Fund
                                                                                                      $13.30       INCLE: International Narcotics Control and
                                                                                                                   Law Enforcement
Note: Numbers affected by rounding.                                                                                Other: Other Funding
a   Multiple agencies include DoJ, DoS, DoD, USAID, Treasury, and USDA.
Sources: DoD, responses to SIGAR data call, 10/22/2012, 10/19/2012, 10/18/2012, 10/17/2012, 10/3/2012,
7/18/2012, 10/14/2009, and 10/1/2009; DoS, responses to SIGAR data call, 10/19/2012, 10/11/2012, 10/5/2012
and 6/27/2012; Treasury, response to SIGAR data call, 10/10/2012; OMB, response to SIGAR data call, 7/27/2012;
USAID, responses to SIGAR data call, 10/2/2012, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR
data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011;
P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




    REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2012                       61
                                                                 STATUS OF FUNDS




                                                                 U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
 ASFF   CERP     AIF    TFBSO DoDCN    ESF    INCLE              As of September 30, 2012, cumulative appropriations for relief and recon-
                                                                 struction in Afghanistan totaled approximately $88.56 billion—a reduction
                                                                 of approximately $910 million from the amount reported last quarter due to
                DoD                   USAID DoS
                                                                 DoD’s reprogramming of $1 billion of FY 2011 Afghanistan Security Forces
                                                                 Fund (ASFF) to the Defense Working Capital Fund. Reconstruction funding
The amount provided to the seven major
                                                                 falls into five categories: security, governance and development, counter-
U.S. funds represents nearly 85% (nearly
$75.26 billion) of total U.S. reconstruction                     narcotics, humanitarian, and oversight and operations. Figure 3.2 displays
assistance to Afghanistan since FY 2002.                         cumulative appropriations by funding category from FY 2002 to FY 2012. For
Of ASFF
   this amount, more than 84.5% (nearly                          complete information regarding U.S. appropriations, see Appendix B.
$63.62 billion) has been obligated, and                             As of September 30, 2012, appropriations for Afghanistan relief and
nearly 72.2% (nearly $54.33 billion) has                         reconstruction for FY 2012 totaled almost $16.51 billion. These figures reflect
been disbursed.
            DoD The following pages provide                      amounts as reported by the respective agencies and amounts appropriated
additional details on these funds.

FIGURE 3.2

CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF SEPTEMBER 30, 2012 ($ BILLIONS)

$100
        CERP

 $95
 $90
                DoD
 $85                                                                                                                                                                    $88.56
 $80
 $75
 $70                                                                                                                                              $72.05
 $65
                            DoD CN
 $60
 $55
                                                                                                                            $56.24
 $50            DoD
 $45
 $40
                                                                                                      $39.59
 $35
 $30
 $25                                  ESF                                        $29.20

 $20                                                       $23.01
 $15
                                      USAID
 $10                                   $12.98
                 $9.50
   $5
   $0

               2002–2005                2006                2007                  2008                  2009                 2010                  2011                  2012
                                           INCLE
                       Security         Governance/Development            Counter-Narcotics           Humanitarian           Oversight and Operations           Total


Note: Numbers affected by rounding.
                                              DoS
Sources: DoD, responses to SIGAR data call, 10/22/2012, 10/19/2012, 10/18/2012, 10/17/2012, 10/3/2012, 7/18/2012, 10/14/2009, and 10/1/2009; DoS, responses to SIGAR data call,
10/19/2012, 10/11/2012, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 10/10/2012; OMB, response to SIGAR data call, 7/27/2012; USAID, responses to SIGAR data call,
10/2/2012, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-74, 12/23/2011; P.L. 112-10,
4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.

                AIF

                                                                    62                          SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                DoD
                                                         STATUS OF FUNDS




                                                                                                                           TABLE 3.1
in legislation. Nearly 55.3% of the $88.56 billion appropriated for relief and
                                                                                                                            FY 2012 APPROPRIATIONS AND
reconstruction since 2002 was appropriated in the last three fiscal years.                                                  OBLIGATIONS, AS OF SEPTEMBER 30,
Appropriations in these fiscal years range from $15.81 billion to $16.65 bil-                                               2012 ($ MILLIONS)
lion, as shown in Figure 3.3.                                                                                                                  Appropriated              Obligated
    At the close of FY 2012, only 29% of the FY 2012 funds appropriated to                                                   ASFF                $11,200                  $3,810
five of the largest reconstruction funds had been obligated. These funds                                                     CERP                    $400                  $117
had combined appropriations of more than $14.16 billion. Of this amount                                                      AIF                     $400                  $163
only $4.10 billion had been obligated, as shown in Table 3.1.                                                                ESF                  $1,837                      $0
                                                                                                                             INCLE                   $324                    $12
                                                                                                                             Total             $14,161                   $4,102
                                                                                                                           Note: Numbers affected by rounding.
                                                                                                                           Sources: DoD, responses to SIGAR data call, 10/22/2012,
                                                                                                                           10/19/2012, and 10/18/2012; DoS, response to SIGAR
FIGURE 3.3                                                                                                                 data call, 10/11/2012; USAID, response to SIGAR data call,
                                                                                                                           10/2/2012; P.L. 112-74, 12/23/2011.
APPROPRIATIONS BY FISCAL YEAR AND FUNDING CATEGORY ($ BILLIONS AND PERCENT)

                                                                                                                            $16.65                                        $16.51
$17
                                                                                                                                                  $15.81
$16

$15

$14

$13

$12

$11                                                                                                   $10.38
                                                          $10.03
                $9.50
$10

  $9

  $8

  $7                                                                             $6.19
  $6

  $5
                                      $3.49
  $4

  $3

  $2

  $1

  $0        2002–2005                 2006                   2007                2008                  2009                  2010                 2011                     2012




                     Security          Governance/Development              Counter-Narcotics          Humanitarian            Oversight and Operations           Total


Note: Numbers affected by rounding.
Sources: DoD, responses to SIGAR data call, 10/22/2012, 10/19/2012, 10/18/2012, 10/17/2012, 10/3/2012, 7/18/2012, 10/14/2009, and 10/1/2009; DoS, responses to SIGAR data call,
10/19/2012, 10/11/2012, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 10/10/2012; OMB, response to SIGAR data call, 7/27/2012; USAID, responses to SIGAR data call,
10/2/2012, 10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-74, 12/23/2011; P.L. 112-10,
4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2012                                  63
                                                       STATUS OF FUNDS
 ASFF    CERP   AIF    TFBSO DoDCN    ESF    INCLE




                DoD                  USAID DoS




                                                       AFGHANISTAN SECURITY FORCES FUND
  ASFF                                                 Congress created the Afghanistan Security Forces Fund (ASFF) to provide the
                                                       ANSF with equipment, supplies, services, and training, as well as facility and
                                                       infrastructure repair, renovation, and construction.20  The primary organization
                DoD                                    responsible for building the ANSF is the North Atlantic Treaty Organization
                                                       Training Mission-Afghanistan/Combined Security Transition Command-
ASFF FUNDS TERMINOLOGY                                 Afghanistan (NTM-A/CSTC-A).21 
DoD reported ASFF funds as available,                     This quarter, DoD reprogrammed $1 billion of FY 2011 ASFF funds to the
obligated, or disbursed                                Defense Working Capital Fund to help cover a $1.10 billion projected fund-
Available:
       CERPTotal monies available for                  ing shortfall for fuel costs related to DoD Overseas Contingency Operations.
commitments                                            The ASFF reduction lowers the total cumulative appropriations for the fund
Obligations: Commitments to pay monies                 to nearly $49.63 billion.22  As of September 30, 2012, nearly $42.04 billion of
                DoD                                    this amount had been obligated, of which nearly $36.51 billion had been dis-
Disbursements: Monies that have been
                                                       bursed.23  Figure 3.4 displays the amounts made available for the ASFF by
expended
                                                       fiscal year and Figure 3.5 provides a cumulative comparison.
Source: DoD, response to SIGAR data call, 4/13/2010.
                                                          DoD reported that cumulative obligations as of September 30, 2012,
                                                       increased by nearly $4.24 billion over cumulative obligations as of June 30,
                          DoD CN
                                                       2012. Cumulative disbursements as of September 30, 2012, increased by
                                                       more than $3 billion over cumulative disbursements as of June 30, 2012.24
                DoD                                    FIGURE 3.4                                                        FIGURE 3.5

                                                       ASFF APPROPRIATED FUNDS BY FISCAL YEAR                            ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                                      ($ BILLIONS)



                                                                                                                                               Appropriated
                                     ESF               $12.0                                                             $50.0                 $50.63                     Appropriated
                                                                                                                                                                          $49.63


                                     USAID             $10.0                                                             $45.0

                                                                                                                                                                           Obligated
                                                                                                                                                                           $42.04
                                                        $8.0                                                             $40.0
                                                                                                                                               Obligated
                                                                                                                                               $37.80                      Disbursed
                                             INCLE                                                                                                                         $36.51
                                                        $6.0                                                             $35.0
                                                                                                                                               Disbursed
                                                                                                                                               $33.50
                                             DoS        $4.0                                                             $30.0



                                                        $2.0                                                             $25.0
                AIF

                                                        $0.0                                                                $0
                                                               2005 06        07     08    09     10     11     12                As of Jun 30, 2012          As of Sept 30, 2012
                DoD
                                                       Notes: Numbers affected by rounding. DoD reprogrammed             Notes: Numbers affected by rounding. DoD reprogrammed
                                                       $1 billion of FY 2011 ASFF to the Defense Working Capital Fund.   $1 billion of FY 2011 ASFF to the Defense Working Capital Fund.
                                                       Sources: DoD, response to SIGAR data call, 10/18/2012;            Sources: DoD, responses to SIGAR data call, 10/18/2012 and
                                                       P.L. 112-74 12/23/2011; P.L. 112-10, 4/15/2011.                   7/16/2012; P.L. 112-74 12/23/2011; P.L. 112-10,
                                                                                                                         4/15/2011.
                      TFBSO



                DoD
                                                           64                             SPECIAL INSPECTOR GENERAL                I    AFGHANISTAN RECONSTRUCTION
                                                        STATUS OF FUNDS




ASFF BUDGET ACTIVITIES
DoD allocates funds to three budget activity groups within the ASFF:
•	 Defense Forces (Afghan National Army, ANA)
•	 Interior Forces (Afghan National Police, ANP)
•	 Related Activities (primarily Detainee Operations)

   Funds for each budget activity group are further allocated to four sub-                                                Budget Activity Groups: categories
activity groups: Infrastructure, Equipment and Transportation, Training and                                               within each appropriation or fund account
Operations, and Sustainment.25                                                                                            that identify the purposes, projects, or
   As of September 30, 2012, DoD had disbursed nearly $36.51 billion for the                                              types of activities financed by the appro-
ANSF. Of this amount, nearly $23.93 billion was disbursed for the ANA, and                                                priation or fund
more than $12.32 billion was disbursed for the ANP; the remaining nearly
$0.26 billion was directed to related activities.26                                                                       Sub-Activity Groups: accounting groups
   As shown in Figure 3.6, the largest portion of the funds disbursed for the                                             that break down the command’s disburse-
ANA—nearly $9.67 billion—supported Equipment and Transportation. Of                                                       ments into functional areas
the funds disbursed for the ANP, the largest portion—nearly $4.27 billion—
supported Sustainment, as shown in Figure 3.7.27 
                                                                                                                        Sources: DoD, “Manual 7110.1-M Department of Defense
                                                                                                                        Budget Guidance Manual,” accessed 9/28/2009; Department
                                                                                                                        of the Navy, “Medical Facility Manager Handbook,” p. 5,
FIGURE 3.6                                                   FIGURE 3.7                                                   accessed 10/2/2009.


ASFF DISBURSEMENTS FOR THE ANA                               ASFF DISBURSEMENTS FOR THE ANP
By Sub-Activity Group                                        By Sub-Activity Group
FY 2005–September 30, 2012 ($ BILLIONS)                      FY 2005–September 30, 2012 ($ BILLIONS)


                   Total: $23.93                                               Total: $12.32


                                                             Infrastructure                              Training and
Infrastructure                                                                  Equipment and
                     Equipment and                           $2.00                                       Operations
$3.48                                                                           Transportation
                     Transportation                                                                      $2.75
                     $9.67                                                      $3.31



                  Sustainment                                                 Sustainment
                  $8.44                                                       $4.27
                                            Training and
                                            Operations
                                            $2.34

Note: Numbers affected by rounding.                          Note: Numbers affected by rounding.
Source: DoD, response to SIGAR data call, 10/18/2012.        Source: DoD, response to SIGAR data call, 10/18/2012.




REPORT TO THE UNITED STATES CONGRESS                    I   OCTOBER 30, 2012                              65
                                                         STATUS OF FUNDS
   ASFF



                 DoD




                                                         COMMANDER’S EMERGENCY RESPONSE PROGRAM
          CERP                                           The Commander’s Emergency Response Program (CERP) enables
                                                         U.S. commanders in Afghanistan to respond to urgent humanitarian relief
                                                         and reconstruction requirements in their areas of responsibility by sup-
                 DoD                                     porting programs that will immediately assist the local population. Funding
                                                         under this program is intended for small projects expected to cost less than
CERP FUNDS TERMINOLOGY                                   $500,000 each.28 The Commander of U.S. Central Command must approve
OMB reported CERP funds as appropriated.                 projects estimate to cost more than $1 million; the Deputy Secretary
Appropriations: TotalDoD
                      monies available for               of Defense must approve CERP projects costing more than $5 million.
                         CN
commitments                                              Individual CERP-funded projects may not exceed $20 million.29 
                                                            As of September 30, 2012, the total cumulative funding for CERP totaled
DoD reported CERP funds as appropriated,
                                                         nearly $3.44 billion.30 DoD reported that nearly $2.28 billion of this had been
obligated, orDoD
              disbursed
                                                         obligated, of which more than $2.13 billion had been disbursed.31 Figure 3.8
Appropriations: Total monies available for               shows CERP appropriations by fiscal year.
commitments                                                 DoD reported that obligations as of September 30, 2012, increased by nearly
Obligations: Commitments to pay monies                   $59.68 million over cumulative obligations as of June 30, 2012. Disbursements
                                     ESF                 as of September 30, 2012, increased by more than $55.96 million over cumulative
Disbursements: Monies that have been
expended                                                 disbursements as of June 30, 2012.32 Figure 3.9 provides a cumulative compari-
                                                         son of amounts appropriated, obligated, and disbursed for CERP projects.
Sources: OMB, response to SIGAR data USAID
                                      call, 4/19/2010;
DoD, response to SIGAR data call, 4/14/2010.


                                                         FIGURE 3.8                                               FIGURE 3.9

                                                         CERP APPROPRIATIONS BY FISCAL YEAR                       CERP FUNDS, CUMULATIVE COMPARISON
                                                         ($ MILLIONS)                                             ($ BILLIONS)
                                            INCLE


                                                         $1,000                                                   $3.5               Appropriated             Appropriated
                                             DoS                                                                                     $3.44                    $3.44

                                                                                                                  $3.0
                                                          $800
                 AIF                                                                                              $2.5
                                                                                                                                     Obligated                Obligated
                                                                                                                                     $2.22                    $2.28
                                                          $600
                                                                                                                  $2.0
                 DoD                                                                                                                 Disbursed                Disbursed
                                                                                                                                     $2.08                    $2.13
                                                                                                                  $1.5
                                                          $400


                       TFBSO                                                                                      $1.0

                                                          $200
                                                                                                                  $0.5
                 DoD

                                                             $0                                                   $0.0
                                                                  2004 05 06 07 08 09 10 11 12                           As of Jun 30, 2012         As of Sept 30, 2012

                                                         Notes: Numbers affected by rounding.                     Notes: Numbers affected by rounding.
                                                         Sources: DoD, response to SIGAR data call, 10/19/2012;   Sources: DoD, responses to SIGAR data call, 10/19/2012
                                                         P.L. 112-74, 12/23/2011; OMB, P.L. 112-10, 4/15/2011.    and 7/16/2012; P.L. 112-74, 12/23/2011; OMB, response
                                                                                                                  to SIGAR data call, 5/30/2011; P.L. 112-10, 4/15/2011.




                                                             66                          SPECIAL INSPECTOR GENERAL         I     AFGHANISTAN RECONSTRUCTION
                                                                                                                                                                 USAID

                                                          STATUS OF FUNDS
                                                                                                                                                                         INCLE



                                                                                                                                                                          DoS



AFGHANISTAN INFRASTRUCTURE FUND
The National Defense Authorization Act for FY 2011 established the                                                                           AIF
Afghanistan Infrastructure Fund (AIF) to pay for high-priority, large-scale
infrastructure projects that support the U.S. civilian-military effort. Congress
intended for projects funded by the AIF to be jointly selected and managed                                                                  DoD

by DoD and DoS. Before obligating or expending funds on an AIF project, the
Secretary of Defense and Secretary of State are required to notify Congress                                                   AIF FUNDS TERMINOLOGY
on details of the proposed project, including a plan for its sustainment and a                                                DoD reported AIF funds as appropriated,
                                                                                                                                               TFBSO
                                                                                                                              obligated, or disbursed
description of how it supports the counter-insurgency strategy in Afghanistan.33 
   As of September 30, 2012, the AIF had been appropriated total cumulative                                                   Appropriations: Total monies available for
funding of $800 million. Of this amount, approximately $458.47 million had                                                    commitmentsDoD
been obligated, of which approximately $56 million had been disbursed. These                                                  Obligations: Commitments to pay monies
figures include AIF funds transferred to USAID to implement its FY 2011 AIF
                                                                                                                              Disbursements: Monies that have been
project.34 Figure 3.10 shows AIF appropriations by fiscal year.
                                                                                                                              expended
   DoD reported that cumulative obligations as of September 30, 2012,
increased by approximately $105.30 million over cumulative obligations as of                                                  Source: DoD, response to SIGAR data call, 4/13/2010.

June 30, 2012. Cumulative disbursements as of September 30, 2012, increased
by nearly $14.72 million over cumulative disbursements as of June 30, 2012.35
Figure 3.11 provides a cumulative comparison of amounts appropriated, obli-
gated, and disbursed for AIF projects.
FIGURE 3.10                                                     FIGURE 3.11

AIF APPROPRIATIONS BY FISCAL YEAR                               AIF FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                    ($ MILLIONS)




$800                                                            $800                Appropriated               Appropriated
                                                                                    $800.00                    $800.00




$600                                                            $600


                                                                                                               Obligated
                                                                                                               $458.70
$400                                                            $400
                                                                                    Obligated
                                                                                    $353.40



$200                                                            $200

                                                                                                               Disbursed
                                                                                    Disbursed
                                                                                                               $56.00
                                                                                    $41.28

  $0                                                              $0
                2011                       2012                        As of Jun 30, 2012          As of Sept 30, 2012

Notes: Numbers affected by rounding. FY 2011 figure includes    Notes: Numbers affected by rounding. FY 2011 figure
$101 million that was transferred to USAID to execute an AIF    includes $101 million that was transferred to USAID to
project.                                                        execute an AIF project.
Sources: DoD, response to SIGAR data call, 10/22/2012.          Sources: DoD, responses to SIGAR data call, 10/22/2012,
P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.                7/20/2012, and 7/18/2012; P.L. 112-74, 12/23/2011; P.L.
                                                                112-10, 4/15/2011.



REPORT TO THE UNITED STATES CONGRESS                      I    OCTOBER 30, 2012                                 67
                                            DoS

                                                       STATUS OF FUNDS
               AIF



              DoD



                                                       TASK FORCE FOR BUSINESS AND STABILITY OPERATIONS
                     TFBSO                             The Task Force for Business and Stability Operations (TFBSO) was estab-
                                                       lished in June 2006 and operated for several years in Iraq. In 2010, TFBSO
                                                       launched a program in Afghanistan to help stabilize the country by creating
              DoD                                      economic opportunities for Afghans. TFBSO projects include activities to
                                                       facilitate private investment, industrial development, banking and financial
TFBSO FUNDS TERMINOLOGY                                system development, agricultural diversification and revitalization, and
DoD reported TFBSO funds as appropriated,              energy development.36
obligated, or disbursed                                   For FY 2012, TFBSO received funding of nearly $241.82 million, bringing the
Appropriations: Total monies available for             total cumulative funding for the task force to more than $555.31 million.37 As of
commitments                                            September 30, 2012, nearly $523.79 million of this amount had been obligated,
Obligations: Commitments to pay monies                 of which nearly $264.13 million had been disbursed.38 Figure 3.12 displays the
                                                       amounts appropriated for TFBSO projects by fiscal year.
Disbursements: Monies that have been
                                                          DoD reported that obligations as of September 30, 2012, increased
expended
                                                       by nearly $94.70 million over cumulative obligations as of June 30, 2012.
Source: DoD, response to SIGAR data call, 4/13/2010.
                                                       Disbursements as of September 30, 2012, increased by more than
                                                       $68.15 million over cumulative disbursements as of June 30, 2012.39
                                                       Figure 3.13 provides a cumulative comparison of amounts made available,
                                                       obligated, and disbursed for TFBSO projects.


                                                       FIGURE 3.12                                              FIGURE 3.13

                                                       TFBSO APPROPRIATIONS BY FISCAL YEAR                      TFBSO FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                             ($ MILLIONS)




                                                       $250                                                     $600
                                                                                                                                    Appropriated
                                                                                                                                    $571.11                  Appropriated
                                                                                                                                                             $555.31

                                                       $200                                                     $480                                         Obligated
                                                                                                                                                             $523.79
                                                                                                                                    Obligated
                                                                                                                                    $429.10

                                                       $150                                                     $360


                                                                                                                                                             Disbursed
                                                       $100                                                     $240                                         $264.13
                                                                                                                                    Disbursed
                                                                                                                                    $195.97

                                                        $50                                                     $120



                                                         $0                                                        $0
                                                                2009         2010         2011        2012              As of Jun 30, 2012         As of Sept 30, 2012

                                                       Notes: Numbers affected by rounding.                     Notes: Numbers affected by rounding.
                                                       Sources: DoD, response to SIGAR data call, 10/03/2012;   Sources: DoD, responses to SIGAR data call, 10/02/2012
                                                       P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.         and 7/02/2012; P.L. 112-74, 12/23/2011; P.L. 112-10,
                                                                                                                4/15/2011.




                                                          68                           SPECIAL INSPECTOR GENERAL          I    AFGHANISTAN RECONSTRUCTION
                                                                                                                                               DoD




                                                          STATUS OF FUNDS
                                                                                                                                        CERP



                                                                                                                                               DoD




DOD DRUG INTERDICTION AND COUNTER-DRUG ACTIVITIES
DoD’s Drug Interdiction and Counter-Drug Activities fund (DoD CN) sup-                                                                                  DoD CN
ports efforts to stabilize Afghanistan by combating the drug trade. DoD uses
the DoD CN to support military operations against drug traffickers, expand
Afghan interdiction operations, and build the capacity of Afghan law                                                                           DoD
enforcement bodies with specialized training, equipment, and facilities.40
   Congress appropriates funds for DoD CN to a single line for all mili-                                                        DOD CN FUNDS TERMINOLOGY
tary services. DoD programs the funds from the Counter-narcotics Central                                                        DoD reported DoD CN funds as appropriated,
Transfer Account (CTA) to the military services and defense agencies, which                                                     obligated, or disbursed
                                                                                                                                                                    ESF
track obligations of the transferred funds. DoD reported DoD CN accounts                                                        Appropriations: Total monies available for
for Afghanistan as a single figure for each fiscal year.41                                                                      commitments
   As of September 30, 2012, DoD reported that DoD CN received more                                                             Obligations: Commitments toUSAID
                                                                                                                                                            pay monies
than $420.47 million for Afghanistan for FY 2012—a $4.51 million decrease
                                                                                                                                Disbursements: Monies that have been
from the amount reported last quarter. As of September 30, 2012, DoD CN
                                                                                                                                expended
had received total cumulative funding of nearly $2.31 billion since FY 2004.42
Figure 3.14 shows DoD CN appropriations by fiscal year, and Figure 3.15                                                         Source: DoD, response to SIGAR data call, 4/13/2010.
                                                                                                                                                                           INCLE
provides a cumulative comparison of amounts appropriated, obligated, and
disbursed for DoD CN projects.
                                                                                                                                                                            DoS


FIGURE 3.14                                                    FIGURE 3.15

DOD CN APPROPRIATIONS BY FISCAL YEAR                           DOD CN FUNDS, CUMULATIVE COMPARISON                                             AIF
($ MILLIONS)                                                   ($ BILLIONS)


                                                                                                                                               DoD
$450                                                           $2.3              Appropriated                Appropriated
                                                                                 and Transferreda            and Transferreda
                                                                                 $2.31                       $2.31
$400                                                           $2.2

$350                                                           $2.1                                                                                  TFBSO

$300                                                           $2.0
                                                                                                                                               DoD
$250                                                           $1.9

$200                                                           $1.8

$150                                                           $1.7

$100                                                           $1.6

    $50                                                        $1.5

     $0                                                          $0
          2004 05 06 07 08 09 10 11 12a                               As of Jun 30, 2012            As of Sept 30, 2012

Notes: Numbers affected by rounding.                           Notes: Numbers affected by rounding.
                                                               a DoD reprograms all funds to the military services and
a Updated data resulted in a lower appropriation figure
                                                               defense agencies for obligation and disbursment.
for FY 2012.
                                                               Source: DoD, responses to SIGAR data call, 10/17/2012
Source: DoD, response to SIGAR data call, 10/17/2012.
                                                               and 6/26/2012.




REPORT TO THE UNITED STATES CONGRESS                      I   OCTOBER 30, 2012                                  69
              DoD



                                                        STATUS OF FUNDS
                        DoD CN



              DoD




                                                        ECONOMIC SUPPORT FUND
                                    ESF                 Economic Support Fund (ESF) programs advance U.S. interests by helping
                                                        countries meet short- and long-term political, economic, and security needs.
                                                        ESF programs support counter-terrorism; bolster national economies; and
                                   USAID                assist in the development of effective, accessible, independent legal systems
                                                        for a more transparent and accountable government.43
ESF FUNDS TERMINOLOGY                                      As of September 30, 2012, USAID reported that the total cumulative fund-
USAID reported ESF funds as appropriated,               ing for the ESF amounted to more than $14.95 billion. Of this amount, more
obligated, or disbursed         INCLE                   than $12.80 billion had been obligated, of which more than $10.16 billion
Appropriations: Total monies available                  had been disbursed.44 Figure 3.16 shows ESF appropriations by fiscal year.
for commitments                                            USAID reported that cumulative obligations as of September 30, 2012,
                                            DoS         increased by nearly $1.10 billion over cumulative obligations as of June 30,
Obligations: Commitments to pay monies
                                                        2012. Cumulative disbursements as of September 30, 2012, increased by
Disbursements: Monies that have been
                                                        nearly $661.31 million over cumulative disbursements as of June 30, 2012.45
expended
                                                        Figure 3.17 provides a cumulative comparison of the amounts appropriated,
               AIF
Sources: OMB, response to SIGAR data call, 4/19/2010;
USAID, response to SIGAR data call, 4/15/2010.
                                                        obligated, and disbursed for ESF programs.

              DoD                                       FIGURE 3.16                                               FIGURE 3.17

                                                        ESF APPROPRIATIONS BY FISCAL YEAR                         ESF FUNDS, CUMULATIVE COMPARISON
                                                        ($ BILLIONS)                                              ($ BILLIONS)


                     TFBSO
                                                        $3.5                                                      $16

                                                                                                                                     Appropriated             Appropriated
              DoD                                                                                                                    $14.95
                                                        $3.0                                                                                                  $14.95
                                                                                                                  $14
                                                        $2.5
                                                                                                                                                              Obligated
                                                                                                                                                              $12.80
                                                        $2.0                                                      $12                Obligated
                                                                                                                                     $11.71

                                                        $1.5                                                                                                  Disbursed
                                                                                                                  $10                                         $10.16
                                                                                                                                     Disbursed
                                                        $1.0                                                                         $9.50


                                                                                                                   $8
                                                        $0.5


                                                          $0                                                       $0
                                                            2002 03 04 05 06 07 08 09 10 11 12                          As of Jun 30, 2012          As of Sept 30, 2012


                                                        Notes: Numbers affected by rounding.                      Notes: Numbers affected by rounding.

                                                        Sources: USAID, response to SIGAR data call, 10/2/2012.   Sources: USAID, responses to SIGAR data call, 10/2/2012
                                                                                                                  and 6/28/2012.




                                                            70                          SPECIAL INSPECTOR GENERAL          I     AFGHANISTAN RECONSTRUCTION
                                                                                                                                      DoD



                                                        STATUS OF FUNDS
                                                                                                                                                             ESF



                                                                                                                                                           USAID




INTERNATIONAL NARCOTICS CONTROL
AND LAW ENFORCEMENT                                                                                                                                                 INCLE
The U.S. Bureau of International Narcotics and Law Enforcement Affairs
(INL) manages the independent International Narcotics Control and Law
                                                                                                                                                                     DoS
Enforcement (INCLE) account to advance rule of law and combat narcotics
production and trafficking. INCLE supports several INL program groups,
including police, counter-narcotics, and rule of law and justice.46                                                     INL FUNDS TERMINOLOGY
   As of September 30, 2012, DoS reported that the total cumulative fund-                                               INL reported AIF
                                                                                                                                       INCLE and other INL funds as
ing for INCLE amounted to nearly $3.58 billion. Figure 3.18 displays INCLE                                              allotted, obligated, or liquidated.
appropriations by fiscal year. Of this amount, nearly $3.21 billion had been                                            Appropriations: Total monies available
obligated, of which nearly $2.40 billion had been disbursed.47                                                                     DoD
                                                                                                                        for commitments
   DoS reported that cumulative obligations as of September 30, 2012,                                                   Obligations: Commitments to pay monies
increased by more than $190.23 million over cumulative obligations as
                                                                                                                        Disbursements: Monies that have been
of June 30, 2012. Cumulative disbursements as of September 30, 2012,
                                                                                                                        expended
increased by nearly $167.73 million over cumulative disbursements as of                                                               TFBSO
June 30, 2012.48 Figure 3.19 provides a cumulative comparison of amounts                                                Source: DoS, response to SIGAR data call, 4/9/2010.

appropriated, obligated, and disbursed for INCLE.
                                                                                                                                      DoD

FIGURE 3.18                                                  FIGURE 3.19

INCLE APPROPRIATIONS BY FISCAL YEAR                          INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                 ($ BILLIONS)



                                                                                Appropriated             Appropriated
$700                                                         $3.5               $3.54                    $3.58

                                                                                                         Obligated
$600                                                                            Obligated                $3.21
                                                             $3.0
                                                                                $3.02

$500
                                                             $2.5                                        Disbursed
                                                                                Disbursed                $2.40
$400
                                                                                $2.23
                                                             $2.0
$300

                                                             $1.5
$200

                                                             $1.0
$100


  $0                                                           $0
     2002 03 04 05 06 07 08 09 10 11 12                             As of Jun 30, 2012         As of Sept 30, 2012

Notes: Numbers affected by rounding.                         Notes: Numbers affected by rounding.
Source: DoS, response to SIGAR data call, 10/11/2012.        Source: DoS, response to SIGAR data call, 10/11/2012.




REPORT TO THE UNITED STATES CONGRESS                    I   OCTOBER 30, 2012                               71
STATUS OF FUNDS




INTERNATIONAL RECONSTRUCTION FUNDING
FOR AFGHANISTAN
In addition to assistance provided by the United States, the international
community provides a significant amount of funding to support Afghanistan
relief and reconstruction efforts. As noted in previous SIGAR quarterly
reports, most of the international funding provided is administered through
trust funds. Contributions provided through trust funds are pooled and then
distributed for reconstruction activities. The two main trust funds are the
Afghanistan Reconstruction Trust Fund (ARTF) and the Law and Order
Trust Fund for Afghanistan (LOTFA).49

The Afghanistan Reconstruction Trust Fund (ARTF)
The largest share of international contributions to the Afghan operational and
development budgets comes through the ARTF. From 2002 to September 21,
2012, the World Bank reported that 33 donors had pledged nearly $6.13 bil-
lion, of which they had paid in nearly $5.75 billion.50 According to the World
Bank, donors have pledged $956.16 million to the ARTF for the Afghan
fiscal year—SY 1391—which runs from March 21, 2012, to December 20,
2012 (when the Afghan fiscal year will shift to a December 21 start date).51
Figure 3.20 shows the 10 largest donors to the ARTF for SY 1391.


FIGURE 3.20


ARTF CONTRIBUTIONS FOR SY 1391 BY DONOR, AS OF SEPTEMBER 21, 2012 ($ MILLIONS)

                                                          Total Commitments: $956         Total Paid In: $573

   United States                                                                                                 371

           Japan                                                         138

United Kingdom         0
                                                                         138
        Germany        0
                                                     78
         Canada            6
                                    27
                                          41
         Norway                                55
          EC/EU        0
                                                    84
         Sweden        0
                                     32
       Denmark         0
                           10

         Finland               11

          Others           6
                               11

                   0                                     100                   200               300            400
                                                               Paid In                       Commitments


Notes: Numbers affected by rounding. SY 1391 = 3/21/2012–12/20/2012, when the Afghan fiscal year will shift to run
from December 21–December 20.
Source: World Bank, "ARTF: Administrator's Report on Financial Status as of September 21, 2012," p. 1.




    72                                    SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                       STATUS OF FUNDS




    As of September 21, 2012, the United States had paid in more than          FIGURE 3.21
$1.74 billion.52 The United States and the United Kingdom are the two big-
gest donors to the ARTF, together contributing more than 47.6% of its total    ARTF CONTRIBUTIONS PAID IN BY DONORS
funding, as shown in Figure 3.21.                                              SY 1381–SEPTEMBER 21, 2012 (PERCENT)
    Contributions to the ARTF are divided into two funding channels—
the Recurrent Cost (RC) Window and the Investment Window.53 As of                              Total Paid In: $5.7 billion
September 21, 2012, according to the World Bank, nearly $2.60 billion of
ARTF funds had been disbursed to the Afghan government through the RC
Window to assist with recurrent costs such as salaries of civil servants.54                            United States
                                                                                                       30.3%
The RC Window supports the operating costs of the Afghan government
because the government’s domestic revenues continue to be insufficient                         Other                United
                                                                                               29.1%                Kingdom
to support its recurring costs. To ensure that the RC Window receives suf-                                          17.3%
ficient funding, donors to the ARTF may not “preference” (earmark) more
than half of their annual contributions for desired projects.55                                                                Canada
    The Investment Window supports the costs of development programs. As                                                       9.8%
                                                                                           Germany
of September 21, 2012, according to the World Bank, more than $2.50 billion                6.7%                  Netherlands
had been committed for projects funded through the Investment Window, of                                         6.8%

which nearly $1.72 billion had been disbursed. The World Bank reported 20
                                                                               Notes: Numbers affected by rounding. SY 1381 =
active projects with a combined commitment value of more than $1.45 bil-       3/21/2002–3/20/2003. "Others" includes 28 donors.

lion, of which approximately $668.54 million had been disbursed.56             Source: World Bank, "ARTF: Administrator's Report on
                                                                               Financial Status as of September 21, 2012," p. 4.


The Law and Order Trust Fund for Afghanistan (LOTFA)                           FIGURE 3.22
The United Nations Development Programme administers the LOTFA to
pay ANP salaries and build the capacity of the Ministry of Interior.57 Since   DONORS' CONTRIBUTIONS TO THE LOTFA
2002, donors have pledged more than $2.64 billion to the LOTFA, of which       SINCE 2002, AS OF MARCH 31, 2012
                                                                               (PERCENT)
nearly $2.56 billion had been paid in, according to the most recent data
available.58 The LOTFA’s sixth support phase started on January 1, 2011,
and runs through March 31, 2013. In the first 15 months of the program,
the LOTFA had transferred nearly $635.07 million to the Afghan govern-
ment to cover ANP and Central Prisons Directorate staff remunerations                       United States         Japan
and an additional $29.86 million for capacity development and other                         35.0%                 31%

LOTFA initiatives.59 As of March 31, 2012, donors had committed more
                                                                                                 Others      EC/EU
than $1.11 billion to the LOTFA for Phase VI. Of that amount, the United                         13%         15%
States had committed nearly $420.92 million, and Japan had committed
nearly $476.62 million. Their combined commitments make up nearly 81%
                                                                                                              Germany
of LOTFA Phase VI commitments as of March 31, 2012.60 The United States                                       6%
had contributed nearly $892.74 million to the LOTFA since the fund’s incep-
tion.61 Figure 3.22 shows the four largest donors to the LOTFA since 2002,     Notes: Numbers affected by rounding. EC/EU = European
                                                                               Commission/European Union. "Others" includes 16 donors.
based on the latest data available.                                            Sources: UNDP, "LOTFA Phase VI Quarterly Progress Report
                                                                               Q1/2012," 6/26/2012; SIGAR analysis of UNDP's quarterly
                                                                               and annual LOTFA reports, 10/18/2012.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012           73
                                 QUARTERLY HIGHLIGHT




AFGHANISTAN NATIONAL                                       Afghan government are still trying to come to agree-
                                                           ment about how to carry out the remaining six. They
PRIORITY PROGRAMS                                          cover some of the more contested areas of Afghan
                                                           governance, such as transparency and accountability
In the Tokyo Declaration of July 8, 2012, the inter-       as well as the legal system.
national community reaffirmed its commitment                   None of the NPPs is fully funded; the Afghan
to align 80% of its aid with Afghanistan’s National        government is seeking donations to cover the bulk
Priority Programs (NPPs) and channel at least 50%          of the programs. The single most costly NPP is the
of its development assistance through the national         National and Regional Resource Corridors program.
budget of the Afghan government. The concept of            It aims to connect Afghanistan to the region and
the 22 NPPs was approved at the Kabul Conference           the world by building roads, railways, and airports.
in 2010. It grew out of the Afghanistan National           It has a three-year budget of about $3.7 billion,
Development Strategy, a blueprint for poverty reduc-       of which it still seeks more than $2.0 billion from
tion that Afghanistan adopted in 2008. The goal of         the international donors. The Urban Management
the NPPs was to consolidate hundreds of Afghan,            Support Program is the second most expensive pro-
bilateral, and multilateral development projects           gram. It is designed to strengthen urban governance
into a coherent suite of programs that could be            and improve the quality of urban built environ-
absorbed in an ordered manner into the Afghan              ments especially in the Afghan capital of Kabul.
budget ensuring their sustainability. Each NPP is          The three-year budget is more than $1.6 billion of
grouped within one of six functional clusters of           which the Afghan government is seeking about
ministries to strengthen coordination among govern-        $1.4 billion. The least expensive NPP is the Capacity
ment institutions and international organizations:         Development to Accelerate National Action Plan for
security, governance, human resource development,          Women of Afghanistan (NAPWA) Implementation.
agriculture and rural development, infrastructure          The goal of this program is to strengthen the gov-
development, and private sector development.               ernment’s capacity to implement NAPWA in their
   The NPPs are supposed to build on successful ini-       policy-making, planning, programming, budgeting,
tiatives, deliver their results from 2012 to 2014, and     implementation, monitoring, reporting, and evalua-
include a system of 100-day progress reports toward        tion processes. The government has raised $200,000
their implementation. Over the past year, the Afghan       for it so far out of an overall budget of $29.7 million.
government has worked to develop detailed three-               The Afghanistan Peace and Reintegration
year NPPs with accompanying activity timelines and         Program is the only security-related NPP. At the
budgets. As of this quarter, the Joint Coordination        operational level, the reintegration effort focuses on
and Monitoring Board (JCMB), a high-level decision-        local peace processes with the foot soldiers, small
making body co-hosted by the Afghan Ministry of            groups, and local leaders who form the bulk of the
Finance and the United Nations Assistance Mission          insurgency. At the strategic and political levels,
to Afghanistan (UNAMA), has approved 16 of the             efforts focus on the leadership of the insurgency. Its
22 NPPs. The international community and the               total budget for five years is $773 million.




                                   74                    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                         QUARTERLY HIGHLIGHT




AFGHANISTAN NATIONAL PRIORITY PROGRAMS (NPPs)




                                       Human Resource             Agriculture          Infrastructure       Private Sector
     Security        Governance         Development               and Rural             Development         Development
                                                                 Development


                                         Facilitation of
    Peace and        Financial and                                                    National Regional      Integrated Trade
                                       Sustainable Decent        National Rural
   Reintigration       Economic                                                       Resource Corridor     and SME Support
                                       Work through Skills      Access Program
                        Reforms                                                           Initiative              Facility
                                          Development

                                                                                           National
                                                                 Strengthening        Extractive Industry
                   Local Governance        Education for All                                                 E-Afghanistan
                                                                Local Institutions        Excellence
                                                                                           Program

                                                               National Water and
                     Human Rights             Expanding         Natural Resource       National Urban
                       and Civic           Opportunities for     Development          Delivery Program
                    Responsibilities       Higher Education         Program

                                               Capacity            National
                                            Development         Comprehensive
                       National              to Accelerate        Agriculture
                   Transparency and                                                    National Energy
                                           National Action        Production
                     Accountability                                                    Supply Program
                                           Plan for Women          & Market
                        Program             of Afghanistan       Development
                                           Implementation          Program

                     Efficient and     Human Resources
                       Effective          for Health
                     Government

                    Law and Justice                                                       Approved            Unapproved
                        for All




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012                      75
CONTENTS

Security Challenges	                77
Security Environment	               78
Insider Attacks	                    79
ANSF Assessment	                    80
Ministry of Defense and
Ministry of Interior Assessments	   83
Transition Progress	                84
Afghan Public Protection
Force Behind Schedule	              87
Afghan National Army	               87
Afghan National Police	             91
ANSF Medical/Health Care	           94
U.S. Forces	                        95
Removing Unexploded Ordnance	       96
Counter-Narcotics	96




  76
                                                               SECURITY




SECURITY
As of September 30, 2012, the U.S. Congress had appropriated more than
$51.1 billion to support the Afghan National Security Forces (ANSF). Most
of these funds ($49.6 billion) were appropriated through the Afghanistan
                                                                                 SIGAR AUDIT
Security Forces Fund (ASFF) and provided through the Combined Security           SIGAR has initiated an audit to deter-
Transition Command-Afghanistan (CSTC-A). Their purpose is to build,              mine whether DoD and its contractors
equip, train, and sustain the ANSF, which comprises the Afghan National          have established procedures to avoid
Army (ANA) and the Afghan National Police (ANP). Of the $49.6 billion            contracting with the enemy. For more
appropriated for the ASFF, approximately $42 billion had been obligated          information, see Section 2, page 33.
and $36.5 billion disbursed as of September 30, 2012.62
   This section discusses assessments of the ANSF and the ministries of
Defense and Interior; gives an overview of U.S. funds used to build, equip,
train, and sustain the ANSF; and provides an update on efforts to combat
the cultivation of and commerce in illicit narcotics in Afghanistan.


SECURITY CHALLENGES
Afghanistan, the United States, and members of the international commu-
nity involved in the reconstruction of Afghanistan are fast approaching an
important milestone—the handover of security responsibilities to Afghan
forces in 2014. The International Security Assistance Force (ISAF) Joint
Command (IJC) noted that the ANSF will begin to assume full responsibility
for selected provinces in 2013.63 However, several challenges call into ques-
tion the ANSF’s readiness to assume this responsibility.
   The rise of insider or “green-on-blue” attacks has the potential to
adversely affect morale in the ranks of the ANSF and NATO-led coalition
forces, and erode trust between them. These attacks have hampered U.S.
and coalition efforts to train and partner with ANSF units as commanders
and soldiers in the field struggle to fulfill mission requirements in light of
this threat.64
   In addition, U.S. government sources report that ANSF strength is
approaching its goal of 352,000 members. But the actual strength is dif-
ficult to validate, and anomalies in reporting suggest the current tally
of Afghan Forces may not be completely accurate (see “ANA Strength”
in this section, pages 87–88). SIGAR is examining ANSF strength to




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            77
                                                               SECURITY




                                                               determine if an audit is necessary. Without a clear picture of ANSF
                                                               strength, long-term sustainability costs (specifically for salaries and con-
                                                               sumables such as food and ammunition) are difficult to determine. The
                                                               ANSF is slated to be gradually reduced to 228,500 personnel by 2017. The
                                                               reduced force is expected to cost $4.1 billion annually to sustain.65
                                                                   Another area of concern is the capability of the ANSF and the Ministries
                                                               of Defense (which oversees the ANA) and Interior (which oversees the
                                                               ANP). Although Afghan and coalition efforts have made remarkable progress
                                                               in building the ANSF—starting with a goal of a 132,000-strong ANSF and
                                                               building it to nearly 352,000—changes to assessment rating categories raise
                                                               questions about the capability of their highest rated units. In March 2011,
                                                               the highest rating category changed from “independent” to “independent
                                                               with [non-Afghan] advisors.” IJC said at this rating level units are “capable
  Enablers: specialized units that support                     of autonomous mission planning and execution and have the ability to call
  combat units, such as engineering, civil                     for coalition enablers if needed.”66 However, according to the Government
  affairs, military intelligence, helicopter,                  Accountability Office, the original category of “independent” meant that a
  military police, surveillance, and recon-                    “unit was capable of planning, executing, and sustaining the full spectrum of
  naissance assets.                                            its mission without assistance from coalition forces.” Moreover, GAO noted
                                                               that “the change of category lowered the standard for unit personnel and
                                                               equipment levels from ‘not less than 85’ to ‘not less than 75’ percent of autho-
Source: DoD, “Mullen Tours Forward Outposts in Afghanistan,”   rized levels.”67 In other words, before the change of category, a unit could
4/22/2009, accessed 1/4/2012.
                                                               receive the highest rating if they were performing at the highest level and
                                                               were 85% staffed and equipped up to the authorized level of personnel and
                                                               equipment. After the change, a unit could receive the highest rating if they
                                                               were performing at the highest level and were 75% staffed and equipped.
                                                                   In contrast, the system for assessing ministries’ capability permits a rat-
                                                               ing of “capable of autonomous operations.” However, during this reporting
                                                               period, no offices within either ministry with security responsibilities had
                                                               achieved that rating, and only a few had achieved the second-highest rat-
                                                               ing, “capable of executing functions with coalition oversight only” (see
                                                               “ANSF Assessments” and “Ministry of Defense and Ministry of Interior
                                                               Assessments” in this section, page 83).68


                                                               SECURITY ENVIRONMENT
                                                               At a meeting of the UN Security Council on September 20, 2012, Ján Kubiš,
                                                               the Special Representative of the Secretary-General for Afghanistan, said
                                                               the security situation in Afghanistan remains fragile. He reported that, over-
                                                               all, the number of security incidents from May through July this year had
                                                               dropped compared to the same period in 2011, but that August 2012 was
                                                               the second-deadliest month for civilians since the UN Assistance Mission-
                                                               Afghanistan began tracking these figures in 2007. Kubiš also noted that the
                                                               number of civilians killed by “pro-government” forces in aerial attacks—the
                                                               main cause of civilian casualties by friendly forces—had dropped by 62%




                                                                 78                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




compared to the same period in 2011.69 DoD said the “overwhelming major-
ity of [civilian deaths] were insurgent-caused.”70
   According to DoD, security has dramatically improved in several popu-
lous districts this year compared to 2011: enemy-initiated attacks (EIAs)
dropped 63% in Kandahar, 22% in Kabul, 33% in Jalalabad, 60% in Marjah,
88% in Mazar‐e-Sharif, and 13% in Herat. Overall, EIAs decreased by 9% in
2011 compared to 2010 and decreased by 3% in 2012. Insurgent attacks—
particularly in the south and southwest—have shifted from primarily
offensive operations in Afghan population centers, to defensive operations
in areas that had traditionally been safe havens; 80% of attacks occurred
in districts encompassing only 20% of the population, and nearly half of all
attacks country‐wide occurred in just 17 districts, which contain only 5% of
the population.71


INSIDER ATTACKS
Insider or “green-on-blue” attacks—persons in ANSF uniform attack-
ing coalition partners—continued to hamper U.S. and coalition efforts to
prepare the Afghans to take the security lead in 2014. These attacks have
strained the relationship between coalition partners and their Afghan
counterparts. As this report went to press, 37 insider attacks had occurred
since the beginning of the year, resulting in the deaths of 51 coalition forces
(including 32 U.S. military personnel).72 According to NATO/ISAF offi-
cials, about 25% of these attacks had “direct enemy planning to support an
attacker.” They say some of the insider attacks stem from cultural clashes
or grievances.73 Afghan officials have blamed terrorist infiltration and for-
eign spies for the rise in insider attacks.74
   ISAF has acted to prevent future insider attacks. Its response has
evolved to include several measures. In August, ISAF required all coalition
forces to carry loaded weapons at all times.75 In addition, it implemented
a “guardian angel” program, in which one or more U.S. or coalition force
soldiers remain armed and ready when working or meeting with ANSF
counterparts.76 By September, ISAF and Afghan government measures
also included a new warning system, enhanced intelligence exchanges, an
anonymous reporting system, the establishment of a joint investigation
commission, and enhanced cultural training.77
   ISAF is helping the Ministry of Defense (MoD) and Ministry of Interior
(MoI) reexamine their vetting procedures and identify insurgents who have
infiltrated the ranks of the ANA and the ANP. In addition, the Afghan gov-
ernment has a counterintelligence initiative that places people inside ANSF
units to identify possible threats to prevent insider attacks.78
   But “green-on-blue” attacks are not the only worrisome trend. Incidents
of ANSF members attacking other members have raised concerns about the
future stability of Afghan forces.79 In some cases, these Afghan-on-Afghan




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012              79
SECURITY




attacks involved members of one ethnic group attacking members of
another. Details of insider attacks within the ANA and the ANP are often
classified. However, according to the UN Secretary-General, nine Pashtuns
were killed this quarter by perpetrators rumored to be Hazaras disguised
as local defense forces. This followed the Taliban killing of two Hazaras.
In addition, a member of the ANP in Nimroz killed 10 of his colleagues on
August 11. The Secretary-General also noted reports of defections from the
Afghan security forces this quarter; 17 local policemen reportedly joined the
Taliban on June 24, followed by 93 more on July 3.80
   Insider attacks are also affecting the Afghan Local Police (ALP), a key
component of the Afghan government and coalition strategy to secure
rural areas ahead of the 2014 transition. In March 2012, ISAF Commander
General John R. Allen testified before the Senate Committee on Armed
Services that he was heartened by “success of the Afghan local police”
and noted, “There has yet to be an attack on any one of our Green Berets,
SEALs, or Marines” who are embedded with and training ALP units.81
However, in August, two U.S. Special Forces members were killed by an
ALP recruit in Farah.82 In September, U.S. Forces temporarily suspended
training 1,000 ALP recruits because of the threat of insider attacks. During
the suspension, partnered operations with trained ANSF members con-
tinued while members of the 16,300-person ALP were “re-vetted.”83 U.S.
Special Forces resumed training the ALP in October.84 DoD said “ALP
insider attacks make up a small percentage of total [insider] attacks.”85
   General Allen has sought to put these attacks in context. He said the
focus on insider attacks “obscures the callous slaughter of Afghan civilians
by insurgents.” He also said, “Most Americans do not get to see Afghans’
commitment to their country or the improving security that has emerged
from our fight together. But I do.”86


ANSF ASSESSMENT
On July 24, 2012, an official from the U.S. Government Accountability Office
testified before the House Armed Services Committee’s Subcommittee on
Oversight and Investigations that DoD and NATO have changed the tools
used to assess the ANSF. He noted that by August 2011, the highest unit
rating category had been changed from “independent” to “independent
with advisors” and that “these changes, as well as the elimination of certain
requirements for validating units, were partly responsible for the increase in
ANSF units rated at the highest level.”87
   In a response to SIGAR, IJC called the GAO report “incorrect and mis-
leading,” and maintained the change in the rating title does not “equal a
change in [its] definition.” Moreover, they said the change “from independent
to independent with advisors in August 2011 had no effect on the [rating]
definition,” but was instead “made to clarify the fact that if a unit became




  80                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                  SECURITY




independent, it wasn’t necessarily going to be left uncovered by coalition
forces.” IJC also said the change “had no effect on the operational effective-
ness standards in the [rating category],” despite the reduction in the unit
personnel and equipment standard.88 DoD said the current rating system,
the Commander’s Unit Assessment Tool (CUAT) is “by itself not an effective
tool for ANSF-wide trend analysis and should be used in conjunction with an
array of other indicators, including ANSF operations, MoD and MoI capabili-
ties, and the progress of the security transition process.”89
   SIGAR has been closely tracking ANSF assessments since 2010, when
SIGAR first audited the previous assessment tool—the Capability Milestone
(CM) rating system—and found it did not provide reliable or consistent
assessments of ANSF capabilities. During the course of that audit, DoD and
NATO began using a new system, the CUAT, to rate the ANSF.
   This quarter, 216 of 267 ANA units—battalions, support units, separate
companies, and headquarters units—were assessed. Of those assessed
units, 14% were rated “independent with advisors,” 63% were rated “effec-
tive with advisors,” 18% were rated “effective with partners,” and 5% were
rated “developing with partners” (see rating definitions on the next page).90
The number of units rated at the highest level this quarter increased by 33%
from the number reported last quarter, as shown in Figure 3.23.
FIGURE 3.23

CUAT RATINGS OF THE ANSF, QUARTERLY CHANGE

                                                  ANA                                                                                          ANP
175
                                                                                                                     168

150
                              135
                                                                                                                           130                                                          131
125
                        118

100

                                                                                                                                     81
 75
                                                                                                      65
                                                                                                                                            61
 50                                     49                                                  51              49
                                               39
               30                                                                                                                                           31
 25                                                                                                                                                  23                            24
         20
                                                        10 11
  0                                                                        3           4                                                                              5     6
                                                                                1
        Independent       Effective       Effective      Developing      Established     Not         Independent       Effective       Effective      Developing     Established     Not
        with Advisors   with Advisors   with Partners   with Partners                  Assessed      with Advisors   with Advisors   with Partners   with Partners                 Assessed

                 Q3 2012 | ANA Total - 204                            Q4 2012 | ANA Total - 267                Q3 2012 | ANP Total - 366                         Q4 2012 | ANP Total - 408


Sources: CSTC-A, responses to SIGAR data call, 9/26/2012 and 7/2/2012.




REPORT TO THE UNITED STATES CONGRESS                              I     OCTOBER 30, 2012                       81
SECURITY




    This quarter, 277 of 408 ANP units were assessed. Of those, 18% were
rated “independent with advisors,” 47% were rated “effective with advisors,”
22% were rated “effective with partners,” and 11% were rated “developing
with partners.” The most recent CUAT report noted that the number of ANP
units reported decreased significantly since last quarter and “for this reason
it has been difficult to make an accurate assessment of progress.”91
    According to DoD, the ANSF are moving increasingly into the lead and
are conducting many more unilateral operations. As of the fall, security
responsibility in the north will be almost exclusively ANSF-led. DoD said
the ANSF have shown they are capable of conducting complex, multi-
day operations in more contested areas. DoD also noted the ANSF not
only planned, led, and successfully executed a number of operations in
the south and east this quarter, but demonstrated that they were able to
coordinate with each other and, in one case, with the Pakistani military.92
Moreover, DoD noted that some of these ANSF-led operations involved
several components of the ANA, ANP, the National Directorate of Security,
and ISAF, and were large-scale and weeks-long in duration. In one case,
11,000 personnel were involved. In another, the ANSF was supported
through Afghan supply channels.93

Commander’s Unit Assessment Tool Ratings
In assessing the capability of ANA and ANP units, ISAF uses the
Commander’s Unit Assessment Tool (CUAT), which has five ratings:94
•	 Independent with Advisors: The unit is able to plan and execute
   its missions, maintain command and control of subordinates, call on
   and coordinate quick-reaction forces and medical evacuations, exploit
   intelligence, and operate within a wider intelligence system.
•	 Effective with Advisors: The unit conducts effective planning,
   synchronizing, directing, and reporting of operations and status.
   Coalition forces provide only limited, occasional guidance to unit
   personnel and may provide enablers as needed. Coalition forces
   augment support only on occasion.
•	 Effective with Partners: The unit requires routine mentoring
   for planning, synchronizing, directing, and reporting of operations
   and status; coordinating and communicating with other units; and
   maintaining effective readiness reports. ANSF “enablers” provide
   support to the unit; however, coalition forces may provide enablers to
   augment that support.
•	 Developing with Partners: The unit requires partnering and
   assistance for planning, synchronizing, directing, and reporting of
   operations and status; coordinating and communicating with other
   units; and maintaining effective readiness reports. Some enablers are
   present and effective, providing some of the support. Coalition forces
   provide enablers and most of the support.




  82                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




•	 Established: The unit is beginning to organize but is barely capable
   of planning, synchronizing, directing, or reporting operations and
   status, even with the presence and assistance of a partner unit. The
   unit is barely able to coordinate and communicate with other units.
   Most of the unit’s enablers are not present or are barely effective.
   Those enablers provide little or no support to the unit. Coalition forces
   provide most of the support.


MINISTRY OF DEFENSE AND MINISTRY OF
INTERIOR ASSESSMENTS
Assessments of the MoD and the MoI showed limited progress this quarter.
To rate the operational capability of these ministries, the NATO Training
Mission-Afghanistan (NTM-A) uses the Capability Milestone (CM) rating
system. This system assesses staff sections (such as the offices headed by
assistant or deputy ministers) and cross-functional areas (such as general
staff offices) using four primary and two secondary ratings:95
•	 CM-1A: capable of autonomous operations
•	 CM-1B: capable of executing functions with coalition oversight only
•	 CM-2A: capable of executing functions with minimal coalition
   assistance
•	 CM-2B: can accomplish its mission but requires some coalition
   assistance
•	 CM-3: cannot accomplish its mission without significant coalition
   assistance
•	 CM-4: exists but cannot accomplish its mission

   At the MoD, 42 of 45 staff sections and cross-functional areas were
assessed this quarter. Of those, one progressed and one regressed, as
shown in Figure 3.24 on the following page. Two offices included in the list
of cross-functional areas (but not assessed) last quarter were not included
this quarter: the Ground Forces Command and the Headquarters Services
Support Brigade. Of the two offices that showed changes from last quarter,
the ANA Training Command was upgraded from CM-2B to CM-2A; the ANA
Special Operations Command was downgraded from CM-2B to CM-3 (the
second lowest rating).96
   All 31 staff sections at the MOI were assessed; four showed progress
since last quarter. The offices of Legal Affairs and the Legal Advisor—which
had been assessed as one office last quarter—were separated this quarter.
The Office of Legal Affairs retained its rating of CM-2B, while the Office of
the Legal Advisor received a higher rating of CM-2A. The four sections that
progressed were the Office of the Inspector General (CM-2B), the Financial
and Budget Office (CM-2B), the Force Management department, and the
Counter-Improvised-Explosive-Device (Counter-IED) office (CM-3).97




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            83
                                                                        SECURITY




FIGURE 3.24

CAPABILITY MILESTONE RATINGS OF MoD AND MoI, QUARTERLY CHANGE


                                                                MoD                                                                                        Mol


CM-1A: capable of                          0                                                                                        0
autonomous operations          CM-1A                                                                                    CM-1A
                                           0                                                                                        0
CM-1B: capable of                                                        6                                                                    2
executing functions with       CM-1B                                                                                    CM-1B
coalition oversight only                                                 6                                                                    2
CM-2A: capable of                                                                               11                                                             5
executing functions with       CM-2A                                                                                    CM-2A
minimal coalition assistance                                                                         12                                                              7
CM-2B: can accomplish its                                                                                          15                                                                       12
mission but requires some      CM-2B                                                                                    CM-2B
coalition assistance                                                                                      13                                                                                     13
CM-3: cannot accomplish its                                                       8                                                                                      8
mission without significant    CM-3                                                                                     CM-3
coalition assistance                                                                   9                                                                             7

CM-4: exists but cannot                              2                                                                                            3
accomplish its mission         CM-4                                                                                     CM-4
                                                     2                                                                                        2
                                                                    5                                                               0
Not Assessed                    NA                                                                                       NA
                                                         3                                                                          0
                                       0                        5                          10                  15               0                          5                     10                   15

                                               Q3 2012 MoD Staff Sections             Q4 2012 MoD Staff Sections                        Q3 2012 MoI Staff Sections           Q4 2012 MoI Staff Sections


Sources: CSTC-A, responses to SIGAR data call, 10/1/2012 and 7/2/2012.




                                                                        TRANSITION PROGRESS
                                                                        The transition of security responsibility to the ANSF by the end of 2014
                                                                        continues. Three tranches—each of which contains approximately 25% of
                                                                        Afghanistan’s population and includes sections of cities, districts, and prov-
    SIGAR AUDIT                                                         inces—are in the process of shifting to ANSF control as shown in Figure
                                                                        3.25.98 None has yet completed the process. Transition started for Tranche
    SIGAR has initiated an audit to
                                                                        1 in July 2011, Tranche 2 in November 2011, and Tranche 3 in July 2012
    determine whether NTM-A/CSTC-A
                                                                        (bringing to 75% the population living in areas in transition).
    base construction requirements and
                                                                           This quarter, DoD reported the number of enemy-initiated attacks had
    transition procedures for the ANSF
                                                                        declined in Tranches 1 and 3 by 7-8%, but increased in Tranche 2 by 4%.
    are following acceptable contract
                                                                        However, DoD said, “Tranches 1 and 2 continue to be the most secure
    procedures. For more information, see
                                                                        areas in Afghanistan by objective measure and Afghan perceptions.” In
    Section 2, page 34.
                                                                        areas that have yet to begin transition, enemy-initiated attacks increased
                                                                        by 6% in the aggregate.99
                                                                           DoD said the next milestone will be completion of the transition process
                                                                        in some areas. Eleven provinces have all of their districts in transition; eight
                                                                        are candidates to complete the process later this year. Areas that have not
                                                                        yet started transition are expected to enter the first phase by mid-2013.100




                                                                             84                           SPECIAL INSPECTOR GENERAL                    I   AFGHANISTAN RECONSTRUCTION
                                                                                          SECURITY




FIGURE 3.25

AREAS IN TRANSITION TO AFGHAN-LED SECURITY




                                                                                                                                         Tranche 1
                                                                                                                                         Tranche 2
                                                                                                                                         Tranche 3




Note: Tranches include cities, districts, and provinces (or parts thereof). Tranche 1 began in July 2011, Tranche 2 in November 2011, Tranche 3 in July 2012.
Source: NATO, "Transition to Afghan Lead: Inteqal," 5/16/2012; DoD, response to SIGAR data call, 10/4/2012.




   According to DoD, the withdrawal of U.S. surge troops and some coali-
tion forces will provide a clearer picture over the next year of the ANSF’s
ability to provide security and hold territory gained during the surge.101

Change of Leadership at the Ministries of Defense and
Interior and the National Directorate of Security
During this reporting period, President Karzai replaced the three key
Afghan officials responsible for security. Reports suggest that his shake-up
of the top security positions was designed to maintain an ethnic balance in
advance of the 2014 elections.
   On August 4, the Afghan parliament voted no confidence in the ministers
of defense and interior after criticizing them for failing to stop assassinations
or secure the Afghanistan-Pakistan border—specifically against the cross-
border shelling of Kunar by Pakistani forces.102 Minister of Defense Abdul




REPORT TO THE UNITED STATES CONGRESS                       I   OCTOBER 30, 2012                                   85
                                                                 SECURITY




                                                                 Rahim Wardak resigned on August 7, and was later appointed Senior Security
                                                                 Adviser to President Karzai. On August 12, President Karzai bestowed the
                                                                 prestigious Ghazi Amir Amanullah Khan state medal on both Wardak and
                                                                 Bismillah Khan Mohammadi, the outgoing Minister of Interior.103 On August
                                                                 29, President Karzai fired Rahmatullah Nabil, the head of Afghanistan’s
                                                                 intelligence agency, the National Directorate of Security (NDS).104 All three
                                                                 positions were filled on September 16, when Karzai swore in two new minis-
                                                                 ters and a new head of the NDS.105
                                                                    Karzai appointed Mohammadi, the recently removed Minister of Interior,
                                                                 to replace Wardak as Minister of Defense, as shown in Figure 3.26. Minister
                                                                 Mohammadi—like First Vice President Mohammad Fahim—is an ethnic
                                                                 Tajik, and Karzai’s move may have been designed to secure or maintain
                                                                 Tajik support for his government ahead of coming elections. The Ministry of
                                                                 Interior is now headed by former Deputy Interior Minister Ghulam Majtaba
                                                                 Patang, an ethnic Pashtun who does not have the strong ethnic or political
                                                                 influence of his predecessor, Mohammadi. Minister Patang’s appointment
                                                                 may be an attempt by Karzai to avoid charges of favoritism ahead of the
                                                                 upcoming election. The new Director General of the NDS, Asadullah Khalid,
                                                                 was the former Minister of Border and Tribal Affairs; like his predecessor,
                                                                 he is an ethnic Pashtun.106
FIGURE 3.26

NEW LEADERSHIP IN KEY AFGHAN SECURITY POSTS


                                       MoD                                                     Mol                                                    NDS

                                                                                                                                                      Director General of
                                     Minister of Defense                                      Minister of Interior                                    the National Directorate
                                     Bismillah Khan Mohammadi                                 Ghulam Majtaba Patang                                   of Security
   NEW




                                     Ethnicity: Tajik                                         Ethnicity: Pashtun                                      Asadullah Khalid
                                     Prior position                                           Prior position                                          Ethnicity: Pashtun
                                     Minister of Interior                                     Deputy Minister of Interior                             Prior position
                                                                                                                                                      Minister of Tribal and
                                                                                                                                                      Border Affairs



                                                                                                                                                      Director General of
                                                                                              Minister of Interior
   FORMER




                                     Minister of Defense                                                                                              the National Directorate
                                     Abdul Rahim Wardak                                       Bismillah Khan Mohammadi                                of Security
                                     Ethnicity: Pashtun                                       Ethnicity: Tajik                                        Rahmatullah Nabil
                                     Prior Position                                           Prior position                                          Ethnicity: Pashtun
                                     Deputy Minister of Defense                               Army Chief of Staff                                     Prior position
                                                                                                                                                      Head of Presidential
                                                                                                                                                      Special Guards Unit



Source: GIRoA, “National Security Council Respects Parliament’s Constitutional Decision of ”no-confidence” Vote to Ministers,” 8/5/2012; GIRoA, “Interior, Defense Ministers and Head of
NAS Sworn into office,” 9/18/2012




                                                                     86                           SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




AFGHAN PUBLIC PROTECTION FORCE BEHIND SCHEDULE
SIGAR has closely followed the development of the Afghan Public
Protection Force (APPF) from its creation to its current role as
Afghanistan’s state-owned security force. Following President Karzai’s
2010 decree to disband all national and international private security           The APPF was expected to take security
companies (PSCs), the Afghan government implemented a bridging strat-            responsibility for humanitarian and develop-
egy for a phased transition process. As part of the transition, the APPF, a      ment sites and convoys on March 12, 2012.
state-owned enterprise under the authority of the MoI, was expected to           The IJC reports this has not happened. The
assume responsibility for security of development and humanitarian proj-         APPF has taken on only 35% of sites and
                                                                                 no convoy security. The APPF is expected to
ects in March 2012. However, IJC said, “At the end of the quarter, they had
                                                                                 provide security for military installations
assumed security for 51 out of 145 sites, with 92 in transition and 2 awaiting
                                                                                 in March 2013, but IJC doubts the dead-
transition.” Moreover, CSTC-A noted, “They were also supposed to assume          line will be met. Because project security
security for convoy security by March 2012, but have yet to provide any          directly affects U.S. reconstruction efforts,
convoy security.”107 The APPF is scheduled to assume responsibility for          SIGAR continues to follow this issue closely.
security at military installations in March 2013. According to IJC, “This is     In a June 2012 audit, SIGAR found that
not an event that will begin in March [but] is a process that is supposed to     security costs may increase under APPF
be completed in March” but “may start as early as November.” IJC said, “It       protection, and warned USAID to monitor
is also extremely unlikely that this deadline will be met.”108                   costs and ensure that unlicensed security
   The number of personnel in the APPF nearly doubled since last quarter.        providers are not used.
This quarter, CSTC-A said 11,309 APPF personnel were assigned against 15,627
authorized positions.109 IJC noted that these numbers include “guards on tem-
porary tashkil approved for specific projects,” but not “personnel in the APPF
headquarters in permanent tashkil positions.”110 Last quarter, CSTC-A reported
6,131 personnel were assigned against 6,858 authorized positions.


AFGHAN NATIONAL ARMY
As of September 30, 2012, the United States had obligated $27.4 billion and
disbursed $23.9 billion of ASFF funds to build, train, and sustain the ANA.111

ANA Strength
The strength of the ANA is a key metric of the Afghan government’s readi-
ness to take the security lead in 2014. According to CSTC-A, the overall
force strength of the ANA is 184,676 as of September 6, 2012. This includes
163,916 assigned to authorized positions and another 20,760 categorized
as “Trainee, Transient, Holdee [sic], or Student” or awaiting “assignment
to authorized positions.” In addition, 6,172 personnel are assigned to the
Afghan Air Force (AAF).112 Combined, 190,848 personnel were assigned
to the ANA and AAF—744 fewer than last quarter. The number of person-
nel assigned does not necessarily equal the number of troops present for
duty. Within the main combat forces (the six Army corps, the 111th Capital
Division, and the Special Operations Force) only 74–81% of personnel were
present for duty. More than 94% of AAF personnel were present for duty.113




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012             87
                        SECURITY




                           SIGAR’s July 2012 quarterly report noted anomalies in data reports that
                        raised questions about the accuracy of ANA personnel numbers and the con-
                        sistency of the compiling methodology. For example, last quarter, CSTC-A
                        reported that civilians were counted as part of overall force strength. This
                        quarter, CSTC-A said it had removed civilians from the total force strength.
                           In addition, last quarter, SIGAR noticed that ANA personnel categorized
                        as “Other ANA” appeared to have been tallied indirectly, using a formula
                        whereby the number of personnel in the main combat corps was subtracted
                        from the goal of 187,000 to create the “Other ANA” datum as a residual.114
                        On July 2, 2012, SIGAR brought this issue to the U.S. Central Command’s
                        (CENTCOM) attention. CSTC-A responded through CENTCOM on July 30,
                        the same day that SIGAR’s July 2012 quarterly report was released. CSTC-A
                        provided new numbers for ANA strength, but did not adequately explain the
                        reason for the existence of the formula to calculate “Other ANA.” In their
                        response, CSTC-A noted some loss of clarity “due to a lack of data provided
                        by the [ANA Personnel Office].”115
                           Comparing numbers for authorized and assigned personnel in ANA
                        components as reported last quarter and this quarter revealed some fluc-
                        tuations. However, the difference in the number of personnel categorized
                        as “Other ANA” was significantly smaller this quarter compared to the
                        number reported last quarter, as shown in Table 3.2. According to CSTC-A,
                        the category “Other ANA” includes MoD, General Staff, and Intermediate
                        Command personnel.116


TABLE 3.2


ANA STRENGTH, QUARTERLY CHANGE
                                                        Authorized                                                  Assigned
 ANA Component                           Q3                Q4        Quarterly Change               Q3                Q4        Quarterly Change
 201st Corps                          14,935           18,421             +3,486                 17,262            19,613             +2,351
 203rd Corps                          19,366           20,614             +1,248                 21,840            21,330             –510
 205th Corps                          19,393           19,075             –318                   19,696            20,144             +448
 207th Corps                          13,026           14,706             +1,680                 15,086            13,824             -1,262
 209th Corps                          12,732           14,852             +2,120                 16,091            15,194             –897
 215th Corps                          14,604           17,542             +2,938                 16,190            16,942             +752
 111th Capital Division                8,901             9,608            +707                   10,612            10,238             –374
 Special Operations Force              8,224           12,525             +4,301                 10,617            10,193             –424
 Other ANA                            75,819           44,712             –31,107                59,606            36,438             –23,168
 Total                            187,000           172,055               –14,945             186,012a          184,676b              –23,084

Notes: Q3 data is as of 5/20/2012. Q4 data is as of 9/6/2012.
a	This number was the total provided in a table by CSTC-A; however, it is not the sum of the column for Q3 assigned. Due to the formula used to calcu-
  late “Other ANA”, the sum of the column was 187,000, the same as the sum in the Q3 authorized column.
b	This number was the total provided in a table by CSTC-A; however, it is not the sum of the column for Q3 assigned. This number includes 20,760 per-
  sonnel “in Trainee, Transient, Holdee, and Student (TTHS) account as of Aug 12, both in Afghanistan and abroad, or awaiting assignment to authorized
  positions” that were not captured in the column above.

Source: CSTC-A, responses to SIGAR data calls, 10/1/2012 and 7/2/2012.




                            88                            SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




ANA Sustainment
As of September 30, 2012, the United States had obligated $9 billion and
disbursed $8.4 billion of ASFF funds for ANA sustainment.117 Funds include
money for petroleum, oil, and lubricants (POL) for the ANSF. See the
“SIGAR Oversight” section of this report for discussion of shortcomings in
documenting POL use and estimating requirements.

ANA Salaries
As of September 6, 2012, the U.S. government had provided $1.28 billion
through the ASFF to pay ANA salaries and incentives, including $152.5 mil-
lion this quarter, according to CSTC-A. In addition to their salaries, all ANA
personnel, including the AAF, receive some sort of incentive (extra pay for
personnel engaged in combat or employed in specialty fields).118 For more
details on the U.S. government’s program to provide salary funding to the
ANA, see SIGAR’s July 2012 quarterly report, page 74.

ANA Equipment and Transportation
As of September 30, 2012, the United States had obligated and disbursed
$9.7 billion of ASFF funds for ANA equipment and transportation.119
CSTC-A used these funds to purchase weapons, vehicles, radios, ammu-
nition, aircraft, and related equipment. More than half of U.S. funding in
this category was for vehicles and transportation-related equipment.120
   The United States has surpassed its goals for procuring equipment for
the ANA and had delivered most of that equipment, according to CSTC-A.
As of September 30, 2012, CSTC-A had procured 105% of weapons and
weapons-related equipment versus the goal, 110% of vehicles and trans-
portation equipment, and 102% of communications equipment.121 NTM-A              SIGAR AUDIT
noted that the “equipment requirements have fluctuated over time as a
                                                                                 SIGAR’s audit of ASFF-funded pe-
result of CSTC-A’s continuing efforts to create the correct force size and
                                                                                 troleum products for the ANA found
mix” and “in many such cases, requirements decreased in the years after
                                                                                 that CSTC-A could not fully account
equipment was acquired, resulting in total numbers of deliveries that
                                                                                 for $1.1 billion in fuel expenditures
were higher than revised requirements.”122 To track equipment, CSTC-A
                                                                                 and did not have a valid method for
uses several categories: “Shoot” (weapons and related equipment),
                                                                                 estimating fuel needs on which to base
“Move” (vehicles and related equipment), “Commo” (communications
                                                                                 funding requests. For more information,
equipment), “Ammo” (ammunition), and “Fly” (aircraft and aviation-
                                                                                 see Section 2, pages 28–30.
related equipment).123
   DoD’s FY 2013 budget request included only $241.5 million to be allo-
cated through the ASFF for ANA equipment and transportation—an 83%
decrease from the amount authorized for this purpose in FY 2012. The
requested funds would support the AAF ($169.8 million), provide com-
munications and intelligence equipment ($1.7 million), and support airlift
operations ($70 million). The request did not include amounts for weapons
or vehicles, whose inventories have reached target levels.124




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012              89
                                         SECURITY




                                            On October 8, 2012, the ISAF Commander’s Advisory and Assistance
                                         Team (CAAT) issued a special report on missing U.S.-owned repair parts
SIGAR AUDIT                              for ANSF equipment. CAAT found that 474 of 500 shipping containers of
                                         repair and maintenance parts worth approximately $230 million were unac-
SIGAR has initiated an audit to deter-
                                         counted for. According to CAAT, the missing equipment may have “triggered
mine whether DoD can manage and
                                         the requirement of an additional $136,910,899 in repair parts,” bringing the
account for U.S.-funded repair parts
                                         total spent on these parts to nearly $367 million. CAAT also stated that these
provided for the ANSF. For more infor-
                                         parts were procured by “circumventing the Afghan logistics system” at a
mation, see Section 2, page 35.
                                         time when Afghans should be increasingly involved with their own mainte-
                                         nance and logistics. CAAT recommended that ISAF “self-report” to SIGAR
                                         and request a formal investigation to “determine accountability for the cur-
                                         rently unaccounted for [equipment repair parts] and their potential misuse
                                         or possible corruption.”125 SIGAR has commenced the requested audit (see
                                         “SIGAR Oversight,” page 35).

                                         ANA Infrastructure
                                         As of September 30, 2012, the United States had obligated $6.3 billion and
                                         disbursed $3.5 billion of ASFF funds for ANA infrastructure such as bar-
                                         racks, offices, and storage facilities.126 As of September 30, 2012, the United
                                         States had completed 205 infrastructure projects (valued at $2.51 billion),
                                         with another 99 projects ongoing ($2.53 billion) and 73 planned ($1.06 bil-
                                         lion), according to CSTC-A. This quarter, seven contracts were awarded
                                         ($150.4 million), one was terminated ($35.7 million), and one was trans-
                                         ferred to the ANP ($14.0 million).127
                                            DoD’s FY 2013 budget request for ANA infrastructure was 85% less than
                                         the amount authorized in FY 2012. The FY 2013 request is not for con-
SIGAR INSPECTION                         struction projects, but for upgrades and modernizations of garrisons and
                                         force-protection systems, and to prepare coalition facilities for handover to
SIGAR’s inspection of an ANA garrison
                                         the ANSF as the U.S. forces are drawn down.128
in Kunduz found that the Army Corps
of Engineers released DynCorp from all
contractual obligations despite poor
                                         ANA and MoD Training and Operations
                                         As of September 30, 2012, the United States had obligated $2.4 billion and
performance and structural failures.
                                         disbursed $2.3 billion in ASFF funds for ANA and MoD operations and
For more information, see Section 2,
                                         training.129 During the reporting period, NTM-A/CSTC-A was conducting 18
pages 38–39.
                                         training programs at a cost of $114.5 million, of which $27 million was for
                                         literacy training. Fourteen of the 18 training programs were funded through
                                         the ASFF; the literacy training program was funded jointly through the ASFF
                                         and the NATO Trust Fund.130

                                         ANA Literacy Training
                                         The ANA’s literacy program is based on a 312-hour curriculum. According
                                         to CSTC-A, in order to progress from being illiterate to funtionally
                                         literate, a student may take as many as seven tests. The student’s perfor-
                                         mance determines if he or she progresses to the next training level. As of




                                           90                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




September 1, 2012, the ANP success rates for the passing these tests were:
95% for Level 1 literacy, 98% for Level 2, and 97% for Level 3. According
to CSTC-A, Level 1 literacy provides an individual with the ability to read      SIGAR INSPECTION
and write single words, count up to 1,000 and add and subtract whole
                                                                                 SIGAR’s inspection of an ANA garrison
numbers. At Level 2 an individual can read and write sentences, carry out
                                                                                 in Gamberi found that site grading and
basic multiplication and division and identify units of measurement. At
                                                                                 infrastructure maintenance problems
Level 3 an individual has achieved functional literacy and can “identify,
                                                                                 had put facilities at risk. For more infor-
understand, interpret, create, communicate, compute and use printed and
                                                                                 mation, see Section 2, pages 39–40.
written materials.”131
    Since 2010, the United States has funded three literacy contracts for the
ANSF. Each has a limit of five years of service—as one-year options that
may be exercised in August of each year—and a maximum cost of $200 mil-
lion. According to CSTC-A, these contractors are providing 1,434 literacy
trainers to the ANA:132
 •	 OT Training Solutions (a U.S. company) is providing 528 trainers.
 •	 Insight Group (an Afghan company) is providing 303 trainers.
 •	 The Higher Education Institute of Karwan (an Afghan company) is
    providing 603 trainers.
CSTC-A said that responsibility for literacy training for ANA personnel in
the field will transition to the ANA between January 1 and June 30, 2013.
Literacy training at ANA training centers will transition by April 2014.133

Women in the ANA
As of August 21, 2012, ANA personnel included 379 women—268 officers,
104 noncommissioned officers, and 7 soldiers—according to CSTC-A. The
number of noncommissioned officers and soldiers remained the same, but
the number of officers increased by 44 since last quarter. CSTC-A noted that
these numbers include 27 AAF personnel; it was not clear if AAF person-
nel were included in the previous quarter’s report. The current target is for
women to make up 10% of the 195,000-strong combined ANA and AAF.134
   Recruitment of women remains a low priority for the ANA, according to
CSTC-A. The ANA lacks a centralized and structured process to screen, test,
and process women applicants. However, the ANA has recognized the need
for women in fields such as intelligence and law, and has been supportive of
hiring women to fill such positions.135
   NTM-A has two priorities for supporting recruitment and integration
of women into the ANA: establishing a Human Rights, Ethnic Balancing,
and Gender Integration Office within the MoD, and a program to support
recruiting women into the Intelligence Branch.136


AFGHAN NATIONAL POLICE
As of September 30, 2012, the United States had obligated $14.3 billion and
disbursed $12.3 billion of ASFF funds to build, train, and sustain the ANP.137




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012             91
                                           SECURITY




                                           ANP Strength
                                           Like the ANA, the strength of the ANP is a key metric of the success of the
                                           reconstruction effort in Afghanistan and will determine the Afghan govern-
                                           ment’s ability to provide its own security in the future. This quarter, the
                                           total strength of the ANP was 146,399, according to CSTC-A. Of that num-
                                           ber, 106,538 were assigned to the Afghan Uniform Police (AUP), 22,243 to
                                           the Afghan Border Police (ABP), and 14,585 to the Afghan National Civil
                                           Order Police (ANCOP). This quarter, the reported number of personnel
                                           in the AUP—the largest and most visible component of the ANP—rose
                                           considerably.138
                                              This quarter’s ANP strength number also includes 2,437 personnel in
                                           training and 536 officer candidates awaiting assignment.139

                                           ANP Sustainment
                                           As of September 30, 2012, the United States had obligated $4.5 billion and
                                           disbursed $4.3 billion of ASFF funds for ANP sustainment.140

                                           ANP Salaries
                                           From 2005 through September 30, 2012, the U.S. government had provided
                                           $735 million through the ASFF to pay ANP salaries and incentives (extra
                                           pay for personnel engaged in combat or employed in specialty fields),
                                           CSTC-A reported. However, that number does not include non-ASFF funds.
                                           Since 2002, the United States has provided approximately $927.5 million
                                           through the Law and Order Trust Fund for Afghanistan (LOTFA) to support
                                           the ANP. The LOTFA is a multi-national trust fund, administered by the UN
                                           Development Programme, that provides funds to the Afghan government.
SIGAR AUDIT                                The United States also provided $51.5 million outside of LOTFA contribu-
                                           tions to support the Afghan Local Police program. According to CSTC-A,
SIGAR’s audit of operations and main-
                                           when the ANP reaches its final strength of 157,000 personnel, it will require
tenance contracts for ANSF facilities
                                           approximately $726.9 million per year to fund salaries ($471.6 million),
found that oversight of U.S. Army Corps
                                           incentives ($117.8 million), and food ($137.5 million).141
of Engineers contracts with ITT Exelis
Systems Corporation varied due to
inconsistent implementation of quality
                                           ANP Equipment and Transportation
                                           As of September 30, 2012, the United States had obligated and disbursed
assurance and control procedures by
                                           $3.3 billion of ASFF funds for ANP equipment and transportation.142 Most
USACE and Exelis. It also questioned
                                           of these funds were used to purchase weapons and related equipment,
the Afghan government’s capacity to
                                           vehicles, communications equipment, and ammunition.143
sustain ANSF facilities after the con-
                                              The United States had surpassed two of three of its goals for procur-
tracts expire. For more information, see
                                           ing equipment for the ANP and had delivered most of that equipment,
Section 2, pages 30–32.
                                           according to CSTC-A. As of September 30, 2012, CSTC-A had procured
                                           99% of weapons and weapons-related equipment versus the goal, 104% of
                                           vehicles and transportation equipment, and 109% of communications equip-
                                           ment.144 To track equipment, CSTC-A uses the following categories: “Shoot”




                                             92                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




(weapons and related equipment), “Move” (vehicles and related equipment),
and “Commo” (communications equipment).145
                                                                                SIGAR AUDIT
ANP Infrastructure                                                              SIGAR has initiated an audit to deter-
As of September 30, 2012, the United States had obligated $3.6 billion and      mine whether CSTC-A and the ANP can
disbursed $2 billion of ASFF funds for ANP infrastructure.146                   manage and account for U.S.-funded
   As of September 30, 2012, the United States had completed 445 ANP            petroleum products. For more informa-
infrastructure projects valued at $1.3 billion in total. Another 212 were       tion, see Section 2, page 34.
ongoing ($1.2 billion), and 308 were planned or “in progress” ($1.7 billion).
The information CSTC-A provided did not make it clear whether the “ongo-
ing” and “in progress” counts overlapped. Last quarter, CSTC-A reported
164 planned projects ($1.1 billion). This quarter, 13 projects were completed
($38.3 million) and 45 new contracts were awarded ($197.0) million.147

ANP Training and Operations
As of September 30, 2012, the United States had obligated $2.8 billion
and disbursed $2.7 billion of ASFF funds for ANP and MoI training and
operations.148

ANP Literacy Training
The ANP’s literacy program, like the ANA’s, is based on a 312-hour cur-
riculum. According to CSTC-A, in order to progress from being illiterate
to being functionally literate, a student may take as many as seven tests.
The student’s performance determines if he or she progresses to the next
training level. As of September 1, 2012, the ANP success rates for the pass-
ing these tests were: 89% for Level 1 literacy, 90% for Level 2, and 86% for
Level 3. According to CSTC-A, Level 1 literacy provides an individual with
the ability to read and write single words, count up to 1,000 and add and
subtract whole numbers. At Level 2 an individual can read and write sen-
tences, carry out basic multiplication and division and identify units of
measurement. At Level 3 an individual has achieved functional literacy and
can “identify, understand, interpret, create, communicate, compute, and use
printed and written materials.”149
    Since 2010, the United States has funded three literacy contracts for the
ANSF. Each has a limit of five years of service—as one-year options that        SIGAR INSPECTION
may be exercised in August of each year—and a maximum cost of $200 mil-
                                                                                SIGAR’s inspection of the Wardak
lion. According to CSTC-A, these contractors are providing 1,779 literacy
                                                                                Province National Police Training Center
trainers to the ANP:150
                                                                                found that contract requirements had
 •	 OT Training Solutions (a U.S. company) is providing 482 trainers.
                                                                                generally been met, but deficiencies
 •	 Insight Group (an Afghan company) is providing 353 trainers.
                                                                                and maintenance issues needed to be
 •	 The Higher Education Institute of Karwan (an Afghan company) is
                                                                                addressed. For more information, see
    providing 944 trainers.
                                                                                Section 2, pages 40–41.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            93
SECURITY




CSTC-A said that responsibility for literacy training for ANP personnel in
the field will transition to the ANP between January 1 and June 30, 2013.
Literacy training at ANP training centers will transition by April 2014.151

Women in the ANP
As of September 18, 2012, ANP personnel included 1,462 women—238 offi-
cers, 597 noncommissioned officers, and 627 enlisted personnel—according
to CSTC-A. The goal for the ANP is to recruit 5,000 women by March 2014.
The ANP is actively recruiting women through a campaign sponsored by the
LOTFA. The United States has provided three gender advisors, assigned to
the MoI’s Human Rights, Gender, and Child Rights Directorate. These advi-
sors work with ANP leaders, promote the advantages of having women in a
police force, and visit ANP units where women are assigned to identify and
address gender-related issues.152


ANSF MEDICAL/HEALTH CARE
This quarter, the ANP health system made progress in several areas,
according to CSTC-A. The Office of the Surgeon General (OTSG) changed
the process for ordering and distributing medical supplies that could
reduce the administrative burden on customers and result in faster deliver-
ies. ANP medical logistics are also improving; a new medical warehouse
at the National Logistics Center in Wardak is expected to open soon.




The Afghan National Army’s Kandahar Regional Medical Hospital receives training and
mentoring from NATO Training Mission-Afghanistan. (U.S. Army photo)




  94                   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




Aggressive recruiting by OTSG and MoI resulted in the highest percent-
age of medical positions filled (nearly 92%). However, CSTC-A said OTSG
recognized that there are still shortages at local levels; OTSG has a plan to
correct these imbalances.153
   The standard of patient care in the ANP Hospital (ANPH) has mark-
edly improved, especially in the areas of infection control, wound care,
orthopedics, emergency services, and surgical services as a result of
intensive clinical advising in 2011. The ANPH is applying these new skills,
allowing CSTC-A to focus on building and maintaining systems and pro-
cedures to accurately track and assess the quality of care provided.154
   CSTC-A also said many steps to professionalize the ANA health care sys-
tem were taken this quarter and progress was made in the institutional and
ministerial-level development of a better healthcare system. Bio-medical
equipment calibration, validation, and repair inventories of all regional
military hospitals, and the National Military Hospital were completed. In
addition, the Biomedical Repair Technician course from the Armed Forces
Academy of the Medical Sciences graduated 32 personnel, who are gain-
ing hands-on training alongside coalition partners in those hospitals. These
graduates can now fix some of the ANA’s medical equipment without coali-
tion assistance. Moreover, the development of a graduate medical residency
program is in its final stage; CSTC-A expects the announcement of a start
date soon. Three regional military medical hospitals are being prepared for
transfer to the ANA’s Medical Command.155
   CSTC-A noted that ANSF disease reporting has improved. Following
the mid-April attacks in Kabul, the ANSF healthcare system success-
fully responded and treated all casualties without coalition assistance.156
As of the end of this quarter, 174 ANSF hospitals and health clinics had
been built and 10 are planned. The ANSF health care system has 885
physicians—706 in the ANA and 179 in the ANP—out of 1,001 needed. In
addition, it had 8,527 medical personnel (including nurses and medics) out
of 11,186 needed.157


U.S. FORCES
According to U.S. Forces-Afghanistan (USFOR-A), 76,000 U.S. forces were
serving in the country as of September 30, 2012. Of those, approximately
54,000 were assigned to ISAF, 2,000 to NTM-A/CSTC-A (the joint NATO/U.S.
mission responsible for training, equipping, and sustaining the ANSF), and
7,800 to USFOR-A, while 12,200 were categorized as “other U.S. military
personnel.”158 On September 21, 2012, Secretary of Defense Leon Panetta
announced that the drawdown of the 30,000 surge force was complete.159




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            95
                                                                 SECURITY




                                                                 REMOVING UNEXPLODED ORDNANCE
                                                                 From 2002 through September 2012, the U.S. Department of State has
                                                                 provided $253.2 million in funding for the removal and abatement of
                                                                 weapons, according to its Political-Military Affairs’ Office of Weapons
                                                                 Removal and Abatement (PM/WRA). Of that funding, $207.6 million had
                                                                 been provided since 2006 to fund the work of seven international non-
                                                                 governmental organizations (NGOs), five Afghan NGOs, three public
                                                                 institutions, two companies, and a U.K. university.160 According to PM/
                                                                 WRA, more than 57% of the funding since 2002 has been dedicated to
                                                                 clearance operations; the remaining funding was for the securing of
                                                                 excess or unstable weapons, victim’s assistance projects, mine‐risk educa-
                                                                 tion, and Afghan capacity development.161
                                                                    From July 1, 2011 through June 30, 2012, DoS-funded implementing
                                                                 partners had cleared more than 42.6 million square meters of minefields,
                                                                 according to the most recent data available from the PM/WRA.162 An esti-
                                                                 mated 563.0 million square meters of contaminated areas remain to be
                                                                 cleared, as shown in Table 3.3. The PM/WRA defines a “minefield” as an area
                                                                 contaminated by landmines, and a “contaminated area” as an area contami-
                                                                 nated with both landmines and explosive remnants of war.


                                                                 COUNTER-NARCOTICS
                                                                 As of September 30, 2012, the United States had appropriated $6 billion
                                                                 for counter-narcotics initiatives in Afghanistan since efforts began in
                                                                 2002. Most of these funds were appropriated through two sources: the
                                                                 State Department’s International Narcotics Control and Law Enforcement
                                                                 (INCLE) account ($3.6 billion), and the DoD Drug Interdiction and Counter-
                                                                 Drug Activities (DoD CN) fund ($2.3 billion).163
                                                                    DoD and DoS coordinate with each other to support the counter-narcotics
                                                                 efforts of the MoI and the Counter-Narcotics Police of Afghanistan (CNPA),
                                                                 INL stated. For example, in some provinces, DoD funded the construction

TABLE 3.3


CONVENTIONAL WEAPONS DESTRUCTION PROGRAM METRICS, JULY 1, 2011–JUNE 30, 2012
                                                                                                       Fragments              Minefields             Estimated Contaminated Area
 Date Range                  AT/AP Destroyed         UXO Destroyed           SAA Destroyed              Cleared              Cleared (m2)                  Remaining (m2)
 7/1–9/30/2011                     2,071                 120,616                  627,656                6,258,408               7,735,897                     602,000,000
 10/1–12/31/2011                   2,616                  88,998                  449,589               13,376,738             13,097,574                      588,000,000
 1/1–3/31/2012                     2,113                  62,043                  467,071                3,364,885             14,604,361                      585,000,000
 4/1–6/30/2012                     1,559                  28,222                    20,580               3,601,378               7,251,257                     563,000,000
 Total                            8,359                299,879                1,564,896              26,601,409              42,689,089                563,000,000 remaining
Notes: AT/AP = anti-tank/anti-personnel ordnance. UXO = unexploded ordnance. SAA = small-arms ammunition. Fragments are reported as a measure of effort, as they require the same care in
detection and handling as live ordnance until their nature is established.

Source: DoS, PM/WRA, response to SIGAR data call, 9/28/2012.




                                                                     96                            SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




of forward operating bases used by the CNPA’s National Interdiction Unit
(NIU); INL funded the maintenance of those bases. Moreover, DoD funded
the NIU’s training and DoS supplemented their salaries.164
   This quarter, five programs were being funded through the INCLE
                                                                                SIGAR AUDIT
account:165                                                                     In an ongoing audit, SIGAR is determin-
•	 a supply reduction program through the Governor-Led Eradication              ing the extent to which U.S. assistance
    Program (or GLE, at a cost $4.8 million per year)                           provides responsive air-mobility support
•	 an alternative development program through the Good Performers               to Afghan law-enforcement for drug-
    Initiative ($23 million)                                                    interdiction operations and develops
•	 a drug interdiction program to support the CNPA and U.S. Drug                Afghan capability to provide this support
    Enforcement Administration (DEA) efforts to build CNPA capacity             in the future. For more information, see
    ($55 million)                                                               Section 2, pages 36–37.
•	 a demand reduction and public information program to support the
    treatment of drug users ($12.0 million) and train Afghan Ministry of
    Counter Narcotics (MCN) public outreach officials on conducting
    public awareness campaigns ($3.7 million)
•	 a ministerial capacity-development program to support the MCN
    ($18.7 million)

Poppy Eradication
INL provides financial support to the Afghan government’s GLE program.
INL stated that 9,672 hectares of poppy were eradicated in 2012 through the
GLE program.166
   INL works with the Afghan MCN to achieve and sustain poppy-free prov-
inces. For example, INL funds the MCN’s Good Performer’s Initiative (GPI)
which helps governors see the benefit of reducing poppy cultivation in their
provinces through incentives. According to INL, a province becomes eligi-
ble for $1 million in GPI development projects if it is deemed poppy-free (or
has fewer than 100 hectares under cultivation during the year). INL noted
that, since the start of the GPI in 2007, more than 90 development proj-
ects—including the construction of schools, roads, bridges, agricultural,
and medical facilities—are either complete or in progress in 32 provinces.167
   INL also funds the Counter-Narcotics Public Information program to
help poppy-free provinces maintain their status through public aware-
ness and media campaigns. In addition, INL funds a grant to the Aga Khan
Foundation which focuses on helping six key provinces move toward
poppy-free status by working with communities and local NGOs to increase
opportunities for residents to find non-narcotics-related jobs.168

Counter-Narcotics Police of Afghanistan
This quarter, 2,622 personnel were assigned to the CNPA, according to
CSTC-A. This is a decrease of 274 from last quarter.169
   On September 12, 2012, CNPA launched an independent opera-
tion—observed by DEA agents—from the INL-supported Regional Law




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            97
SECURITY




Enforcement Center in Kunduz. The successful operation resulted in the
seizure of more than 180 kg of heroin, 1,200 kg of opium, 700 kg of narcot-
ics-related chemicals, and the destruction of six drug labs.170

National Interdiction Unit
During the reporting period, INL’s Air Wing provided more than 428 flight
hours in support of interdiction operations, including tactical and opera-
tional support for the CNPA. The DEA-supported CNPA consists of the
National Interdiction Unit (NIU) and the Sensitive Investigation Unit (SIU).
The flights supported 80 missions and transport of 1,220 passengers and
106,393 lbs. of cargo.171
   INL does not provide support to the Special Missions Wing (previously
known as AIU), but supports interdiction missions for DEA teams and task
forces in conjunction with NIU officers. INL also supports DEA efforts to
assist the CNPA by providing assets for intelligence collections, moving
platoons and equipment to various sites in Afghanistan, and providing oper-
ations and maintenance to the main NIU/SIU base in Kabul as well as the
Regional Law Enforcement Centers in Kunduz and Herat.172

Interdiction Operations
From July 1 through September 26, 2012, the ANSF partnered with U.S. and
coalition forces to conduct 38 interdiction operations—partnered patrols,
cordon and search operations, and deliberate detention operations—
according to DoD. These operations resulted in 41 arrests and led to the
seizure of the following narcotics contraband:173
•	 17,774 kg of hashish or marijuana
•	 15,785 kg of opium
•	 48 kg of morphine
•	 1,484 kg of heroin
•	 2,765 kg of narcotics-related chemicals

   The U.S. military provided general logistics and intelligence support in
addition to on-ground quick-reaction assistance, according to DoD. DEA
mentored specialized units throughout the country to establish a founda-
tional investigative and law enforcement capability. In addition, the U.S.
Intelligence Community continued to provide targeting and analytical sup-
port to the Afghan military and law enforcement agencies at the strategic,
operational, and tactical levels.174
   Most interdiction activities occur in the south and southwest, where the
majority of opiates are grown, processed, and smuggled out of Afghanistan.
According to DoD, Afghan forces in these areas increasingly took the lead
on patrols and conventional military operations as ISAF units withdrew in
line with transition plans. DoD noted that Afghan specialized units contin-
ued to demonstrate an ability to operate independently, aided in part by




  98                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                              SECURITY




logistical and intelligence support from ISAF. Moreover, Afghan counter-
Narcotics investigators continued to refine their intelligence collection
priorities in combating known drug trafficking networks and identifying
drug processing labs, storage sites, and trafficking routes. The result of
these efforts has led to stronger cases leading to evidence-based arrests.175
   Conventional and specialized Afghan units also executed a number
of operations with support from interagency elements, including the
Combined Joint Interagency Task Force-Nexus (CJIATF-N) and the
Interagency Operations Coordination Center (IOCC). CJIATF-N and IOCC
integrate information from various military and law enforcement sources
to enable operations against corrupt narco-insurgent elements. According
to DoD, all operations were coordinated with and received support from
U.S. and coalition military commanders.176




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012             99
CONTENTS

Key Events	                          101
Reconciliation and Reintegration	    103
National and Sub-National Governance	 107
Judicial Reform and Rule of Law	     114
Anti-Corruption	119
Human Rights	                        123




 100
                                                  GOVERNANCE




GOVERNANCE
As of September 30, 2012, the United States had provided $22.33 billion
to support governance and economic development in Afghanistan.177 The
country’s endemic corruption, underperforming formal judicial sector,
difficulties in establishing and maintaining governmental authority, and
persistent human-rights violations continued to complicate U.S. efforts to
establish a stable and mature Afghan government.


KEY EVENTS
This quarter, the Afghan government announced a series of reforms aimed
at improving governance and stemming corruption. It is still too early to
tell if genuine political will exists to implement these reforms. President
Karzai also made a number of leadership changes at the national and
local levels, but it is unclear whether these changes will improve gover-
nance. Peace and reconciliation remains a primary objective of the Afghan
government, but this quarter saw no major breakthroughs in peace nego-
tiations with the Taliban.

Karzai’s Governance and Corruption Decree
In July 2012, President Hamid Karzai issued a presidential decree to spur
the Afghan government to improve its institutional capabilities and reduce
widespread corruption. The decree contained a number of directives for
various ministries, some of which contained specific actions with deadlines
while others did not. Among the key directives:
•	 By March 2013, the Supreme Court should activate and staff all
    inactive courts.
•	 High-ranking officials should separate themselves from criminals, and
    corrupt individuals.
•	 Judicial and law enforcement agencies must take firm legal action
    against those who get in the way of justice without considering their
    official position.
•	 No individual should be imprisoned, arrested, or placed under
    investigation without lawful rationale, or remain in prison for a longer
    period than their sentence.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012           101
                                                GOVERNANCE




                                                •	 By December 2012, the High Office of Oversight should assess the
                                                   “suspicious” finances of all private institutions and government officials,
                                                   and send results to the president.
                                                •	 By August 2012, the Ministry of Finance should make a proposal to
                                                   pursue the pledges of the Tokyo Conference and inform the Cabinet on
                                                   the implementation progress every month.

                                                   Because many of the directives are aligned with Tokyo Mutual
                                                Accountability Framework commitments the Afghan government made
                                                at the Tokyo Conference on July 8, 2012, State Department officials said
                                                the decree gave a focus and sense of urgency to a reform agenda. Afghan
                                                progress towards fulfilling the Tokyo commitments is critical to maintaining
                                                long-term donor support. As of September 30, 2012, DoS reported the Afghan
                                                government had accomplished some of the elements of the decree. It noted
                                                that responsibility for the implementation of the decree—including funding,
                                                monitoring, and reporting—lies fully with the Afghan government.178

                                                Governorship Changes
                                                On September 19, 2012, President Karzai fired or reassigned governors of 10
                                                provinces. Governor Gulab Mangal of Helmand province was among those
                                                who lost their positions. Mangal was a key U.S. ally and a relatively effec-
                                                tive governor in the important southern province. Some Afghan analysts
                                                saw Karzai’s move as an effort to promote political allies to key positions
                                                ahead of the 2014 presidential elections. Others viewed it as a response to
                                                poor administration and heightened insecurity in those areas.179

                                                Afghanistan-Pakistan Relations
                                                This quarter, cross-border incidents continued to strain relations between
                                                Afghanistan and Pakistan, prompting increased diplomatic activity between
Former Helmand Province Governor
Mangal, center, removed from his post in
                                                the countries. Among other incidents, Pakistani military forces shelled
the 2012 Afghan government changes,             Kunar province and Afghan insurgents crossed into Pakistan, killing six
joined then-U.S. Ambassador Eikenberry in       Pakistani soldiers and 11 militia members. Afghanistan’s National Assembly
2009 for the opening of the civilian Bost Air   cited the cross-border incidents, which have occurred regularly, as one
Field. (U.S. Embassy Kabul photo)               reason for ousting the ministers of defense and interior this quarter. (See
                                                the security section for more information about the removal of the minis-
                                                ters). On August 15, 2012, the presidents of Afghanistan and Pakistan met in
                                                Mecca, Saudi Arabia, during the fourth extraordinary session of the Islamic
                                                Summit Conference, and agreed to establish a joint military delegation to
                                                investigate the incidents.180 DoD reported some progress on border coordi-
                                                nation and cooperation efforts as well as joint operations.181
                                                   In September 2012, Afghanistan banned the distribution of all Pakistani
                                                newspapers within Afghanistan because of continued pro-Taliban and
                                                anti-Afghan-government coverage in some of Pakistan’s most right-wing
                                                newspapers, according to media reports. The Pakistani newspaper coverage




                                                 102                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




had included publishing Taliban speeches and characterizing suicide bomb-
ings of government targets as “martyrdom operations” against “puppets.”
Some articles had also suggested that Afghanistan was being handed over
to Jews and Christians. The Afghan Border Police seized copies of the pub-
lications at Afghan-Pakistan border crossings. Members of Pakistan’s media
criticized the ban as an over-reaction.182


RECONCILIATION AND REINTEGRATION
Afghanistan’s political and economic strategy—as articulated in the
National Priority Programs it has been developing since 2010—makes peace
and reconciliation a primary objective (see pages 74–75 for a discussion of
the NPPs). Efforts to begin serious peace negotiations between the Taliban
and the Afghan government continued this quarter, but made no significant
progress. The UK Foreign and Commonwealth Office reported the Taliban
has been internally debating its role in Afghanistan’s future and whether it
should conduct serious talks. However, the Office noted the insurgency is a
complex and disparate entity with elements that continue to reject engage-
ment with the West and the Afghan government. As of September 2012, the
Taliban had not reopened discussions that broke off in March 2012.183
   The UN Security Council did take steps to facilitate negotiations by
removing a key Taliban leader, their former minister of finance, from the
UN’s Taliban sanctions list on July 19, 2012. As of September 13, 2012, a
total of 20 individuals had been delisted since June 2011.184 In his address to
the UN, President Karzai urged the UN Security Council take more Taliban
leaders off the sanctions list in hopes of facilitating negotiations.185

                                                                                    Afghanistan Peace and Reintegration
High Peace Council                                                                  Program: the Afghan government’s main
The Afghan government designated September 19-26, 2012 as “Peace
                                                                                    program for promoting and managing
and National Unity Week.” During this period, the High Peace Council                insurgent reintegration. It provides a way
and the Afghanistan Peace and Reintegration Program (APRP) held over                for Taliban members and other anti-govern-
200 events throughout the country to increase national and local public             ment elements to renounce violence and
awareness of the peace process. The three national-level events included            become productive members of Afghan
a national peace conference with over 1,500 attendees, an international             society. The program also attempts to link
peace conference with over 30 countries, and an Ulema (Islamic scholars)            reintegrees with development opportuni-
conference with respected religious leaders. The United States assisted             ties to enhance the attractiveness of the
with these events, according to DoS.186                                             program. It is administered through a Joint
                                                                                    Secretariat, an inter-agency body that
Afghanistan Peace and Reintegration Program                                         has representation from the International
                                                                                    Security Assistance Force (ISAF).
This quarter, the pace of reintegration continued to slow. Only 372 insur-
gents officially entered the APRP—well below the program’s previous
12-month average of 706 reintegrees per quarter, as shown in Figure 3.27
on the following page. As of September 25, 2012, there were 5,046 reinte-         Sources: UNDP, “UNDP Support to Afghan Peace and
                                                                                  Reintegration Program,” 5//2011; ISAF, “APRP,” accessed
grees in the program.187 The ISAF Force Reintegration Cell (F-RIC) noted an       online 7/17/2012.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012             103
GOVERNANCE




FIGURE 3.27


REINTEGREES UNDER THE APRP, 2010–2012

5,000


4,000


3,000


2,000


1,000


     0
 As of     Dec 31        Mar 31       Jun 30    Sep 30      Dec 30       Mar 30       Jun 30     Sept 30
            2010         2011          2011      2011        2011        2012          2012       2012


Note: Numbers affected by rounding.
Sources: DoS, responses to SIGAR data call, 10/2/2012, 7/5/2012, 3/30/2012, 12/30/2011, 10/6/2011, 7/1/2011,
4/15/2011, and 1/12/2011.




additional 1,000 reintegrees were undergoing vetting to enter the program.
Only 16.5% of all reintegration has occurred in the more volatile provinces
in the south and east, as shown in Figure 3.28.188

U.S. Support for Reintegration
As of September 30, 2012, the United States had provided $50 million to
USAID to support the APRP. These donations went directly to the World
Bank’s Afghanistan Reconstruction Trust Fund to support the Ministry
of Rural Rehabilitation and Development’s National Solidarity Program.
However, the USAID contribution to APRP does not fund most of the
activities typically associated with APRP, such as operational expenses
for peace institutions, demobilization, outreach, or any community recov-
ery efforts besides the Ministry’s National Solidarity Program. The United
States allocated an additional $50 million to support reintegration through
DoD’s Afghanistan Reintegration Program (ARP) which is the main DoD
program supporting the APRP. As of September 23, 2012, the U.S. military
had obligated only $1.2 million of its funds due to bureaucratic challenges
in approval and delivery. In early October, State concurred with DoD’s
request for a further $35 million for ARP for FY 2013; the request awaits
Congressional approval.189




  104                           SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                                                             GOVERNANCE




FIGURE 3.28


REINTEGREES BY REGIONAL COMMAND, DECEMBER 2011-SEPTEMBER 2012

5,000



4,000                                                                                                                                              RC-NORTH




                                                                                                                                                            RC-CAPITAL
3,000
                                                                                                                    RC-WEST
                                                                                                                                                         RC-EAST


2,000                                                                                                                                  RC-SOUTH


                                                                                                                RC-SOUTHWEST

1,000



      0
            December 2011           March 2012             June 2012          September 2012


Note: Data for RC-Capital was not given until June 2012. The decrease in RC-North in March 2012 was due to the Joint Secretariat disqualifying approximately 250 previous enrollees from Sar-e Pul.
Source: DoS, responses to SIGAR data call, 10/2/2012, 7/5/2012, 3/30/2012, and 12/30/2011.



Regional Reintegration Progress
The Defense Department reported reintegration has been slow to take
hold in the eastern, southwestern, and southern parts of Afghanistan
because of overall insecurity and provincial officials’ perception that they
receive few tangible benefits from the program. Some insurgents who
have shown an interest in reintegration, or who have been reintegrated,
have been threatened or killed by the Taliban.190 Some communities like
Ghazni have had no reintegrees come forward. These areas are therefore
ineligible for community recovery activities like basic community infra-
structure, agriculture, health education, and water and sanitation that
could raise the profile of the program. However, local uprisings against
the Taliban in some of these areas have raised hope that the program will
become more popular in the future.191

Capacity Development for Reintegration
The APRP’s capacity to reintegrate insurgents at the provincial level con-
tinued to vary considerably. Some Provincial Peace Councils (PPCs) and
Provincial Joint Secretariat Teams (PJSTs) are able to act independently
and make strong appeals to the APRP’s Joint Secretariat for their provinces’
financial reintegration needs. Other PPCs and PJSTs lack basic account-
ing and technical skills needed to properly operate their budgets. The High




REPORT TO THE UNITED STATES CONGRESS                           I   OCTOBER 30, 2012                                    105
GOVERNANCE




Peace Council has determined that it needs to quickly assess and restruc-
ture the weaker PPCs. PJSTs will be challenged to successfully assume all
of their responsibilities as reintegration efforts intensify. Greater coordina-
tion between the PJSTs and provincial governors, as well as with relevant
security institutions, will be key to promoting successful reintegration and
managing the overall program.192

Reintegree Recidivism and Vetting
From April 2011 to September 2012, the APRP’s vetting procedures greatly
improved, according to DoS and DoD. To confirm that each reintegree is in
fact an insurgent, vetting procedures now require multiple offices—political,
military, and intelligence—of both the provincial and national governments
to confirm that each reintegree poses a genuine threat.193 This quarter, ISAF
said 100 potential reintegrees are turned away from joining the APRP every
month, demonstrating the effectiveness of current vetting procedures.194 DoS
reported one instance where 155 potential reintegrees were rejected from
the program in Herat this quarter. The State Department reported that as of
September 30, 2012, only 15 reintegrees who had entered the program were
either confirmed or rumored to have rejoined the insurgency. However, the
strengthened vetting process has also created program bottlenecks: until
reintegrees are fully vetted, they cannot receive APRP benefits.195

Financial Management of Reintegration Programs
The APRP continued to have difficulty executing its $161 million budget.
Four months into Afghan Fiscal Year 1391, the APRP had spent approxi-
mately 11% of its budget. Although spending typically increases at the end of
the fiscal year, if the program continues to spend at current rates, it would
only spend about 33% of its budget by the end of the shortened Afghan Fiscal
Year 1391 which ends on December 20, 2012. The APRP disbursed only 14%
of its budget from March 2011 to March 2012.196
   The APRP’s Joint Secretariat strives to provide each province with simi-
lar resources. For example, certain financial accounts are the same for
every province regardless of the number of reintegrees or the size of the
province. Provincial officials in the west and north argue that this is unfair,
given their larger reintegree populations.197

Community Recovery Programs
The APRP has improved its ability to implement community recovery
programs designed to provide economic and social opportunities to rein-
tegrees and their communities. From April to September 2012, the APRP
increased its small grant projects from 48 to 102, of which 12 were com-
pleted, according to DoD. The APRP’s 2012 budget allocates $87.4 million
of its $161 million budget for community recovery projects. Line minis-
tries responsible for implementing community recovery projects have




 106                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




significantly increased their capacity over the past two quarters. The minis-
tries also prepared their FY2013 plans for approval by the APRP Technical
Committee. These ministries have told APRP leadership of the need for
increased Afghan awareness about the linkages between the APRP and a
reduction in violence.198
   The APRP’s Joint Secretariat reported that 3,206 of the 5,046 reinte-
grees (64%) had directly benefited from community recovery activities as
of September 30, 2012. In addition, over 100,000 Afghan civilians had also
benefited from community recovery activities.199 The UN Secretary-General
reported that about 10% of reintegrees were working on demining proj-
ects supported by the UN’s Mine Action Service.200 Meanwhile, the State
Department said the security situation in the south, southwest, and east
makes delivering community recovery activities in those areas difficult.201
   According to the State Department, some local reintegration bodies have
complained that the $360 assistance package offered to new reintegrees
over the three-month transition period is not enough to convince insurgents
to move off the battlefield because it is less than they can make as insur-
gents.202 The Defense Department agrees that the $360 payment is insufficient
for insurgents operating in the south. To address these issues, the Joint
Secretariat is working on increasing the amount of the assistance package
and extending the duration of the transitional assistance.203 An enhanced
commanders’ package containing additional benefits was approved this quar-
ter for insurgent leaders that reintegrate over 50 fighters, according to DoS.204

Reintegration Support from the Afghan National Security Forces
This quarter, the ANSF gave greater support to the APRP, particularly in
the east, according to DoS. A Ministry of Defense (MoD) directive imple-
mented in April 2012 led to an increase in the ANA’s support of the program.
This quarter, the ANA trained all of its corps (with the exception of 205th
Corps in Kandahar) on the APRP. Although progress has generally been
slow, ANA units are increasingly more aware of the APRP and the ANA’s
role in supporting the program. However, some provincial officials believe
that the ANSF’s level of support varies throughout the country. At the
end of the quarter, the Joint Secretariat was working with the Ministry of
Interior (MoI) to finalize a draft directive, similar to the ANA’s, to improve
its support of the program. ISAF continues to work with NATO Training
Mission-Afghanistan (NTM-A) to ensure that APRP training is included in
ANA and ANP training courses.205


NATIONAL AND SUB-NATIONAL GOVERNANCE
The United States supports a number of efforts to improve Afghanistan’s
national and sub-national governance in such areas as capacity building,
local governance, and civil service training. As of the end of the quarter,




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012               107
GOVERNANCE




Afghanistan continued to have serious problems establishing a competent
and capable government in full control of the country.

National Assembly
The Wolesi Jirga was active this quarter. On August 4, 2012, the Wolesi Jirga
passed a no-confidence vote against the Ministers of Defense and Interior.
On September 15, 2012, it confirmed the replacement appointments for the
two ministers and named a new Director for the National Directorate of
Security. On September 24, 2012, the Wolesi Jirga passed the Independent
Election Commission’s (IEC) Structure Law, which outlined the appoint-
ment process for IEC commissioners and established a permanent Electoral
Complaints Commission. In addition, on September 25, 2012, the Wolesi
Jirga passed the Civil Aviation Law, which created an independent Civil
Aviation Authority within the Ministry of Transport and Civil Aviation. DoS
noted that this law should help in achieving international aviation standards
and create better oversight of the aviation system.206

Proposed Election Law
As of September 30, 2012, the Council of Ministers’ legal committee was
reviewing a draft electoral law.207 According to the IEC, the draft makes
changes in areas such as the technical and operational makeup of the
electoral administration and the electoral systems. It also establishes an
adjudication mechanism for electoral complaints.208 DoS views the draft as
a good start to making much-needed electoral reforms.209
   This quarter, the international community intensified its discussions
with Afghan officials about the 2014 presidential and 2015 parliamentary
elections. Officials hope to institute a more robust legal and technical
framework to mitigate the electoral fraud and large-scale ballot exclu-
sions that marred previous Afghan elections. On July 10, 2012, the Chief
Executive of Afghanistan’s IEC, Abdullah Ahmadzai, resigned. As of
September 2012, Karzai had yet to appoint his successor.210
   On September 17, 2012, the Council of Ministers decided to move
forward with a multi-purpose national identification card, also known
as E-Taskera, instead of the voter registration program the IEC had pro-
posed.211 The United States and the international community had raised
concerns about the voter registration program backed by the United
Nations Development Programme (UNDP) and the IEC.212

Civil Service Vacancies
As of September 30, 2012, approximately 86% of civil service positions were
filled in the 14 most insecure provinces, according to USAID. This repre-
sents a steady increase in positions filled, as shown in Figure 3.29. In the
more volatile provinces, insecurity as well as low-levels of education and
experience continued to prevent the government from completely filling its




 108                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                  GOVERNANCE




FIGURE 3.29

CIVIL SERVICE POSITIONS FILLED



 Sept
                                                                                              86%
2012

 April
                                                                                  70%
2012

 April
                                                            50%
2011


         0%               20%                 40%                  60%                  80%          100%


Source: USAID, responses to SIGAR data call, 10/4/2012, 4/3/2012, and 4/1/2011.



civil service positions. USAID plans to use its on-budget funding assistance
for civil service reform to hold job fairs in seven insecure provinces. These
job fairs will prioritize filling vacant positions and provide orientation and
training to those recruited. USAID noted that a new recruitment strategy
for insecure provinces was being implemented in a number of dangerous
provinces, including Kandahar, Helmand, Zabul, Uruzgan, Nimroz, Paktika,
Khost, and Ghazni.213

Passport Processing
The MoI Afghan Passport Agency continues to have limited ability to process
passports, according to DoS. The Agency issues passports only within Kabul.
Outside of the capital, it simply distributes blank passport books to provin-
cial passport stations for issuance. The MoI’s oversight of the Agency has not
improved its capacity, diminished corruption, or reduced black-market sales.
In February 2012, reports indicated that more than 1 million Afghans were
waiting for passports. In response, the Ministry of Finance (MoF) ordered
production of 1.4 million new passports. Some 35,000 of the new passports
arrived in April 2012. However, the new passport books had not yet been
properly disbursed by the Passport Agency, as of September 30, 2012.214

Targeted Killings
Insurgents accelerated efforts to undermine the Afghan government by
targeting senior officials, civil service, community elders, and religious lead-
ers. From May 1 through July 31, 2012, targeted killings left 231 people dead
and another 139 injured. This marked an 88% increase from the same period
last year, during which at least 162 people were assassinated and 35 were
injured. The UN Secretary-General noted that improvised explosive devices
figure more often in these attacks than in the past.215 The U.K. Foreign and




REPORT TO THE UNITED STATES CONGRESS                  I   OCTOBER 30, 2012                          109
GOVERNANCE




Commonwealth Office attributed the insurgents’ mounting use of high-
profile attacks and assassinations to their determination to remain relevant
despite their difficulty conducting more open-ended operations in protected
urban areas.216

U.S. Capacity-Building Programs for Public Administration
Developing Afghanistan’s human resources is a key goal of the U.S. recon-
struction effort. The United States is implementing a number of programs to
build Afghan governing capacity at the national, provincial, and local levels.
This sub-section reviews some of those efforts.

USAID RAMP-UP and KCI Programs
USAID’s Regional Afghan Municipalities Program for Urban Populations
(RAMP-UP) and the Kabul City Initiative (KCI) programs are making prog-
ress in improving service delivery and connecting populations to their
municipal governments, but many challenges remain in creating a func-
tional system of local governance. As of September 30, 2012, USAID had
obligated about $235.72 million for RAMP-UP and KCI.217
   In recent quarters, RAMP-UP and KCI have attempted to build more
sustainable, competent, responsive, and transparent local municipal gov-
ernments. To achieve these goals, the programs have focused on improving
revenue generation, providing focused program support in a single area of
governance, creating mechanisms for citizens to influence local government
decision making, and ensuring government staff have the skills and the
knowledge to be effective after transition.218
   USAID noted a number of positive results from the program, including:219
•	 municipal revenue generation increases of 226% in Herat, over 100% in
   Kabul, 71% in Kunduz, 109% in Farah, and 20% in Mazar-e-Sharif
•	 an 8% increase in access to trash services and an 11% increase in park
   usage in Kabul
•	 50 service delivery projects completed with assistance from
   RAMP-UP South
A number of systemic issues have hampered the implementation of pro-
grams to support local governance:220
•	 Municipal official accountability: Because municipal officials are not
   elected by the local population, they are not truly accountable to locals and
   focus more on pleasing the central government. USAID noted that bribery
   rather than good performance is often the best way to satisfy Kabul.
•	 Top-down governance structure: The central government’s control
   over municipalities means that Kabul controls many decisions that
   would otherwise be made by the local municipal government.
•	 Funding cuts and program uncertainty: Funding for regional programs
   has been reduced by as much as 66% and the fiscal picture for future
   option years is unclear, creating uncertainty and planning difficulties.




 110                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




•	 Coordination and programmatic focus: The Afghan government’s
   General Directorate for Municipal Affairs (GDMA)—responsible for
   donor and implementing partner coordination, policy development,
   expectation management, and the introduction of strategic
   interventions—has often made ad-hoc program requests that have made
   following program plans difficult. In addition, GDMA does not have the
   capacity to effectively coordinate activities to prevent duplication of the
   UNDP’s Afghanistan Sub-national Governance Programme, which has
   many of the same program elements as RAMP-UP.

USAID Support to Sub-National Governance Program
USAID says its Sub-National Governance program has improved the abil-
ity of provincial councils to operate, oversee, and engage with the local
population. As of September 30, 2012, the program assisted Provincial
Councils with 340 public consultation events, 162 local project site visits,
and 130 public hearings to share information and solicit public feedback.
USAID noted that Councils’ capacity had improved, but much work
remains to ensure their sustainability and connect them with central and
district governments. Insecurity, poor regulatory frameworks, lack of
operational resources, and a centralized governance system all hamper
the Councils. As of September 30, 2012, USAID had obligated almost
$17 million for the program.221

USAID IARCSC Support
USAID’s funding support to the Afghan government’s Independent
Administrative Reform and Civil Service Commission (IARCSC) has helped
the Commission meet 14 of its 23 benchmarks. USAID said it expected the
program to reach seven additional benchmarks by the end of this quarter
but the Commission could not verify to USAID that it had. The IARCSC
was created to standardize the Afghan civil service across the government.
USAID has disbursed $7.75 million of the $15 million budgeted for the pro-
gram. USAID said Commission achievements included:222
•	 establishing policies, manuals, and systems necessary to improve its
   governance and management, allowing for a more robust leadership
   role in civil service and public administration reform
•	 performing independent technical capacity assessments and
   performance appraisals of ministries
•	 expanding the human resources management-information system to
   25 ministries, improving record management and thereby allowing
   ministries to account for their employees and better plan for
   recruitment and budgeting
•	 drafting a five-year strategic plan to build the internal capacity and
   structure of the commission




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            111
GOVERNANCE




Provincial and District Governance
The Afghan government has gained greater control of the south due to
improved security, but the government continues to compete with insurgent
groups for control of the population in the more rural areas. In the more
stable north, the government exercises more authority, but its control is
still not complete, as shown in Figure 3.30. The Provincial Reconstruction
Teams (PRTs) and District Support Teams (DSTs) still operating in the
north and south continue to focus on supporting the transition effort with
initiatives that seek to improve governance, rule of law, health and edu-
cation, infrastructure, agriculture, economic growth and development,
counternarcotics, and reintegration and reconciliation.223

Helmand Province
The Afghan government’s provincial and district governments in Helmand
have made progress in administering and governing urban areas. However,
they are less effective in rural areas, where the central government has not
provided robust support. DoS noted that effective provincial and district
leadership is expanding government influence in Helmand. The Taliban no
longer has outright control of most areas of Helmand, although it can still
provide shadow governance in certain locations. The Tailiban gains much
of its influence through violence and intimidation of the local populace. The
central government will need to provide additional support to Helmand to
sustain progress.224
   Coalition troop reductions and the summer fighting season did not mate-
rially affect government officials’ freedom of movement in Helmand this
quarter. Improved security allowed government officials, civil servants, and
residents to travel from the province’s capital, Lashkar Gah, to outside dis-
tricts such as Musa Qala, Sangin, Kajaki, Khan-e Shin, and Now Zad. With
the exception of the Kajaki district, local officials can commute to their duty
locations without ISAF support.225
   Improving governance in Helmand remains a challenge. Senior officials
continue to draw on political connections and patronage networks to hire
civil servants. Corrupt hiring practices have allowed for many incompetent
directors to remain in charge of the provincial and district officials. This
has undermined efforts to promote good governance in Kajaki and improve
security in Gereshk.226

Kandahar Province
The Afghan government and Taliban shadow government continue to vie
for control of Kandahar, birthplace of the Taliban, but DoS says Afghan
government influence in the province appears to be increasing. In those
areas where the Afghan government has control, it has demonstrated
improved capacity. The Afghan government is functioning in Kandahar
City and the larger cities. However, districts further from the capital have




 112                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                            GOVERNANCE




FIGURE 3.30


NORTHERN PROVINCIAL DISTRICTS WITH TALIBAN PRESENCE



 TURKMENISTAN                 UZBEKISTAN                            TAJIKISTAN
                                                                    Dasht e Archi
                                Balkh             Imam Sahib
                                                                                                          Darqad

 Chahar
 Bolak                                                                                                     Khwaja Gar



                                                           Chahar Dara
  Chimtal
                 RC-WEST                                               Aliabad
                                     Sholgara
                                                                                       Ishkamesh


                              BALKH                              KUNDUZ                    TAKHAR

                                                                                       Areas with Taliban presence




Note: Districts shaded in blue were not specifically identified by DoS as having a sizable Taliban presence. The extent of
Taliban presence differs among the districts.
Source: DoS/SCA, response to SIGAR data call, 10/2/2012.




proven difficult to hold; the Taliban largely controls the Zharay, Panjwai,
and Maiwand regions.227
   The improved security situation in Kandahar has increased government
officials’ ability to travel independently within the province. DoS noted that
the province’s governor can move around the province in a way he could
not as recently as May 2012. Government officials are able to travel without
ISAF support. Many provincial leaders are now relying on their own secu-
rity details for longer ground movements.228
   Although there have been gains in implementing hiring standards and
training for government employees, political connections and patronage
networks continue to influence hiring. The United States is working with
the Kandahar government to ensure that provincial and district positions
are filled with qualified and dependable civil servants and that salaries are
paid to the right people.229

Balkh Province
Balkh’s capital, Mazar-e-Sharif, enjoys relative stability and provincial offi-
cials are able to govern effectively. The United States has little engagement
with the province’s rural district governments as there are no longer any




REPORT TO THE UNITED STATES CONGRESS                         I   OCTOBER 30, 2012                                    113
GOVERNANCE




DSTs in these areas. Consequently, U.S. officials do not have much insight
into whether the local governments are effective. Although the Taliban
shadow government has limited control of the province, it is present in sev-
eral districts such as Chimtal, Sholgara, Chahar Bolak, and Balkh.230

Kunduz Province
Taliban influence is strongest in Chahar Dara and is significant in Aliabad,
Imam Sahib, and Dasht e Archi districts, where government influence is
weak. However, the governor has recently been able to travel to those
areas. DoS noted that the governor’s successful response to a recent flare-
up in violence that left 16 civilians dead demonstrated effective leadership.
During that episode, the governor acted as an honest broker between the
two sparring groups by conducting peace shuras and mediation sessions.
However, the government has not been willing to address many of the
underlying stability problems that are caused by illegally armed factions in
the province.231

Takhar Province
Takhar province is fairly stable with little in the way of Taliban shadow
governance. However, some insurgent presence lingers in Khwaja Gar,
Darqad, and Ishkamesh. The province’s former governor, replaced in
President Karzai’s September 2012 provincial leadership shake-up, was
largely absent from the province during his tenure and rarely travelled
to the districts. As of September 30, 2012, his replacement had not yet
assumed the governorship.232


JUDICIAL REFORM AND RULE OF LAW
Afghan and U.S. efforts to develop the judicial system concentrate on
updating laws, educating and training Afghan legal professionals, strength-
ening connections between the informal and formal systems, and improving
prison and detention center operations and conditions.
   Although the Afghan government and the international community have
identified “law and justice for all” as one of the National Priority Programs,
they have not agreed on program specifics that would lay out a clear and
verifiable roadmap to improve the Afghan justice system. This quarter,
efforts to deliver a finalized version of the law and justice for all program to
the Joint Coordination and Monitoring Board for approval failed again.233
   This quarter, the UN Secretary-General reported the Afghan government
made some progress towards legislative reform in the justice sector, includ-
ing creating several working groups to revise the Penal Code.234
   This section covers some of the U.S. programs supporting judicial reform
and rule of law.




 114                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




Detention Center Operations and Transfer
Over the past two quarters, the United States has transferred more
than 3,000 detainees at the Detention Facility in Parwan to the Afghan
authorities in accordance with a Memorandum of Understanding signed
in March 2012 between the Afghan government and the United States.
However, a small number of detainees remained under U.S. control.235 As
of September 10, 2012, the United States suspended transfers of remain-
ing detainees to resolve issues arising from the Memorandum.236 DoD
noted that the Afghan government had some questions about the legality of
administrative detention. Following high-level negotiations, it appeared that
the Afghan government would be willing to work with the United States to
resolve the impasse by developing a legal framework that respects Afghan
sovereignty while preventing any serious security threats from detainees.237    Under the March 2012 bilateral
   According to DoD, the United States transferred detainees to Afghan cus-     Memorandum of Understanding on
tody and control only after a U.S. Detainee Review Board determined that        Detention Operations, the United States
the detainee met U.S. criteria for internment.238 For future detentions, the    agreed to transfer detainees to Afghan
Afghan government has set up a process for determining the management           control. The Afghan government had given
of detainees. The process involves a number of checks and balances as well      the transfer high priority, maintaining the
                                                                                United States had no legal authority to hold
as consultations with the United States, as shown in Figure 3.31 on the fol-
                                                                                Afghan prisoners.
lowing page.239
   Some 50 additional foreign detainees, mostly from Pakistan, were not cov-    Source: SIGAR, “Quarterly Report to Congress,” 4/30/2012.

ered by the agreement and have not been transferred to Afghan control.240

Prisons
Afghanistan’s prisons remained overcrowded at almost 176% over capacity,
as of September 30, 2012. However, this is an improvement in prison condi-
tions from March 2012, when prisons held more than double their capacity
(202%). There were over 16,400 male prisoners and 471 female prisoners in
Afghan custody. The State Department had obligated almost $70.47 million
for the construction of prisons and detention centers.241

Criminal Procedure Code
Although the Afghan government pledged to enact a new Criminal
Procedure Code more than two years ago, as of September 30, 2012, the
                                                                                  Taqnin: The legislative drafting unit in the
National Assembly had not approved a draft of the Code.242 The Ministry of        MoJ that is tasked with scrutinizing draft
Justice’s (MoJ) Taqnin unit presented a revised version of the Code to the        laws. According to the MoJ, all draft laws in
National Assembly on June 30, 2012. The draft was expected to be placed           Afghanistan must be vetted by the Taqnin
on the legislative agenda soon, according to the UN Secretary-General.243         for such things as compliance with the
Throughout the protracted revision process, the United States repeat-             Constitution, Islamic law, and international
edly conferred with Afghan officials within the MoJ, the Afghan Attorney          agreements that Afghanistan has ratified.
General’s Office (AGO), and Supreme Court to improve the draft. DoS says
the current Code is not a basis for a successful rule of law system, and the
draft Code has serious problems that the Assembly might not be able to          Source: MoJ, “Department of Legislative Drafting,” accessed
resolve through the amendment process.244                                       online 7/17/2012.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            115
GOVERNANCE




FIGURE 3.31


CRIMINAL DETAINEE INTERNMENT PROCESS



                                               INTERNMENT PROCESS


                                                      CJIATF-435
                          Compiles and forwards each transferred detainee's case file to
                          Afghan Government for Technical Committee review.



                                                 Technical Committee
                          Decides whether each case should be referred for continued
                          internment or for prosecution.
                          Composed of members from GIRoA’s Attorney General's Office
                          (AGO), Ministry of Defense (MoD), Ministry of Interior (MoI),
                          National Directorate of Security (NDS) and Supreme Court.




                         CONTINUE INTERNMENT                                              PROSECUTION

                 Afghan Impartial Review Board (IRB)                           National Directorate of Security (NDS)
      IRB determines if detainee meets criteria for detention or               NDS Conducts a criminal investigation.
      if continued detention would mitigate threat.
      Panel of three field-grade officers from MoD, MoI, and
      NDS. An ANA staff judge advocate represents Afghan
      government; another ANA attorney serves as detainee's
      defense counsel; a third ANA staff judge advocate serves
      as IRB's legal advisor.


                         RECOMMEND RELEASE

                         Consultation with USA
      Afghanistan must favorably consider any U.S. assessment
      that continued internment is necessary to prevent
      detainee from engaging in or facilitating terrorist activity.




                                                    DISAGREEMENT


                                          If no agreement on way forward,
                                          discussions go to Detention
                                          Transition Oversight Subcommittee
                                          or to the Bilateral Committee or
                                          through diplomatic negotiations.




            RELEASE                                                                          CONTINUE INTERNMENT



Note: Any released detainee has the opportunity to enroll in the Afghan Peace and Reintegration Program (APRP)
Source: DoD/OSD, response to SIGAR data call, 10/12/2012.




   116                           SPECIAL INSPECTOR GENERAL                 I    AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




DoS identified the following deficiencies:245
•	 Audio, video, written, and photographic evidence (crucial parts of many
   prosecutions) are not admissible.
•	 Covert surveillance is limited and is not available to use for offenses like
   corruption, fraud, arms trafficking, and extortion. Under UN conventions
   against corruption and transnational organized crime, Afghanistan is
   obligated to provide legal authorization for electronic surveillance.
•	 Prosecutors lack the required authority to dismiss cases if there is
   insufficient evidence against the accused. This results in weak cases
   being referred to court and tying up the judicial system.
•	 Convictions for sexual assault can be pardoned or commutated.

Due Process and the Afghan Case Management System
The Afghan Case Management System (CMS), a database which tracks
criminal cases from investigation through sentencing and appeal, recorded
over 21,000 new criminal cases in Kabul from March 2011 to August 2012.
The State Department’s Justice Sector Support Program (JSSP) also
established an internet link from the central CMS in Kabul to the Attorney
General’s Office, as well as to primary courts in Herat and Mazar-e-Sharif.
The JSSP is working with Afghan officials to address the findings of CMS
data analysis. This analysis could help make the legal system more trans-
parent and improve management, which would also deter corruption. In
addition, the CMS could spot due process failures by identifying delays in
the judicial process.246

U.S. Justice Sector Support Program
The State Department’s Bureau of International Narcotics and Law
Enforcement (INL) manages the JSSP to train prosecutors, defense attor-
neys, investigators, and judges and build the overall capacity of the judicial
system. As of September 30, 2012, DoS had obligated more than $212.71 mil-
lion for the JSSP, of which $186.1 million had been expended. The JSSP
employed 154 attorneys, including 108 Afghans and 46 American and third-
country-national legal advisors. Over the next two years, October 2012 to
October 2014, INL will transition the JSSP from a donor-provided program
to an institutionalized Afghan government program. DoS said it had shifted
from primarily using U.S. legal advisors in its training, to relying mostly on
Afghan lawyers. The program will also start having Afghans organize and
manage the legal training programs.247
   As of July 27, 2012, the JSSP had trained 44% of prosecutors, 39% of
defense attorneys, 28% of police investigators, and 19% of judges in its
foundational rule of law program, according to a survey of over 5,800 jus-
tice professionals. In addition, the JSSP provides mentorship programs
and short-term courses in gender training, trial advocacy, ethics, and anti-
corruption. DoS pointed to a number of anecdotal events that occurred this




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012             117
GOVERNANCE




quarter where JSSP-trained judicial professionals demonstrated the positive
impact the JSSP training has had:248
 •	 In Herat, a JSSP-trained prosecutor used witness interrogation and
    crime-scene examination knowledge to successfully prosecute a case
    under the 2010 Elimination of Violence Against Women (EVAW) law
    against a husband who had repeatedly beat his wife during their three-
    month marriage.
 •	 In Kunduz, relatives of a widow tried to force her to marry her dead
    husband’s brother. She refused, and went to the local Huquq—or
    provincial civil law office—to complain to a JSSP-trained officer. He
    explained the EVAW law and its prohibition of forced marriage to the
    village elders and a number of the women’s in-laws. The elders and
    in-laws subsequently declared she did not have to get married.
 •	 In Kabul, judges declared that their training in procedural laws and
    adherence to time limits had allowed them to clear a case backlog in
    their traffic court.
 •	 In Bamyan, a JSSP-trained police officer was able to use his knowledge
    that “running away” was not against the law to release a couple arrested
    after travelling to the province to get married without their parents’
    permission.
 •	 In Bamyan, a JSSP-trained judge has opened his court proceedings
    to the public and has increased his protection of defendants’ rights,
    including encouraging the use of counsel.

U.S. Corrections System Support Program
INL’s Corrections System Support Program (CSSP) provides aid to the
Afghan government’s Central Prison Directorate’s (CPD) prison system.
According to DoS, this assistance has improved prison record keeping and
helped establish rehabilitation programs for prisoners. As of September 30,
2012, the records of almost 28,000 prisoners had been entered into a nation-
wide classification system. Where infrastructure permits, the classification
system lets prison commanders separate dangerous and national-security-
threat prisoners from non-violent offenders.249
   In addition, the system enables prison authorities to better identify
inmates eligible for literacy and vocational classes and other prison pro-
grams. DoS noted that in FY 2012, CSSP’s partnership with Afghan prison
authorities led to increased participation in programs like carpet weaving,
metal work, sewing, and agriculture at Pol-i-Charkhi, Afghanistan’s central
prison. CSSP also provides material support for these kinds of programs in
10 provincial prisons, basic education and literacy programs in eight provin-
cial prisons, and educational and vocational programs in five female prisons
and three juvenile centers.250
   As of September 30, 2012, INL had expended about $184.57 million to
improve the Afghan prison system. INL plans to provide much of its future




 118                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




support to Afghanistan’s prisons through grants and local implementers to
increase cost efficiency and support sustainability.251


ANTI-CORRUPTION
Corruption continues to place the entire reconstruction effort at risk.
Although the Afghan government and international community have
pledged to fight the use of public office for private gain, little progress has
been made, according to the Monitoring and Evaluation Committee (MEC)
(see description below). The MEC has found the Afghan government lacks
the will to combat and prosecute corruption. The country’s poorly paid
and ill-qualified civil service, weak legal and administrative structures, and
limited oversight and accountability of international aid have all fostered a
sense of impunity.252 Karzai’s September decree contained anti-corruption
reforms, but it is too early to tell if they will prove effective. DoS noted that
progress has been slow in building independent and aggressive investiga-
tions and prosecutions. There were no indications this quarter of change
in the Afghan government’s reluctance to investigate or prosecute high- or
even low-level officials to the degree needed to seriously reduce the coun-
try’s rampant corruption.253

Monitoring and Evaluation Committee
The Afghan government and the international community created the joint
anti-corruption MEC in 2010 to develop anti-corruption benchmarks for
the Afghan government. The MEC comprises three Afghan and three inter-
national representatives. As of September 30, 2012, it had established 73
benchmarks, including 17 approved this quarter.254 The benchmarks include
a risk assessment and mitigation plan for the Law and Order Trust Fund                LOTFA: a multi-national trust fund adminis-
for Afghanistan (LOTFA), conducting a public inquiry into the Kabul Bank              tered by the UN Development Programme
scandal, the consolidation and coordination of anti-corruption efforts, prog-         that pays for ANP salaries and builds
ress in asset verification, and improved public procurement.255 The MEC has           the capacity of the MoI. LOTFA funds
reported that over 80% of its previous benchmarks have been partially or              are provided to the Afghan government.
fully implemented.256                                                                 Since 2002, donors have pledged nearly
                                                                                      $2.64 billion for the LOTFA, according to
   Recommendations included strengthening civil society’s oversight role,
                                                                                      the most recent data. The United States
expanding oversight of border control, conducting a public awareness
                                                                                      has contributed nearly $892.74 million to
campaign focused on religious strictures against corruption, enforcing                the LOTFA since the fund’s inception. The
adherence to restrictions on subcontracting, and auditing organizations               LOTFA has been the subject of criticism for
and projects.257                                                                      its oversight and its payment system, which
   During this reporting period, the MEC criticized the UNDP for not tak-             some see as rife for waste and fraud.
ing sufficient steps to address concerns about mismanagement or fraud
in the LOTFA. The MEC recommended the UNDP undertake a formal
risk assessment of the LOTFA, followed by mitigation actions. DoS noted
                                                                                    Source: SIGAR funding analysis.
the UNDP was taking some corrective actions, but it was unclear if these
changes would be adequate.258




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012                119
                                                      GOVERNANCE




                                                      Afghan Attorney General’s Office
                                                      In DoD’s view, the AGO continues to be the weakest Afghan link in the
                                                      fight against corruption. The Attorney General’s unwillingness to pros-
                                                      ecute high-level officials has repeatedly stifled investigations. For example,
                                                      despite a major scandal at the Dawood National Military Hospital in 2011,
                                                      no senior hospital officials had been prosecuted as of September 30, 2012.259
                                                      Widespread corruption led to siphoning off U.S. funds as well as theft of med-
                                                      ical supplies intended to support hospital operations. In addition, patients
                                                      often did not receive care because they or their families could not bribe hos-
                                                      pital staff. Officials in the MoD and ANA, including the Surgeon General of
                                                      the ANA, General Yafalti, were implicated in the scandal. Congress has held a
                                                      series of hearings on this matter.
                                                         Although the AGO touts its efforts on corruption cases, DoS says the
                                                      performance of its Anti-Corruption Unit (ACU) and Military Anti-Corruption
                                                      Unit—both of which report to the AGO—is lackluster. This quarter, the
                                                      Attorney General fired the prosecutors responsible for convicting individu-
                                                      als involved in the Pashtany Bank scandal. Prosecutors with the ACU took
                                                      this as a warning not to be overly aggressive or independent in prosecuting
                                                      powerful figures, according to DoS.260
                                                         Despite the AGO’s reluctance to prosecute high-level officials’ corruption
                                                      cases, SIGAR has had some limited success working with the AGO to inves-
                                                      tigate and prosecute Afghan contractors. See pages 44–45 for a discussion on
                                                      SIGAR’s efforts to work with Afghan law enforcement officials.

                                                      Special Cases Committee
  The Special Cases Committee (SCC) was               This quarter, the Special Cases Committee (SCC) made incremental prog-
  formed in January 2012 as a joint Afghan            ress in investigating high-profile corruption cases. It played a major role
  and international mechanism for supporting          investigating the Dawood National Military Hospital case. The investiga-
  the efforts of the AGO in significant public        tions resulted in the prosecutions and convictions of three fairly minor
  corruption cases after the AGO failed to ad-        military officials. The AGO was not involved in these prosecutions. DoS said
  equately prosecute many previous cases. The         these cases should be just the beginning of the Dawood National Military
  role of the international advisors, including
                                                      Hospital probe and would not have occurred without the SCC’s investiga-
  U.S. personnel, on the SCC is to help the AGO
                                                      tion, organization, and prioritization. The United States and international
  select cases for special attention and devote
  resources to investigating and prosecuting if
                                                      community have supported both the SCC and the ACU.261
  there is supporting evidence. In addition, the
  international advisors help the AGO design its      High Office of Oversight and Anti-Corruption
  investigations and prosecution strategies. The      The HOO, created in 2008, has the power to investigate corruption cases
  international participation also helps the AGO      and to catalog overseas assets, but remains an ineffective watchdog in
  acquire information and evidence in posses-         practice. Effectively confronting Afghanistan’s corruption problem requires
  sion of the international community that can        that HOO senior leadership develop political will, which it has not done
  advance cases of interest.                          to date.262 DoS noted that the HOO’s director-general continues to be
                                                      ineffective, despite his aggressive media campaign denouncing various gov-
                                                      ernment officials as corrupt. For its part, the HOO claims none of more than
Source: DoS, response to SIGAR data call, 7/5/2012.   100 cases it forwarded to the AGO has been prosecuted.263




                                                       120                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




    The HOO has also been ineffective in its media and public rela-
tions work, largely due to its hostility to civil society. In addition,
despite attempts by USAID’s Assistance to Afghanistan Anti-Corruption               Assistance to Afghanistan’s Anti-
Agency (4A) program to persuade the HOO to implement internal asset dec-            Corruption Authority (4A): This USAID
larations for government personnel, the HOO remains unwilling to act.264            project supports strategic, technical,
    The HOO continues to lack capacity to effectively monitor, evaluate,            and administrative institutional capacity
and audit the Afghan government, but the 4A program has at least helped             development at the Afghan government’s
                                                                                    anticorruption agency, the High Office
improve the agency’s ability to deter corruption. As of September 30, 2012,
                                                                                    of Oversight and Anti-Corruption (HOO),
USAID had obligated $7.9 million for the 4A. This quarter, USAID’s 4A pro-
                                                                                    ministries delivering key services to the
gram assisted the HOO in completing the following tasks:265
                                                                                    Afghan public, and outreach to civil-society
 •	 analyzing jobs and re-designing workshops, leading to re-drafting of            organizations engaged in the fight against
    job descriptions for HOO’s complaints-management and case-tracking              public corruption.
    department
 •	 completing a job-analysis workshop at the HOO’s Directorate of
    Internal Audit
                                                                                  Source: USAID, “Assistance to Afghanistan Anti-Corruption
 •	 completing the first re-draft of the HOO’s Recruitment and Selection Policy   Authority.”
 •	 delivering to the HOO of 54 copies of Asset Registration Tutorial
    DVDs for use by civil servants and government officials in remote
    locations such as the provinces and overseas
 •	 drafting an MOU between the HOO and the IEC and another MOU
    between the HOO and the Independent Administrative Reform and Civil
    Service Commission
 •	 drafting an online asset-declaration form for civil servants
 •	 training the 21-member staff of HOO’s Department of Corruption
    Prevention on conducting Vulnerability to Corruption Assessment in
    government bodies

   The HOO has generally been unwilling to work with the MEC, whose
powers it does not fully recognize. According to the MEC, the HOO had not
responded to any of the MEC’s monitoring and evaluation work, and has
been unwilling to recognize MEC independence from HOO oversight. The
MEC noted that HOO resistance jeopardizes any potential progress in curb-
ing corruption.266

Control and Audit Office
This quarter, the National Assembly passed a draft law with key provisions
that would bolster the independence of the Control and Audit Office. As of
September 30, 2012, the legislation awaited President Karzai’s signature.267

Corruption in Afghan Security Forces
The MoI and MoD, with the guidance of DoD’s Combined Joint Interagency
Task Force (CJIATF)-Shafafiyat (“transparency”), have made some prog-
ress in countering corruption through internal reforms and commissions.
However, they still lack adequate procedures to remove criminal and corrupt




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012             121
                                                           GOVERNANCE




                                                           leadership. Some officials who are removed from leadership roles are “recy-
                                                           cled” into different positions. In addition, patronage networks are still solidly
                                                           intertwined with the appointment process, particularly in the ANP.268
                                                              This quarter, the MoD reported that its Transparency and Accountability
                                                           Working Group had either completed or was making progress in successfully
                                                           implementing 41 anti-corruption action items in areas like procurement and
                                                           contracts. DoD noted that it was not yet clear how effective these measures
                                                           would be in preventing and penalizing corruption within the MoD.269
                                                              This quarter, the MoD also appointed a director for its Transparency and
                                                           Accountability Office. This office will oversee and make specific anti-corruption
                                                           recommendations to the broader MoD in areas like finance, logistics, procure-
                                                           ment, and personnel. The MoD’s Senior Anti-Corruption Committee also began
                                                           to press senior MoD officials to take solid steps in response to issues like food
                                                           contracting, property accountability, and poor oversight. The Committee’s conti-
                                                           nuity was hampered by the departure of Minister of Defense Wardak.270
  Transparency and Accountability                             The MoI’s Transparency and Accountability Committee’s (TAC) effective-
  Committee: in February 2012, the MoI                     ness was still unclear at the end of the quarter. In September 2012, the TAC
  created the TAC to work with the inter-                  established itself in the Helmand police zone, extending its presence to all
  national community to root out internal                  seven of the MoI’s police zones. However, the Committee had not yet led
  corruption at the MoI. The committee is                  any efforts resulting in investigations or prosecutions of corrupt leaders.
  divided according to the MoI’s seven po-
                                                           The ISAF Joint Command (IJC) recently directed the Regional Command to
  lice zones. Each zone and provincial level
                                                           submit reports on committee progress and implementation.271 In addition,
  Shafafiyat (“transparency”) Commission is
  expected to operate as part of a nation-
                                                           as of September 30, 2012, the MoI and ISAF/NTM-A were in the process
  wide decentralized network, can conduct                  of producing a national-level MoI anti-corruption plan similar to the one
  investigations, and is accountable to the                already developed by the MoD. 272
  MoI TAC.
                                                           Corruption in Customs Collections
                                                           For the third straight quarter, the Afghan government failed to form the
                                                           Presidential Executive Commission (PEC), which is supposed to prevent
Source: ISAF, “Fight Against Corruption Remains Strong,”
9/6/2012.                                                  the widespread corruption that occurs in customs collections. A meeting
                                                           was held this quarter between General Allen, President Karzai, and Dr.
                                                           Spanta, the Chair of the Afghan Office of the National Security Council, to
                                                           re-energize the proposal. Spanta recommended re-drafting the proposal to
                                                           allow a greater role for the National Security Office to provide oversight and
                                                           convene ministries to attack the customs corruption issue.273

                                                           Task Force Shafafiyat
                                                           The Defense Department’s Task Force Shafafiyat has facilitated counter-cor-
                                                           ruption initiatives like the Transparency and Accountability Working Group
                                                           and Transparency and Accountability Committee within the MoD and MoI.
                                                           Task Force Shafafiyat also manages ISAF’s Corruption and Organized Crime
                                                           Interagency Effects Group, which brings together international and U.S. agen-
                                                           cies to leverage and coordinate their anti-corruption capabilities. At the end
                                                           of the quarter, the Group was focusing on corruption in the justice sector.274




                                                            122                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




   The Shafafiyat task force is also trying to identify ISAF capabilities to deter
transnational crime and corruption, and is developing a counter-corruption
transition plan with ISAF planners. At the end of the quarter, a formal ISAF
process was under way to partner with elements of the Afghan government to
develop sustainable activities leading up to and beyond 2015.275

Vendor Vetting
DoD’s biggest challenge in conducting proper vendor vetting and contract
oversight is obtaining timely information on all sub-contractors employed
under newly awarded contracts. Some contractors still do not properly
provide information about sub-contractors. At the end of the quarter, ven-
dor vetting processes were not meeting contracting officers’ and military
commanders’ need to easily understand how to handle vendors that are
considered high or extremely high risks for attacking coalition bases. These
vetting processes were scheduled to be reassessed in October 2012.276
   According to DoD, contract oversight continues to assess contracts at
high risk for waste and fraud, such as fuel, transportation, and security.
These efforts have led to changes in tracking and evaluation in hopes of
preventing contract waste. DoD noted that the process for ordering, receiv-
ing, and distributing fuel—the subject of a SIGAR audit report discussed on
pages 28–30—is being changed to ensure full accountability and prevent the
loss of U.S. funds. As of September 2012, 11 of the 26 action items designed
to improve contract oversight and management were implemented.277


HUMAN RIGHTS
Afghanistan’s record in protecting human rights remains inconsistent. This
quarter, the report reviews issues related to women’s rights, human traffick-
ing, and refugees.

Gender Equity
Despite a decade-long focus on the issue, traditional Afghan practices that
harm women and girls remain widespread, according to the UN Secretary-
General. Extrajudicial and “honor” killings of women in Afghanistan
continue, and some civil society groups worry that the international military
drawdown will erode the gains made by women in Afghan society.278 The
Civil-Military Fusion Center noted a Ministry of Women’s Affairs (MoWA)
report of 3,000 instances of violence from January to September 2012, an
increase from the same period last year.279
   Although the Afghan authorities have been historically slow to prosecute
perpetrators of violence against women, they did prosecute several officials
for violence against women this quarter. These prosecutions included the
prison director in Logar, who was sentenced to a 16-year prison term for
raping a 15-year-old girl.280




REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2012               123
GOVERNANCE




   In much of Afghan society, running away from home is considered a seri-
ous violation of social mores, even if the woman is fleeing forced marriage
or domestic abuse. According to Human Rights Watch, up to 70% of Afghan
women in jail are serving terms for running away, even though running
away is not a crime under Afghan law. The practice of jailing women for
escaping their homes continues despite the urging of many international
and civil-society institutions that the Afghan government do more to pre-
vent these unlawful prosecutions.281
   In September 2012, high-level officials within the Afghanistan government
publicly stated—for the first time—that running away is not a crime, nor a
basis for detention or prosecution, according to Human Rights Watch. The
MoJ also committed to end the unlawful arrest of women, and its officials
instructed police that running away is not a crime. International observers
called on Karzai to free women and girls imprisoned on these charges.282

Women’s Shelters
The standing of women’s shelters has long been a contentious issue in
Afghanistan. In June 2012, the Minister of Justice said safe houses were
“home to immorality and prostitution.”283 The State Department reported
that although these remarks were deeply offensive, they did not have any
tangible negative effects on shelter operations this quarter. The current
ability of the MoWA to monitor shelters is unclear, but it was working with
INL-supported civil-society organizations to improve future oversight of
shelters. Non-Governmental Organizations (NGOs) have reported that due
to better training and awareness, members of the ANP and other govern-
ment officials have increasingly referred women to the shelters.284
   As of October 3, 2012, there were 17 shelters and halfway houses in 10
provinces that could collectively hold up to 500 women. In August 2012, INL
funded a grant to open shelters in two additional provinces, Farah and Ghor,
by the end of 2012. There were only six provinces with shelters in 2010.285

Human Trafficking
At the end of this reporting period, more than 2.7 million Afghans
were living as refugees in Pakistan and Iran. Iran hosted about 1 mil-
lion Afghan refugees and Pakistand hosted about 1.7 million. The
Afghan government has made limited progress in implementing its anti-
human-trafficking reform plan. Last quarter, the State Department gave
Afghanistan its second-lowest rating for preventing and prosecuting
human trafficking crimes. In the report, State said that Afghanistan would
have been given the lowest rating, but was granted a waiver after prom-
ising to implement a plan to combat trafficking. Although the Afghan
government has had a very poor record in enforcing its 2008 anti-traffick-
ing law, the Afghan Attorney General has recently begun to prosecute
some traffickers under Afghanistan’s 2008 anti-trafficking law. The United




 124                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                  GOVERNANCE




States supports Afghanistan’s anti-human-trafficking efforts by funding
shelters, an NGO program, and the JSSP.286

Refugees
During a tripartite commission meeting in September 2012, Pakistan and
Afghanistan reaffirmed their commitment to the principle of voluntary
repatriation for the Afghan refugees in Pakistan. The Pakistan government
agreed to submit to its cabinet a recommendation to extend the binding, tri-
partite agreement that governs the voluntary, dignified, and safe repatriation
of Afghan refugees in Pakistan. The agreement in effect as of September 20,
2012, is scheduled to expire at the end of the year, along with the validity of
proof-of-registration cards held by Afghan refugees.287
   Also in September 2012, Iran assured the UN High Commissioner for
Refugees (UNHCR) that it would continue to provide protection and assis-
tance to Afghan refugees within its borders, while also promoting their
voluntary return to Afghanistan. In addition, Iran has developed a pro-
gram for providing a legal framework for refugees in the country without
documentation. Under this program, the Iranian government will provide
temporary residence permits for refugees while the Afghan authorities issues
them passports.288 While the number of returnees from Iran to Afghanistan
has increased in the past year, the rise is due largely to depressed economic
conditions within Iran. Although Iran has threatened mass deportations,
none has occurred and there are no indications of a change in Iran’s com-
mitment to protect registered refugees. As of August 31, 2012, UNHCR had
facilitated approximately 10,000 voluntary returns.289
   The United States has been most concerned with the legal and humanitar-
ian situation for Afghan refugees in Pakistan. The United States has lobbied
on the issue of proof-of-registration cards for extended temporary stays for
registered refugees and those in need of protection in Pakistan. With limited
access to the Iranian government, the United States is unable to do much            AIHRC was established in accordance with
direct lobbying for Afghans in Iran; however, the UNHCR keeps United                the 2001 Bonn Agreement as the main
States apprised of the refugee situation.290                                        institution within the Afghan government
                                                                                    responsible for promoting human rights.
The Afghanistan Independent Human Rights Commission                                 The commission monitors the human rights
                                                                                    situation in the country, investigates spe-
As of September 30, 2012, President Karzai had not appointed any commis-
                                                                                    cific rights violations, and assists Afghans
sioners to fill the four open seats on the nine-person board of the Afghan
                                                                                    whose rights have been violated. The
Independent Human Rights Commission (AIHRC) that have been vacant                   Commission has reported on a number of
since January 2012.291 In September 2012, the AIHRC dismissed another               issues including the treatment of detain-
commissioner for releasing information outside of the commission without            ees, women’s and children’s rights, and
prior approval.292 Human Rights Watch noted that the AIHRC has been an              civilian casualties.
important and effective governmental tool to protect the fragile human
rights of Afghans, but the absence of full leadership has been detrimental
to its work.293 According to the State Department, the AIHRC does con-
                                                                                  Source: HRW, “Afghanistan: Break Deadlock on Rights
tinue to function.294                                                             Appointments, 9/5/2012.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012             125
CONTENTS

Key Events 	                      127
Economic Indicators	              128
Donor Assistance	                 129
Banking and Finance	              131
Agriculture	135
Energy 	                          139
Mining	142
Education	144
Labor	145
Health	146
Regional Cooperation and Trade	   147
Transportation	149
Communications	150
U.S. Assistance Accountability	   151




 126
ECONOMIC AND SOCIAL DEVELOPMENT




 ECONOMIC AND SOCIAL DEVELOPMENT
 As of September 30, 2012, the U.S. government had provided nearly
 $22.33 billion to support governance and economic development in
 Afghanistan. Concerns remained about Afghanistan’s ability to sustain eco-
 nomic growth in light of the planned drawdown of U.S. troops in 2014, and
 the expected accompanying reduction in international-donor assistance.
    This quarter, U.S. and international efforts continued to help prepare
 Afghanistan to transition successfully to full control of its national secu-
 rity and to minimize economic contraction in the coming “Decade of
 Transformation.”


 KEY EVENTS
 During this reporting period Afghanistan’s growth rate was revised
 downward, underscoring concerns about Afghanistan’s ability to sustain
 economic development as U.S. and coalition forces withdraw. The interna-
 tional community, together with the Afghan government, took a number of
 steps to deter corruption and prioritize economic assistance to Afghanistan
 to mitigate the economic impact of transition. Although President Karzai
 issued a decree to combat corruption, the Afghan government made
 little progress in recovering assets from Kabul Bank and no progress this
 quarter in holding anyone accountable for the theft at the bank. In other
 developments, the State Department added the Haqqani Network, which
 is enmeshed in Afghanistan’s licit and illicit economy, to its list of Foreign
 Terrorist Organizations, making it illegal to do any kind of business with
 members of the insurgent group.
     The United States continued to focus its assistance programs in essen-
 tial areas such as power generation, health, education, and agriculture to
 promote stability and encourage sustainable development. Agriculture was
 one bright spot in the economy this quarter. As a result of good rains and
 improved irrigation, Afghanistan is expected to produce bumper crops of
 wheat and other cereals this year. However, the quarter saw no new devel-
 opments in the critical energy and mining sectors.




  REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            127
                                                            ECONOMIC AND SOCIAL DEVELOPMENT




                                                            ECONOMIC INDICATORS
                                                            This quarter, the Central Intelligence Agency (CIA) revised its FY 2011 esti-
                                                            mate of Afghanistan’s annual real-Gross Domestic Product (GDP) growth
                                                            rate from 7.1% to 5.7%.295 The Asian Development Bank (ADB), which has
                                                            similarly calculated Afghanistan’s FY 2011 growth estimate at 5.7%, attri-
                                                            butes the decline to prolonged drought that affected agricultural output.
                                                            The ADB projects Afghan GDP to increase to 6.9% in FY 2012, due to an
                                                            expected bumper harvest, but then decline to 6.5% in FY 2013 as interna-
                                                            tional security forces depart the country. The ADB estimates inflation will
                                                            decline from 11.8% in FY 2011 to 9.1% in FY 2012 and 6.7% in FY 2013 due to
                                                            moderation in international commodity prices and Afghanistan’s planned
                                                            tightening of its monetary policy, as seen in Figure 3.32.296
                                                               For more information on agricultural yields, see page 135.

                                                            Revenue Collection
                                                            This quarter, the Afghan Customs Department announced that in the
                                                            first four months of SY 1391 (starting March 2012), revenues increased
                                                            at border crossing points in Herat province from the same time period
                                                            in SY 1390. Customs revenues at the Torghundi crossing on the border
                                                            with Turkmenistan rose to 717.9 million afghanis from last year’s level of
                                                            457.4 million afghanis, an increase of approximately 57%. At Islam Qala on
                                                            the border with Iran, revenues rose to 1.19 billion afghanis from 857.2 mil-
                                                            lion the previous year, an increase of approximately 39%.297 Afghanis
                                                            convert at the rate of about 50 to the U.S. dollar.
                                                                More than 50% of all Afghan government revenue comes from customs
                                                            duties, according to USAID. Those revenues can grow if customs pro-
                                                            cedures are reformed to reduce delays and compliance costs, improve
                                                            transaction speed, and make goods transportation more efficient. Through
                                                            its Trade and Accession Facilitation for Afghanistan (TAFA) program,
                                                            USAID is helping the Afghan Customs Department streamline its customs
                                                            clearance process in order to speed trade, reduce corruption, and generate
                                                            more revenue.298
  Extended Credit Facility (ECF): provides
  financial assistance to countries with pro-
                                                            As of September 30, TAFA has implemented streamlined clearance proce-
  tracted balance-of-payments problems. It                  dures at seven customs locations across Afghanistan. Assistance included
  makes the IMF’s financial support more                    developing templates to check for compliance with streamlined procedures,
  flexible and better tailored to the needs of              reporting non-compliance, and reviewing implementation of procedures.
  low-income countries, with higher levels                  The TAFA program also helped the Afghan government comply with an
  of access, more concessional financing                    International Monetary Fund (IMF) Extended Credit Facility (ECF) bench-
  terms, more flexible program design fea-                  mark to develop a Border Management Model (BMM)—joint management
  tures, as well as streamlined and more                    of border activities by the Ministries of Interior and Finance—by piloting
  focused conditionality.                                   the BMM at the Hairatan border crossing point on the northern border with
                                                            Uzbekistan. TAFA also implemented BMMs at the Sher Khan Bandar border
                                                            crossing point near Tajikistan and at Islam Qala on the border with Iran,
Source: IMF, “ECF Factsheet,” 4/2012, accessed 10/3/2012.   fulfilling another IMF ECF benchmark.299




                                                             128                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 FIGURE 3.32


 ECONOMIC INDICATORS



    Real                                                         5.7%
    GDP                                                                    6.9%
  Growth                                                                6.5%


                                                                                                               11.8%
 Inflation                                                                             9.1%
                                                                         6.7%

         0%                2%                4%                  6%               8%       10%               12%

                 FY 2011                                     FY 2012*                               FY 2013*


 Notes: Numbers affected by rounding. FY dates refer to Afghan fiscal year.
 *Projected.
 Source: Asian Development Bank, “Outlook 2012 Update: Services and Asia’s Future Growth,” 10/2012, p. 98.



    TAFA implemented a risk-based approach instead of the past practice
 of conducting a physical or documentary examination of all cargo entering
 Afghanistan. The old system slowed trade and increased costs. TAFA’s risk-
 management system selectively examines cargo by using the Automated
 System for Customs Data (ASYCUDA) to select cargo customs declara-
 tions for scrutiny based on risk profiles. The ASYCUDA version used in
 Afghanistan also tracks duty and tax revenues.300


 DONOR ASSISTANCE
 As transition at the end of 2014 draws closer, Afghanistan’s economic future
 remains uncertain. The World Bank, the United States, and others have long
 concluded that Afghanistan will need to develop its own resources to sus-
 tain growth and wean itself from international assistance. It will continue to
 require high levels of donor support for the foreseeable future. The World
 Bank believes the size of this assistance and the manner of its delivery will
 influence the country’s political and economic future over the next decade
 and beyond.301
    At the Tokyo Conference on Afghanistan in July, donors pledged approxi-
 mately $16 billion in assistance through 2015, 80% of it to be aligned with
 Afghanistan’s National Priority Programs (NPPs), which are described
 on pages 74–75. However, the donors have made this funding conditional
 on the Afghan government’s implementation of political and economic
 reforms to improve governance, make public institutions more account-
 able, and tackle pervasive corruption.302 The Tokyo Mutual Accountability
 Framework, an annex to the conference declaration, identifies Afghan




 REPORT TO THE UNITED STATES CONGRESS                        I   OCTOBER 30, 2012                            129
ECONOMIC AND SOCIAL DEVELOPMENT




priority development and governance areas, as well as accountability
benchmarks the government must meet for sustained donor support.303 The
Tokyo Framework is an incentive-based assistance model for developing
Afghanistan’s capacity to provide for its own sustainable growth.304
   A United States Institute of Peace (USIP) study analyzing the Tokyo
Framework said successful implementation will be challenging. Not only
does global economic contraction threaten donor commitments, but donors
have differing accountability requirements, benchmarks, and standards.
Afghanistan’s political and security environment is fluid, with presidential
elections looming and the military transition underway. The USIP also
noted that successful implementation of the Tokyo Framework will depend
on pro-reform groups in Afghanistan working together to hold their govern-
ment accountable.305
   All of these factors could affect the Afghan government’s commitment and
ability to reform, especially if donors fail to fulfill their pledges. Moreover, the
Tokyo Framework leaves guidelines for monitoring and enforcing its imple-
mentation unclear while the Afghan government, in consultation with the
international community, develops an aid management policy.306
   On July 31, the Ministry of Finance (MoF) presented to donors an ini-
tial draft policy paper on implementing the Tokyo Framework. According
to a UN Secretary-General report, the policy will require consensus
among the government of Afghanistan and international donors on how
assistance will be designed and managed. The Joint Coordination and
Monitoring Board (JCMB), set up in 2006 to oversee strategic coordina-
tion between Afghanistan and the international community, will be used
to facilitate an agreement.307

Afghanistan’s National Priority Programs
Since 2010, the United States and its coalition partners have been working
with the Afghan government to align international assistance to the NPPs.
Afghanistan introduced 22 NPPs at the Kabul International Conference in
July 2010. The NPPs grew out of the Afghan National Development Strategy
(ANDS)—Afghanistan’s poverty reduction strategy paper. NPPs consoli-
dated hundreds of Afghan and international development projects into an
organized and more manageable set of programs that could be absorbed
into and sustained by the Afghan budget. The NPPs’ six issue clusters rep-
resent the strategic vision and sector strategies of the ANDS. The NPPs
are expected to be in place until at least 2015, and several are expected to
extend beyond that date.308 As of publication, the JCMB has approved 16 of
the 22 NPPs. Afghanistan and the international community expect to have
the final six ready for Board endorsement in November 2012.309
    The six outstanding NPPs include:310
 •	 National Water and Natural Resource Development Program
    (Agriculture and Rural Development)




  130                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 •	 National Comprehensive Agriculture Production & Market
    Development Program (Agriculture and Rural Development)
 •	 National Energy Supply Program (Infrastructure Development)
 •	 National Transparency and Accountability Program (Governance)
 •	 Efficient and Effective Government (Governance)
 •	 Law and Justice for All (Governance)


 BANKING AND FINANCE
 The Tokyo Mutual Accountability Framework agreement reached in July
 calls for the Afghan government to fulfill, on schedule, its responsibilities
 under the IMF’s ECF agreement. This includes recovering assets and hold-
 ing accountable those responsible for the Kabul Bank crisis; strengthening
 banking reforms and supervision through Afghanistan’s central bank, Da
 Afghanistan Bank; improving the management and transparency of public
 funds; and combating money laundering and terrorist financing.311

 Update: Kabul Bank Asset Recovery
 The 2010 near-collapse of Kabul Bank brought to light the loss of nearly
 $1 billion in stolen funds. Afghanistan’s central bank covered these losses,
 which, under the ECF, the government is required to recapitalize.312 Cash
 and asset recovery can help offset some of the costs of recapitalization. In
 its documentation to the IMF as part of the June ECF review, Afghanistan
 reported recovering $128 million in cash, an estimated $44 million worth
 of properties in Dubai, and properties in Afghanistan with a book value of
 $146 million.313 Several news reports, however, quote the head of the Kabul
 Bank Receivership Department expressing doubt that the department
 would be able to sell the seized properties at their high prices.314 As SIGAR
 has noted previously, the IMF does not count recoveries of non-cash assets
 until they are liquidated.
     There have been no significant developments in holding anyone account-
 able for economic crimes against Kabul Bank this quarter, and minimal
 recovery of cash and properties, according to the U.S. Department of
 Treasury (Treasury).315 DoS reported just $100,000 in cash recovered and
 one property valued at $3 million to $5 million secured in Dubai this quarter.
 DoS also noted that while the Financial Dispute Resolution Commission
 has officially received nine cases from the Kabul Bank Receiver, it had not
 reached any repayment agreements as of September 30. There is currently
 no timeline to complete these cases.316
     This reporting period saw no changes in the IMF’s ECF program require-
 ments. Last quarter the IMF provided waivers of some requirements and
 modified performance criteria to facilitate the release of funds. Prior to
 this quarter, the IMF considered adding a structural benchmark requiring a
 prosecution strategy to hold people accountable for the Kabul Bank crisis,




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012             131
ECONOMIC AND SOCIAL DEVELOPMENT




but the IMF’s General Counsel ruled that exceeded the Fund’s authority
because it would presume guilt.317 Nevertheless, Afghanistan committed to
pursuing asset recovery using all available legal, regulatory, and administra-
tive means as part of its official letter of intent to the IMF when the ECF
was signed in November 2011.318 On that basis the IMF continues to press
for a satisfactory resolution of the Kabul Bank case, including civil and
criminal processes related to asset recovery.319
   The privatization of New Kabul Bank and an in-depth public inquiry on the
Kabul Bank crisis by the independent Monitoring and Evaluation Committee
remain ECF benchmarks, and both appear to be moving forward, according
to DoS.320 The New Kabul Bank is a temporary “bridge bank” containing the
good assets, loans, and deposits from Kabul Bank. Meanwhile, the United
States continues to emphasize to the government of Afghanistan the need for
a satisfactory resolution of the Kabul Bank crisis, including a transparent asset
recovery process and prosecution of all parties involved.321 In July, SIGAR
reported that the list of individuals, companies, and account holder groups
includes Kabul Bank’s founder and chairman, and its CEO, as well as President
Karzai’s brother and the brother of the First Vice President.322

Sale of New Kabul Bank
The MoF has said it intends to sell New Kabul Bank to private investors or
liquidate it by the end of 2013.323 After some delay, the Cabinet approved a
privatization plan on September 24.324 The deadline for bid submission is
November 27, 2012.

Terrorist Financing 	
In September, the State Department added the Haqqani Network to its list
of Foreign Terrorist Organizations and also named it a Specially Designated
Global Terrorist entity. Executive Orders have frozen all Haqqani network
assets under the jurisdiction of the United States and prohibit any U.S. citi-
zen from knowingly providing support to or engaging in transactions with
the Haqqani Network.325 The family-run Haqqani Network, one of the major
insurgent groups affiliated with the Taliban and al-Qaeda, operates pre-
dominantly in southeastern Afghanistan but has been credited with some
devastating attacks in Kabul and other parts of the country.326
    Both Treasury and DoS had previously designated senior members of
the Haqqani Network as terrorists. The broader classification of the entire
Haqqani Network came in the wake of growing congressional concern
about the organization. In August, Congress passed a resolution formally
asking the State Department to designate the Haqqani Network as a terror-
ist organization. U.S. officials and members of Congress have repeatedly
voiced concern that the Haqqani Network was extorting and funneling
money to support terrorist operations.327




 132                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




    On July 31, the Combating Terrorism Center at West Point published a
 report on the Haqqani Network finances. The report claims that the Haqqani
 Network has profited from the U.S. and coalition force presence not only
 by extorting protection money from truckers and construction contractors,
 but by also having business interests in companies that have contracts with
 the United States and its coalition partners.328 For example, the report says
 that Haqqani operatives collect transit fees on trucks passing through areas
 under its control. They also collect substantial security payments from
 larger businesses, including telecommunications firms, non-government
 organizations, construction companies and trucking firms, and other organi-
 zations involved in reconstruction. The report estimates the extortion fees
 to run between 10% and 25% of each construction project.329
    The United States has two organizations that seek to prevent insur-
 gents from benefiting from U.S.-funded contracts. The Afghanistan Threat
 Finance Cell works with Afghan and coalition partners to identify and
 disrupt insurgent funding. DoD’s Task Force 2010 works to ensure that
 U.S. contracting is not supporting businesses or individuals associated with
 the insurgency.330
    The FY 2011 National Defense Authorization Act (NDAA) passed by
 Congress in 2012 includes Section 841-Prohibition on Contracting with the
 Enemy in the United States Central Command (CENTCOM) Theater of
 Operations. SIGAR is conducting an audit to identify the processes estab-        FIGURE 3.33
 lished by CENTCOM and its contractors to comply with the provisions of
 Section 841. It is also assessing whether CENTCOM and its contractors are        AFGHANISTAN’S KEY IRAN BORDER POINTS
 fully complying with established contracting policies and procedures.
    Additionally, SIGAR has already referred to the U.S. Army 43 individu-
                                                                                                                                           JOW
 als and companies identified as having actively supported insurgent groups
 engaged against U.S. and coalition forces in Afghanistan—including the                               TURKMENISTAN
 Taliban, the Haqqani Network, and affiliates of al-Qaeda—for suspension                                                      FARYAB
                                                                                                                                            SA
 and debarment. SIGAR also issued a recommendation this quarter that DoD
                                                                                                                      BADGHIS
 institute a process to notify other agencies such as DoS and USAID of any                           Islam Qala
 new identifications it makes under Section 841 of contractors supporting the                            HERAT                             ORU
                                                                                                                              GHOWR
 insurgency. For more information, see page 33.                                                     Yazdan
                                                                                   IRAN                                                 ZABOL

 Iran Sanctions                                                                                                   FARAH
 Afghanistan is a potential target for illicit Iranian activity because the two
 countries have a common border and long-standing trade relationship (See                                    Zaranj       HELMAND
 Figure 3.33). A Congressional Research Service report notes that U.S. dol-                               NIMRUZ
                                                                                                                                    KANDAHAR
 lars are being used as a second Afghan national currency given high donor
 spending in the country. Iranian currency traders may be using Afghanistan
 to circumvent sanctions and acquire U.S. dollars in exchange for Iranian                                                    Key border points
                                                                                                                             Border
 rials. Treasury warned Afghan traders not to assist in these transactions.331
 On May 1, 2012, President Obama issued Executive Order (E.O.) 13608,
                                                                                  Source: United States Geological Survey (USGS).
 which authorizes the Secretary of Treasury to impose sanctions on, among




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012             133
                                                             ECONOMIC AND SOCIAL DEVELOPMENT




                                                             others, those who violate, or attempt or conspire to violate, sanctions con-
                                                             cerning Iran or Syria.332
                                                                In a letter to the Secretaries of Defense and Treasury this quarter, the
                                                             Chairman of the House Committee on Foreign Affairs raised concerns
                                                             about Iran trying to use Afghanistan’s financial sector, particularly in Kabul
                                                             and Kandahar, to circumvent U.S. and international sanctions. The letter
                                                             referenced press reports that the Iranian government was using Arian Bank,
                                                             located in Afghanistan, but owned by Iran’s Bank Melli and Bank Saderat, to
                                                             move cash into and out of Afghanistan.333 DoD has not conducted a compre-
                                                             hensive study to determine whether money laundering aided and abetted by
                                                             Afghan financial institutions poses a systemic threat to U.S.-appropriated
                                                             funds for reconstruction.334
                                                                U.S. sanctions under the Comprehensive Iran Sanctions, Accountability,
  Correspondent Accounts: Accounts main-                     and Divestment Act of 2010 (CISADA) may impact financial institutions
  tained by foreign financial institutions at                in Afghanistan that conduct significant transactions with Iranian-linked
  U.S. banks in order to gain access to the                  banks. Arian Bank was designated in 2007 for being owned or controlled
  U.S. financial system and take advantage                   by Iran’s Bank Melli. Bank Saderat, which also maintains an ownership
  of services and products that may not be                   stake in Arian Bank, also was designated. Under CISADA, any foreign
  available in the foreign financial institu-                financial institution that knowingly facilitates significant transactions for
  tion’s jurisdiction.                                       Arian Bank risks losing its correspondent account or payable-through
                                                             account access in the United States, effectively cutting it off from the
  Payable Through Accounts: Accounts held                    U.S. financial system.335
  by foreign financial institutions at U.S. banks               This quarter, President Obama issued E.O. 13622, which targets Iran’s
  that provide the foreign institution’s custom-
                                                             petroleum and petrochemical sectors by imposing additional sanctions on
  ers with direct access to draw funds from
                                                             foreign financial institutions, and any individual or entity that knowingly
  and make payments to its U.S. account.
                                                             engages in significant transactions for purchasing or acquiring Iranian
                                                             petroleum or petrochemical products in violation of sanctions. It also pro-
                                                             hibits material assistance to the Government of Iran, its central bank, the
Source: Federal Financial Institutions Examination Council
Bank Secrecy Act/Anti-Money Laundering InfoBase,
                                                             National Iranian Oil Company, or Niftiran Intertrade Company for the pur-
“Correspondent Accounts (Foreign) —Overview,” accessed
10/4/2012.
                                                             chase or acquisition of precious metals or U.S. bank notes.336
                                                                During this reporting period, President Obama also signed into law the
                                                             Iran Threat Reduction and Syria Human Rights Act of 2012, which builds
                                                             upon the FY 2012 NDAA, and subjects to sanctions foreign financial institu-
                                                             tions that knowingly conduct significant non-petroleum-related transactions
                                                             with the Central Bank of Iran. Sanctions also apply to any commercial
                                                             activity with Iran’s oil and natural gas sectors, including financial services,
                                                             insurance, technology, transportation, or infrastructure.337 These sanc-
                                                             tions can impact Afghanistan’s financial institutions, given that Afghanistan
                                                             imports between 33% and 50% of its fuel from Iran.338

                                                             Mobile Money
                                                             “Mobile money” is the use of cell phones to store currency, pay for goods,
                                                             and receive and transfer funds. This quarter, the United States continued to
                                                             encourage Afghanistan to develop greater access to mobile money services,




                                                              134                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 which the Afghan government and international community consider a key
 investment in the banking sector.339
    The Ministry of Communications and Information Technology (MCIT) esti-
 mates that less than 5% of Afghans have bank accounts, yet almost 60% use
 mobile phones. Given that 83% of the population lives in network coverage
 areas, an opportunity exists to increase banking access across the country.340
    On August 26, USAID and MCIT held a high-level mobile money seminar
 in Kabul for government officials, industry executives, and media representa-
 tives to discuss developing a mobile money action plan for Afghanistan. This     SIGAR AUDIT
 plan will help improve the Afghan telecom industry and infuse the financial      SIGAR is conducting an audit of U.S.
 sector with greater transparency, efficiency, and consumer confidence.341        efforts to commercialize the
    On July 17, the national electric utility, Da Afghanistan Breshna             national electricity utility, Da Afghani-
 Sherkat (DABS), and Etisalat Afghanistan, one of four mobile phone               stan Breshna Sherkat (DABS). See
 operators in Afghanistan, introduced Da Afghanistan Breshna Sherkat              page 37.
 Electricity Bill Payments. This service, made possible through USAID
 innovation grants to mobile network operators, allows DABS and Etisalat
 customers to receive and pay their electricity bills through their mobile
 phones. DABS plans to expand the service throughout Afghanistan and to
 allow other mobile operators to participate.342


 AGRICULTURE
 Agriculture plays a dominant role in the Afghan economy. Only 12% of the
 land is arable and less than 6% is cultivated, yet 80% of Afghans directly
 and indirectly earn a living from agriculture.343 Given its importance to
 the labor force, agriculture could be a catalyst for GDP growth, improved
 food security, and more stable employment opportunities.344 The United
 States is helping this sector in a number of ways, including by providing
 equipment, facilities, and training to strengthen agribusiness and other
 agricultural subsectors; and training to enhance the government’s capac-
 ity to build, maintain, and effectively distribute strategic food reserves to
 hungry Afghans.345

 Harvest Withstands Natural Disasters
 The UN Secretary-General reported that 58 natural disasters—includ-
 ing floods, earthquakes, avalanches, extreme weather, landslides, and
 mudflows—occurred in 57 Afghan districts from June 1 to July 31, 2012.
 The Secretary-General said these natural disasters caused 116 deaths,
 destroyed 2,046 homes, and affected 31,783 people. Notwithstanding
 these events, the Ministry of Agriculture, Irrigation, and Livestock esti-
 mated that national cereal production in 2012 will increase 42 percent
 over 2011 levels due to above-normal precipitation and sufficient irriga-
 tion water.346 At 6.3 million tons, that would be the second-largest harvest
 in 35 years.347




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            135
ECONOMIC AND SOCIAL DEVELOPMENT




   As a result of the bumper 2012 harvest, the shortfall between
Afghanistan’s production and consumption is only 400,000 metric tons com-
pared to two million metric tons in 2011. Food availability, especially wheat
and wheat flour (staples of the Afghan diet), is expected to improve over
the coming lean season, driving down the need for imports and lowering
prices for consumers.348 Increased agricultural wage rates resulting from the
need for more labor to harvest the bountiful crop, and lower prices fueled
by increased supply should help consumers buy staple foods, seeds, and
supplies before the winter and the lean season in November.349
   The poor wheat harvest in 2011 caused some households to sell live-
stock, spend savings, and use credit to purchase food. Then a harsh winter,
especially in the extreme north, limited accessibility to pastures, causing
livestock deaths in the early spring; recovery from these losses will take
time. While most household groups benefited from the 2012 harvest and are
classified as “No Acute Food Insecurity,” there are exceptions, including
vulnerable populations in flood-affected areas, internally displaced per-
sons, deportees from Iran and Pakistan, and inhabitants along the eroding
Amu riverbank.350

Food Prices
Afghanistan’s two primary staples are wheat and wheat flour. The price of
both increased this quarter. The World Food Program (WFP) reported that
wheat prices in Afghanistan’s main urban markets increased by an average
of 4.5% in September compared to August. They attributed the increase to
higher prices for imported wheat flour, depreciation of the afghani versus
the U.S. dollar, and the results of supply and demand. However, compared
to September 2011, wheat prices were still 4.4% lower due to this year’s
plentiful harvest and supply of wheat flour.351
   In the main cities, wheat flour prices in September were 6.8% higher
than in August and 4.2% higher than a year earlier. WFP attributes this to
increases in the global price of wheat flour and the normal price increase
of cereal after harvest. Overall, food prices remain well above levels from
January through October 2007, before the 2008 drought and subsequent
import restrictions sent food prices soaring. Current average wheat
prices are 41.6% and current wheat flour prices 63.7% higher than the pre-
crisis levels.352

Challenges of Getting Agricultural Products to Market
Afghan farmers face several challenges getting their products to inter-
national markets. According to USAID, a major impediment is their lack
of understanding about international market demands and expectations.
Moreover, most farmers have neither the facilities nor the knowledge to
add value to their products through product grading, sorting, and packag-
ing. Consequently, regional neighbors buy unrefined Afghan products, add




 136                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 An Afghan farmer harvests alfalfa near Bamyan. A Provincial Reconstruction Team has
 been working to improve productivity by introducing mechanization and other advances.
 (U.S. Army photo)


 value, and resell them at higher prices (and greater profits) than Afghan
 farmers can obtain.353
    Farmers also face difficulties in selling perishable products to high-pay-
 ing major markets like Kabul, or cities in Pakistan and India, in part because
 of the sheer distance from the farms to urban centers. Security issues and
 the generally poor condition of the roads add time and distance to already
 long trips, made worse by adverse weather. The limited availability of pack-
 aging and cold-storage facilities results in high levels of product damage
 and spoilage, especially when trucks are held up at the Pakistani border.
 Related problems include cumbersome customs documentation require-
 ments and poor business links between producers and traders.354 USAID is
 trying to address these issues with several programs, including Incentives
 Driving Economic Alternatives-North, East, and West (IDEA-NEW) and
 Commercial Horticulture and Agricultural Marketing Program (CHAMP).

 IDEA-NEW
 The USAID-supported program IDEA-NEW provides agricultural assis-
 tance and economic alternatives to growing poppies in select provinces
 in Afghanistan’s east, and in poppy regions in the north and west. As of
 September 30th, 2012, a little more than $124 million had been obligated to
 the IDEA-NEW program and $108 million had been disbursed.355
    IDEA-NEW helps farmers shift to legal agriculture production, assists
 with rural enterprise and infrastructure development, extends access to




 REPORT TO THE UNITED STATES CONGRESS      I   OCTOBER 30, 2012                 137
                                                      ECONOMIC AND SOCIAL DEVELOPMENT




                                                      financial services, and promotes value-chain development for key regional
                                                      industries and trade corridors. In cutting poppy cultivation, the program
                                                      seeks to disrupt one of the insurgents’ main financial resources.356
                                                         IDEA-NEW activities this quarter include 1) commercial trellising of vine-
                                                      yards in the north of the country, and 2) training orchard owners in the east
                                                      on modern field development techniques, post-harvest value-added prac-
                                                      tices, fruit nursery, and sustainability. No new projects were started in the
                                                      west, but the IDEA-NEW project director did visit existing infrastructure in
                                                      Badghis province.357
                                                         In July and August 2012, the IDEA-NEW program benefitted over 6,000
                                                      Afghan households. It provided agricultural training to 3,000 participants,
                                                      and almost 550 farmers used IDEA-NEW agricultural inputs. The program
                                                      also helped farmers convert 44 hectares from illicit to licit crop produc-
                                                      tion. Total value of the sale of licit farm and non-farm products for the two
                                                      months was $780,000.358

                                                      CHAMP
                                                      USAID’s four-year CHAMP grant began in February 2010 to help farmers
                                                      shift from low-value crops such as wheat to high-value produce such as
                                                      almonds, grapes, and pomegranates. The project seeks to improve crop
                                                      yields, product quality, and product marketing, as well as increase producer
                                                      and trader profits through the following activities:359
                                                      •	 developing new orchards and rehabilitating existing ones
                                                      •	 teaching Afghan traders and farmers about international market
                                                         requirements through marketing and commercial trade missions
                                                      •	 ensuring transportation companies are capable of addressing transit
                                                         issues and avoiding long delays at border crossings
                                                      •	 establishing a refrigerated container service center in Afghanistan
                                                      •	 providing financial assistance for Afghan merchants to search for
                                                         market share
                                                      •	 assisting Afghan companies to become members of Global G.A.P. (Good
                                                         Agricultural Practice), a private sector organization that sets voluntary
                                                         global standards for certification of agricultural production processes
  Value Chains: sets of interlinked activities        •	 training Afghan producers in value chain techniques
  that add value by converting inputs (raw            •	 establishing underground cool storages that allow producers to sell
  materials) into outputs (finished goods),              their products off-season
  which add to a company’s net profits and            •	 training traders in export documentation requirements
  help create competitive advantage.                  •	 applying contract farming of high-value crops

                                                         This quarter, USAID provided $8,000 to help fund the construction of
Source: Businessdictionary.com, accessed 10/5/2012.   two cold storage facilities for local apple growers in Maidan, Wardak prov-
                                                      ince. With storage capacities of 25 metric tons each, these facilities will
                                                      allow farmers to sell their products off season, giving them the ability to




                                                       138                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 increase profits, rather than flooding the market in the peak season and
 driving down prices.360


 ENERGY
 The Afghan government and international donors consider the energy
 sector a priority for Afghanistan’s core infrastructure. This quarter, DoS,
 USAID, DoD, and other partners continued to support numerous projects
 to generate additional power, increase power-transmission capacity, and
 upgrade electric-distribution grids.361

 Energy Sector Development
 As part of the U.S. government’s inter-agency effort to coordinate develop-
 ment of Afghanistan’s energy sectors, USAID, DoS, and the Joint Program
 Integration Office/U.S. Army Corps of Engineers meet weekly. These agen-
 cies, along with DoD/International Security Assistance Force, also meet
 monthly as part of an Infrastructure Working Group. Additionally, USAID
 has two active working groups for the Sheberghan Gas Development
 Program, whose goal is to strengthen the Afghan government’s capacity to
 manage its gas industry.362
    USAID also meets, less frequently, with the Asian Development Bank
 (ADB) on the large-scale Power Transmission, Expansion, and Connectivity         PTEC: a U.S.-funded program designed in
 Program (PTEC), which aims to modernize Afghanistan’s power generation,          collaboration with the Ministry of Finance,
 transmission, and distribution systems. PTEC meetings may also include           Ministry of Energy and Water, and Da
 the Joint Program Integration Office/U.S. Army Corps of Engineers and            Afghanistan Breshna Sherkat (DABS)—the
 Afghan government stakeholders.363                                               national electric utility—to support sustain-
                                                                                  able, Afghan-owned electricity services for
 Sheberghan Gas Field Development Project                                         the nation.
 USAID and the Overseas Private Investment Corporation (OPIC), the
 U.S. government’s development-finance institution, are partnering with
 the Afghan government, the ADB, and private investors to advance the           Source: SIGAR, “Quarterly Report to Congress, 4/2012, p.
                                                                                116-117
 Sheberghan Gas Field Development Project. This $580 million public-pri-
 vate partnership aims to rehabilitate a gas field west of Mazar-e-Sharif and
 to develop a 200MW power plant with associated transmission lines by
 2016. USAID has provided funding to the Afghan government to rehabili-
 tate two gas wells and to drill two new ones. This quarter, U.S. Embassy
 Kabul created and filled a position for a project coordinator to work with
 USAID and OPIC to help keep the Sheberghan project on schedule.364

 Hydrocarbon Tenders
 The Ministry of Mines (MoM) offered no new hydrocarbon tenders this
 quarter. A March 2012 tender remains open for exploration, develop-
 ment, and production of hydrocarbons in six blocks totaling 14,760 square
 kilometers in the western portion of the Afghan-Tajik Basin of northern




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            139
ECONOMIC AND SOCIAL DEVELOPMENT




Afghanistan.365 The Task Force for Business Stability Operations (TFBSO)
assisted the MoM in this effort. The MoM estimates these blocks to con-
tain between 700 million and 900 million barrels in recoverable reserves.366
Estimates of the monetary value of the tender will not be available until
December 2012, when bid evaluations will be completed.367 The MoM
expects to announce the award in early 2013.368
   The MoM hosted an information conference in Istanbul on August 28–30
for the eight qualified bidders for the Afghan-Tajik Basin Phase I.369 The non-
mandatory conference included site visits, reviews of relevant Afghan laws,
and model contracts. U.S.-based ExxonMobil, the world’s largest non-state
owned oil company, is one of the eight qualified bidders. It did not attend
the conference due to weather delays and flight cancelations, nor has it
come to Afghanistan for a site visit, but continues to engage and review
data on the tender, according to TFBSO.370 ExxonMobil’s official expression
of interest has given the Afghan-Tajik Basin tender international legitimacy
and sparked speculation that other U.S. energy companies may soon com-
pete for Afghan tenders.371
   This quarter, TFBSO, at the request of the MoM, has stopped advising
the ministry on tendering hydrocarbons in the Tirpul Basin in western
Afghanistan. The official tender announcement was expected in August,
but did not materialize. The MoM will reevaluate Tirpul Basin tenders after
Afghan-Tajik Basin Phase I tender is complete.372

TAPI Pricing Agreement
Last quarter, SIGAR reported progress in the 20-year ongoing negotiations
to develop the Turkmenistan-Afghanistan-Pakistan-India (TAPI) pipeline.
TAPI is designed to deliver gas from Turkmenistan, through Afghanistan, to
Pakistan and India. If realized, the project will improve Afghanistan’s energy
security and increase government revenues.373
   In May 2012, Turkmenistan signed gas pricing agreements with Pakistan
and India. At the same time, Turkmenistan and Afghanistan signed a
Memorandum of Cooperation affirming Afghanistan’s commitment to the proj-
ect and allowing TAPI to proceed even if Afghanistan participates solely as a
transit country. Afghanistan-Turkmenistan negotiations on a pricing agreement
for offloading gas are ongoing. Afghanistan stands to receive an estimated
$400 million in annual revenue from TAPI. According to DoS, India and
Pakistan believe TAPI will be commercially viable regardless of the extent of
Afghanistan’s participation.374 DoS, however, continues to warn that the TAPI
pipeline is not commercially viable without international technical assistance
to operate the pipeline and international financing estimated at $7.6 billion to
build it. There is no reliable estimate of when TAPI might come online.375
   This quarter, TFBSO advised the MoM in advance of its participation
in an ADB-funded tour promoting the TAPI to international investors.




 140                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 ADB-sponsored events took place in Singapore, Ashgabat, and London in
 August and September.376

 Effect on Afghanistan of U.S. and International Sanctions on
 Iranian Petroleum Products
 U.S. sanctions that aim to restrict the export of petroleum and petroleum
 products from Iran include:377
 •	 Section 1245(d) of the NDAA of 2012, which authorizes sanctions
    on foreign financial institutions that knowingly conduct or facilitate
    significant transactions with the Central Bank of Iran or with other
    foreign central banks should they engage in a financial transaction for
    the sale or purchase of petroleum products to or from Iran; and
 •	 E.O. 13622, which authorizes sanctions on foreign financial
    institutions that knowingly conduct or facilitate significant financial
    transactions with the National Iranian Oil Company or Naftiran
    Intertrade Company, or for the acquisition or purchase of petroleum
    or petroleum products from Iran. It also authorizes sanctions against
    all entities involved in the acquisition or purchase of petroleum or
    petroleum products from Iran.

    There are no reliable public data on the impact of Iranian sanctions
 on Afghanistan’s economy, its pattern of trade, or commerce. According
 to DoS, no Afghan entities have yet been sanctioned under either sec-
 tion 1245(d) of the NDAA as amended by the Iran Threat Reduction and
 Syrian Human Rights Act of 2012, or E.O. 13622, even though Afghanistan
 currently imports between 33% and 50% of its fuel from Iran. Another 25%
 comes through Uzbekistan, 25% from Turkmenistan, and an unspecified
 amount from Kyrgyzstan and Pakistan.378
    The United States continues to support the Afghan-Pakistan Transit
 Trade Agreement and is working to expand Afghan trade in Central Asian
 markets. DoS is hearing anecdotally that Afghan traders are increasing ship-
 ments through Iranian ports because shipments through Pakistan have been
 unreliable in recent months.379
    International sanctions that may have an impact on Afghanistan’s ability
 to import Iranian petroleum include:380
 •	 United Nations Security Council Resolution 1929, and its predecessor
     resolutions, which primarily focus on Weapons of Mass Destruction
     (WMD), but recognize the link between Iranian oil revenues and WMD
     activity; and
 •	 Various sanctions by the European Union (EU), Australia, Canada,
     Norway, Japan, and South Korea, such as the EU’s prohibition on new
     contracts for Iranian oil and oil-related transactions with Iran’s central
     bank, to restricting energy projects with Iran. These countries have
     also limited new banking relationships, energy projects, and trade




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            141
ECONOMIC AND SOCIAL DEVELOPMENT




   finance, and joined the sanctions on a number of named Iranian entities,
   according to Treasury.
DoS continues to encourage the Afghan government to reduce fuel imports
from Iran, but recognizes Afghanistan’s difficulty in securing sufficient
energy supply to meet demand. Afghanistan has few reliable and predict-
able non-Iranian import options.381


MINING
USAID has allocated $14 million in its FY 2012 operational plan to
support extractive industries through the Mining Investment and
Development for Afghan Sustainability (MIDAS) project—$1 million
less than was reported last quarter. The MIDAS program seeks to sup-
port private-sector development by boosting economic activity and
jobs, improving government revenue generation, and enhancing par-
ticipation of women in the economy. No funds, however, have been
disbursed in the last two quarters.382

Tenders
On December 6, 2011, TFBSO, using United States Geological Survey
(USGS) data packages, helped the MoM develop mineral exploration pack-
ages for tender. As of September 30, four areas of interest received bids:383
•	 Balkhab (Sar-e Pul): copper – 2 bids
•	 Shaida (Herat): copper – 4 bids
•	 Zarkashan (Ghazni): copper and gold – 4 bids
•	 Badakshan (Badakshan): gold – 4 bids

To ensure transparency and fair and open competition, bids for each area
were opened publicly by junior ministerial officers with bid-company rep-
resentatives in attendance. The council’s evaluation of bids for Balkhab,
Shaida, and Zarkashan were observed by transaction advisors and third-
party transparency advisors. The four bids for Badakshan are currently
under evaluation. An announcement of the winners for each area of interest
is expected by December 31, 2012.384

Attacks Against Mining Interests
In 2012, a congressionally mandated inter-agency review of economic strat-
egy in Afghanistan emphasized improved security as a basis for sustainable
economic growth.385 Current levels of violence can limit foreign invest-
ment in Afghanistan, according to a member of the CIA’s External Advisory
Board. Private investment and mining contributions to Afghan GDP have so
far been marginal, in part because investors fear insecurity.386
   According to DoS, the China Metallurgical Group Corporation (MCC),
the company developing the Aynak copper mine, reported about 10




 142                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 rocket-propelled-grenade attacks on its personnel compound from April to
 June 2011. Attacks of one or two rounds each continued up to June 2012,
 when a rocket grenade landed within the personnel compound. This quar-
 ter, Minister of Mines Shahrani announced that landmines had been laid to
 disrupt operations at Aynak. As of October 1, there have been no reports
 of personnel injuries or significant damage to MCC buildings or equipment
 resulting from these attacks.387
    Attacks and violent crimes against other extractive industry opera-
 tions include:388
 •	 Amu Darya oil: The Afghan National Security Council is investigating
     accusations of intimidation against Chinese engineers.
 •	 Afghan-Tajik oil basin: An IED killed two employees of an Afghan
     security contractor patrolling a seismic survey line in March 2012.
 •	 Chesht-e-Sharif marble quarries: Quarry owners report that villagers
     have beaten or kidnapped truck drivers.
 •	 Qara Zaghan gold mine: unspecified attacks reported, but not
     specifically targeting operations.
 •	 Bamyan and Baghlan coal mines: unspecified attacks reported, but
     not specifically targeting operations.
 The Afghan government is responsible for security at mining operations.
 The MoM Protection Unit of 1,500 personnel was established specifically
 to safeguard the country’s mineral deposits.389 According to DoS, it has
 not developed as anticipated, so the Ministry of Interior’s Afghan National
 Police (ANP) has taken over security for extractive industries.390

 Content of New Mining Law Disputed
 Concerned that Afghanistan’s current Minerals Law is hindering private
 sector investment, Minister Shahrani proposed a revised Minerals Law and
 an Oil and Gas Law to the Afghan Cabinet on July 18.391 These revisions
 are meant to better protect Afghan resources, make them more investor-
 friendly, and align them to international best practices.392 Cabinet members
 rejected the draft, expressing concerns over thresholds for the bidding/
 tendering process, conversion of exploration rights, and the role of inter-
 national firms. MoM is revising its proposal to resubmit it for parliamentary
 approval by the end of 2012.393

 U.S. Assistance
 The United States continues to build Afghan ministerial capacity to prepare
 for administering mining projects in a time of diminishing international
 assistance. USAID is funding five advisors at the MoM through Afghanistan’s
 Civilian Technical Assistance Program. The U.S. Department of Commerce
 is establishing a human-capital development project for the marble sector
 to launch next quarter, and is continuing to support the development of
 commercial law.394




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            143
                                              ECONOMIC AND SOCIAL DEVELOPMENT




                                                 TFBSO continues to fund USGS efforts to house, analyze, and interpret
                                              geological data as part of its support for Afghan resource tenders. The
                                              USGS and MoM are negotiating a contract to build capacity at the Afghan
                                              Geological Survey (AGS) and to further identify mineral prospects for
                                              future tenders. Both USAID and TFBSO are working with Afghan business
                                              associations and public-private partnerships to strengthen the gemstone
                                              “mines to market” value chain by linking producers to markets, providing
                                              training and technology development.395
                                                 This quarter, TFBSO allocated $34.47 million for its commercial, techni-
                                              cal and legal support to the MoM to execute existing tenders and prepare
                                              for new ones. The funding breakdown is as follows:396
                                              •	 $3.5 million for drilling in North Aynak area of interest
                                              •	 $14.64 million for legal and technical support to the MoM
                                              •	 $10.28 million for Village Stability Operations (VSO) support
                                              •	 $4.14 million for helicopter support for tender and VSO projects
                                              •	 $910,000 for the TFBSO-USGS interagency agreement for North Aynak
                                                  and Afghan Geological Survey training

                                              Extractive Industries Transparency Initiative Update
                                              Afghanistan is working toward membership in the internationally-recog-
                                              nized Extractive Industries Transparency Initiative (EITI). Membership
                                              would help Afghanistan improve transparency and accountability in its
                                              extractives sector, thereby attracting greater foreign investment.397 The
                                              Afghanistan program to join EITI delivered its first report reconciling rev-
                                              enues paid by extractive-industry companies and revenues received by
                                              the Afghan Government. Deliberations over Afghanistan’s EITI-compliant-
                                              nation status are scheduled to begin on October 15; validation could be
                                              completed by the end of 2012.398


                                              EDUCATION
                                              On September 5, the MoF signed a $125 million grant with the World Bank
                                              to fund the government’s Education Quality Improvement Project, which
                                              began in 2006. Financed through the Afghanistan Reconstruction Trust
                                              Fund, the money will offer school grants, teacher and administrator train-
                                              ing, and help pay to build and to maintain schools. The goal is to provide
                                              equal access to quality basic education, especially for girls. With an esti-
                                              mated 500,000 new students entering each year, the demand for basic
                                              quality education is growing, according to the Afghan government. The MoF
                                              says that only 57% of the country’s schools have usable buildings.399
Afghan women who work as rug weavers
                                                 Also this quarter, four million textbooks published by the U.S. military
study in a 1st grade classroom near Bamyan.
They are in a reconstruction program that     reached Kabul after being held up at the Pakistani border for almost a year
also offers day care for their children and   due to Pakistan’s response to a NATO airstrike that mistakenly killed 24
other services. (U.S. Army photo)             Pakistani soldiers in November 2011.400




                                               144                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 LABOR
 No definitive measure of Afghan unemployment is available, but USAID
 reports that surveys indicate Afghans consider it to be the second biggest
 problem after security. Since employed Afghans are less likely to engage in
 illicit activities such as growing poppies or joining criminal and insurgent
 networks, increasing job opportunities is a key priority of the U.S. recon-
 struction effort. Employment also affects health and education outcomes,
 as well as political stability, according to USAID.401

 Labor Market Surveys
 SIGAR has previously noted the generally poor quality of Afghanistan’s
 higher education curriculum. The country’s public-sector technical schools
 and vocational trainers do not have career-specific goals or targets for
 numbers of students to meet business or industry requirements.402 To
 start aligning Afghanistan’s education goals with industry needs, USAID
 is conducting four labor-market surveys of small and medium enterprises
 in the six largest urban areas: Kabul, Mazar-e-Sharif, Jalalabad, Herat,
 Kandahar, and Kunduz.403 These surveys are assessing the needs of industry.
 The business enterprise samples come from construction, infrastructure
 and logistics, import/export, retail, agricultural and food manufacturing,
 telecommunications, non-food manufacturing, and energy provision compa-
 nies.404 These four surveys are to be repeated at six-month intervals over a
 two-year period. The first survey was completed in April 2012.405
     The first survey found that 36% of small and medium enterprises indi-
 cated a demand for skilled employees (workers with technical skills)
 while 35% indicated a demand for professional employees (workers with
 advanced training and usually a degree). The textile industry hired the
 highest percentage of skilled workers (27% of respondents), while the
 construction industry hired the most professional workers at 23%. Textile
 businesses also hire the most unskilled labor (22%) and semi-skilled labor
 (33%), followed by agribusinesses at 21% and 22%, respectively.406 The top
 five skills desired are shown in Figure 3.34 on the following page.407
     USAID concludes that these results reflect the desire of small and
 medium enterprises for employees trained in general skills that can be used
 across industries, with the exception of Clothing Production/Tailoring. It
 is likely among the top five skills demanded because of the high number of
 respondents from the textiles industry.408

 Afghanistan Workforce Development Program
 In conjunction with the labor market surveys, USAID’s Afghanistan
 Workforce Development Program (AWDP) offers access for 25,000
 Afghan men and women to labor-market-driven vocational education and
 training, business-development support, business-management training
 programs, financial credit, and job-placement services.409 AWDP is trying




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012           145
ECONOMIC AND SOCIAL DEVELOPMENT




FIGURE 3.34


LABOR MARKET SURVEY: TOP FIVE SKILLS DESIRED




                                                 12%
                            13%




                                                            10%
                                                 ion
                                                 t
                                              uca




                                                                                            9%
                            try



                                              l ed



                                                            ion
                           dus



                                           era



                                                           trat




                                                                                            ing
                                                                     10%
                       e in



                                        gen



                                                       inis




                                                                                        ilor
                     f th




                                                                                       /ta
                                                      adm
                                     nd
                   eo




                                                                     es
                                    ea




                                                                                      ion
                                                                   sal
                 edg




                                                     and
                                  uag




                                                                                  uct
                                                                  and
               owl




                                                                                rod
                               ang



                                                ent
            l kn




                                                                            gp
                                                              ting
                                              em
                             y, l
           era




                                                                           thin
                                            nag
                            rac




                                                            rke
         Gen



                        Lite




                                                                          Clo
                                          Ma



                                                           Ma
Source: USAID, response to SIGAR vetting, 10/14/2012.




to mitigate high unemployment and the scarcity of technically skilled
Afghan labor and trained business managers. The goal of the program is
to facilitate job creation, develop a skilled and semi-skilled workforce,
increase self-employment, and promote economic growth in Afghanistan.
The program aims to provide alternatives to illicit economic and insur-
gent activities.410
   AWDP is also supporting efforts to build the capacity of technical/voca-
tional educators and trainers. AWDP seeks to both improve the quality of
these training programs through public-private partnerships, and make
them more accessible at non-degree and bachelor degree levels. AWDP is
being implemented in close collaboration with the Ministry of Education,
Ministry of Higher Education, and Ministry of Labor, Social Affairs, Martyrs
and Disabled. As of September 16, 2012, $5 million has been obligated to
AWDP, and $965,000 disbursed.411


HEALTH
Although most of Afghanistan is polio-free, the disease is still present in 13
districts, primarily in the south.412 This quarter, the Afghan government, with
international assistance, continued its polio vaccination program. The World
Bank is also conducting a study on HIV/AIDS prevention in Afghanistan.

Polio Eradication
Afghan and Pakistani officials met July 23–24 in Kabul to discuss coor-
dinating efforts to eradicate polio, including vaccinating people moving




  146                               SPECIAL INSPECTOR GENERAL                     I    AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 across borders and immunizing children in insecure border regions. The
 UN Secretary-General reported August data showing 17 confirmed cases
 of polio in Afghanistan this year to date, most in Helmand, Kandahar, and
 Kunar provinces.413 SIGAR last reported 10 cases as of June.                        SIGAR AUDIT
    In coordination with Pakistan, Afghanistan embarked on its third nation-         SIGAR is assessing whether U.S. direct
 wide polio vaccination campaign. From September 16–18, an estimated                 assistance to the Ministry of Public
 eight million Afghan children under the age of five were vaccinated. Service        Health is being used for intended
 providers and volunteers targeted 13 southern provinces in Kandahar                 purposes and is achieving expected
 and Helmand where 12 of the 17 new cases have been reported this year.              outcomes. For more information
 Approximately five million children aged two to five were also administered         see page 34.
 de-worming tablets.414
    A fourth round of polio vaccinations was scheduled for October 14–16.
 This campaign is targeting another eight million children under the age
 of five. Some 7.4 million children between the ages of six months and five
 years will also receive vitamin A supplements. Administrators are negotiat-
 ing with local elders and commanders in insecure areas for better access.415

 HIV Prevalence
 As SIGAR has noted previously, HIV rates in Afghanistan are believed to
 be currently low, but the country is at risk for an outbreak due to rising
 intravenous drug use and low HIV awareness.416 A $12 million, World Bank-
 funded HIV/AIDS Prevention Project is under way in Afghanistan. Its aim is
 to slow the spread of HIV by building the government’s capacity to respond
 to an epidemic, helping change behavior patterns among vulnerable popula-
 tions, and improving knowledge about HIV prevention.417
    Currently, the study shows HIV prevalence below 0.1% of the popula-
 tion.418 However, among intravenous drug users, HIV prevalence is 7.11%.
 The highest number of cases is in Herat where 18% of intravenous drug
 users are HIV positive. By contrast, 3% of Kabul’s intravenous drug users are
 infected. Among prisoners, the HIV prevalence is 1.6% in Herat, compared
 to 0.6% in Kabul.419


 REGIONAL COOPERATION AND TRADE
 New Silk Road Initiative                                                              “We recognize that
 The State Department’s “New Silk Road” initiative, a key element of the             Afghanistan’s destiny is
 U.S. development strategy in Afghanistan, seeks greater regional economic
 integration, including the free movement of goods, services, capital, and
                                                                                     tied to the region that
 people between Afghanistan and its neighbors.420 It calls for develop-                 surrounds it …”
 ing roads, rails, electricity transmission networks, pipelines, and other            Afghan President Hamid Karzai
 infrastructure as a means to encourage regional integration and private-
 sector development.421 SIGAR has noted that the New Silk Road vision
                                                                                 Source: “Statement by President Hamid Karzai at the 67th
 is an organizing principle, rather than a master plan, for use in broader       Session of the UN General Assembly,” 9/25/2012, accessed
                                                                                 10/3/2012.




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012           147
                                                      ECONOMIC AND SOCIAL DEVELOPMENT




                                                      decision making by U.S. Embassy Kabul and the inter-agency Afghanistan
  Afghanistan Infrastructure Program:                 Infrastructure Program.422
  A joint Department of Defense and                      A Center for Strategic and International Studies (CSIS) report issued
  Department of State effort to develop               this quarter cast doubt on the efficacy of the New Silk Road initiative as
  and carry out infrastructure projects in            a development strategy. The report says most of Afghanistan’s neighbors
  Afghanistan that are explicitly linked to the       and regional powers have little interest in injecting massive investment in
  U.S. counterinsurgency (COIN) effort.               or integrating their economies with Afghanistan.423 Although Chinese and
                                                      Indian firms have won major mining contracts potentially worth billions
                                                      in revenue to the Afghan government, neither has made the infrastructure
Source: SIGAR Audit-12-12, accessed 10/11/2012.
                                                      investments required to start breaking ground.424 Major regional investment
                                                      will depend on Afghanistan improving its security, governance, and anti-
                                                      corruption efforts.425 The report concedes Afghanistan’s economy is likely
                                                      to improve, but not enough in the near to medium term to alleviate rampant
                                                      poverty and unemployment, and not on the scale envisioned by the New
                                                      Silk Road initiative.426
                                                         The World Bank projects Afghanistan will still not generate enough
                                                      revenue by 2021/2022 to pay for its government expenditures. The Bank
                                                      estimates Afghan government revenues will reach 17.5% of GDP in 10
                                                      years, assuming that two important investments, the Aynak copper and
                                                      Hajigak iron ore mines, start production in 2016/2017. But the Bank
                                                      expects government expenditures will reach 43% of GDP during that same
                                                      10-year period.427

                                                      Regional Agreements and Meetings
                                                      Afghanistan and Iran’s Ministers of Foreign Affairs held a fourth
                                                      Afghanistan-Iran Joint Commission meeting September 4-5. At its conclu-
                                                      sion, both ministers signed a 54-point memorandum of understanding
                                                      (MoU), which included opening up Iran’s Chabahar Port to Afghan traders.
FIGURE 3.35
                                                      Other areas covered under the MoU were energy, diplomatic affairs, mining,
AFGHANISTAN’S MAJOR REGIONAL                          transportation, education, security, and borders.428
EXPORT PARTNERS                                          Afghanistan participated in the Non-Aligned Movement summit
                                                      held in Tehran, August 28-29. In the final communiqué, the heads of
                                                      state recognized peace and security as essential for reconstruction,
                                                      humanitarian relief, and sustainable development in Afghanistan. They
                 Pakistan                             also expressed support for regional economic integration between
                 31.4%             India
                                   28.8%              Afghanistan and its neighbors.429 Figure 3.35 shows Afghanistan’s major
                                                      trading partners.
                         Others
                         21.6%                        Update: World Trade Organization Accession
 Tajikistan                                  Russia   Afghanistan applied for membership in the World Trade Organization
 8.3%                                        5.2%
                                                      (WTO) in November 2004, with the goal of joining by the end of 2014.
 Bangladesh                                           USAID is assisting Afghanistan in this effort through its TAFA program.430
 4.7%
                                                      At the Second Working Party Meeting in June 2012, Afghanistan presented
Source: 2011 CIA World Factbook




                                                       148                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 its Offer on Services proposal for trade liberalization. Afghanistan is in the
 process of submitting its Offer on Goods.431                                       Offer on Goods: a country’s proposal to
     This quarter, the United States, Australia, India, and other WTO members       the World Trade Organization for its own
 asked Afghanistan for additional commitments and posed 142 clarify-                further liberalization, usually an offer to
 ing questions regarding its Services offer. These requests have been sent          improve access to its markets.
 to the relevant Afghan ministries for analysis and comment. Responses,
 due October 20, will provide the WTO time to update its Afghan member-
 ship application portfolio and forward it to Working Party Members by
                                                                                  Source: The World Trade Organization Glossary, accessed
 November 9.432                                                                   10/21/2012.

     Afghanistan’s Minister of Commerce and Industry has agreed in principle
 to an Offer on Goods, but seeks approval from the country’s Economic
 Committee within the Cabinet. If approved, the offer will be submitted to
 the WTO in preparation of the Third Working Party Meeting scheduled for
 December in Geneva.433


 TRANSPORTATION
 Afghanistan’s overall lack of transportation infrastructure continues to
 hinder trade and economic growth by restricting market access across
 industries.434 Inadequate transportation increases costs, reduces employment
 opportunities, limits distribution of domestic and international development
 assistance, and hampers delivery of humanitarian aid.435 This quarter, the
 United States continued its efforts to strengthen Afghanistan’s transportation
 sector by helping draft transportation laws, develop administrative strategy,
 build ministry capacity, and comply with international standards.436

 Rail
 Establishing an Afghan Railway Authority is central to the international
 community’s goal of building a sustainable and profitable rail system.437
 This quarter, the United States continued to work with the Afghan govern-
 ment and coalition partners to ensure that this Authority would be able to
 administer and maintain regulatory oversight and enforcement. U.S. assis-
 tance includes strategic planning, training, defining staffing needs, and
 identifying core competency requirements. Also this quarter, U.S. Embassy
 Kabul helped generate minimum rail development standards and safety
 requirements, and the U.S. Department of Transportation’s (DoT) rail advi-
 sor is working with three members of the U.S. Army rail team to develop
 a plan and establish milestones for the standup of the Authority and the
 training of its staff.438
    From September 2011 through March 2012, DoT’s rail advisor led an
 interagency team to develop a framework for the new rail authority,
 including its roles and responsibilities. The framework was presented to
 the Ministries of Mines, Transportation and Civil Aviation, Public Works,
 and Finance, as well as the Senior Economic Advisor to the President last




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            149
                                              ECONOMIC AND SOCIAL DEVELOPMENT




                                              quarter. The Council of Ministers, upon whom formal establishment of the
                                              Authority depends, approved the framework in September 2012, and pre-
                                              sented it to President Karzai to sign into law.439 Delayed implementation
                                              could put ADB and EU funding for the rail authority at risk.440


                                              COMMUNICATIONS
                                              Afghanistan’s private-sector-led telecommunications sector is growing rap-
                                              idly, and is one of the country’s economic success stories.441 In 2010/2011,
                                              telecommunications contributed to 45% of total tax revenue.442 An estimated
                                              30% of Afghans use the Internet, and more than 300,000 actively use social
                                              media such as Facebook, Twitter, YouTube, and blogs, according to the coun-
                                              try’s Ministry of Communications and Technology (MCIT). Of these social
                                              media users, 10% are under 15 years old, 80% are between 15 and 40, and 10%
                                              are above 40. Social-media advocates see social media as important to free-
                                              dom of speech, and as a check on government performance and power.443
                                                 In the hope of increasing Internet usage to 50% of the population in the
                                              next two years, the ministry signed the country’s third 3G license agree-
                                              ment with Roshan, Afghanistan’s leading telecommunications provider, on
                                              September 22. The agreement was for $25 million.444 The first two licenses
                                              were issued to Etisalat and MTN Afghanistan earlier this year.
                                                 This quarter, Etisalat launched 4G service in both Herat and Kunduz.445
                                              MCIT also inaugurated a digital telecommunication system in Herat to
A U.S. Air Force crew at Bagram               benefit 12,000 private and commercial subscribers of phone and Internet
Airfield connects sections of a 170-foot      service.446 In addition, Minister Sangin attended the Sixth International
communications tower to expand radio-         Turkmen-Tel conference in Ashgabat, where he discussed with his Turkmen
communication range. (U.S. Air Force photo)
                                              counterpart bilateral cooperation in fiber optic, telecommunication, and
                                              Internet bandwidth sectors.447 Finally, MCIT, in conjunction with the
                                              U.S. Department of Commerce, held its first workshop on developing a
                                              national cybersecurity strategy for Afghanistan.448
                                                 These efforts are aligned with E-Afghanistan, one of the National Priority
                                              Programs approved to help spur private sector development in the country.
                                              The program aims to improve telecommunications access across the coun-
                                              try; lower costs for services; generate jobs; increase government revenues
                                              from telecommunications sector (licenses, taxes, etc.); adopt online-acces-
                                              sible ‘e-Governance’ services (to incorporate efficiency, effectiveness, and
                                              transparency); and build fiber optic connections to neighboring countries.449




                                               150                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 U.S. ASSISTANCE ACCOUNTABILITY
 DoS and USAID told SIGAR that they have taken a number of steps to
 increase accountability for U.S. reconstruction funds. DoS says it uses all
 available means to help ensure that U.S. assistance funds are used only for
 intended purposes. It regularly vets contractors and sub-contractors. It also
 incorporates anti-corruption provisions in agency contracts. DoS cooper-
 ates with other U.S. agencies to investigate questionable money flows and
 possible connections to insurgent or other criminal networks; companies
 that violate U.S. or Afghan laws are blacklisted.450
    USAID reports it has implemented the Accountable Assistance for
 Afghanistan Initiative, which is designed to ensure that development assis-
 tance is used for its intended purposes. Reforms include strengthened
 financial controls, improved project oversight, limited sub-award tiers,
 and fraud reporting requirements for host country institutions. USAID also
 requires that all awards contain a terrorism financing clause designed to
 ensure that support is not provided to individuals or organizations associ-
 ated with terrorism.451




 REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            151
4   OTHER AGENCY
    OVERSIGHT




        153
                                               CONTENTS

                                               Completed Oversight Activities	   155

                                               Ongoing Oversight Activities	     164




Photo on previous page
A U.S. Army CH-47F Chinook helicopter flies over Logar
Province in eastern Afghanistan. (U.S. Army photo)




                                                 154
                OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
SIGAR’s enabling legislation requires it to keep the Secretary of State
and the Secretary of Defense fully informed about problems relating to
the administration of reconstruction programs, and to submit a report to
Congress on SIGAR’s oversight work and on the status of the U.S. recon-
struction effort no later than 30 days after the end of each fiscal quarter.
Each quarter, SIGAR requests updates from other agencies on completed
and ongoing oversight activities. This section contains these updates.
    The descriptions appear as submitted, with minor changes to maintain
consistency with other sections of this report: acronyms and abbreviations
in place of full names; standardized capitalization, hyphenation, punc-
tuation, and preferred spellings; and third-person instead of first-person
construction.
    These agencies perform oversight activities in Afghanistan and provide
results to SIGAR:
 •	 Department of Defense Office of Inspector General (DoD OIG)
 •	 Department of State Office of Inspector General (DoS OIG)
 •	 Government Accountability Office (GAO)
 •	 U.S. Army Audit Agency (USAAA)
 •	 U.S. Agency for International Development Office of Inspector General
    (USAID OIG)


COMPLETED OVERSIGHT ACTIVITIES
Table 4.1 lists eight of the 10 oversight projects related to reconstruction
that participating agencies reported as completed this quarter. Two classi-
fied GAO reports are not listed here.

TABLE 4.1	


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF SEPTEMBER 30, 2012
 Agency      Report Number    Date Issued       Project Title
 DoD OIG     DODIG-2012-141   9/28/2012         Assessment of U.S. Government and Coalition Efforts to Train, Equip, and Field the Afghan Air Force
 DoD OIG     DODIG-2012-135   9/27/2012         Mi-17 Overhauls Had Significant Cost Overruns and Schedule Delays
 DoD OIG     DODIG-2012-128   9/19/2012         Fees and Surcharges Assessed on Afghanistan Security Forces Fund Orders Need Improved Cost Accounting




REPORT TO THE UNITED STATES CONGRESS   I    OCTOBER 30, 2012                            155
                                                               OTHER AGENCY OVERSIGHT




TABLE 4.1 (CONTINUED)


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF SEPTEMBER 30, 2012
 DoD OIG           DODIG-2012-109            7/9/2012             Assessment of U.S. Government and Coalition Efforts to Develop the Afghan Local Police
                                                                  Iraq and Afghanistan: Agencies Are Taking Steps to Improve Data on Contracting but Need to Standardize
 GAO               GAO-12-977R               9/12/2012
                                                                  Reporting
                                                                  Iraq and Afghanistan: State and DoD Should Ensure Interagency Acquisitions Are Effectively Managed and
 GAO               GAO-12-750                8/2/2012
                                                                  Comply with Fiscal Law
                                                                  Contingency Contracting: Agency Actions to Address Recommendations by the Commission on Wartime
 GAO               GAO-12-854R               8/1/2012
                                                                  Contracting in Iraq and Afghanistan
 USAID OIG         F-306-12-002-S            9/26/2012            Review of USAID/Afghanistan Monitoring and Evaluation System

Sources: DoD OIG, response to SIGAR data call, 9/26/2012; DoS OIG, response to SIGAR data call, 9/21/2012; GAO, response to SIGAR data call, 9/20/2012; USAAA, response to SIGAR data
call 9/17/2012; USAID OIG, response to SIGAR data call, 9/21/2012.



                                                               U.S. Department of Defense Office of Inspector General
                                                               During this quarter, DoD OIG issued four reports related to Afghanistan
                                                               reconstruction.

                                                               Assessment of U.S. Government and Coalition Efforts to
                                                               Train, Equip, and Field the Afghan Air Force
                                                               (Report No. DODIG-2012-141, Issued September 28, 2012)
                                                               This report is classified.

                                                               Mi-17 Overhauls Had Significant Cost Overruns
                                                               and Schedule Delays
                                                               (Report No. DODIG-2012-135, Issued September 27, 2012)
                                                               This is the second in a planned series of reports on Counter Narcoterrorism
                                                               Technology Program Office Indefinite Quantity Indefinite Delivery (IDIQ)
                                                               contracts. The first report issued in this series was DODIG-2012-006,
                                                               “Counter Narcoterrorism Technology Program Office Task Orders Had
                                                               Excess Fees, and the Army Was Incorrectly Billed,” November 1, 2011.

                                                               Fees and Surcharges Assessed on Afghanistan Security
                                                               Forces Fund Orders Need Improved Cost Accounting
                                                               (Report No. DODIG-2012-128, Issued September 19, 2012)
                                                               The U.S. Army Corps of Engineers and the Air Force Center for Engineering
                                                               and the Environment generally had appropriate cost accounting proce-
                                                               dures; however, the Defense Security Cooperation Agency (DSCA) did not
                                                               maintain adequate cost accounting records that showed whether three sur-
                                                               charge rates represented reasonable estimates of actual costs on Foreign
                                                               Military Sales cases funded by Afghan Security Forces Fund appropriations
                                                               (ASFF cases). Specifically, DSCA collected the following surcharges:
                                                               •	 Administrative: over $848 million from cases funded by FY 2005 through
                                                                  FY 2011 ASFF appropriations, but DSCA’s cost records did not support
                                                                  the surcharge rate.




                                                                  156                           SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




•	 Contract administration services (CAS): an unknown amount and it
   could not compare actual expenses to surcharges collected.
•	 Transportation expense: an unknown amount and it could not identify
   the expenses for each ASFF case.

   This occurred because DSCA did not have adequate policies and pro-
cedures that required preparation of detailed cost accounting records to
support surcharge rates with actual cost data or to use available cost data
when reviewing the CAS and transportation-expense surcharge rates. Also,
DSCA did not have policies to determine whether it properly used ASFF
appropriations when it made transfers between the administrative and
transportation expense surcharge accounts.
   As a result, it was unclear whether DSCA assessed appropriate sur-
charges to pay for the actual expenses for ASFF cases or how much of the
$2.8 billion balance in the three surcharge accounts resulted from high rates
for ASFF cases. Further, a DSCA transfer of $130 million from the admin-
istrative account to clear deficits in the transportation account may have
subsidized sales of military equipment and services to foreign governments
with ASFF appropriations.
   Improved cost accounting and a DoD working group would facilitate
cost-saving measures, such as those advocated by the Secretary of Defense.
Such measures could reduce future estimated administrative surcharges
DSCA expects to collect on ASFF cases (DSCA expected to collect $185
million on FY 2012 appropriations), which would help free up funds for
operations in Afghanistan.

Assessment of the U.S. Government and
Coalition Efforts to Develop the Afghan Local Police
(Report No. DODIG-2012-109, Issued July 9, 2012)
Although much work remains to be accomplished, and there have been iso-
lated setbacks, several noteworthy areas of progress were identified by the
assessment team including: success operating in difficult areas; partnering
with Afghan National Army Special Operations Forces; use of Afghan District
Judges and Prosecutors; effectiveness of the COIN Advisory and Assistance
Team; and repeat rotations of U.S. Special Operations Forces Teams. DoD IG
reported the following planning and execution areas where work remains.
   Planning: Given the early successes of the Afghan Local Police (ALP)
program, the International Security Assistance Force (ISAF) had begun
to consider establishment of an enduring program, in place of the current
Afghan government planning perspective for a two- to five-year effort. ISAF,
some district leaders, and village elders believed that the ALP initiative
has been effective in expelling insurgents from the district/village levels
and preventing them from returning. In addition, from ISAF’s perspective,
the ALP program is relatively inexpensive, compared to funding additional




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012           157
OTHER AGENCY OVERSIGHT




full-time ANP over the long-term. However, GIRoA/MoI leaders were ambiv-
alent regarding the future of ALP beyond two to five years and this has led
to uncertainty within the Coalition, MoI, and the ANP as ISAF staff and
leadership consider the merits of either approach. No ISAF plan for mak-
ing ALP an enduring program had been presented yet to the MoI. A belated
decision by ISAF and/or Afghan government on the “enduring or not” issue
could diminish the current effectiveness of the program and result in ineffi-
ciency and wasted resources, or failure to provide for an enduring ALP role
and realize its security benefits.
   Execution: Communication and coordination between ISAF,
Combined Forced Special Operations Component Command-Afghanistan
(CFSOCC-A), and NATO Training Mission-Afghanistan (NTM-A) and
Combined Security Transition Command-Afghanistan (CSTC-A) regarding
implementation of the ALP program has not always been effective. This has
created confusion and disruption at the district and village ALP levels, most
notably in the areas of logistics and pay. It has also hampered visibility of
MoI payment records necessary to enable CFSOCC-A, the Executive Agent,
to manage the program and reconcile financial and personnel discrepancies
at the district level.


U.S. Department of State Office of Inspector General–Middle
East Regional Office
During this quarter, DoS OIG issued no reports related to Afghanistan
reconstruction.


Government Accountability Office
During this quarter, GAO issued five reports, including two classified
reports, related to Afghanistan reconstruction.

Iraq and Afghanistan: Agencies Are Taking Steps to Improve
Data on Contracting but Need to Standardize Reporting
(Report No. GAO-12-977R, Issued September 12, 2012)
Although the Synchronized Predeployment and Operational Tracker (SPOT)
was designated as the common database for the statutorily required infor-
mation on contracts, assistance instruments, and related personnel in Iraq
and Afghanistan, officials from Departments of Defense (DoD), State (DoS),
and U.S. Agency for International Development (USAID) generally relied on
other data sources they regarded as more reliable to prepare the 2011 joint
report. For example, only DoS relied directly on SPOT for contractor and
assistance personnel information, while none of the three agencies used
SPOT to identify the number of contractor and assistance personnel killed
or wounded in the two countries. The agencies used a variety of sources




 158                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
               OTHER AGENCY OVERSIGHT




to prepare the 2011 joint report and, in some cases, used different data
sources or changed their methodologies from what was used for the 2010
joint report. This was generally done in an effort to provide better informa-
tion or address limitations identified in their prior reports.
   While the agencies’ changes in sources and methodologies could result
in more reliable data, they limit the comparability of agency-specific infor-
mation to identify trends from the 2010 joint report to the 2011 joint report.
Additionally, the agencies did not use consistent methodologies to obtain
and present the data contained in the 2011 joint report, limiting compa-
rability of data across the agencies. For example, based on information
presented by each agency, it is not possible to obtain an accurate number
for the total value of new contracts awarded in Afghanistan because the
agencies used different measures for contract values and one agency did
not break out values by country. As a result of the differences from year to
year and among the agencies, information in the joint report should not be
used to draw conclusions across the three agencies about contracts, assis-
tance instruments, and associated personnel in Iraq or Afghanistan for fiscal
year 2011 or to identify trends over time.
   DoD and DoS have taken some steps to improve their contractor per-
sonnel data in SPOT and recent system changes may also help to improve
the system’s functionality. DoD and DoS officials explained that they are
continuing to verify that data in an effort to improve the reliability of per-
sonnel data, while USAID did not identify any effort to improve the data,
citing its limited use of the system. In addition, the SPOT program office
implemented changes to the system that may improve functionality as well
as address limitations previously identified. For example, contractor per-
sonnel job titles have been standardized to make it easier to identify related
jobs such as security functions. These changes were not in place in time to
facilitate the agencies’ efforts to prepare the 2011 joint report, but accord-
ing to agency officials, they may help with the preparation of future reports.
However, some DoS and USAID officials have questioned whether contin-
ued investments should be made in SPOT’s development, given that other
systems can provide them with information on contracts, assistance instru-
ments, and associated personnel that better meet their mission needs.
   DoD, DoS, and USAID generally do not use SPOT to help manage, over-
see, and coordinate contracting in Iraq and Afghanistan. The three agencies
have primarily used the system to generate authorizations for contractor
personnel to use U.S. government services. Officials from the three agencies
identified the use of systems and mechanisms other than SPOT to facilitate
contract management and coordination. For example, each agency has its
own systems to manage its contracts.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            159
OTHER AGENCY OVERSIGHT




Iraq and Afghanistan: State and DoD Should Ensure
Interagency Acquisitions are Effectively Managed and
Comply with Fiscal Law
(Report No. GAO-12-750, Issued August 2, 2012)
To help DoS meet its requirements for critical goods and services in Iraq
and Afghanistan, DoD supported DoS on 22 acquisitions. On DoS’s behalf,
DoD awarded and manages 20 acquisitions, known as assisted interagency
acquisitions, under the authority of the Economy Act with an estimated
value of almost $1 billion for basic support goods and services and security
services. DoD also supported two of DoS’s acquisitions for medical ser-
vices and unmanned aerial vehicles. Across the 22 acquisitions, DoD has
been involved in one or more aspects of the acquisition cycle, including
planning, award, management, and oversight. GAO identified at least 128
DoD personnel with contracting and subject matter expertise who pro-
vided support for these acquisitions.
   In justifying requests in 2010 for DoD’s acquisition assistance, DoS
officials cited the urgency of ensuring requirements were met as the two
departments prepared for U.S. military forces to withdraw from Iraq at the
end of 2011. Underlying that sense of urgency was the insufficient capacity
and expertise of State’s acquisition workforce. Specifically, DoS and DoD
concluded that DoS lacked sufficient personnel, both in numbers and exper-
tise, to conduct acquisition activities and that it did not have the requisite
time to increase its workforce to the capacity required to have contracts in
place following the transition to a DoS-led presence in Iraq. DoS has taken
some steps to address the acquisition workforce gaps that prompted it to
seek DoD’s help. However, DoS has not fully assessed whether its effort to
increase its workforce is sufficient to meet requirements; whether it has the
proper skill and government/contractor mix; or whether it has sufficient
numbers of qualified oversight personnel to support its own acquisition
efforts in Iraq and Afghanistan in the future.
   DoS and DoD did not comply with requirements for use and manage-
ment of assisted acquisitions. For 12 of the 20 assisted acquisitions GAO
reviewed, DoS did not comply with Office of Management and Budget and
Federal Acquisition Regulation requirements for determining that using
DoD contracts was the best procurement approach. For example, DoS did
not assess the cost-effectiveness of using DoD’s contracts for five of the
interagency acquisitions. Further, DoS and DoD did not meet requirements
for interagency acquisition agreements in 13 cases, resulting in confusion
regarding oversight responsibilities and payment for DoD’s assistance.
Accordingly, the departments’ positions regarding DoS’s payment of DoD’s
costs prior to 2012 in connection with the award and administration of
some acquisitions remain unresolved and the departments risk noncom-
pliance with fiscal law. Some lessons have been learned since DoS’s 2010
requests for DoD’s acquisition assistance in Iraq. However, poor compliance




 160                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




with interagency acquisition requirements and missed opportunities to
fully understand costs and needs for goods and services continue to limit
State’s ability to conduct acquisition planning. Over the next 18 months, as
key contracts for Iraq are set to expire and the U.S. presence in Afghanistan
evolves, the departments’ opportunity is shrinking to determine whether
continued reliance is appropriate or DoS should develop its own capacity.
Otherwise, DoS risks again relying on assisted acquisitions with DoD by
default rather than through sound business decisions.

Contingency Contracting: Agency Actions to Address
Recommendations by the Commission on Wartime
Contracting in Iraq and Afghanistan
(Report No. GAO-12-854R, Issued August 1, 2012)
In summary, DoD reported having taken or planned actions that directly
align with about half of the Commission on Wartime Contracting in Iraq and
Afghanistan (CWC) recommendations applicable to it, and DoS and USAID
each reported having taken or planned actions that directly align with about
one-third of the recommendations applicable to each of them. Officials from
the three agencies explained that for the remaining recommendations no
actions were taken or planned that directly aligned with the specific recom-
mendation. This was because, for example, the agencies had determined
that existing policies or practices already meet the intent of the recom-
mendations or had disagreed with the recommendations. The following are
examples of actions that DoD, DoS, and USAID have taken or planned that
directly align with specific CWC recommendations:
•	 DoD issued a final rule to amend the Defense Federal Acquisition
    Regulation Supplement (DFARS) in February 2012 to improve the
    oversight of contractor business systems, including the ability to
    withhold a percentage of payments on certain covered contracts when
    a contractor’s business systems contain significant deficiencies. This
    action aligns with the CWC’s recommendation to strengthen authority
    to withhold contract payments for inadequate business systems.
•	 DoS issued guidance in October 2011 describing a process for drafting a
    determination memorandum each time the potential need to suspend or
    debar a contractor arises, including for those cases in which no action
    against the contractor is ultimately recommended. This guidance aligns
    with a CWC recommendation to strengthen enforcement tools by requiring
    a written rationale for not pursuing a proposed suspension and debarment.
•	 USAID issued guidance in January 2012 that requires sustainability
    analysis for all projects and developed a tool that contains questions,
    issues, and examples to help USAID project design teams think through
    project sustainability objectives and maximize sustainable outcomes.
    This guidance aligns with a CWC recommendation related to project




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012           161
OTHER AGENCY OVERSIGHT




   sustainability (i.e., ensuring that host nations will be able to operate and
   maintain U.S.-funded projects on their own).

    The following are examples of instances in which DoD, DoS, and USAID
reported not having taken or planned actions that directly align with spe-
cific CWC recommendations:
•	 The three agencies generally have not and do not plan to elevate
    the positions and expand the authority of officials responsible for
    contingency contracting as recommended by the CWC. Officials
    from DoD, State, and USAID explained that they regard existing
    organizational structures as meeting the recommendations’ intent. For
    example, DoD officials stated that the CWC’s recommendation to create
    a new directorate for contingency contracting is not needed because
    DoD already has a significant amount of senior leadership involvement
    and support for operational contract support. Similarly, DoS officials
    stated that there were no plans to establish a separate bureau led by
    an Assistant Secretary for Acquisition as recommended by the CWC
    because their current organizational structure, in which contingency
    contracting is overseen by the Assistant Secretary for Administration
    in coordination with the Under Secretary for Management, is sufficient
    to meet the department’s needs. USAID officials stated that there were
    no plans to make the chief acquisition officer position a non-career
    appointment as recommended because they believe that having a career
    foreign service officer in that role provides the necessary knowledge of
    the agency’s unique mission and acquisition needs.
•	 None of the three agencies agrees with the recommendation requiring
    performance incentives and performance assessments as tools for
    preventing human trafficking by contractors. Officials from each agency
    explained that contractors should not need incentives to comply with
    anti-trafficking laws and that other ongoing initiatives, such as training
    for contract administration personnel, were better tools to help combat
    human trafficking.


U.S. Army Audit Agency
The USAAA did not complete any audits related to Afghanistan reconstruc-
tion this quarter.


U.S. Agency for International Development
Office of Inspector General
During this quarter, USAID OIG issued one report related to Afghanistan
reconstruction.




 162                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




Review of USAID/Afghanistan’s Monitoring
and Evaluation System
(Report No. F-306-12-002-S, Issued September 26, 2012)
USAID OIG conducted this audit to determine whether USAID/Afghanistan
has a monitoring and evaluation system to manage program activities effec-
tively. The final report includes the following issues:
•	 Mission did not issue guidance on monitoring. The mission does
    not have a current mission order addressing monitoring generally
    or its on-site monitoring program in particular. Further, no mission
    order details the roles and responsibilities of mission staff members
    in monitoring on-budget assistance, which is delivered through
    Afghanistan’s own budgetary, spending, and accounting systems to
    help the government meet fiscal targets required by the International
    Monetary Fund and improve budget planning and cash-flow
    management.
•	 Technical officers needed assistance with performance management
    plans (PMP). USAID/Afghanistan requires that its implementing
    partners develop project-level PMPs that USAID/Afghanistan’s
    agreement/contracting officer’s representatives(A/CORs) should
    approve. However, some AORs were not aware of guidance that could
    assist them in reviewing, and implementing partners in developing,
    project-level PMPs.
•	 Technical officers did not complete refresher training. AORs and CORs
    are required by USAID to maintain their designation through mandatory
    refresher training. Yet, while most AORs and CORs were aware of the
    refresher training requirement, some had not completed such training.
•	 Some implementing partners did not record performance in USAID/
    Afghanistan’s program database system. Without contributions from all
    partners, data maintained and reported by the mission is incomplete.
•	 Mission officials did not consistently validate data reported to them.
    While determining the accuracy of reported information is important,
    some A/CORs stated that they did not consistently validate data
    reported by implementing partners.
The report included 10 recommendations to address these issues.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012        163
                                                               OTHER AGENCY OVERSIGHT




                                                               ONGOING OVERSIGHT ACTIVITIES
                                                               As of September 30, 2012, the participating agencies reported 28 ongo-
                                                               ing oversight activities related to reconstruction in Afghanistan. The
                                                               activities reported are listed in Table 4.2 and described in the following
                                                               sections by agency.

TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF SEPTEMBER 30, 2012
 Agency               Project Number                    Date Initiated      Project Title
                                                                            Contract Management and Oversight of Military Construction Projects for the Special Operation
 DoD OIG              D2012-D000JA-0221.000             9/29/2012
                                                                            Forces Complexes at Bagram Airfield, Afghanistan
 DoD OIG              D2012-D00SPO-0202.000             8/10/2012           Assessment on Equipping the Afghanistan National Security Forces
 DoD OIG              D2012-D000AT-0170.000             5/11/2012           Availability of Spare Parts for the C-27A/G222
                                                                            Oversight of U.S. Military and Coalition Efforts to Improve Healthcare Conditions and to Develop
 DoD OIG              D2012-D00SPO-0163.000             4/25/2012
                                                                            Sustainable ANSF Medical Logistics at the Dawood National Military Hospital
                                                                            Oversight Processes and Procedures for the Afghan National Police Mentoring/Training and
 DoD OIG              D2012-D000AS-0137.000             3/9/2012
                                                                            Logistics Support Contract
 DoD OIG              D2012-D000AT-0129.000             3/8/2012            Datron Radio Contracts To Support the Afghan National Security Forces
                                                                            Air Force Center for Engineering and the Environment’s Contract Management and Oversight of
 DoD OIG              D2012-D000JB-0126.000             3/8/2012
                                                                            Military Construction Projects in Afghanistan
 DoD OIG              D2012-D00SPO-0090.000             2/28/2012           U.S. and Coalition Efforts To Develop Leaders in the Afghan National Army
                                                                            Technical Assessment of Military Construction Compliance with Fire Suppression Standards at
 DoD OIG              D2012-DT0TAD-0002.000             2/14/2012
                                                                            Select Facilities in Afghanistan
                                                                            Technical Assessment of Military Construction Compliance with Electrical Standards at Select
 DoD OIG              D2012-DT0TAD-0001.000             2/14/2012
                                                                            Facilities in Afghanistan
 DoD OIG              D2012-D000JB-0093.000             1/11/2012           Building Institutional Capacity Through the Ministry of Defense Advisors Program
 DoD OIG              D2012-D00SPO-0085.000             1/6/2012            U.S. Efforts to Develop the Afghan National Security Forces Command and Control System
 DoD OIG              D2012-D000JB-0071.000             12/16/2011          Contract Management and Oversight of Military Construction Projects in Afghanistan
 DoD OIG              D2012-D000AS-0075.000             12/7/2011           Task Orders for Mi-17 Overhauls and Cockpit Modifications
 DoD OIG              D2012-D000AS-0031.000             11/17/2011          Afghanistan Rotary Wing Transport Contracts for the U.S. Transportation Command
                                                                            Audit of the Bureau of International Narcotics and Law Enforcement Affairs’ Correction System
 DoS OIG-MERO         12AUD30                           12/2011
                                                                            Support Program in Afghanistan
 DoS OIG-MERO         11MERO1875                        06/2011             Evaluation of the Emergency Action Plan–Embassy Kabul
 GAO                  351772                            9/20/2012           DoD’s Approach to Identifying Post Combat Role of U.S. Forces in Afghanistan
 GAO                  320924                            7/5/2012            Key Afghan Issues
 GAO                  351747                            6/11/2012           DoD’s Transition to the Afghan Public Protection Force
 GAO                  351742                            5/11/2012           Security Force Assistance Roles for DoD Forces
 GAO                  351743                            5/11/2012           Advisory Teams in Afghanistan
 GAO                  320889                            2/2/2012            Streamlining Aid to Afghanistan
 GAO                  351688                            11/19/2011          DoD’s Preparations for Drawdown of Forces in Afghanistan
 USAID OIG            FF100612                          10/9/2012           Review of USAID/Afghanistan’s Management Controls over Premium Pay
 USAID OIG            FF100312                          5/1/2012            Audit of USAID/Afghanistan’s Performance Based Governors’ Fund
 USAID OIG            FF101112                          5/1/2012            Audit of USAID/Afghanistan’s Kandahar Power Initiative
                                                                            Review of USAID/Afghanistan’s Use of the Commander’s Emergency Response Program Funds for
 USAID OIG            FF101712                          10/25/2011
                                                                            Selected Projects
Sources: DoD OIG, response to SIGAR data call, 9/26/2012; DoS OIG, response to SIGAR data call, 9/21/2012; GAO, response to SIGAR data call, 9/20/2012; USAAA, response to SIGAR data
call, 9/17.2012; USAID OIG, response to SIGAR data call, 9/21/2012.




                                                                  164                           SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
               OTHER AGENCY OVERSIGHT




Department of Defense Office of Inspector General
The Department of Defense continues to face many challenges in executing
its Overseas Contingency Operations (OCO). The DoD IG has identified pri-
orities based on those challenges and high-risks. For FY 2013, DoD OIG will
continue to focus oversight on overseas contingency operations with a major-
ity of resources supporting operations in Afghanistan. The DoD OIG focus in
Afghanistan continues in the areas of the management and execution of the
Afghanistan Security Forces Fund, military construction, safety of personnel,
and the administration and oversight of contracts supporting coalition forces.
In addition, DoD OIG oversight in Afghanistan will also address matters per-
taining to the drawdown of forces in Afghanistan and shifting of operations.
    As billions of dollars continue to be spent in Afghanistan, a top priority
will continue to be the monitoring and oversight of acquisition and contract-
ing processes focused on training, equipping, and sustaining Afghanistan
Security Forces (ASF). The DoD OIG planned oversight efforts address the
administration and oversight of contracts for equipping ASF, such as rotary-
wing aircraft, airplanes, ammunition, radios, and night vision devices. The
DoD OIG will also continue to review and assess the Department’s efforts in
managing and executing contracts to train the Afghan National Police.
    As military construction continues in Afghanistan to build or renovate
new living areas, dining and recreation facilities, medical clinics, base
expansions, and police stations, DoD OIG will continue to provide aggres-
sive oversight of contract administration and military construction projects.
DoD OIG will also continue to focus on the accountability of property, such
as contractor-managed government-owned property and Army high-demand
items; the Department’s efforts to strengthen institutional capacity at the
Afghan Ministry of Defense; and financial management controls.
    The DoD OIG led Southwest Asia Joint Planning Group coordinates and
deconflicts Federal and DoD OCO related oversight activities. The DoD OIG
continues to work with the SIGAR as well as fellow Inspectors General and
Defense oversight community members to develop a FY 2013 strategic audit
plan for the entire IG community working in Afghanistan. This SIGAR-led
effort provides the Congress and key stakeholders with more effective over-
sight of reconstruction programs.


Office of the Deputy Inspector General for Auditing
Ongoing Operation Enduring Freedom-related oversight addresses the
safety of personnel with regard to construction efforts; force protection
programs for U.S. personnel; accountability of property; improper pay-
ments; contract administration and management including construction and
on construction projects; oversight of the contract for training the Afghan
police; logistical distribution within Afghanistan; health care; and acquisi-
tion planning and controls over funding for Afghan security forces.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012            165
OTHER AGENCY OVERSIGHT




Contract Management and Oversight of Military
Construction Projects for the Special Operation Forces
Complexes at Bagram Airfield, Afghanistan
(Project No. D2012-D000JA-0221.000, Initiated September 29, 2012)
The DoD OIG is determining whether DoD is providing effective oversight
of military construction projects in Afghanistan. Specifically, the OIG will
determine whether the U.S. Army Corps of Engineers is properly monitor-
ing contractor performance and adequately performing quality assurance
oversight responsibilities for construction projects for Special Operations
Forces at Bagram Airfield.

Assessment on Equipping the Afghanistan
National Security Forces
(Project No. D2012-D00SPO-0202.000, Initiated August 10, 2012)
The DoD OIG is determining whether equipment and ammunition for the
ANSF, using funding provided by the Afghan Security Forces Fund, have
been procured in excess of currently stated requirements. In addition,
the OIG will also determine whether NATO Training Mission-Afghanistan/
Combined Security Transition Command Afghanistan has developed a
plan for ANSF utilization of currently identified excess ANSF equipment/
supplies, if any. Also, the OIG will determine whether DoD has prepared a
proposal to amend the ASFF legislation to provide Congressional authority,
should it be needed, for the disposition or reutilization of identified excess
equipment and ammunition, if any. Further, the OIG plans to determine
whether DoD has prepared plans for the disposition or reutilization, outside
of the ANSF, of identified excess equipment and ammunition procured with
funding provided by the ASFF, if any.

Availability of Spare Parts for the C-27A/G222
(Project No. D2012-D000AT-0170.000, Initiated May 11, 2012)
DoD OIG is determining whether the cost and availability of spare parts for
the C-27A/G222 will allow for continued sustainability of the aircraft for the
Afghan Air Force.

Oversight of U.S. Military and Coalition Efforts to Improve
Healthcare Conditions and to Develop Sustainable ANSF
Medical Logistics at the Dawood National Military Hospital
(Project No. D2012-D00SPO-0163.000, Initiated April 25, 2012)
The DoD OIG is periodically reviewing the status of U.S. and Coalition
efforts to improve the healthcare management and treatment of patients,
and the related sanitation conditions and medical logistics processes, at
the Dawood National Military Hospital (NMH), Kabul, Afghanistan. This
effort responds specifically to the intent of the Inspector General, DoD to
“Conduct a periodic walk-through at NMH and continue oversight of the




  166                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




development of a sustainable ANSF medical logistics and healthcare capa-
bility.” That message was communicated in a DoD OIG memorandum to the
Commander, Combined Security Transition Command-Afghanistan, dated
December 2, 2011.

Oversight Processes and Procedures for the Afghan National
Police Mentoring/Training and Logistics Support Contract
(Project No. D2012-D000AS-0137.000, Initiated March 9, 2012)
DoD OIG is conducting the second in a series of audits on the ANP
Mentoring/Training and Logistics support contract. The overall objective
for the series of audits is to determine whether DoD officials are using
appropriate contracting processes to satisfy mission requirements and are
conducting appropriate oversight of the contract in accordance with federal
and DoD policies.
   For this audit DoD OIG will determine whether the Army, NTM-A/
CSTC-A, and DCMA had adequate oversight processes and procedures
for the contract. Additionally, DoD OIG will determine whether the Army,
NTM-A/CSTC-A, and DCMA conducted adequate contractor surveillance.
The first audit in this series is “Afghan National Police Mentoring/Training
and Logistics Support Contract,” report number DODIG-2012-094, issued
May 30, 2012.

Datron Radio Contracts To Support the
Afghan National Security Forces
(Project No. D2012-D000AT-0129.000, Initiated March 8, 2012)
DoD OIG is determining whether the U.S. Army Communications-
Electronics Command implemented effective policies and procedures for
awarding Datron radio contracts, negotiating fair and reasonable prices,
verifying timely deliveries, and establishing quality assurance measures in
accordance with applicable requirements

Air Force Center for Engineering and the Environment’s
Contract Management and Oversight of Military
Construction Projects in Afghanistan
(Project No. D2012-D000JB-0126.000, Initiated March 8, 2012)
DoD OIG is determining whether Air Force Center for Engineering and
the Environment officials are providing effective oversight of construction
projects in Afghanistan. This is the second in a series of audits on contract
management and oversight of military construction projects in Afghanistan.
The first project, D2012-D000JB-0071.000, focuses on U.S. Army Corps of
Engineers contract management and oversight of military construction proj-
ects in Afghanistan.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012           167
OTHER AGENCY OVERSIGHT




U.S. and Coalition Efforts To Develop Leaders
in the Afghan National Army
(Project No. D2012-D00SPO-0090.000, Initiated February 28, 2012)
DoD OIG is assessing the sufficiency and effectiveness of the coalition’s
leader programs for developing ANA officers and non-commissioned officers.

Technical Assessment of Military Construction Compliance with
Fire Suppression Standards at Select Facilities in Afghanistan
(Project No. D2012-DT0TAD-0002.000, Initiated February 14, 2012)
DoD OIG is determining whether fire-suppression systems built by mili-
tary construction in selected U.S.-occupied facilities in Afghanistan are in
compliance with the U.S. Central Command Unified Facilities Criteria and
National Fire Protection Association standards. DoD OIG will assess U.S.-
occupied facilities at Kandahar Airfield, Bagram Airfield, Camp Eggers, and
other locations as necessary. The assessment will also report the status of
DoD OIG recommended corrective actions from previous fire-suppression
system assessments.

Technical Assessment of Military Construction Compliance
with Electrical Standards at Select Facilities in Afghanistan
(Project No. D2012-DT0TAD-0001.000, Initiated February 14, 2012)
DoD OIG is determining whether electrical systems built by military
construction in selected U.S.-occupied facilities in Afghanistan are in com-
pliance with United States Central Command Unified Facilities Criteria and
National Electrical Code standards. DoD OIG will assess U.S.-occupied facil-
ities at Kandahar Airfield, Bagram Airfield, Camp Eggers, and other locations
as necessary. DoD OIG will also assess the status of DoD OIG–recommended
corrective actions from previous electrical system assessments.

Building Institutional Capacity Through the
Ministry of Defense Advisors Program
(Project No. D2012-D000JB-0093.000, Initiated January 11, 2012)
DoD OIG is determining whether the Ministry of Defense Advisors Program
is achieving its intended purpose. Specifically, DoD OIG will determine
whether the program’s goals, objectives, and resources are being managed
effectively and efficiently to achieve its intended results.

U.S. Efforts To Develop the Afghan National
Security Forces Command and Control System
(Project No. D2012-D00SPO-0085.000, Initiated January 6, 2012)
DoD OIG is determining whether DoD will complete development of
the ANSF Command and Control System by established end-state dates.
Specifically, DoD OIG will assess whether U.S. government and coalition
strategy, guidance, plans, and resources are adequate for the development




  168                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




and operational implementation of an effective ANSF Command and
Control System.

Contract Management and Oversight of
Military Construction Projects in Afghanistan
(Project No. D2012-D000JB-0071.000, Initiated December 16, 2011)
DoD OIG is determining whether DoD is providing effective oversight of
military construction projects in Afghanistan. Specifically, DoD OIG will
determine whether DoD is properly monitoring contractor performance
during construction and adequately performing quality-assurance over-
sight responsibilities.
   To provide command timely and focused reports, this project has been
separated into two projects. The original project will focus on USACE
contract management and oversight of military construction projects in
Afghanistan. The second project, D2012-D000JB-0126.000, focuses on Air
Force Center of Environmental Excellence contract management and over-
sight of military construction projects in Afghanistan.

Task Orders for Mi-17 Overhauls and Cockpit Modifications
(Project No. D2012-D000AS-0075.000, Initiated December 7, 2011)
DoD OIG is determining whether DoD officials properly awarded and
administered task orders for the overhaul and modification of Mi-17
aircraft in accordance with federal and DoD regulations and policies.
Contracting officers issued the task orders under IDIQ contract number
W58RGZ-09-D-0130.

Afghanistan Rotary Wing Transport Contracts for
the U.S. Transportation Command
(Project No. D2012-D000AS-0031.000, Initiated November 17, 2011)
DoD OIG plans to conduct a series of audits relating to Afghanistan
rotary-wing transportation contracts to determine whether Transportation
Command officials are properly managing and administering the contracts
in accordance with Federal Acquisition Regulation and DoD guidance while
contracting for services performed in a contingency environment. For this
first audit in the planned series, DoD OIG will determine whether contract-
ing officials have adequate controls over the transportation of supplies,
mail, and passengers in Afghanistan.


Department of State Office of Inspector General–Middle
East Regional Office
DoS OIG did not initiate any new projects this quarter related to
Afghanistan reconstruction.




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012         169
OTHER AGENCY OVERSIGHT




Audit of the Bureau of International Narcotics and
Law Enforcement Affairs’ Correction System
Support Program in Afghanistan
(Project No. 12AUD30, Initiated December 2011)
The audit objective is to evaluate the effectiveness of the INL Correction
System Support Program (CSSP) in building a safe, secure, and humane
prison system that meets international standards and Afghan cultural
requirements. Specifically, OIG will evaluate whether INL is achieving
intended and sustainable results through the following CSSP components:
training and mentoring; capacity building; Counter-Narcotics Justice
Center and Judicial Security Unit compound operations and mainte-
nance; Pol-i-Charkhi management and stabilization team; Central Prison
Directorate engagement and reintegration team; and Kandahar expansion
and support team.

Evaluation of the Emergency Action Plan–Embassy Kabul
(Project No. 11MERO1875, Initiated June 2011)
The audit objective is to evaluate and assess the status and effectiveness
of the Emergency Action Plan for Embassy Kabul to determine the reason-
ableness and their level of coordination and cooperation with the military
commanders in-country.


Government Accountability Office
DoD’s Approach to Identifying Post Combat Role
of U.S. Forces in Afghanistan
(Project No. 351772, Initiated September 20, 2012)
GAO will review the nature and extent of planning underway by DoD for
the role of the U.S. military and the Department in Afghanistan post 2014,
including progress in: (1) developing a framework for making key decisions
such as assigning organizational responsibilities and structures within DoD;
(2) establishing a planning approach to include identifying: (a) key assump-
tions about the environment in Afghanistan and role of the Department, the
U.S. military, and contractors; (b) how the Department will collaborate with
other agencies; and (c) issues to be resolved such as the level of support
DoD will provide to other agencies and the disposition of U.S. equipment
and assets; (3) identifying key decision points and related milestones for
taking actions to implement decisions; and (4) identifying potential risks
and mitigation strategies.




  170                  SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




Key Afghan Issues
(Project No. 320924, Initiated July 5, 2012)
GAO has issued several recent reports addressing the billions of dollars
allocated toward U.S. efforts in Afghanistan. GAO will update and identify
key issues the 113th Congress may wish to consider including: transition
of security lead to Afghan National Security Forces; the drawdown of U.S.
forces; reliance on donor support, oversight of U.S. contracts; preparation
for a permanent diplomatic presence in Afghanistan. For each, GAO will:
(1) describe the issue; (2) highlight past work; and (3) identify key ques-
tions for oversight.

DoD’s Transition to the Afghan Public Protection Force
(Project No. 351747, Initiated June 11, 2012)
The Afghan Public Protection Force (APPF) began assuming security
responsibilities in March 2012. Key questions: (1) To what extent has DoD
developed cost estimates related to the transition to the APPF and what
actions are being taken to minimize costs? (2) To what extent has DoD iden-
tified and implemented oversight and management mechanisms to ensure
that the APPF and risk management companies are providing services
as agreed upon? (3) What impact(s) has the transition of convoy security
from private security contractors to the APPF had on DoD operations in
Afghanistan, and what actions, if any, has DoD taken to mitigate any nega-
tive impacts? (4) To what extent has DoD planned for the transition of static
security from private security contractors to the APPF, including the degree
to which DoD has developed base-security contingency plans?

Security Force Assistance Roles for DoD Forces
(Project No. 351742, Initiated May 11, 2012)
DoD plans to rely on special-operations forces to conduct security-force
assistance activities, while continuing to institutionalize these capabilities
within the general-purpose force. Objectives are to determine the extent
to which DoD has (1) delineated the roles and responsibilities of general-
purpose and special-operations forces; (2) distinguished between the types
of situations or environments where the respective types of forces would be
used to conduct security-force assistance activities; and (3) identified, syn-
chronized, and prioritized the respective requirements and resource needs
for building the capabilities of both types of forces.

Advisory Teams in Afghanistan
(Project No. 351743, Initiated May 11, 2012)
Regarding the use of security-force assistance advisory teams in
Afghanistan, GAO is to determine the extent to which (1) DoD has defined
intended roles, missions, and command relationships for the advisory teams;
(2) the Marine Corps and Army have defined personnel, equipment, and




REPORT TO THE UNITED STATES CONGRESS      I    OCTOBER 30, 2012        171
OTHER AGENCY OVERSIGHT




training requirements; (3) DoD plans to adjust its current use of augmented
brigade/regimental combat teams for advisory missions; and (4) the Marine
Corps and Army have been able to fill personnel and equipment require-
ments for the advisory teams, including any impacts on reported readiness.

Streamlining Aid to Afghanistan
(Project No. 320889, Initiated February 2, 2012)
Key questions: (1) To what extent do the development projects administered
by U.S. agencies in Afghanistan address similar objectives? (2) What mecha-
nisms do U.S. agencies use to coordinate planning and implementation of
these projects? (3) To what extent is there duplication in these projects?

DoD’s Preparations for Drawdown of Forces in Afghanistan
(Project No. 351688, Initiated November 19, 2011)
Key questions: To what extent is DoD (1) prepared to execute drawdown of
forces and materiel in Afghanistan and (2) implement lessons learned from
Iraq as it prepares for the Afghanistan drawdown?


U.S. Army Audit Agency
This quarter, the USAAA has no ongoing audits related to reconstruction
initiatives.


U.S. Agency for International Development Office
of Inspector General
Review of USAID/Afghanistan’s Management
Controls over Premium Pay
(Project No. FF100612, Initiated October 9, 2012)
Objective: To determine whether USAID/Afghanistan has sufficient
internal controls in place to properly approve time charges and pay
employees on time.

Audit of USAID/Afghanistan’s Performance-Based
Governors’ Fund
(Project No. FF100312, Initiated May 1, 2012)
Objective: Did the design and implementation of the Performance-Based
Governors’ Fund provide for capacity improvements so that governors and
their teams are better able to (1) meet operational and community outreach
needs, (2) enhance relationships with citizens, and (3) improve overall man-
agement capacity?




  172                  SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




Audit of USAID/Afghanistan’s Kandahar Power Initiative
(Project No. FF101112, Initiated May 1, 2012)
Objective: Is the Kandahar Power Initiative meeting its main goals to
increase the supply and distribution of electrical power from Afghanistan’s
South East Power System, with particular emphasis given to the city of
Kandahar, in support of the U.S. government’s counterinsurgency strategy?

Review of USAID/Afghanistan’s Use of the Commander’s
Emergency Response Program Funds for Selected Projects
(Project No. FF101712, Initiated October 25, 2011)
Objective: To determine whether the Commander’s Emergency Response
Program (CERP) funds distributed by U.S. Forces-Afghanistan to USAID for
specific projects were used for their intended purposes, were in compliance
with applicable laws and regulations, and whether the costs charged to
CERP-funded projects were reasonable, allowable, and allocable.


DoD OIG’s Defense Criminal Investigative Service
The Defense Criminal Investigative Service (DCIS) continues to con-
duct significant fraud and corruption investigations in Afghanistan and
Southwest Asia. Currently, there are six DCIS agents assigned to the
International Contract Corruption Task Force in three locations: Kabul,
Bagram, and Kandahar airfields. The DCIS continues to assign one special
agent to Task Force 2010. The DCIS and SIGAR are in partnership with
seven other agencies to conduct major fraud and corruption investigations
that affect DoD and Afghanistan reconstruction programs. In addition to
these forward-deployed special agents, 112 DCIS agents based in the United
States and Europe are currently conducting investigations related to fraud
and corruption in Southwest Asia.
   As of September 30, 2012, DCIS has 121 open OCO investigations involv-
ing Afghanistan. Of these open investigations, 29 are joint with SIGAR.
   As of September 30, 2012, DCIS has closed 134 OCO investigations
involving Afghanistan.




REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2012         173
                               CONTENTS

                               Appendix A 	                                                   176
                               Appendix B 	                                                   182
                               Appendix C	                                                    184
                               Appendix D	                                                    187
                               Appendix E	                                                    190




                                                                          The Official Seal of SIGAR
                                  The Official Seal of SIGAR represents the coordination of efforts
between the United States and Afghanistan to provide accountability and oversight of reconstruc-
 tion activities. The phrase along the top side of the seal’s center is in Dari and means “SIGAR.”
  The phrase along the bottom side of the seal’s center is in Pashtu and has the same meaning.




                                   174                 SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
APPENDICES
AND ENDNOTES




       175
                                   APPENDICES




                                   APPENDIX A
                                   CROSS-REFERENCE OF REPORT TO
                                   STATUTORY REQUIREMENTS
                                   This appendix cross-references the pages of this report to the quarterly
                                   reporting and related requirements under SIGAR’s enabling legislation, the
                                   National Defense Authorization Act for Fiscal Year 2008, P.L. No. 110-181,
                                   § 1229 (Table A.1), and to the semiannual reporting requirements prescribed
                                   for inspectors general more generally under the Inspector General Act of
                                   1978, as amended (5 U.S.C. App. 3) (Table A.2).

TABLE A.1


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                SIGAR Action                       Report Section
Purpose
Section 1229(a)(3)      To provide for an independent and objective means of keeping           Ongoing; quarterly report          Full report
                        the Secretary of State and the Secretary of Defense fully and
                        currently informed about problems and deficiencies relating to the
                        administration of such programs and operations and the necessity
                        for and progress on corrective action.
Supervision
Section 1229(e)(1)      The Inspector General shall report directly                            Report to the Secretary of State   Full report
                        to, and be under the general supervision                               and the Secretary of Defense
                        of, the Secretary of State and the Secretary of Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN RECONSTRUCTION —                              Review appropriated/               Full report
                        It shall be the duty of the Inspector General to conduct, supervise,   available funds
                        and coordinate audits and investigations of the treatment,
                        handling, and expenditure of amounts appropriated or otherwise         Review programs, operations,
                        made available for the reconstruction of Afghanistan, and of the       contracts using appropriated/
                        programs, operations, and contracts carried out utilizing such         available funds
                        funds, including subsections (A) through (G) below.
Section 1229(f)(1)(A)   The oversight and accounting of the obligation and expenditure of      Review obligations and             SIGAR Oversight
                        such funds                                                             expenditures of appropriated/      Funding
                                                                                               available funds
Section 1229(f)(1)(B)   The monitoring and review of reconstruction activities funded by       Review reconstruction activities   SIGAR Oversight
                        such funds                                                             funded by appropriations and
                                                                                               donations
Section 1229(f)(1)(C)   The monitoring and review of contracts funded by such funds            Review contracts using             Note 1
                                                                                               appropriated and available
                                                                                               funds
Section 1229(f)(1)(D)   The monitoring and review of the transfer of such funds and            Review internal and external       Appendix B
                        associated information between and among departments,                  transfers of appropriated/
                        agencies, and entities of the United States, and private and           available funds
                        nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of such funds to facilitate      Maintain audit records             SIGAR Oversight
                        future audits and investigations of the use of such fund[s]                                               Appendix C
                                                                                                                                  Appendix D




                                      176                          SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                    APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section              SIGAR Enabling Language                                                 SIGAR Action                       Report Section
Section 1229(f)(1)(F)           The monitoring and review of the effectiveness of United States         Monitoring and review              Audits
                                coordination with the Governments of Afghanistan and other donor        as described
                                countries in the implementation of the Afghanistan Compact and
                                the Afghanistan National Development Strategy
Section 1229(f)(1)(G)           The investigation of overpayments such as duplicate payments            Conduct and reporting of           Investigations
                                or duplicate billing and any potential unethical or illegal actions     investigations as described
                                of Federal employees, contractors, or affiliated entities, and the
                                referral of such reports, as necessary, to the Department of Justice
                                to ensure further investigations, prosecutions, recovery of further
                                funds, or other remedies.
Section 1229(f)(2)              OTHER DUTIES RELATED TO OVERSIGHT —                                     Establish, maintain, and           Full report
                                The Inspector General shall establish, maintain, and oversee            oversee systems, procedures,
                                such systems, procedures, and controls as the Inspector General         and controls
                                considers appropriate to discharge the duties under paragraph (1)
Section 1229(f)(3)              DUTIES AND RESPONSIBILITIES UNDER INSPECTOR GENERAL ACT                 Duties as specified in Inspector   Full report
                                OF 1978 —                                                               General Act
                                In addition,. . .the Inspector General shall also have the duties and
                                responsibilities of inspectors general under the Inspector General
                                Act of 1978
Section 1229(f)(4)              COORDINATION OF EFFORTS —                                               Coordination with the              Other Agency
                                The Inspector General shall coordinate with, and receive the            inspectors general of              Oversight
                                cooperation of, each of the following: (A) the Inspector General        DoD, DoS, and USAID
                                of the Department of Defense, (B) the Inspector General of the
                                Department of State, and (C) the Inspector General of the United
                                States Agency for International Development
Federal Support and Other Resources
Section 1229(h)(5)(A)           ASSISTANCE FROM FEDERAL AGENCIES —                                      Expect support as                  Full report
                                Upon request of the Inspector General for information or                requested
                                assistance from any department, agency, or other entity of the
                                Federal Government, the head of such entity shall, insofar as is
                                practicable and not in contravention of any existing law, furnish
                                such information or assistance to the Inspector General, or an
                                authorized designee
Section 1229(h)(5)(B)           REPORTING OF REFUSED ASSISTANCE —                                       None reported                      N/A
                                Whenever information or assistance requested by the Inspector
                                General is, in the judgment of the Inspector General, unreasonably
                                refused or not provided, the Inspector General shall report the
                                circumstances to the Secretary of State or the Secretary of
                                Defense, as appropriate, and to the appropriate congressional
                                committees without delay.
Reports




REPORT TO THE UNITED STATES CONGRESS              I   OCTOBER 30, 2012                                 177
                                    APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                  SIGAR Action                     Report Section
Section 1229(i)(1)      QUARTERLY REPORTS —                                                      Report – 30 days after the       Full report
                        Not later than 30 days after the end of each fiscal-year quarter,        end of each calendar quarter     Appendix B
                        the Inspector General shall submit to the appropriate commit-
                        tees of Congress a report summarizing, for the period of that            Summarize activities of the
                        quarter and, to the extent possible, the period from the end of          Inspector General
                        such quarter to the time of the submission of the report, the
                        activities during such period of the Inspector General and the           Detailed statement of all
                        activities under programs and operations funded with amounts             obligations, expenditures, and
                        appropriated or otherwise made available for the reconstruction of       revenues
                        Afghanistan. Each report shall include, for the period covered by
                        such report, a detailed statement of all obligations, expenditures,
                        and revenues associated with reconstruction and rehabilitation
                        activities in Afghanistan, including the following –
Section 1229(i)(1)(A)   Obligations and expenditures of appropriated/donated funds               Obligations and expenditures     Appendix B
                                                                                                 of appropriated/donated
                                                                                                 funds
Section 1229(i)(1)(B)   A project-by-project and program-by-program accounting of the            Project-by-project and           Funding
                        costs incurred to date for the reconstruction of Afghanistan,            program-by-program account-      Note 1
                        together with the estimate of the Department of Defense,                 ing of costs. List unexpended
                        the Department of State, and the United States Agency for                funds for each project or
                        International Development, as applicable, of the costs to com-           program
                        plete each project and each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting of funds provided by              Revenues, obligations, and       Funding
                        foreign nations or international organizations to programs and           expenditures of donor funds
                        projects funded by any department or agency of the United States
                        Government, and any obligations or expenditures of
                        such revenues
Section 1229(i)(1)(D)   Revenues attributable to or consisting of foreign assets seized or       Revenues, obligations, and       Funding
                        frozen that contribute to programs and projects funded by any            expenditures of funds from
                        U.S. government department or agency, and any obligations or             seized or frozen assets
                        expenditures of such revenues
Section 1229(i)(1)(E)   Operating expenses of agencies or entities receiving amounts             Operating expenses of            Funding
                        appropriated or otherwise made available for the reconstruction          agencies or any organization     Appendix B
                        of Afghanistan                                                           receiving appropriated funds
Section 1229(i)(1)(F)   In the case of any contract, grant, agreement, or other funding          Describe contract details        Note 1
                        mechanism described in paragraph (2)* —
                        (i) The amount of the contract or other funding mechanism;
                        (ii) A brief discussion of the scope of the contract or other funding
                        mechanism;
                        (iii) A discussion of how the department or agency of the United
                        States Government involved in the contract, grant, agreement,
                        or other funding mechanism identified and solicited offers from
                        potential contractors to perform the contract, grant, agreement, or
                        other funding mechanism, together with a list of the potential indi-
                        viduals or entities that were issued solicitations for the offers; and
                        (iv) The justification and approval documents on which was based
                        the determination to use procedures other than procedures that
                        provide for full and open competition




                                       178                          SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                                  APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. NO. 110-181, § 1229
Public Law Section                       SIGAR Enabling Language                                                    SIGAR Action                          Report Section
Section 1229(i)(3)                       PUBLIC AVAILABILITY —                                                      Publish report as directed at         Full report
                                         The Inspector General shall publish on a publically-available              www.sigar.mil
                                         Internet website each report under paragraph (1) of this subsec-
                                                                                                                    Dari and Pashtu translation
                                         tion in English and other languages that the Inspector General
                                                                                                                    in process
                                         determines are widely used and understood in Afghanistan
Section 1229(i)(4)                       FORM —                                                                     Publish report as directed            Full report
                                         Each report required under this subsection shall be submitted
                                         in unclassified form, but may include a classified annex if the
                                         Inspector General considers it necessary
Section 1229(j)(1)                       Inspector General shall also submit each report required under             Submit quarterly report               Full report
                                         subsection (i) to the Secretary of State and the Secretary of
                                         Defense.
Note 1: Although this data is normally made available on SIGAR’s website (www.sigar.mil), the data SIGAR has received is in relatively raw form and is currently being
reviewed, analyzed, and organized for all future SIGAR purposes.

* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-181 as being—

“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United States Government that involves the use
of amounts appropriated or otherwise made available for the reconstruction of Afghanistan with any public or private sector entity for any of the following purposes: To build
or rebuild physical infrastructure of Afghanistan.

To establish or reestablish a political or societal institution of Afghanistan.

To provide products or services to the people of Afghanistan.”




REPORT TO THE UNITED STATES CONGRESS                         I   OCTOBER 30, 2012                               179
                                          APPENDICES




TABLE A.2


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP. 3) (“IG ACT”)
IG Act Section     IG Act Language                                      SIGAR Action                                         Section
Section 5(a)(1)    Description of significant problems, abuses, and     Extract pertinent information from SWA/JPG           Other Agency Oversight
                   deficiencies                                         member reports
                                                                        List problems, abuses, and deficiencies from         See Letters of Inquiry at
                                                                        SIGAR audit reports, investigations, and             www.sigar.mil
                                                                        inspections
Section 5(a)(2)    Description of recommendations for corrective        Extract pertinent information from SWA/JPG           Other Agency Oversight
                   action…with respect to significant problems,         member l reports
                   abuses, or deficiencies                                                                                   See Letters of Inquiry at
                                                                        List recommendations from SIGAR audit reports        www.sigar.mil
Section 5(a)(3)    Identification of each significant recommenda-       List all instances of incomplete corrective action   In process
                   tion described in previous semiannual reports on     from previous semiannual reports
                   which corrective action has not been completed
Section 5(a)(4)    A summary of matters referred to prosecutive         Extract pertinent information from SWA/JPG           Other Agency Oversight
                   authorities and the prosecutions and convictions     member reports
                   which have resulted
                                                                        List SIGAR Investigations that have been referred
Section 5(a)(5)    A summary of each report made to the [Secretary      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   of Defense] under section 6(b)(2) (instances         member reports
                   where information requested was refused or not
                   provided)                                            List instances in which information was refused
                                                                        SIGAR auditors, investigators, or inspectors
Section 5(a)(6)    A listing, subdivided according to subject mat-      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   ter, of each audit report, inspection report and     member reports
                   evaluation report issued...showing dollar value
                   of questioned costs and recommendations that         List SIGAR reports
                   funds be put to better use
Section 5(a)(7)    A summary of each particularly significant report    Extract pertinent information from SWA/JPG          Other Agency Oversight
                                                                        member reports                                      A full list of significant
                                                                                                                            reports can be found at
                                                                        Provide a synopsis of the significant SIGAR reports www.sigar.mil
Section 5(a)(8)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports and the total dollar value of ques-    member reports                                       members
                   tioned costs
                                                                        Develop statistical tables showing dollar value      In process
                                                                        of questioned cost from SIGAR reports
Section 5(a)(9)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports, inspection reports, and evaluation    member reports                                       members
                   reports and the dollar value of recommendations
                   that funds be put to better use by management        Develop statistical tables showing dollar value      In process
                                                                        of funds put to better use by management from
                                                                        SIGAR reports
Section 5(a)(10)   A summary of each audit report, inspection report,   Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   and evaluation report issued before the com-         member reports                                       members
                   mencement of the reporting period for which no
                   management decision has been made by the end         Provide a synopsis of SIGAR audit reports in         None
                   of reporting period, an explanation of the reasons   which recommendations by SIGAR are still open
                   such management decision has not been made,
                   and a statement concerning the desired timetable
                   for achieving a management decision




                                            180                         SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                     APPENDICES




TABLE A.2 (CONTINUED)


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP. 3) (“IG ACT”)
IG Act Section        IG Act Language                                      SIGAR Action                                       Section
Section 5(a)(11)      A description and explanation of the reasons for     Extract pertinent information from SWA/JPG         See reports of SWA/JPG
                      any significant revised management decision          member reports                                     members

                                                                           Explain SIGAR audit reports in which significant   None
                                                                           revisions have been made to management
                                                                           decisions
Section 5(a)(12)      Information concerning any significant manage-       Extract pertinent information from SWA/JPG         See reports of SWA/JPG
                      ment decision with which the Inspector General is    member reports                                     members
                      in disagreement
                                                                           Explain SIGAR audit reports in which SIGAR         No disputed decisions
                                                                           disagreed with management decision                 during the reporting period
Section 5(a)(13)      Information described under [Section 804(b)] of      Extract pertinent information from SWA/JPG         See reports of SWA/JPG
                      the Federal Financial Management Improvement         member reports                                     members
                      Act of 1996 (instances and reasons when an
                      agency has not met target dates established in a     Provide information where management has not       No disputed
                      remediation plan)                                    met targets from a remediation plan                decisions during the report-
                                                                                                                              ing period
Section 5(a)(14)(A)   An Appendix containing the results of any peer       SIGAR has posted in full the results of, and       Posted in full at
                      review conducted by another Office of Inspector      reports from, SIGAR’s most recent peer reviews     www.sigar.mil
                      General during the reporting period; or              (completed during March 2012, prior to the cur-
                                                                           rent reporting period), on its Web site
Section 5(a)(14)(B)   If no peer review was conducted within that report- 26 March 2012                                       Posted in full at
                      ing period, a statement identifying the date of the                                                     www.sigar.mil
                      last peer review conducted by another Office of
                      Inspector General
Section 5(a)(15)      A list of any outstanding recommendations from       None                                               Recommendations and
                      any peer review conducted by another Office of                                                          related materials posted in
                      Inspector General that have not been fully imple-                                                       full at www.sigar.mil
                      ment, including a statement describing the status
                      of the implementation and why implementation is
                      not complete
Section 5(a)(16)      Any peer reviews conducted by SIGAR of another       Not applicable (SIGAR did not conduct, or          SIGAR Oversight
                      IG Office during the reporting period, including a   participate in the conduct, of a peer review of
                      list of any outstanding recommendations made         another Office of Inspector General during the
                      from any previous peer review . . . that remain      reporting period)
                      outstanding or have not been fully implemented




REPORT TO THE UNITED STATES CONGRESS               I   OCTOBER 30, 2012                             181
                                                               APPENDICES



                                                               APPENDIX B
                                                               U.S. FUNDS FOR AFGHANISTAN RECONSTRUCTION ($ MILLIONS)
                                                               Table B.1 lists funds appropriated for Afghanistan reconstruction by program,
                                                               per year, as of September 30, 2012.
                                                               TABLE B.1

                                                                U.S. FUNDING SOURCES                                                AGENCY          TOTAL
                                                                SECURITY
                                                                  Afghanistan Security Forces Fund (ASFF)                           DoD           49,625.70
                                                                  Train & Equip (DoD)                                               DoD              440.00
                                                                  Foreign Military Financing (FMF)                                  DoS            1,059.14
                                                                  International Military Education and Training (IMET)              DoS               11.90
                                                                  NDAA Section 1207 Transfer                                        Other              9.90
                                                                Total - Security                                                                 51,146.64
                                                                GOVERNANCE & DEVELOPMENT
                                                                  Commander's Emergency Response Program (CERP)                     DoD            3,439.00
                                                                  Afghanistan Infrastructure Fund (AIF)                             DoD              800.00
                                                                  Task Force for Business and Stability Operations (TFBSO)          DoD              555.32
                                                                  Economic Support Fund (ESF)                                       USAID         14,953.07
                                                                  Development Assistance (DA)                                       USAID            883.34
                                                                  Afghanistan Freedom Support Act (AFSA)                            DoD              550.00
                                                                  Child Survival & Health (CSH + GHAI)                              USAID            554.28
                                                                  Commodity Credit Corp (CCC)                                       USAID             31.65
                                                                  USAID (other)                                                     USAID             45.86
                                                                  Non-Proliferation, Antiterrorism, Demining & Related (NADR)       DoS              505.70
                                                                  Provincial Reconstruction Team Advisors                           USDA               5.70
                                                                  Treasury Technical Assistance                                     Treasury           4.45
                                                                Total - Governance & Development                                                 22,328.37
                                                                COUNTER-NARCOTICS
                                                                  International Narcotics Control & Law Enforcement (INCLE)         DoS            3,578.24
                                                                  Drug Interdiction & Counter-Drug Activities (DoD CN)              DoD            2,307.50
                                                                  Drug Enforcement Administration (DEA)                             DoJ              127.37
                                                                Total - Counter-Narcotics                                                         6,013.12
                                                                HUMANITARIAN
                                                                  P.L. 480 Title I                                                  USDA               5.00
                                                                  P.L. 480 Title II                                                 USAID            716.71
                                                                  Disaster Assistance (IDA)                                         USAID            465.93
                                                                  Transition Initiatives (TI)                                       USAID            137.10
                                                                  Migration & Refugee Assistance (MRA)                              DoS              757.75
                                                                  Voluntary Peacekeeping (PKO)                                      DoS               69.33
                                                                  Emergency Refugee & Migration Assistance (ERMA)                   DoS               25.20
                                                                  Food for Progress                                                 USDA             109.49
Notes: Numbers affected by rounding. DoD reprogrammed $1
billion of FY 2011 ASFF to the Defense Working Capital Fund.
                                                                  416(b) Food Aid                                                   USDA              95.18
                                                                  Food for Education                                                USDA              50.49
Sources: DoD, responses to SIGAR data call, 10/22/2012,           Emerson Trust                                                     USDA              22.40
10/19/2012, 10/18/2012, 10/17/2012, 10/3/2012,
7/18/2012, 10/14/2009, and 10/1/2009; DoS,                      Total - Humanitarian                                                              2,454.58
responses to SIGAR data call, 10/19/2012, 10/11/2012,
10/5/2012 and 6/27/2012; Treasury, response to SIGAR            INTERNATIONAL AFFAIRS OPERATIONS
data call, 10/10/2012; OMB, response to SIGAR data              Oversight                                                                            172.60
call, 7/27/2012; USAID, responses to SIGAR data call,
10/2/2012, 10/15/2010, 1/15/2010, and 10/9/2009;                Other                                                                              6,442.40
DoJ, response to SIGAR data call, 7/7/2009; USDA, response
to SIGAR data call, 4/2009; P.L. 112-74, 12/23/2011; P.L.
                                                                Total - International Affairs Operations                                          6,615.00
112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-          TOTAL FUNDING                                                                    88,557.71
118, 12/19/2009; FY 2010 Defense Explanatory Statement.




                                                                 182                        SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                                      APPENDICES




  FY 2002     FY 2003    FY 2004     FY 2005      FY 2006     FY 2007 FY 2008          FY 2009      FY 2010      FY 2011      FY 2012

       0.00       0.00       0.00       968.18     1,908.13     7,406.40    2,750.00     5,606.94     9,166.77    10,619.28 11,200.00
       0.00       0.00     150.00       290.00         0.00         0.00        0.00         0.00         0.00         0.00      0.00
      57.26     191.00     414.08       396.80         0.00         0.00        0.00         0.00         0.00         0.00      0.00
       0.18       0.39       0.67         0.95         0.98         1.19        1.66         1.40         1.76         1.56      1.18
       0.00       0.00       0.00         0.00         0.00         0.00        9.90         0.00         0.00         0.00      0.00
     57.44     191.39     564.75     1,655.93     1,909.11     7,407.59    2,761.56     5,608.34     9,168.53    10,620.84 11,201.18

       0.00       0.00       40.00      136.00       215.00       209.00      488.33       550.67     1,000.00       400.00       400.00
       0.00       0.00        0.00        0.00         0.00         0.00        0.00         0.00         0.00       400.00       400.00
       0.00       0.00        0.00        0.00         0.00         0.00        0.00        15.00        59.26       239.24       241.82
     117.51     239.29      893.87    1,280.20       473.39     1,210.71    1,399.51     2,088.32     3,346.00     2,067.51     1,836.76
      18.30      42.54      153.14      169.25       183.96       166.81      148.65         0.40         0.30         0.00         0.00
       0.00     165.00      135.00      250.00         0.00         0.00        0.00         0.00         0.00         0.00         0.00
       7.52      49.68       33.40       38.00        41.45       100.77       63.02        58.23        92.30        69.91         0.00
       7.48       1.33        0.00        0.00         0.00         0.00       10.77         4.22         4.22         3.09         0.55
       0.00       0.50        5.00        0.00         0.00         0.00       20.37         3.55         2.90         6.25         7.29
      44.00      34.70       66.90       38.20        18.20        36.60       26.60        48.60        57.80        69.30        64.80
       0.00       0.00        0.00        0.00         0.00         0.00        0.00         5.70         0.00         0.00         0.00
       0.90       1.00        0.06        0.95         0.19         0.13        0.75         0.47         0.00         0.00         0.00
    195.71     534.04    1,327.37    1,912.59       932.19     1,724.02    2,157.99     2,775.17     4,562.78     3,255.29     2,951.23

      60.00      0.00      220.00       709.28       232.65      251.74      307.57       484.00       589.00       400.00       324.00
       0.00      0.00       71.80       224.54       108.05      290.97      192.81       230.06       392.27       376.53       420.47
       0.58      2.87        3.72        16.77        23.66       20.38       40.59        18.80         0.00         0.00         0.00
     60.58       2.87     295.52       950.59       364.36      563.09      540.97       732.86       981.27       776.53       744.47

       0.00       5.00       0.00         0.00         0.00        0.00        0.00         0.00         0.00         0.00         0.00
     159.50      46.10      49.20        56.60        60.00       60.00      177.00        65.41        27.40        15.50         0.00
     197.09      85.52      11.16         4.22         0.04        0.03       16.90        27.16        29.84        66.74        27.21
       8.07      11.69      11.22         1.60         0.00        0.00        0.00         0.75         0.89        68.42        34.47
     135.47      61.50      63.30        47.10        41.80       53.80       44.25        76.79        81.48        65.00        87.26
      23.93       9.90      20.00        15.50         0.00        0.00        0.00         0.00         0.00         0.00         0.00
      25.00       0.00       0.00         0.00         0.00        0.00        0.00         0.20         0.00         0.00         0.00
       0.00       4.96       9.08        30.10        23.24        9.47       20.55        12.09         0.00         0.00         0.00
      46.46      14.14      34.58         0.00         0.00        0.00        0.00         0.00         0.00         0.00         0.00
       0.00       9.27       6.12        10.02        25.08        0.00        0.00         0.00         0.00         0.00         0.00
       0.00       0.00       0.00         0.00         0.00        0.00       22.40         0.00         0.00         0.00         0.00
    595.52     248.08     204.66       165.14       150.16      123.30      281.10       182.40       139.61       215.66       148.94

       0.00       0.00       0.00         0.00         0.00        2.50       14.30         25.20        34.40       37.20        59.00
     155.60      35.30     207.60       136.10       131.90      207.80      434.40      1,060.70     1,761.70      905.10     1,406.20
    155.60      35.30     207.60       136.10       131.90      210.30      448.70      1,085.90     1,796.10      942.30     1,465.20
   1,064.85   1,011.68   2,599.90    4,820.35     3,487.72    10,028.31    6,190.32    10,384.67    16,648.29    15,810.61    16,511.01




REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2012                    183
APPENDICES




APPENDIX C

SIGAR WRITTEN PRODUCTS
SIGAR AUDITS
Completed Audits
SIGAR completed two audits during this reporting period:

COMPLETED SIGAR AUDITS AS OF OCTOBER 30, 2012
Report Identifier    Report Title                                                         Date Issued
13-1                 Afghan National Security Forces Facilities: Concerns with Funding,   10/2012
                     Oversight, and Sustainability for Operations and Maintenance
12-14                Report on Afghan National Army Petroleum, Oil, and Lubricants        9/2012


New Audits
SIGAR initiated seven audits during this reporting period:

NEW SIGAR AUDITS AS OF OCTOBER 30, 2012
Audit Identifier    Project Title                                                         Date Initiated
SIGAR 071A          $230 Million in Missing Repair Parts                                  10/2012
SIGAR 070A          Afghan National Police Petroleum, Oils, and Lubricants                9/2012
SIGAR 069A          Ongoing Construction Projects for the ANSF                            9/2012
SIGAR 068A          USAID’s Direct Assistance to the Ministry of Public Health            8/2012
SIGAR 067A          Tracking Currency Flows Through the Afghan Economy                    8/2012
SIGAR 066A          DoD Compliance with the Prohibition on Contracting with the Enemy     8/2012
SIGAR 065A          DoS’s Financial Audit Coverage of Costs in Afghanistan                8/2012


Ongoing Audits
SIGAR had seven audits in progress during this reporting period:

ONGOING SIGAR AUDITS AS OF OCTOBER 30, 2012
Audit Identifier    Project Title                                                         Date Initiated
SIGAR 063A          U.S. Government Efforts to Assist in the Commercialization of the     7/2012
                    Afghanistan Electricity Utility—Da Afghanistan Breshna Sherkat
                    (DABS)
SIGAR 064A          Air Mobility Support for Afghan Drug Interdiction Operations          7/2012
SIGAR 060A          Tariffs, Taxes, or Other Fees Imposed by the Government of the        6/2012
                    Islamic Republic of Afghanistan on U.S. Contractors Conducting
                    Reconstruction Activities in Afghanistan
SIGAR 056A          USAID Planning for Sustainability of its Development Programs in      5/2012
                    Afghanistan




 184                       SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                         APPENDICES




ONGOING SIGAR AUDITS AS OF OCTOBER 30, 2012 (CONTINUED)
SIGAR 058A              USAID’s Southern Region Agricultural Development Project’s            4/2012
                        Partnership with International Relief and Development, Inc.
SIGAR 054A              Afghan National Army (ANA) Logistics Capability for Petroleum, Oil,   2/2012
                        and Lubricants
SIGAR 052A              Oversight of A-TEMP for the ANP                                       1/2012




SIGAR INSPECTIONS
Completed Inspections
SIGAR completed three inspections during this reporting period:

COMPLETED SIGAR INSPECTIONS AS OF OCTOBER 30, 2012
Report Identifier       Report Title                                                          Date Issued
SIGAR Inspection        Wardak Province National Police Training Center: Contract             10/2012
13-3                    Requirements Generally Met, But Deficiencies and Maintenance
                        Issues Need to be Addressed
SIGAR Inspection        Gamberi ANA Garrison: Site Grading and Infrastructure Maintenance     10/2012
13-2                    Problems Put Facilities at Risk
SIGAR Inspection        Kunduz ANA Garrison: Army Corps of Engineers Released DynCorp         10/2012
13-1                    from All Contractual Obligations Despite Poor Performance and
                        Structural Failures


New Inspections
SIGAR initiated three inspections during this reporting period:

NEW SIGAR INSPECTIONS AS OF OCTOBER 30, 2012
Inspection Identifier      Project Title                                                      Date Initiated
SIGAR 1007                 Incinerator Requirements and Construction Quality                  10/2012
SIGAR 1006                 Facilities in Northern Provinces                                   9/2012
SIGAR 1005                 Facilities in Kabul                                                8/2012




REPORT TO THE UNITED STATES CONGRESS                    I     OCTOBER 30, 2012                       185
APPENDICES




OTHER SIGAR WRITTEN PRODUCTS
SIGAR Testimony
The Special Inspector General for Afghanistan Reconstruction, John F.
Sopko, testified before the Congress twice during this reporting period:

NEW SIGAR TESTIMONY AS OF OCTOBER 30, 2012
Testimony Identifier    Testimony Title                                             Date of Testimony
SIGAR 12-16T            Department of Defense Not Adequately Prepared to Transfer   9/20/2012
                        Responsibility for Fuel Management to the Afghan National
                        Army
SIGAR 12-15T            Department of Defense Cannot Accurately Account for over    9/13/2012
                        $1.1 Billion in Fuel for the Afghan National Army


SIGAR Alert Letters
SIGAR issued three alert letters during this reporting period:

NEW SIGAR ALERT LETTERS ISSUED AS OF OCTOBER 30, 2012
Letter Title                                                                        Date Issued
Fraud Investigation of Road Contractor                                              10/17/2012
Lack of Culvert Denial Systems on a Major Highway in Afghanistan                    10/10/2012
Destruction of Financial Documents                                                  9/10/2012


SIGAR Investigative Reports
SIGAR issued one investigative report during this reporting period:

NEW SIGAR INVESTIGATIVE REPORT ISSUED AS OF OCTOBER 30, 2012
Investigative Report                                                                Date Issued
Contracting with the Enemy                                                          10/17/2012




 186                         SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                                  APPENDICES




APPENDIX D
SIGAR INVESTIGATIONS AND HOTLINE
SIGAR Investigations                                                                                                    FIGURE D.1
This quarter, SIGAR opened 55 new investigations and closed 28, bringing                                                SIGAR INVESTIGATIONS: NEW INVESTIGATIONS,
the total number of open investigations to 215. Of the new investigations,                                              JULY 1–SEPTEMBER 30, 2012
most involved public corruption, bribery, and procurement fraud, as shown
in Figure D.1. Of the closed investigations, most were closed due to unsub-                                                                      Total: 55
stantiated allegations or following debarment, as shown in Figure D.2.

FIGURE D.2                                                                                                                                          Procurement
SIGAR INVESTIGATIONS: CLOSED INVESTIGATIONS, JULY 1–SEPTEMBER 30, 2012                                                                              Fraud
                                                                                                                                      Public        13
                                                                                                                                      Corruption/
                                                                                                                                                          Miscellaneous
                                                                                                                                      Bribery
         Unsubstantiated Allegations                                                                            19                                        Criminal Activity
                                                                                                                                      20
                                                                                                                                                          13
        Closed Following Debarment                               5
                                                                                                                        Assessments
        Closed Following Convictions              2                                                                     3                                         Civil Investigations
                                                                                                                                         Theft                    3
                      Civil Settlement        1                                                                                          3

 Merged with Ongoing Investigations           1
                                                                                                                        Source: SIGAR Investigations Directorate, 10/12/2012.
                                         0                   5                      10            15               20

                                                                                 Total: 28
Source: SIGAR Investigations Directorate, 10/11/2012.




SIGAR Hotline                                                                                                           FIGURE D.3
Of the 38 Hotline complaints received this quarter, most were received elec-                                            SOURCE OF SIGAR HOTLINE COMPLAINTS,
tronically, as shown in Figure D.3. Of these complaints, most were closed,                                              JULY 1–SEPTEMBER 30, 2012
as shown in Figure D.4.
                                                                                                                                                  Total: 38
FIGURE D.4
STATUS OF SIGAR HOTLINE COMPLAINTS, JULY 1–SEPTEMBER 30, 2012

                  Closed                                                                                26                                   Electronic
                                                                                                                                             (email, web, or fax)
                                                                                                                                             35
Opened as Investigation                       6


           Under Review                  4


            Referred Out          2                                                                                           Written                              Phone
                                                                                                                              (not email)                          2
                           0             5              10                15                 20    25          30             1
                                                                     Total: 38
Source: SIGAR Investigations Directorate, 10/9/2012.                                                                    Source: SIGAR Investigations Directorate, 10/9/12.




REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2012                                187
APPENDICES




Suspensions and Debarments From SIGAR Referrals
As of October 1, 2012, SIGAR’s referrals for suspension and debarment have
resulted in 41 suspensions and 46 debarments, as shown in chronological
order in Table D.1.

TABLE D.1


SUSPENSIONS AND DEBARMENTS AS OF OCTOBER 1, 2012
 Suspensions                                         Debarments
 Al-Watan Construction Company                       Farooqi, Hashmatullah
 Basirat Construction Firm                           Hamid Lais Construction Company
 Brophy, Kenneth                                     Hamid Lais Group
 Naqibullah, Nadeem                                  Lodin, Rohullah Farooqi
 Rahman, Obaidur                                     Bennett & Fouch Associates, LLC
 Campbell, Neil Patrick                              Brandon, Gary
 Borcata, Raul A.                                    K5 Global
 Close, Jarred Lee                                   Ahmad, Noor
 Logistical Operations Worldwide                     Noor Ahmad Yousufzai Construction Company
 Robinson, Franz Martin                              Ayeni, Sheryl Adenike
 Taylor, Zachery Dustin                              Cannon, Justin
 Aaria Group Construction Company                    Constantino, April Anne
 Aaria Group                                         Constantino, Dee
 Aaria Herai General Trading                         Constantino, Ramil Palmes
 Aaria M.E. General Trading LLC                      Crilly, Braam
 Aaria Middle East                                   Drotleff, Christopher
 Aaria Middle East Company LLC                       Fil-Tech Engineering and Construction Company
 Aaria Middle East Company Ltd. – Herat              Handa, Sidharth
 Aaria Supplies Company LTD                          Jabak, Imad
 Aaria Supply Services and Consultancy               Jamally, Rohullah
 Aftech International                                Khalid, Mohammad
 Aftech International Pvt., Ltd.                     Khan, Daro
 Alam, Ahmed Farzad                                  Mariano, April Anne Perez
 Albahar Logistics                                   McCabe, Elton Maurice
 American Aaria Company LLC                          Mihalczo, John
 American Aaria LLC                                  Qasimi, Mohammed Indress
 Barakzai, Nangialai                                 Radhi, Mohammad Khalid
 Formid Supply and Services                          Safi, Fazal Ahmed
 Greenlight General Trading                          Shin Gul Shaheen, a.k.a. “Sheen Gul Shaheen”
 Kabul Hackle Logistics Company                      Espinoza-Loor, Pedro Alfredo
 Sharpway Logistics                                  Campbell, Neil Patrick
 United States California Logistics Company          Hazrati, Arash
 Yousef, Najeebullah                                 Midfield International
 Rahimi, Mohammad Edris                              Moore, Robert G.




  188                              SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                                   APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF OCTOBER 1, 2012
 Suspensions                                       Debarments
 Wooten, Philip Steven                             Noori, Noor Alam, a.k.a. “Noor Alam"
 Domineck, Lavette Kanye                           Northern Reconstruction Organization
 Markwith, James                                   Shamal Pamir Building and Road Construction
                                                   Company
 All Points International Distributors, Inc.       Wade, Desi D.
 Cipolla, James                                    Blue Planet Logistics Services
 Hercules Global Logistics                         Mahmodi, Padres
 Schroeder, Robert                                 Mahmodi, Shikab
                                                   Saber, Mohammed
                                                   Watson, Brian Erik
                                                   Afghan Builder's Consortium, d.b.a. "ABC"
                                                   Mohammad, Ghani
                                                   Mohammad, Taj




REPORT TO THE UNITED STATES CONGRESS           I   OCTOBER 30, 2012                            189
APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS
ACRONYM OR
ABBREVIATION   DEFINITION
AAF            Afghan Air Force
ABP            Afghan Border Police
ADB            Asian Development Bank
AGO            Attorney General’s Office
AIF            Afghanistan Infrastructure Fund
AIHRC          Afghanistan Independent Human Rights Commission
AIP            Afghanistan Infrastructure Program
ALP            Afghan Local Police
ANA            Afghan National Army
ANCOP          Afghan National Civil Order of Police
ANP            Afghan National Police
ANSF           Afghan National Security Forces
APAP           Afghanistan Parliamentary Assistance Program
APPF           Afghan Public Protection Force
APRP           Afghan Peace and Reintegration Plan
ARFL           Afghan Royal First Logistics
ARTF           Afghanistan Reconstruction Trust Fund
ASFF           Afghanistan Security Forces Fund
ASI            Afghanistan Stabilization Initiative
ASYCUDA        Automated System for Customs Data
A-TEMP         Afghanistan-Technical Equipment Maintenance Program
AUP            Afghan Uniform Police
AWCC           Afghan Wireless Communications Co.
AWDP           Afghanistan Workforce Development Program
CAA            Civil Aviation Authority (Afghan)
CAAT           ISAF Commander's Advisory and Assistance Team
CENTCOM        U.S. Central Command
CERP           Commander’s Emergency Response Program
CIA            Central Intelligence Agency (U.S.)
CID            Criminal Investigative Command (formerly Division) (U.S. Army)
CIGIE          Council of Inspectors General on Integrity and Efficiency
CJIATF         Combined Joint Interagency Task Force
C-JTSCC        CENTCOM Joint Theater Support Contracting Command
CM             Capability Milestone
CMS            case management system
CNPA           Counter-Narcotics Police of Afghanistan
COIN           counter-insurgency
CPD            Central Prison Directorate (Afghan)
CSIS           Center for Strategic and International Studies




 190               SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                                  APPENDICES




ACRONYM OR
ABBREVIATION      DEFINITION
CSSP              Correctional System Support Program
CSTC-A            Combined Security Transition Command-Afghanistan
CUAT              Commander’s Unit Assessment Tool
DAB               Da Afghanistan Bank
DABS              Afghan national utility company
DCAA              Defense Contract Audit Agency
DCIS              Defense Criminal Investigative Service (U.S.)
DCMA              Defense Contract Management Agency
DEA               Drug Enforcement Administration (U.S.)
DoD               Department of Defense (U.S.)
DoD CN            Department of Defense Drug Interdiction and Counter-Drug Activities fund (U.S)
DoD OIG           Department of Defense Office of Inspector General
DoS               Department of State (U.S.)
DoS OIG           DoS Office of Inspector General
DoT               Department of Transportation (U.S.)
DSCA              Defense Security Cooperation Agency
DST               District Support Team
ECF               Extended Credit Facility
EIA               enemy initiated attack
ESF               Economic Support Fund
EU                European Union
EVAW              Elimination of Violence Against Women law
FBI               Federal Bureau of Investigation (U.S)
FDRC              Financial Disputes Resolution Commission
FOB               Forward Operating Base
F-RIC             ISAF Force Reintegration Cell
GAO               Government Accountability Office (U.S.)
GDP               gross domestic product
HOO               High Office of Oversight for Anti-Corruption (Afghan)
IARCSC            Independent Administrative Reform and Civil Service Commission
ICAO              International Civil Aviation Organization
ICCTF             International Contract Corruption Task Force
IDEA-NEW          Incentives Driving Economic Alternatives for North, East, and West
IDLG              Independent Directorate of Local Governance (Afghan)
IEC               Independent Election Commission (Afghan)
IED               improvised explosive device
IG                inspector general
IJC               International Security Assistance Force Joint Command
IMF               International Monetary Fund
INCLE             International Narcotics Control and Law Enforcement(U.S)
INL               Bureau of International Narcotics and Law Enforcement Affairs (U.S.)
IRD               International Relief and Development, Inc.
ISAF              International Security Assistance Force




REPORT TO THE UNITED STATES CONGRESS            I   OCTOBER 30, 2012                        191
APPENDICES




ACRONYM OR
ABBREVIATION   DEFINITION
JCMB           Joint Coordination and Monitoring Board
JSSP           Justice Sector Support Program
KCI            Kabul City Initiative
LOTFA          Law and Order Trust Fund for Afghanistan
MCC            China Metallurgical Group Corporation
MCIT           Ministry of Communications and Information Technology (Afghan)
MCN            Ministry of Counter Narcotics (Afghan)
MCTF           Major Crimes Task Force (Afghan)
MEC            Monitoring and Evaluation Committee (Afghan)
MIDAS          Mining Investment and Development for Afghan Sustainability
MMC-A          Materials Management Center-Army (Afghan)
MNNA           Major Non-NATO Ally
MoD            Ministry of Defense (Afghan)
MoF            Ministry of Finance (Afghan)
MoI            Ministry of Interior (Afghan)
MoJ            Ministry of Justice (Afghan)
MoM            Ministry of Mines (Afghan)
MoPH           Ministry of Public Health (Afghan)
MoRR           Ministry of Refugees and Repatriation (Afghan)
MoTCA          Ministry of Transportation and Civil Aviation (Afghan)
MOU            memorandum of understanding
MoWA           Ministry of Women's Affairs (Afghan)
MRRD           Ministry of Rural Rehabilitation and Development (Afghan)
NATO           North Atlantic Treaty Organization
NCIS           Naval Criminal Investigative Service (U.S. Navy)
NDS            National Directorate of Security (Afghan)
NGO            non-governmental organization
NIU            National Interdiction Unit (Afghan)
NKB            New Kabul Bank
NMAA           National Military Academy of Afghanistan
NPP            National Priority Program
NPTC           National Police Training Center
NSC            National Security Council
NTM-A          NATO Training Mission-Afghanistan
O&M            operations and maintenance
OCO            Overseas Contingency Operations
OMB            Office of Management and Budget (U.S.)
OSI            U.S. Air Force Office of Special Investigations
OTA            Office of Technical Assistance (U.S. Treasury)
OTI            Office of Transition Initiatives
OTSG           Office of the Surgeon General (Afghan)
P.L.           Public Law
PJST           Provincial Joint Secretariat Team (Afghan)




  192              SPECIAL INSPECTOR GENERAL                I    AFGHANISTAN RECONSTRUCTION
                                                               APPENDICES




ACRONYM OR
ABBREVIATION      DEFINITION
PM/WRA            Bureau of Political-Military Affairs - Office of Weapons Removal and Abatement
POL               petroleum, oil, and lubricants
PPC               Provincial Peace Council
PRT               Provincial Reconstruction Team
PSC               private security contractor
PTEC              Power Transmission Expansion and Connectivity
RAMP-UP           USAID Regional Afghan Municipalities Program for Urban Populations
RC                Regional Command (ISAF)
RC Window         Recurrent Cost Window
SCC               Special Cases Committee (Afghan)
SIGAR             Special Inspector General for Afghanistan Reconstruction
SY                solar year
TAPI              Turkmenistan-Afghanistan-Pakistan-India Pipeline
TFBSO             Task Force for Business and Stability Operations in Afghanistan
TMR               transportation movement request
UN                United Nations
UNDP              United Nations Development Programme
UNHCR             UN High Commissioner for Refugees
UNODC             UN Office on Drugs and Crime
USAAA             U.S. Army Audit Agency
USACE             U.S. Army Corps of Engineers
USACE             U.S. Army Corps of Engineers
USACE-TAN         U.S. Army Corps of Engineers-Transatlantic Afghanistan North
USAID             U.S. Agency for International Development
USAID OIG         USAID Office of Inspector General
USDA              U.S. Department of Agriculture
USFOR-A           U.S. Forces-Afghanistan
USGS              United States Geological Survey
UXO               unexploded ordnance
VSO               Village Stability Operations
WFP               World Food Program
WTO               World Trade Organization




REPORT TO THE UNITED STATES CONGRESS             I   OCTOBER 30, 2012                        193
                                                         ENDNOTES




1. 	    U.S. Department of Defense, American Forces Press Service         27. 	 DoD, response to SIGAR data call, 10/18/2012.
        news article, “Afghanistan Surge Achieved Its Mission, Dempsey    28. 	 DoD, Financial Management Regulation, “Commander’s
        Says,” September 18, 2012.                                              Emergency Response Program: Vol. 12, Ch. 27,” 1/2009, p. 27-3.
2. 	    Secretary of Defense, Leon Panetta, Statement to NATO             29. 	 USFOR-A, “Commander’s Emergency Response Program
        Defense Ministers, October 10, 2012.                                    (CERP) SOP,” USFOR-A Pub 1-06, 2/2011, p. 35; P.L. 112-74,
3. 	    Stars and Stripes, “Panetta presses allies to help ease                 12/23/2011.
        Afghanistan training shortfalls,” October 10, 2012.               30. 	 See Appendix B of this report.
4. 	    Quoted in Agence France Presse, “Afghan Army Arrests              31. 	 DoD, response to SIGAR data call, 10/19/2012.
        Hundreds Over Insider Attacks,” September 5, 2012.                32. 	 DoD, responses to SIGAR data call, 10/19/2012 and 7/16/2012.
5. 	    Secretary of Defense, Leon Panetta, Statement to NATO             33. 	 U.S. Senate Committee on Armed Services, press release,
        Defense Ministers, October 10, 2012.                                    “Senate Passes Ike Skelton National Defense Authorization Act
6. 	    DoD Public Affairs, “Statement to NATO Defense Ministers,”              for Fiscal Year 2011,” 12/22/2010.
        prepared for delivery in Brussels, October 10, 2012.              34. 	 DoD, response to SIGAR data call, 10/22/2012; P.L. 112-74,
7. 	    NATO media backgrounder, “Transition to Afghan lead: Inteqal,”          12/23/2011; P.L. 112-10, 4/15/2011.
        October 2012.                                                     35. 	 DoD, responses to SIGAR data call, 10/22/2012, 7/20/2012, and
8. 	    The Brookings Institution, “Stuck in the Mud: The Logistics of          7/18/2012.
        Getting Out of Afghanistan,” July 18, 2012.                       36. 	 TFBSO, “About TFBSO,” accessed 10/20/2011; DoD, response to
9. 	    Statement by H.E. Hamid Karzai, President of the Islamic                SIGAR data call, 7/22/2011.
        Republic of Afghanistan, General Debate of the 67th Session of    37. 	 See Appendix B of this report.
        the United Nations General Assembly, September 25, 2012.          38. 	 DoD, response to SIGAR data call, 10/3/2012.
10. 	   U.S. Department of State, daily press briefing by Victoria        39. 	 DoD, responses to SIGAR data call, 10/3/2012 and 7/2/2012.
        Nuland, October 3, 2012.                                          40. 	 DoD, “Drug Interdiction and Counter-Drug Activities, Defense
11. 	   Ministry of Foreign Affairs of Japan, “Annex: Tokyo Mutual              FY 2009 Supplemental Request Drug Interdiction and
        Accountability Framework,” English text, July 8, 2012, www.             Counterdrug Activities,” accessed 4/13/2010.
        mofa.go.jp.                                                       41. 	 DoD OIG, “Independent Auditor’s Report on the DoD FY 2011
12. 	   U.S. Department of State, “Secretary Clinton Hosts the U.S.-            Detailed Accounting Report of the Funds Obligated for National
        Afghanistan Bilateral Commission,” remarks of the Secretary,            Drug Control Program Activities,” Report No. DODIG-2012-04,
        October 3, 2012, www.state.gov.                                         1/30/2012.
13. 	   USNews.com, Afghanistan commentary, “As troops leave in           42. 	 DoD, response to SIGAR data call, 10/17/2012.
        2014 the international community must maintain financial soli-    43. 	 OMB, response to SIGAR vetting, 7/16/2009.
        darity with the embattled country,” August 3, 2012.               44. 	 USAID, response to SIGAR data call 10/2/2012.
14. 	   U.S. Department of State, biography of James B. Cunningham,       45. 	 USAID, responses to SIGAR data call, 10/2/2012 and 6/28/2012.
        October 2012, www.state.gov.                                      46. 	 DoS, response to SIGAR data call, 10/13/2009.
15. 	   U.S. Embassy, Kabul, transcript, “Remarks by Ambassador           47. 	 DoS, response to SIGAR data call, 10/11/2012.
        Cunningham on 9/11,” September 11, 2012.                          48. 	 DoS, responses to SIGAR data call, 10/11/2012 and 7/13/2012.
16. 	   NATO news release, “Dutch Diplomat Named NATO Senior              49. 	 SIGAR, “Quarterly Report to the U.S. Congress,” 7/30/2010, p. 51.
        Civilian Representative in Afghanistan,” August 7, 2012.          50. 	 World Bank, “ARTF: Administrator’s Report on Financial Status
17. 	   The White House, Office of the Press Secretary, “Statement              as of September 21, 2012,” p. 4.
        by the President on Nominations of General John Allen and         51. 	 World Bank, “ARTF: Administrator’s Report on Financial Status
        General Joseph Dunford,” October 10, 2012. 18. 	SIGAR                   as of September 21, 2012,” p. 1.
        Audit 11-3, Limited Interagency Coordination and Insufficient     52. 	 World Bank, “ARTF: Administrator’s Report on Financial Status
        Controls over U.S. Funds in Afghanistan Hamper U.S. Efforts             as of September 21, 2012,” p. 4.
        to Develop the Afghan Financial Sector and Safeguard U.S.         53. 	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011,
        Cash, (July 20, 2011) and SIGAR Audit 10-5, U.S. Reconstruction         p. 16.
        Efforts in Afghanistan Would Benefit from a Finalized             54. 	 World Bank, “ARTF: Administrator’s Report on Financial Status
        Comprehensive U.S. Anti-Corruption Strategy, (August 5, 2010).          as of September 21, 2012,” p. 6.
19. 	   SIGAR Audit 10-09, “ANA Garrison at Kunduz Does Not Meet          55. 	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011,
        All Quality and Oversight Requirements; Serious Soil Issues             p. 16.
        Need to Be Addressed,” (April 30, 2010).                          56. 	 World Bank, “ARTF: Administrator’s Report on Financial Status
20. 	   P.L. 111-32, “Supplemental Appropriations Act 2009,” 6/24/2009.         as of September 21, 2012,” p. 6.
21. 	   DoD, response to SIGAR vetting, 7/20/2009.                        57. 	 EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7.
22. 	   See Appendix B of this report.                                    58. 	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q1/2012,”
23. 	   DoD, response to SIGAR data call, 10/18/2012.                           Table 1, 6/26/2012; SIGAR analysis of UNDP’s quarterly and
24. 	   DoD, responses to SIGAR data call, 10/18/2012 and 7/16/2012.            annual LOTFA reports, 10/18/2012.
25. 	   DoD OIG, “Distribution of Funds and the Validity of Obligations   59. 	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q1/2012,”
        for the Management of the Afghanistan Security Forces Fund -            Table 2, 6/26/2012.
        Phase I,” 11/5/2007, p. 2.                                        60. 	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q1/2012,”
26. 	   DoD, response to SIGAR data call, 10/18/2012.                           Table 1, 6/26/2012.




                                                   194                    SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                        ENDNOTES




61. 	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q1/2012,”         90. 	 CSTC-A, response to SIGAR data call, 9/26/2012; IJC, response
      Table 1, 6/26/2012; SIGAR analysis of UNDP’s quarterly and               to SIGAR vetting, 10/15/2012.
      annual LOTFA reports, 10/18/2012.                                 91. 	 CSTC-A, response to SIGAR data call, 9/26/2012.
62. 	 See Appendix B; DoD response to SIGAR data call, 10/18/2012.      92. 	 DoD, response to SIGAR vetting, 10/18/2012.
63. 	 IJC, response to SIGAR vetting, 10/15/2012.                       93. 	 DoD, response to SIGAR vetting, 10/18/2012.
64. 	 Reuters, “NATO halts work with Afghan allies to stem insider      94. 	 CENTCOM, response to SIGAR data call, 7/1/2012.
      attacks,” 9/18/2012, accessed 10/10/2012; Reuters, “Panetta       95. 	 NTM-A, “MoD/GS Assessment ACG-AD Jan–Mar 2012,” p. 3.
      promises action against Afghan insider attacks,” 10/10/2012,      96. 	 CSTC-A, response to SIGAR data call, 10/1/2012.
      accessed 10/10/2012; CSTC-A, response to SIGAR vetting,           97. 	 CSTC-A, response to SIGAR data call, 10/1/2012.
      10/15/2012.                                                       98. 	 DoD, response to SIGAR data call, 10/4/2012.
65. 	 CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S.    99. 	 DoD, response to SIGAR data call, 10/4/2012.
      Policy,” 9/21/2012, p. 33.                                        100. 	 DoD, response to SIGAR data call, 10/4/2012.
66. 	 IJC, response to SIGAR vetting, 10/15/2012.                       101. 	 DoD, response to SIGAR data call, 10/4/2012.
67. 	 GAO, GAO-12-951T, “Afghanistan Security: Long-standing            102. 	 BBC, “Afghan Parliament Votes to Sack Key Ministers,”
      Challenges May Affect Progress and Sustainment of Afghan                 8/4/2012, accessed 9/24/2012; UNAMA, “The Situation in
      National Security Forces,” 7/24/2012, p. 4.                              Afghanistan and its Implications for International Peace and
68. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                          Security,” 9/13/2012, p. 3.
69. 	 UNAMA, “In Security Council, Top UN Envoy Warns of Fragile        103. 	 GIRoA, Office of the President, “President Karzai Awards
      Security in Afghanistan,” 9/20/2012, accessed 9/24/2012.                 Prestigious State Medals to Former MoD and MoI Ministers,”
70. 	 DoD, response to SIGAR vetting, 10/18/2012.                              8/12/2012, accessed 9/24/2012.
71. 	 DoD, response to SIGAR vetting, 10/18/2012.                       104. 	 Wall Street Journal, “Karzai Fires Afghan Intelligence Chief,”
72. 	 IJC, response to SIGAR vetting, 10/15/2012.                              8/29/2012, accessed 9/24/2012.
73. 	 DoD, “ISAF Leader Outlines ‘Insider Threat’ Response,”            105. 	 GIRoA, Office of the President, “Interior, Defense Ministers and
      9/5/2012, accessed 10/10/2012.                                           Head of NDS Sworn into Office,” 9/16/2012, accessed 9/24/2012.
74. 	 Stripes, “Afghan Minister: Insider Attacks Due To Infiltration,   106. 	 GIRoA, Office of the President, “Interior, Defense Ministers and
      Not Culture Clashes,” 10/4/2012, accessed 10/13/2012;                    Head of NDS Sworn into Office,” 9/16/2012, accessed 9/24/2012.
      Associated Press via Boston Globe, “Afghans: Foreign Spies at     107. 	 IJC, response to SIGAR vetting, 10/15/2012.
      Root of Insider Attacks,” 8/22/2012, accessed 10/13/2012.         108. 	 IJC, response to SIGAR vetting, 10/15/2012.
75. 	 IJC, response to SIGAR vetting, 10/15/2012.                       109. 	 CENTCOM, response to SIGAR data call, 10/1/2012.
76. 	 New York Times, “Afghan Attacks on Allied Troops Prompt           110. 	 IJC, response to SIGAR vetting, 10/15/2012.
      NATO to Shift Policy,” 8/18/2012, accessed 10/8/2012.             111. 	 DoD, response to SIGAR data call, 10/18/2012.
77. 	 ISAF, “Statement of UK Lt. Gen. Adrian Bradshaw, Deputy           112. 	 CSTC-A, response to SIGAR data call, 10/1/2012.
      Commander of ISAF,” 9/2/2012.                                     113. 	 CSTC-A, response to SIGAR data call, 10/1/2012.
78. 	 DoD, “ISAF Senior Leader Outline ‘Insider Threat’ Response,”      114. 	 CSTC-A, responses to SIGAR data calls, 10/1/2012 and 7/2/2012.
      9/5/2012, accessed 10/10/2012; DoD, “NATO Chiefs Examine          115. 	 CSTC-A, response to SIGAR data call, 7/30/2012.
      Afghan Campaign, Post-2014 Posture,” 9/16/2012, accessed          116. 	 CSTC-A, responses to SIGAR data calls, 10/1/2012 and 7/2/2012.
      10/13/2012.                                                       117. 	 DoD, response to SIGAR data call, 10/18/2012.
79. 	 IJC, response to SIGAR vetting, 10/15/2012.                       118. 	 CSTC-A, response to SIGAR data call, 10/1/2012.
80. 	 UNAMA, “The Situation in Afghanistan and its Implications for     119. 	 DoD, response to SIGAR data call, 10/18/2012.
      International Peace and Security,” 9/13/2012, p. 6.               120. 	 CSTC-A, response to SIGAR data call, 10/1/2012.
81. 	 Senate Committee on Armed Services, “Hearing to Receive           121. 	 CSTC-A, response to SIGAR data call, 10/1/2012.
      Testimony on the Situation in Afghanistan,” 3/22/2012, p. 20.     122. 	 NTM-A, response to SIGAR vetting, 10/15/2012.
82. 	 New York Times, “Two Americans Killed by Afghan Recruit,”         123. 	 CSTC-A, response to SIGAR data call, 10/1/2012.
      8/17/2012, accessed 10/13/2012.                                   124. 	 DoD, “Justification for FY 2013 Overseas Contingency
83. 	 DoD, “ISAF Deputy: Operations Continue, Relations Remain                 Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012,
      Strong,” 9/2/2012, accessed 10/11/2012; DoD, “U.S. Suspends              pp. 8­–17.
      Afghan Local Police Training for Further Vetting,” 9/2/2012,      125. 	 ISAF, COMISAF Advisory and Assistance Team Special Report,
      accessed 10/7/2012.                                                      “$230,000,000 in USG Owned Unaccounted Class IX Repair
84. 	 The Washington Times, “NATO Resumes Training of Afghan                   Parts, Triggering Reorders,” 10/8/2012.
      Police Recruits,” 10/7/2012, accessed 10/13/2012.                 126. 	 DoD, response to SIGAR data call, 10/18/2012.
85. 	 DoD, response to SIGAR vetting, 10/18/2012.                       127. 	 CSTC-A, response to SIGAR data call, 10/1/2012.
86. 	 DoD, “Allen: Insider Attack Controversy Misses Larger Point,”     128. 	 DoD, “Justification for FY 2013 Overseas Contingency
      8/27/2012, accessed 10/13/2012.                                          Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012,
87. 	 GAO, GAO-12-951T, “Long-standing Challenges May Affect                   pp. 5­–6.
      Progress and Sustainment of Afghan National Security Forces,”     129. 	 DoD, response to SIGAR data call, 10/18/2012.
      7/24/2012, p. ii.                                                 130. 	 CSTC-A, response to SIGAR data call, 10/1/2012.
88. 	 IJC, response to SIGAR vetting, 10/15/2012.                       131. 	 CSTC-A, response to SIGAR data call, 10/1/2012.
89. 	 DoD, response to SIGAR vetting, 10/18/2012.                       132. 	 CSTC-A, response to SIGAR data call, 10/1/2012.




REPORT TO THE UNITED STATES CONGRESS         I   OCTOBER 30, 2012                    195
                                                             ENDNOTES




133. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                        183. 	 U.K. Foreign and Commonwealth Office, “Afghanistan
134. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                               Monthly Progress Report: July and August 2012,” September
135. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                               2012;SIGAR, “Quarterly Report to Congress,” 4/30/2012, p. 82.
136. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                        184. 	 UN Secretary-General, “The Situation in Afghanistan and Its
137. 	 DoD, response to SIGAR data call, 10/18/2012.                                 Implications for International Peace and Security,” 9/13/2012, p. 3.
138. 	 CSTC-A, responses to SIGAR data calls, 10/1/2012 and 7/2/2012.         185. 	 Afghanistan Mission to the UN, “Statement by H.E. Hamid
139. 	 CSTC-A, responses to SIGAR data calls, 10/1/2012 and 7/2/2012.                Karzai President of the Islamic Republic of Afghanistan,”
140. 	 DoD, response to SIGAR data call, 10/18/2012.                                 9/25/2012.
141. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                        186. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.
142. 	 DoD, response to SIGAR data call, 10/18/2012.                          187. 	 DoS/SCA, response to SIGAR data calls, 10/2/2012, 9/2/2012,
143. 	 CSTC-A, response to SIGAR data call, 7/2/2012.                                7/5/2012, 3/30/2012, 12/30/2011, 10/6/2011, and 7/1/2011.
144. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                        188. 	 DoS/SCA, response to SIGAR data call, 10/2/2012; ISAF, “Media
145. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                               Roundtable: Maj. Gen. Hook,” 9/12/2012.
146. 	 DoD, response to SIGAR data call, 10/18/2012.                          189. 	 DoS/SCA, response to SIGAR data call, 10/2/2012; DoS/SCA,
147. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                               response to SIGAR vetting, 10/12/2012.
148. 	 DoD, response to SIGAR data call, 10/18/2012.                          190. 	 DoD/OSD, response to SIGAR data call, 10/4/2012.
149. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                        191. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.
150. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                        192. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.
151. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                        193. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.
152. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                        194. 	 ISAF, “Media Roundtable with Major General David Hook,
153. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                               Director of the Force Reintegration Cell,” 9/12/2012.
154. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                        195. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.
155. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                        196. 	 DoS/SCA, response to SIGAR data call, 10/2/2012; DoD/OSD,
156. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                               response to SIGAR data call, 10/4/2012.
157. 	 CSTC-A, response to SIGAR data call, 10/1/2012.                        197. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.
158. 	 CENTCOM, response to SIGAR data call, 10/1/2012.                       198. 	 DoD/OSD, response to SIGAR data call, 10/4/2012.
159. 	 DoD, “Allen: Surge Bought Time for Afghan Forces to Grow,              199. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.
       Mature,” 9/24/2012.                                                    200. 	 UN Secretary-General, “The Situation in Afghanistan and Its
160. 	 DoS, PM/WRA, response to SIGAR data call, 9/28/2012.                          Implications for International Peace and Security,” 9/13/2012, p. 3.
161. 	 DoS, PM/WRA, response to SIGAR data call, 10/10/2012.                  201. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.
162. 	 DoS, PM/WRA, response to SIGAR data call, 9/28/2012.                   202. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.
163. 	 See Appendix B; DoS, response to SIGAR data call, 10/11/2012,          203. 	 DoD/OSD, response to SIGAR data call, 10/4/2012.
       DoD, response to SIGAR data call, 10/17/2012.                          204. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.
164. 	 DoS, INL, response to SIGAR data call, 10/4/2012.                      205. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.
165. 	 DoS, INL, response to SIGAR data call, 10/4/2012.                      206. 	 DoS/SCA, response to SIGAR data call, 10/5/2012.
166. 	 DoS, INL, response to SIGAR data call, 10/4/2012.                      207. 	 DoS/SCA, response to SIGAR data call, 10/5/2012.
167. 	 DoS, INL, response to SIGAR data call, 10/4/2012.                      208. 	 IEC, “Press Release on Completion of Electoral Law Draft,”
168. 	 DoS, INL, response to SIGAR data call, 10/4/2012.                             6/9/2012.
169. 	 CSTC-A, responses to SIGAR data calls, 10/1/2012 and 7/2/2012.         209. 	 DoS/SCA, response to SIGAR data call, 10/5/2012.
170. 	 DoS, INL, response to SIGAR data call, 10/4/2012.                      210. 	 U.K. Foreign and Commonwealth Office, “Afghanistan Monthly
171. 	 DoS, INL, response to SIGAR data call, 10/4/2012.                             Progress Report: July and August 2012,” September 2012.
172. 	 DoS, INL, response to SIGAR data call, 10/4/2012.                      211. 	 DoS/SCA, response to SIGAR data call, 10/5/2012.
173. 	 DoD, response to SIGAR data call, 10/4/2012.                           212. 	 USAID, response to SIGAR vetting, 10/12/2012.
174. 	 DoD, response to SIGAR data call, 10/4/2012.                           213. 	 USAID, response to SIGAR data call, 9/30/2012.
175. 	 DoD, responses to SIGAR data call, 10/4/2012 and 10/12/2012.           214. 	 DoS/SCA, response to SIGAR data call, 10/5/2012.
176. 	 DoD, response to SIGAR data call, 10/4/2012. 177. 	See                 215. 	 UN Secretary-General, “The Situation in Afghanistan and Its
       Appendix B.                                                                   Implications for International Peace and Security,” 9/13/2012, p. 8.
178. 	 DoS/SCA, response to SIGAR data call, 10/5/2012.                       216. 	 U.K. Foreign and Commonwealth Office, “Afghanistan Monthly
179. 	 Pajhwok Afghan News, “Karzai looking for loyal successor:                     Progress Report: July and August 2012,” September 2012.
       analysts,” 9/20/2012; CFC, “Afghanistan Review,” 9/25/2012.            217. 	 USAID, response to SIGAR data call, 9/30/2012.
180. 	 UN Secretary-General, “The Situation in Afghanistan and Its            218. 	 USAID, response to SIGAR data call, 9/30/2012.
       Implications for International Peace and Security,” 9/13/2012, p. 3.   219. 	 USAID, response to SIGAR data call, 9/30/2012.
181. 	 DoD/OSD, response to SIGAR vetting, 10/17/2012.                        220. 	 USAID, response to SIGAR data call, 9/30/2012.
182. 	 Reuters, “Afghanistan Bans Papers Over Propaganda,”                    221. 	 USAID, response to SIGAR data call, 9/30/2012.
       9/22/2012; The New York Times, “Pakistani Papers Banned by             222. 	 USAID, response to SIGAR data call, 9/30/2012.
       Afghanistan in East,” 9/25/2012.                                       223. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.
                                                                              224. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.
                                                                              225. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.




                                                      196                     SPECIAL INSPECTOR GENERAL          I   AFGHANISTAN RECONSTRUCTION
                                                              ENDNOTES




226. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.                        262. 	 USAID, response to SIGAR data call, 9/30/2012.
227. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.                        263. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.
228. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.                        264. 	 USAID, response to SIGAR data call, 9/30/2012.
229. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.                        265. 	 USAID, response to SIGAR data call, 9/30/2012.
230. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.                        266. 	 Independent Joint Anti-Corruption Monitoring & Evaluation
231. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.                               Committee, “Second Six Month Report,” 7/25/2012
232. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.                        267. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.
233. 	 UN Secretary-General, “The Situation in Afghanistan and Its             268. 	 DoD, response to SIGAR data call, 10/1/2012.
       Implications for International Peace and Security,” 9/13/2012,          269. 	 DoD, response to SIGAR data call, 10/1/2012.
       p. 11; Kabul International Conference on Afghanistan, “Kabul            270. 	 DoD, response to SIGAR data call, 10/1/2012.
       Conference Communiqué,” 7/20/2010.                                      271. 	 DoD, response to SIGAR data call, 10/1/2012; ISAF, “Fight
234. 	 UN Secretary-General, “The Situation in Afghanistan and Its                    Against Corruption Remains Strong,” 9/6/2012.
       Implications for International Peace and Security,” 9/13/2012,          272. 	 DoD, response to SIGAR data call, 10/1/2012.
       p. 11; Kabul International Conference on Afghanistan, “Kabul            273. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.
       Conference Communiqué,” 7/20/2010.                                      274. 	 DoD, response to SIGAR data call, 10/1/2012.
235. 	 Voice of America, “U.S. transfers Bagram Prison to                      275. 	 DoD, response to SIGAR data call, 10/1/2012.
       Afghanistan,” 10/10/2012; DoS, response to SIGAR vetting,               276. 	 DoD, response to SIGAR data call, 10/1/2012.
       10/12/2012; DoD, response to SIGAR data call, 10/12/2012.               277. 	 DoD, response to SIGAR data call, 10/1/2012.
236. 	 Voice of America, “U.S. transfers Bagram Prison to                      278. 	 UN Secretary-General, “The Situation in Afghanistan and Its
       Afghanistan,” 10/10/2012; DoS, response to SIGAR vetting,                      Implications for International Peace and Security,” 9/13/2012,
       10/12/2012.                                                                    pp. 8-9.
237. 	 DoD, response to SIGAR data call, 10/12/2012.                           279. 	 CFC, “Afghanistan Review,” 9/25/2012.
238. 	 DoD, response to SIGAR data call, 10/12/2012.                           280. 	 UN Secretary-General, “The Situation in Afghanistan and Its
239. 	 DoD, response to SIGAR data call, 10/12/2012.                                  Implications for International Peace and Security,” 9/13/2012,
240. 	 Voice of America, “U.S. transfers Bagram Prison to                             pp. 8-9.
       Afghanistan,” 10/10/2012; DoS, response to SIGAR vetting,               281. 	 Human Rights Watch, “Afghanistan: Free Women Jailed for
       10/12/2012.                                                                    ‘Running Away’”, 9/18/2012.
241. 	 DoS/INL, response to SIGAR data call, 10/4/2012.; SIGAR,                282. 	 Human Rights Watch, “Afghanistan: Free Women Jailed for
       “Quarterly Report to Congress,” 4/30/2012.                                     ‘Running Away’”, 9/18/2012.
242. 	 DoS/SCA, response to SIGAR data call, 10/2/2012; Kabul                  283. 	 Human Rights Watch, “Afghanistan: Free Women Jailed for
       International Conference on Afghanistan, “Kabul Conference                     ‘Running Away’”, 9/18/2012.
       Communiqué,” 7/20/2010.                                                 284. 	 DoS/SCA, response to SIGAR data call, 10/5/2012.
243. 	 UN Secretary-General, “The Situation in Afghanistan and Its             285. 	 DoS/SCA, response to SIGAR data call, 10/5/2012.
       Implications for International Peace and Security,” 9/13/2012, p. 11.   286. 	 DoS/SCA, response to SIGAR data call, 10/5/2012.
244. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.                        287. 	 UNAMA, “Afghanistan, Pakistan and UNHCR discuss voluntary
245. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.                               repatriation of Afghan refugees from Pakistan,” 9/20/2012; DoS/
246. 	 DoS/INL, response to SIGAR data call, 10/4/2012.                               PRM, response to SIGAR data call, 10/12/2012.
247. 	 DoS/INL, response to SIGAR data call, 10/4/2012.                        288. 	 DoS/PRM, response to SIGAR data call, 10/1/2012; UNHCR,
248. 	 DoS/INL, responses to SIGAR data call, 10/4/2012 and                           “UNHCR Chief Welcomes Iran Commitment to Maintain Asylum
       10/17/2012.                                                                    Space for Afghan Refugees,” 9/18/2012.
249. 	 DoS/INL, response to SIGAR data call, 10/4/2012.                        289. 	 DoS/PRM, response to SIGAR data call, 10/1/2012.
250. 	 DoS/INL, response to SIGAR data call, 10/4/2012.                        290. 	 DoS/PRM, response to SIGAR data call, 10/1/2012.
251. 	 DoS/INL, response to SIGAR data call, 10/4/2012.                        291. 	 Human Rights Watch, “Afghanistan: Break Deadlock on Rights
252. 	 Independent Joint Anti-Corruption Monitoring & Evaluation                      Appointments,” 9/5/2012; DoS/SCA, response to SIGAR data
       Committee, “Second Six Month Report,” 7/25/2012.                               call, 10/5/2012.
253. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.                        292. 	 DoS/SCA, response to SIGAR data call, 10/5/2012.
254. 	 UN Secretary-General, “The Situation in Afghanistan and Its             293. 	 Human Rights Watch, “Afghanistan: Break Deadlock on Rights
       Implications for International Peace and Security,” 9/13/2012, p. 10.          Appointments,” 9/5/2012.
255. 	 Independent Joint Anti-Corruption Monitoring & Evaluation               294. 	 DoS/SCA, response to SIGAR data call, 10/5/2012. 295. 	CIA,
       Committee, “Second Six Month Report,” 7/25/2012; USAID,                        “World Factbook,”10/5/2012, accessed 10/13/2012; CIA, “World
       response to SIGAR vetting, 10/12/2012.                                         Factbook,”6/20/2012, accessed 10/13/2012.
256. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.                        296. 	 ADB, “Asian Development Outlook 2012 Update,” 10/2012,
257. 	 UN Secretary-General, “The Situation in Afghanistan and Its                    accessed 10/13/2012.
       Implications for International Peace and Security,” 9/13/2012, p. 10.   297. 	 ACD, “Customs Mirror Monthly Newsletter,” 8/2012, accessed
258. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.                               10/13/2012.
259. 	 DoD, response to SIGAR data call, 10/1/2012.                            298. 	 USAID, response to SIGAR data call, 9/30/2012.
260. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.                        299. 	 USAID, response to SIGAR data call, 9/30/2012.
261. 	 DoS/SCA, response to SIGAR data call, 10/2/2012.




REPORT TO THE UNITED STATES CONGRESS              I   OCTOBER 30, 2012                      197
                                                        ENDNOTES




300. 	 USAID, response to SIGAR data call, 9/30/2012; SIGAR,             326. 	 Combating Terrorism Center at West Point, “Haqqani Network
       “Quarterly Report to Congress, 7/2012, p. 115.                           Financing: The Evolution of an Industry,” 7/2012, accessed
301. 	 World Bank, “ARTF Financing Strategy SY1391-1393,” 4/18/2012,            10/10/2012.
       accessed 9/16/2012.                                               327. 	 DoS, Press Statement “Report to Congress on the Haqqani
302. 	 SIGAR, “Quarterly Report to Congress,” 7/2012, p. 7; Tokyo               Network,” 9/7/2012, accessed 10/13/2012.
       Mutual Accountability Framework, 7/8/2012, accessed               328. 	 Combating Terrorism Center at West Point, “Haqqani Network
       9/16/2012.                                                               Financing: The Evolution of an Industry,” 7/2012, accessed
303. 	 Tokyo Mutual Accountability Framework, 7/8/2012, accessed                10/10/2012.
       9/16/2012.                                                        329. 	 Combating Terrorism Center at West Point, “Haqqani Network
304. 	 USAID, response to SIGAR data call, 9/30/2012.                           Financing: The Evolution of an Industry,” 7/2012, accessed
305. 	 USIP, “Mutual Accountability: Lessons and Prospects for                  10/10/2012.
       Afghanistan Post-Tokyo,” 7/27/2012, accessed 9/16/2012.           330. 	 DoD, response to SIGAR data call, 10/9/2012; DoD, “Report on
306. 	 USIP, “Mutual Accountability: Lessons and Prospects for                  Progress Toward Security and Stability in Afghanistan,” 4/2012,
       Afghanistan Post-Tokyo,” 7/27/2012, accessed 9/16/2012;                  accessed 10/16/2012.
       Tokyo Mutual Accountability Framework, 7/8/2012, accessed         331. 	 Congressional Research Service, “Iran Sanctions,” 9/13/2012,
       9/16/2012.                                                               accessed 10/4/2012.
307. 	 UN Secretary-General, “The Situation in Afghanistan and its       332. 	 Treasury, response to SIGAR vetting, 10/16/2012.
       Implications for International Peace and Security,” 9/13/2012,    333. 	 House Committee on Foreign Affairs, “Letter to Secretary
       accessed 9/16/2012.                                                      Panetta and Secretary Geithner,” signed by U.S. Rep. Ileana
308. 	 The Kabul Process, www.thekabulprocess.gov.af/, accessed                 Ros-Lehtinen (R-FL), Chairman, 8/24/2012, accessed 9/16/2012;
       10/13/2012; DoS, response to SIGAR vetting, 10/12/2012.                  Treasury, response to SIGAR data call, 9/28/2012.
309. 	 UN Secretary-General, “The Situation in Afghanistan and its       334. 	 DoD, response to SIGAR data call, 10/9/2012.
       Implications for International Peace and Security,” 9/13/2012,    335. 	 Treasury, response to SIGAR vetting, 10/16/2012.
       accessed 9/16/2012; DoS, response to SIGAR vetting,               336. 	 Treasury, response to SIGAR data call, 9/28/2012.
       10/12/2012.                                                       337. 	 Treasury, response to SIGAR data call, 9/28/2012; CQ House
310. 	 The Kabul Process, www.thekabulprocess.gov.af/, accessed                 Action Report, “Supplement to the Legislative Week of July 30,
       10/13/2012.                                                              2012, 8/1/2012, accessed 10/4/2012.
311. 	 Tokyo Mutual Accountability Framework, 7/8/2012, accessed         338. 	 DoS, response to SIGAR data call, 10/1/2012; Treasury,
       9/16/2012.                                                               response to SIGAR vetting, 10/16/2012.
312. 	 SIGAR, “Quarterly Report to Congress,” 7/2012, p. 118.            339. 	 ATRA, “Afghanistan and U.S. Governments Held Seminar on
313. 	 IMF, “First Review Under the Extended Credit Facility                    Mobile Money in Afghanistan,” 9/4/2012, accessed 9/25/2012.
       Arrangement, Request for Waiver of Nonobservance of a             340. 	 MCIT “Afghanistan Mobile Money Senior Executive Seminar,”
       Performance Criterion, Modification of Performance Criteria,             8/27/2012, accessed 9/25/2012.
       and Rephasing of Disbursements,” 6/19/2012, accessed              341. 	 MCIT “Afghanistan Mobile Money Senior Executive Seminar,”
       10/3/2012.                                                               8/27/2012, accessed 9/25/2012.
314. 	 Khaama, “Kabul Bank Crisis Remains Unresolved After 2 Years       342. 	 USAID, “USAID Helps Launch Mobile Phone Electricity
       Collapse,” 9/29/2012, accessed 10/12/2012; Wasdam, “Kabul                Bill Payment,” 7/16/2012, accessed 10/10/2012; DABS, “Da
       Bank Unable to Recover the Debts,” 9/30/2012, accessed                   Afghanistan Breshna Sherkhat and Etisalat Afghanistan Launch
       10/12/2012.                                                              Mobile Phone Electricity Bill Delivery and Payment,” 7/16/2012,
315. 	 Treasury, response to SIGAR data call, 9/28/2012.                        accessed 10/10/2012.
316. 	 DoS, response to SIGAR data call, 10/1/2012.                      343. 	 USDA, “Agriculture in Afghanistan Overview,” accessed
317. 	 Treasury, response to SIGAR vetting, 10/11/2012; IMF, response           9/16/2012.
       to SIGAR vetting 10/10/2012.                                      344. 	 NSC, “Report in Response to Section 1535(c) of the Ike Skelton
318. 	 DoS, response to SIGAR data call, 10/1/2012; IMF, Country                National Defense Authorization Act for Fiscal Year 2011 (P.L.
       Report No. 11-330, 11/2011, accessed 10/7/2012.                          111-383),” accessed 9/18/2012.
319. 	 DoS, response to SIGAR data call, 10/1/2012.                      345. 	 SIGAR, “Quarterly Report to Congress,” 4/2012, pp. 113-114.
320. 	 DoS, response to SIGAR data call, 10/1/2012; IMF, “First Review   346. 	 UN Secretary-General, “The Situation in Afghanistan and its
       Under the Extended Credit Facility Arrangement, Request                  Implications for International Peace and Security,” 9/13/2012,
       for Waiver of Nonobservance of a Performance Criterion,                  accessed 9/16/2012; FEWS NET, “Afghanistan Food Security
       Modification of Performance Criteria, and Rephasing of                   Outlook July to December 2012,” accessed 10/16/2012.
       Disbursements,” 6/19/2012, accessed 10/3/2012.                    347. 	 UN Secretary-General, “The Situation in Afghanistan and its
321. 	 DoS, response to SIGAR data call, 10/1/2012.                             Implications for International Peace and Security,” 9/13/2012,
322. 	 SIGAR, “Quarterly Report to Congress,” 7/2012, p. 119.                   accessed 9/16/2012.
323. 	 SIGAR, “Quarterly Report to Congress,” 7/2012, p. 119.            348. 	 FEWS NET, “Afghanistan Food Security Outlook Update,”
324. 	 UNAMA, “Articles,” 9/25/2012, accessed 10/10/2012.                       8/2012, accessed 9/19/2012.
325. 	 DoS, Press Statement “Report to Congress on the Haqqani           349. 	 FEWS NET, “Afghanistan Food Security Outlook Update,”
       Network,” 9/7/2012, accessed 10/13/2012.                                 8/2012, accessed 9/19/2012.




                                                  198                    SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                         ENDNOTES




350. 	 FEWS NET, “Afghanistan Food Security Outlook Update,”              388. 	 DoS, response to SIGAR data call, 10/1/2012.
       8/2012, accessed 9/19/2012.                                        389. 	 SIGAR, “Quarterly Report to Congress, 4/2012, p. 127.
351. 	 WFP, “Initial Market price Bulletin for the Month of September     390. 	 DoS, response to SIGAR data call, 10/1/2012.
       2012,” 9/2011, accessed 7/19/2012.                                 391. 	 DoS, response to SIGAR data call, 10/1/2012.
352. 	 WFP, “Initial Market price Bulletin for the Month of September     392. 	 MoM, “Ministry of Mines Begins Consultative Process in Support
       2012,” 9/2011, accessed 7/19/2012.                                        of Improved Minerals Law,” 5/5/2012, accessed 10/7/2012.
353. 	 USAID, response to SIGAR data call, 9/30/2012.                     393. 	 DoS, response to SIGAR data call, 10/1/2012.
354. 	 USAID, response to SIGAR data call, 9/30/2012.                     394. 	 DoS, response to SIGAR data call, 10/1/2012.
355. 	 USAID, response to SIGAR data call, 9/30/2012.                     395. 	 DoS, response to SIGAR data call, 10/1/2012.
356. 	 USAID, “Incentives Driving Economic Alternatives North, East       396. 	 TFBSO, response to SIGAR data call, 10/3/2012.
       and West,” accessed 9/16/2012.                                     397. 	 SIGAR, “Quarterly Report to Congress, 4/2012, p. 138
357. 	 USAID, “Incentives Driving Economic Alternatives North, East       398. 	 DoS, response to SIGAR data call, 10/1/2012.
       and West,” accessed 9/16/2012.                                     399. 	 MoF, “Government of Afghanistan Signs $125 Million Grant With
358. 	 USAID, response to SIGAR data call, 9/30/2012.                            the World Bank to Increase Equitable Access to Quality Basic
359. 	 USAID, response to SIGAR data call, 9/30/2012; USAID, Fact Sheet          Education,” 9/10/2012, accessed 10/16/2012.
       “Commercial Horticulture and Agriculture Marketing Program.”       400. 	 MoE, “Remaining 4m Textbooks Reach Kabul,” 9/18/2012.
360. 	 USAID, “Cool Rooms Heat Up Prices for Farmers,” 8/1/2012,          401. 	 USAID, “Request for Proposals No. 306-11-0037,” 5/16/2012,
       accessed 9/19/2012.                                                       accessed 10/5/2012.
361. 	 USAID, response to SIGAR data call, 9/30/2012.                     402. 	 SIGAR, “Quarterly Report to Congress, 1/2011, p. 126.
362. 	 USAID, response to SIGAR data call, 9/30/2012.                     403. 	 USAID, “Request for Proposals No. 306-11-0037,” 5/16/2012,
363. 	 USAID, response to SIGAR data call, 9/30/2012; SIGAR,                     accessed 10/5/2012; USAID, response to SIGAR data call,
       “Quarterly Report to Congress, 4/2012, p. 116.                            9/30/2012.
364. 	 DoS, response to SIGAR data call, 10/1/2012; DoS, response to      404. 	 USAID, response to SIGAR data call, 9/30/2012; USAID,
       SIGAR vetting, 10/12/2012; USAID, response to SIGAR vetting,              “Request for Proposals No. 306-11-0037,” 5/16/2012, accessed
       10/14/2012.                                                               10/5/2012.
365. 	 DoS, response to SIGAR data call, 10/1/2012; SIGAR, “Quarterly     405. 	 USAID, response to SIGAR data call, 9/30/2012; USAID,
       Report to Congress, 4/2012, p. 120.                                       “Request for Proposals No. 306-11-0037,” 5/16/2012, accessed
366. 	 SIGAR, “Quarterly Report to Congress, 7/2012, p. 125.                     10/5/2012; USAID, response to SIGAR vetting, 10/14/2012.
367. 	 DoS, response to SIGAR data call, 10/1/2012.                       406. 	 USAID, response to SIGAR vetting, 10/14/2012.
368. 	 TFBSO, response to SIGAR data call, 10/3/2012.                     407. 	 USAID, response to SIGAR vetting, 10/14/2012.
369. 	 TFBSO, response to SIGAR data call, 10/3/2012.                     408. 	 USAID, response to SIGAR vetting, 10/14/2012.
370. 	 TFBSO, response to SIGAR vetting, 10/10/2012.                      409. 	 SIGAR, “Quarterly Report to Congress, 7/2012, p. 127; USAID,
371. 	 Reuters, “Exxon Yet to Inspect Biggest Oil Project: Minister,”            response to SIGAR data call, 9/30/2012.
       9/30/2012, accessed 10/7/2012.                                     410. 	 USAID, response to SIGAR data call, 9/30/2012.
372. 	 TFBSO, response to SIGAR data call, 10/3/2012.                     411. 	 USAID, response to SIGAR data call, 9/30/2012.
373. 	 SIGAR, “Quarterly Report to Congress, 7/2012, p. 125.              412. 	 SIGAR, “Quarterly Report to Congress, 1/2012, pp. 125-126.
374. 	 DoS, response to SIGAR data call, 10/1/2012.                       413. 	 UN Secretary-General, “The Situation in Afghanistan and its
375. 	 DoS, response to SIGAR data call, 10/1/2012; SIGAR, “Quarterly            Implications for International Peace and Security,” 9/13/2012,
       Report to Congress, 7/2012, p. 126.                                       accessed 9/16/2012.
376. 	 DoS, response to SIGAR data call, 10/1/2012.                       414. 	 UNAMA, “Eight Million Children Vaccinated Against Polio in
377. 	 DoS, response to SIGAR data call, 10/1/2012; Treasury,                    Afghanistan,” 9/23/2012, accessed 10/10/2012; WHO, “Third
       response to SIGAR vetting, 10/16/2012.                                    Nationwide Polio Campaign Underway, 16-18 September,”
378. 	 DoS, response to SIGAR data call, 10/1/2012; Treasury,                    accessed 10/10/2012.
       response to SIGAR vetting, 10/16/2012.                             415. 	 WHO, “Fourth Round of Polio Vaccination Campaign, 14-16
379. 	 DoS, response to SIGAR data call, 10/1/2012; Treasury,                    October,” accessed 10/10/2012.
       response to SIGAR vetting, 10/16/2012.                             416. 	 SIGAR, “Quarterly Report to Congress, 7/2012, p. 127.
380. 	 DoS, response to SIGAR data call, 10/1/2012; Treasury,             417. 	 WB, “Afghanistan HIV/AIDS Prevention project (P101502),”
       response to SIGAR vetting, 10/16/2012.                                    accessed 8/16/2012.
381. 	 DoS, response to SIGAR data call, 10/1/2012.                       418. 	 WB, “Afghanistan HIV/AIDS Prevention project (P101502),”
382. 	 USAID, response to SIGAR data call, 9/30/2012; SIGAR,                     accessed 8/16/2012.
       “Quarterly Report to Congress, 7/2012, p. 133.                     419. 	 WB, “Afghanistan HIV/AIDS Prevention project (P101502),”
383. 	 TFBSO, response to SIGAR data call, 10/3/2012; SIGAR,                     accessed 8/16/2012.
       “Quarterly Report to Congress, 1/2012, p. 129.                     420. 	 SIGAR, “Quarterly Report to Congress,” 7/2012, pp. 113.
384. 	 TFBSO, response to SIGAR data call, 10/3/2012.                     421. 	 House Foreign Affairs Committee, Subcommittee on Europe
385. 	 SIGAR, “Quarterly Report to Congress, 4/2012, p. 109.                     and Eurasia, “U.S. Engagement in Central Asia,” 7/24/2012,
386. 	 Deutsche Well, “To Tap its Resources Afghanistan Must Provide             accessed 9/16/2012.
       Security,” 8/17/2012, accessed 10/7/2012.                          422. 	 SIGAR, “Quarterly Report to Congress,” 7/2012, pp. 113.
387. 	 DoS, response to SIGAR data call, 10/1/2012.




REPORT TO THE UNITED STATES CONGRESS          I   OCTOBER 30, 2012                     199
                                                        ENDNOTES




423. 	 CSIS, “Avoiding Creeping Defeat in Afghanistan: The Need         437. 	 DoT, response to SIGAR data call, 6/27/2012; SIGAR, “Quarterly
       for Realistic Assumptions, Strategies, and Plans,” 8/28/2012,           Report to Congress,” 7/2012, p. 130.
       accessed 9/16/2012.                                              438. 	 DoT, response to SIGAR data call, 9/25/2012.
424. 	 Economic Times, “Indian Miners’ Consortium Afghan Iron &         439. 	 DoT, response to SIGAR data call, 9/25/2012.
       Steel Company Close to Getting Mining Project in Afghanistan,”   440. 	 SIGAR, “Quarterly Report to Congress, 7/2012, p. 130.
       8/3/2012, accessed 10/11/2012; WSJ, “Doubt Cast on Afghan        441. 	 World Bank, “Afghanistan Economic Update,” 10/2011, accessed
       Mining,” 10/4/2012, accessed 10/11/2012.                                10/13/2012.
425. 	 CSIS, “Avoiding Creeping Defeat in Afghanistan: The Need         442. 	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,”
       for Realistic Assumptions, Strategies, and Plans,” 8/28/2012,           5/2012, accessed 10/13/2012.
       accessed 9/16/2012.                                              443. 	 UNAMA, “Afghanistan’s Urban Youth Embrace Social Media,”
426. 	 CSIS, “Avoiding Creeping Defeat in Afghanistan: The Need                8/9/2012, accessed 9/19/2012.
       for Realistic Assumptions, Strategies, and Plans,” 8/28/2012,    444. 	 MCIT, “MCIT Issues 3G License to Roshan Company,” 9/23/2012,
       accessed 9/16/2012.                                                     accessed 9/25/2012.
427. 	 World Bank, “Afghanistan in Transition: Looking Beyond 2014,     445. 	 Etisalat, “Etisalat 3G Becomes Operational in Kunduz,”
       Volume 1,” 5/2012, accessed 9/16/2012.                                  8/29/2012, accessed 9/25/2012; Etisalat, “Etisalat 3G Becomes
428. 	 MoFA, “Fourth Afghanistan-Iran Joint Meeting Held,” 9/5/2012,           Operational in Herat,” 8/6/2012, accessed 9/25/2012.
       accessed 9/16/2012.                                              446. 	 MCIT, “Digital Phone Service Inaugurates in Herat,” 9/18/2012,
429. 	 MoFA, “Final Communiqué XVI Non-Aligned Movement                        accessed 9/20/2012.
       Summit,” 9/3/2012, accessed 9/16/2012.                           447. 	 MCIT, “Minister of Communication & IT Participates At Sixth
430. 	 SIGAR, “Quarterly Report to Congress, 7/2012, p. 128-129.               International Turkmen TEL Conference,” 9/25/2012, accessed
431. 	 USAID, response to SIGAR vetting, 10/14/2012; WTO,                      9/25/2012.
       “Accessions Afghanistan,” accessed 10/15/2012.                   448. 	 MCIT, “National Conference Holds for Afghanistan’s Cyber
432. 	 USAID, response to SIGAR vetting, 10/14/2012.                           Security,” 9/2/2012, accessed 9/25/2012.
433. 	 USAID, response to SIGAR vetting, 10/14/2012.                    449. 	 GIRoA, “Private Sector Development Cluster, E-Afghanistan,
434. 	 SIGAR, “Quarterly Report to Congress, 1/2011, p. 94; SIGAR,             National Priority Program Proposal,” 5/2011, accessed
       “Quarterly Report to Congress,” 4/2012, p. 124.                         10/13/2012.
435. 	 SIGAR, “Quarterly Report to Congress, 7/2012, p. 130.            450. 	 DoS, response to SIGAR data call, 10/1/2012.
436. 	 DoT, response to SIGAR data call, 9/25/2012.                     451. 	 DoS, response to SIGAR data call, 10/1/2012.




                                                  200                   SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                               The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                               established the Special Inspector General for Afghanistan
                               Reconstruction (SIGAR).
                               SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                               independent and objective
                               •	 conduct and supervision of audits and investigations relating to the programs
                                  and operations funded with amounts appropriated or otherwise made available
                                  for the reconstruction of Afghanistan.
                               •	 leadership and coordination of, and recommendations on, policies designed
                                  to promote economy, efficiency, and effectiveness in the administration of the
                                  programs and operations, and to prevent and detect waste, fraud, and abuse
                                  in such programs and operations.
                               •	 means of keeping the Secretary of State and the Secretary of Defense fully
                                  and currently informed about problems and deficiencies relating to the
                                  administration of such programs and operation and the necessity for and
                                  progress on corrective action.
                               Afghanistan reconstruction includes any major contract, grant, agreement,
                               or other funding mechanism entered into by any department or agency of the
                               U.S. government that involves the use of amounts appropriated or otherwise made
                               available for the reconstruction of Afghanistan.

                               Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                               (For a list of the congressionally mandated contents of this report, see Section 3.)




                               Cover photo:
                               A U.S.soldier with the Nagarhar Agribusiness Development Team walks to his truck to prepare for a   An Afghan girl in the Nawa-I-Barakzayi District of Afghanistan’s Helmand River Valley watches U.S Marines
                               mission in support of Afghan agricultural productivity. (U.S. Army photo)                           conducting a route assessment. (U.S. Marine Corps photo)




FINAL_Cover_October12.indd 2                                                                                                                                                                                                                   10/16/2012 11:51:59 AM
                                                                                                                sigar
   SIGAR




                                    SIGAR | Quarterly Report to the United States Congress | OCTOBER 30, 2012
   Special Inspector General
   for Afghanistan Reconstruction
                                                                                                                                 Special Inspector General for    OCT 30
                                                                                                                                 Afghanistan Reconstruction        2012
   2530 Crystal Drive
   Arlington, VA 22202

   www.sigar.mil




                                                                                                                 Quarterly Report to the United States Congress




                                    4

FINAL_Cover_October12.indd 1                                                                                                                                         10/16/2012 11:51:57 AM
